                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                   Washington, D.C. 20250


November 14, 2006



REPLY TO
ATTN OF: 50401-59-FM

TO:          Charles R. Christopherson, Jr.
             Chief Financial Officer
             Office of the Chief Financial Officer

ATTN:        Kathy Donaldson
             Audit Liaison Officer
             Office of the Chief Financial Officer
             Planning and Accountability Division

FROM:        Phyllis K. Fong               /s/
             Inspector General

SUBJECT: U.S. Department of Agriculture’s Consolidated Financial Statements for
         Fiscal Years 2006 and 2005


This report presents the results of our audits of the U.S. Department of Agriculture’s
consolidated financial statements for the fiscal years ending September 30, 2006, and
2005. The report contains an unqualified opinion and the results of our assessment of the
Department’s internal control structure and compliance with laws and regulations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective actions taken or planned, including the timeframes, on
our recommendations. Please note that the regulation requires a management decision to
be reached on all findings and recommendations within a maximum of 6 months from
report issuance.

We appreciate the courtesies and cooperation extended to us during the audits.
Executive Summary
U.S. Department of Agriculture’s Consolidated Financial Statements for Fiscal Years
2006 and 2005 (Audit Report No. 50401-59-FM)

Purpose             Our audit objectives were to determine whether (1) the consolidated financial
                    statements present fairly, in all material respects, in accordance with
                    generally accepted accounting principles, the assets, liabilities, and net
                    position, net costs, changes in net position, budgetary resources, and
                    reconciliation of net costs to budgetary obligations; (2) the internal control
                    objectives were met; (3) the Department complied with laws and regulations
                    for those transactions and events that could have a material effect on the
                    consolidated financial statements; and (4) the information in the Performance
                    and Accountability Report was materially consistent with the information in
                    the consolidated financial statements.

                    We conducted our audits at the financial offices of various U.S. Department
                    of Agriculture (USDA) agencies and the Office of the Chief Financial Officer
                    (OCFO) located in Washington, D.C., and its National Finance Center
                    located in New Orleans, Louisiana. We also performed site visits to selected
                    agencies’ field offices.

Results in Brief    In our opinion, the consolidated financial statements referred to above present
                    fairly, in all material respects, the financial position of USDA as of
                    September 30, 2006 and 2005; and its net costs, changes in net position,
                    reconciliation of net costs to budgetary obligations, and budgetary resources
                    for the years then ended, in conformity with accounting principles generally
                    accepted in the United States of America.

                    We have also issued reports on our consideration of USDA’s internal control
                    over financial reporting and its compliance with certain provisions of laws
                    and regulations.

                    For internal control over financial reporting, we identified three reportable
                    conditions as follows:

                      x   Improvements needed in overall financial management across USDA,
                      x   improvements needed in information technology security and controls,
                          and
                      x   improvements needed in certain financial management practices and
                          processes.

                    We believe that the first two conditions are material weaknesses. Our report
                    on compliance with laws and regulations discusses three instances of
                    noncompliance relating to the Federal Financial Management Improvement

USDA/OIG-A/50401-59-FM                                                                       Page i
                   Act, the Improper Payment Information Act, and Managerial Cost
                   Accounting practices.

                   In addition, the Department reported two potential Anti-Deficiency Act
                   (ADA) violations in its fiscal year 2006 Statement of Assurance relating to
                   the Forest Service and the Commodity Credit Corporation. The Department
                   is working with the agencies and the Office of General Counsel to determine
                   whether the potential ADA violations actually occurred.

Key
Recommendations    OCFO has immediate and long term plans to address most of the weaknesses
                   in its financial management systems. The key recommendations in this
                   report were limited to additional improvements in financial management.




USDA/OIG-A/50401-59-FM                                                                 Page ii
Abbreviations Used in This Report


BPMS              Budget and Performance Management System
C&A               certification and accreditation
CCC               Commodity Credit Corporation
CFO               Chief Financial Officer
FACTS             Federal Agencies’ Centralized Trial Balance System
FFIS              Foundation Financial Information System
FFMI              Financial Management Modernization Initiative
FFMIA             Federal Financial Management Improvement Act
FFMSR             Federal Financial Management Systems Requirements
FISMA             Federal Information Security Management Act
FS                Forest Service
FSA               Farm Service Agency
GAO               U.S. Government Accountability Office
IT                information technology
ITS               Information Technology Services
MCA               Managerial Cost Accounting
NIST              National Institute of Standards and Technology
OCFO              Office of the Chief Financial Officer
OCIO              Office of the Chief Information Officer
OIG               Office of the Inspector General
OMB               Office of Management and Budget
RSSI              Required Supplemental Stewardship Information
SFFAS             Statement of Federal Financial Accounting Standard
SoF               Statement of Financing
SV                Standard Voucher
USDA              U.S. Department of Agriculture
UTN               Universal Telecommunications Network




USDA/OIG-A/50401-59-FM                                                 Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Report of the Office of Inspector General ............................................................................................ 1

Report of the Office of Inspector General on Internal Control Over Financial Reporting............. 3

Report of the Office of Inspector General on Compliance with Laws and Regulations .................. 5

Findings and Recommendations............................................................................................................ 7

    Section 1. Internal Control Over Financial Reporting – Material Weaknesses........................ 7

        Finding 1             Improvements Needed in Overall Financial Management...................................... 7
        Finding 2             Improvements Needed in Information Technology (IT) Security and
                              Controls ................................................................................................................. 10

    Section 2. Internal Control Over Financial Reporting – Reportable Condition..................... 14

        Finding 3             Additional Financial Management Issues Warrant Attention ............................... 14
                                 Recommendation 1 ........................................................................................ 16

    Section 3. Compliance With Laws and Regulations .................................................................. 17

     Finding 4     Substantial Noncompliance With FFMIA Requirements ..................................... 17
     Finding 5     Improper Payment Information Act ...................................................................... 18
     Finding 6     Managerial Cost Accounting Practices ................................................................. 19
Exhibit A – Audit Reports Related to the Fiscal Year 2006 Financial Statements......................... 20
Exhibit B – Summary of Prior Year Recommendations................................................................... 21
Exhibit C – Agency Response .............................................................................................................. 23
Exhibit D – Performance and Accountability Report ....................................................................... 24




USDA/OIG-A/50401-59-FM                                                                                                                          Page iv
                          UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL

                                          Washington, D.C. 20250




Report of the Office of Inspector General

To:    Charles R. Christopherson, Jr.
       Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the U.S. Department of Agriculture
(USDA) as of September 30, 2006 and 2005, and the related consolidated statements of net cost,
changes in net position, and financing, and the combined statements of budgetary resources for the
fiscal years then ended (hereinafter referred to as the “consolidated financial statements”). The
consolidated financial statements are the responsibility of USDA’s management. Our responsibility is
to express an opinion on the consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States
of America; the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 06-03, “Audit Requirements for Federal Financial Statements.” Those standards and
OMB Bulletin No. 06-03 require that we plan and perform the audits to obtain reasonable assurance
that the consolidated financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall consolidated financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of USDA as of September 30, 2006 and 2005; and its net costs, changes
in net position, reconciliation of net costs to budgetary obligations, and budgetary resources for the
years then ended, in conformity with accounting principles generally accepted in the United States of
America.

As discussed in Notes 1 and 18 to the consolidated financial statements, in fiscal year 2006 USDA
adopted Statement of Federal Financial Accounting Standard (SFFAS) No. 27, “Identifying and
Reporting Earmarked Funds.” In addition, as discussed in Note 1, USDA changed its method of
accounting for and reporting stewardship land in fiscal year 2006 to adopt the provisions of SFFAS
No. 29, “Heritage Assets and Stewardship Land.”

The information in the Performance and Accountability Report (see exhibit D) is not a required part of
the consolidated financial statements, but is supplemental information required by accounting
principles generally accepted in the United States of America or by OMB Circular No. A-136,
“Financial Reporting Requirements.” We attempted to apply certain limited procedures, which


USDA/OIG-A/50401-59-FM                                                                          Page 1
consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, for fiscal years 2006 and 2005, we were not provided this
information in time for us to complete our review. In addition, we believe that the Required
Supplementary Stewardship Information related to heritage and stewardship land and the Required
Supplementary Information related to deferred maintenance may not be consistent since preparation
and completeness controls have not been effectively designed to ensure the accuracy, completeness,
and timeliness of the reported information. We did not audit this information and, accordingly, we
express no opinion on it.

We have also issued reports on our consideration of USDA’s internal control over financial reporting
and its compliance with certain provisions of laws and regulations. These reports are an integral part
of an audit performed in accordance with Government Auditing Standards, and, in considering the
results of the audit, should be read in conjunction with this report. For internal control over financial
reporting, we identified three reportable conditions as follows:

      x   Improvements needed in overall financial management across USDA,
      x   improvements needed in information technology security and controls, and
      x   improvements needed in certain financial management practices and processes.

We believe that the first two conditions are material weaknesses. Our report on compliance with laws
and regulations discusses three instances of noncompliance relating to the Federal Financial
Management Improvement Act, the Improper Payment Information Act, and Managerial Cost
Accounting practices.

In addition, the Department reported two potential Anti-Deficiency Act (ADA) violations in its fiscal
year 2006 Statement of Assurance relating to the Forest Service and the Commodity Credit
Corporation. The Department is working with these agencies and the Office of General Counsel to
determine whether the potential ADA violations actually occurred.

This report is intended solely for the information of the management of USDA, OMB, and Congress,
and is not intended to be and should not be used by anyone other than these specified parties.


/s/

Phyllis K. Fong
Inspector General


November 13, 2006




USDA/OIG-A/50401-59-FM                                                                          Page 2
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General on
Internal Control Over Financial Reporting

To:    Charles R. Christopherson, Jr.
       Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the U.S. Department of
Agriculture (USDA) as of September 30, 2006 and 2005, and the related consolidated statements
of net cost, changes in net position, and financing, and the combined statements of budgetary
resources (hereinafter referred to as the “consolidated financial statements”), for the fiscal years
then ended and have issued our report thereon dated November 13, 2006. We conducted our
audits in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards issued by
the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 06-03, “Audit Requirements for Federal Financial Statements.”

In planning and performing our audits, we considered USDA’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk, and
performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin No. 06-03
and Government Auditing Standards. We did not test all internal controls as defined by the
Federal Managers’ Financial Integrity Act of 1982. The objective of our audits was not to provide
assurance on USDA’s internal control. Consequently, we do not provide an opinion on internal
control over financial reporting.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions.
Reportable conditions are matters coming to our attention relating to significant deficiencies in the
design or operation of internal control that, in our judgment, could adversely affect the agency’s
ability to meet the objectives of internal control. Material weaknesses are reportable conditions in
which the design or operation of one or more internal control components does not reduce to a
relatively low level the risk that errors, fraud, or noncompliance in amounts that would be material
in relation to the consolidated financial statements or Required Supplementary Stewardship
Information being audited, or material to a performance measure or aggregration of related
performance measures, may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. Because of inherent limitations in any
internal control, misstatements due to error or fraud may occur and not be detected.


USDA/OIG-A/50401-59-FM                                                                        Page 3
We noted certain matters described in the “Findings and Recommendations” involving the internal
control over financial reporting and its operation that we consider to be reportable conditions as
follows:

      x   Improvements needed in overall financial management across USDA (Section 1),
      x   improvements needed in information technology security and controls (Section 1), and
      x   improvement needed in certain financial management processes and practices (Section 2).

We believe that the first two conditions are material weaknesses.

Additional Other Procedures

As required by OMB Bulletin No. 06-03, we considered USDA’s internal controls over Required
Supplemental Stewardship Information (RSSI) by obtaining an understanding of the internal
controls, determining whether these internal controls had been placed in operation, assessing
control risk, and performing tests of controls. Our procedures were not designed to provide
assurance on internal controls over such RSSI; accordingly, we do not provide an opinion on such
controls.

As further required by OMB Bulletin No. 06-03, with respect to internal control related to
performance measures determined by management to be key and reported in the Management’s
Discussion and Analysis section of the Performance and Accountability Report, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions and determined whether they had been placed in operation. Our
procedures were not designed to provide assurance on internal control over reported performance
measures; accordingly, we do not provide an opinion on such controls.

We did not identify any material weaknesses that were not disclosed in USDA’s Federal
Managers’ Financial Integrity Act report.

This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 13, 2006




USDA/OIG-A/50401-59-FM                                                                      Page 4
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General on
Compliance with Laws and Regulations

To:    Charles R. Christopherson, Jr.
       Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the consolidated balance sheets of the U.S. Department of Agriculture (USDA) as
of September 30, 2006 and 2005, and the related consolidated statements of net cost, changes in
net position, and financing, and the combined statements of budgetary resources for the fiscal
years then ended (hereinafter referred to as the “consolidated financial statements”), and have
issued our report thereon dated November 13, 2006. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards issued by the Comptroller General of
the United States; and Office of Management and Budget (OMB) Bulletin No. 06-03, “Audit
Requirements for Federal Financial Statements.”

The management of USDA is responsible for complying with laws and regulations applicable to it.
As part of obtaining reasonable assurance about whether the consolidated financial statements are
free of material misstatement, we performed tests of USDA’s compliance with certain provisions
of laws and regulations and Governmentwide policy requirements, noncompliance with which
could have a direct and material effect on the determination of the consolidated financial statement
amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 06-
03, including certain requirements referred to in the Federal Financial Management Improvement
Act of 1996 (FFMIA). We noted no reportable instances of noncompliance with these laws and
regulations except as disclosed in this report. We limited our tests of compliance to the provisions
described in the preceding sentence and did not test compliance with all laws and regulations
applicable to USDA. However, providing an opinion on compliance with laws and regulations
was not an objective of our audits, and accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed two instances of reportable noncompliance or
potential noncompliance with laws and regulations discussed in the second paragraph of this
report, exclusive of FFMIA, that are required to be reported under Government Auditing Standards
and OMB Bulletin No. 06-03. (See Findings and Recommendations, Section 3, “Compliance With
Laws and Regulations.”)

In addition, the Department reported two potential Anti-Deficiency Act (ADA) violations in its fiscal
year 2006 Statement of Assurance relating to the Forest Service and the Commodity Credit
Corporation. The Department is working with these agencies and the Office of General Counsel to
determine whether the potential ADA violations actually occurred.


USDA/OIG-A/50401-59FM                                                                         Page 5
This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 13, 2006




USDA/OIG-A/50401-59-FM                                                                  Page 6
Findings and Recommendations
Section 1.   Internal Control Over Financial Reporting – Material Weaknesses

                     Material weaknesses are reportable conditions in which the design or
                     operation of the internal control does not reduce to a relatively low level the
                     risk that errors, fraud, or noncompliance in amounts that would be material in
                     relation to the consolidated financial statements or Required Supplementary
                     Stewardship Information being audited, or material to a performance measure
                     or aggregration of related performance measures, may occur and not be
                     detected within a timely period by employees in the normal course of
                     performing their assigned functions. Because of inherent limitations in any
                     internal control, misstatements due to error or fraud may occur and not be
                     detected. We believe that the findings discussed in this section are material
                     internal control weaknesses.


Finding 1            Improvements Needed in Overall Financial Management

                     During fiscal year 2006, the Department continued to make significant
                     improvements in its overall financial management. For example, the Forest
                     Service (FS) made significant improvements in its financial reporting
                     process. However, we noted areas where further improvements are needed.
                     Details follow.

                        x   During fiscal year 2005, the Office of the Chief Financial Officer
                            (OCFO) instructed its agencies, including FS, that journal vouchers
                            (JV) could no longer be processed. Instead, agencies had to request
                            that new accounting entry IDs be established based on specific
                            standard Treasury posting logic models. The OCFO generally
                            established these as standard vouchers (SVs), which are generally used
                            to correct errors, abnormal balances, and out-of-balance conditions.

                            Through the elimination of JVs and the consolidation effort, FS
                            continued to make progress in improving its financial management and
                            reporting activities. However, weaknesses continued to exist in its
                            ability to produce accurate and timely financial information. For
                            example, FS was not identifying, researching, and correcting adjusting
                            entries that no longer belong in the general ledger.

                        x   In addition, at the end of fiscal year 2006, FS continued to use mass
                            general ledger entries for delivered orders and undelivered orders that
                            were not recorded into the various sub-systems due to the early year-


USDA/OIG-A/50401-59-FM                                                                       Page 7
                         end cutoff. Although FS had internal controls in place, they were not
                         operating effectively based on the errors cited above.

                     x   FS did not perform timely research to determine the reasons for
                         abnormal general ledger account balances for certain account
                         relationships (i.e., budgetary receivables and payables should equal the
                         respective proprietary receivables and payables) and make
                         corresponding corrections.

                     x   FS needed to improve its financial management controls to ensure that
                         an experienced accountant reviews and takes appropriate actions on
                         abnormal balances in all budget clearing, suspense and deposit funds at
                         least at the end of each accounting period. The financial statement risk
                         is that revenues and expenses are recorded in these funds as receivables
                         or liabilities on the Balance Sheet when they should correctly be
                         recorded as revenues and expenses on the Statement of Net Costs.

                     x   FS needed to improve its financial management controls to ensure the
                         effective implementation of SFFAS 21, “Reporting Corrections of
                         Errors and Changes in Accounting Principles.” It needed to establish
                         an accounting correction management process that documents and
                         collects known errors to determine whether, as a whole, they are
                         material at accounting period end.

                   We also noted that CCC’s financial accounting and reporting policies and
                   procedures should be strengthened to ensure that errors are prevented or
                   identified and timely corrected and that management-prepared financial
                   statements are in accordance with generally accepted accounting principles.
                   The issues we identified pertaining to CCC’s financial accounting and
                   reporting policies and procedures affected both the form and content of
                   CCC’s financial statements.

                     x   For example, detailed procedures over the June 30, 2006 Statement of
                         Financing (SoF) revealed that the mapping used by CCC for several
                         SoF reconciling line items was not in accordance with Treasury and
                         other related guidance, specifically the Implementation Guide to
                         Statement of Financing in the SFFAS 7, “Accounting for Revenue and
                         Other Financing Sources: Detail Information on the Statement of
                         Financing (Implementation Guide).” These departures from the
                         guidance were not adequately explained.

                     x   We did not see evidence that management performed a technical
                         review of the statement compilation or evaluated the substance of the
                         reconciling items prior to providing the SoF for audit. When CCC
                         management determined the way the general ledger accounts were to
                         be crosswalked to the SoF line items, it did not develop an audit trail
USDA/OIG-A/50401-59-FM                                                                  Page 8
                         that described the rationale behind the mapping logic. In addition,
                         CCC’s SoF Methodology Guide (the Guide) did not readily consider
                         the technical justification for specific statement line item treatment of
                         transactions.    Further, we noted that CCC’s Guide was not
                         comprehensive because it did not list all accounts or transaction
                         identification codes that were used by CCC in the compilation of the
                         SoF. As a result, in some instances we noted inconsistencies between
                         the Guide and the crosswalk.

                     x   Based on the results of KPMG’s audit procedures over the SoF, CCC
                         reclassified balances in excess of $11.3 billion to properly reflect the
                         account activity in the SoF prepared as of September 30, 2006. In
                         addition, material corrections were made to the statement as late as
                         November 10, 2006. This could have impeded CCC and the
                         Department from meeting their mandated financial statement reporting
                         requirements.

                     x   In addition, as noted in its prior year’s audit report, CCC used the e-
                         Funds Control system, an intranet based application functional at the
                         national, State, and county office levels, to help monitor daily program
                         disbursements made at CCC’s State and county offices. The system
                         compared at a summary level the amount of budgetary authority
                         remaining for programs to disbursements made without consideration
                         given to program obligations (specifically undelivered orders and
                         delivered orders-unpaid). As such, the e-Funds system did not provide
                         the necessary management information to determine the true status of
                         net available program resources as disbursements were made.

                     x   Based on our fiscal year 2006 audit results, CCC continued to
                         experience significant funds control deficiencies and in this regard
                         remained non-compliant with FFMIA.

                   We also noted that within USDA, abnormal balances existed at yearend
                   without being fully researched and corrected. As of fiscal yearend, we noted
                   that over 50 abnormal account balances existed, totaling over $360 million.
                   According to the Department, the existence of an abnormal balance indicates
                   that transactions or adjustments may have been posted in error to an account.
                   Agencies reported that their abnormal balances were caused by a variety of
                   reasons. The number and dollar value of abnormal account balances had
                   been significantly reduced from last year; however, when abnormal balances
                   exist, immediate research should be performed to identify the cause and
                   correct the condition.




USDA/OIG-A/50401-59-FM                                                                     Page 9
Finding 2                        Improvements Needed in Information Technology (IT) Security
                                 and Controls

                                 We reviewed the Department’s IT security program and practices, as required
                                 by the Federal Information System Management Act 1 (FISMA). Our review
                                 disclosed that the efforts of USDA’s Office of the Chief Information Officer
                                 (OCIO) and the Office of Inspector General (OIG) in the past few years have
                                 heightened program management’s need to plan and implement effective IT
                                 security. The National Information Technology Center, located in Kansas
                                 City, Missouri, sustained its unqualified opinion on its general control
                                 structure. The Office of the Chief Financial Officer’s National Finance
                                 Center, located in New Orleans, Louisiana, received its first unqualified
                                 opinion on the design of its general control structure. While the opinion on
                                 the effectiveness of its controls remained qualified, this was primarily
                                 attributed to the devastation caused by Hurricane Katrina. Although other
                                 agencies accelerated their efforts to comply with Federal information security
                                 requirements during the fiscal year, we continued to find significant
                                 weaknesses that can be attributed to a lack of management oversight and
                                 monitoring by both the Department and its agencies. While progress has
                                 been made, there is still much to be accomplished. An effective IT security
                                 program needs time to mature. Due to the significance of these weaknesses,
                                 the Department cannot be assured that its systems and data are adequately
                                 secured.

                                 OCIO indicated that it was formulating a process for initiating, reviewing,
                                 and updating the Department’s policies to provide guidance for improving
                                 compliance with Office of Management and Budget (OMB) requirements,
                                 National Institute of Standards and Technology (NIST) guidance, and
                                 Departmental Regulations (DR). OCIO reported that it was performing a gap
                                 analysis to prioritize required policy work and developing a program to
                                 review and update existing policies. In addition, OCIO had implemented a
                                 security review program to evaluate the accuracy of information provided by
                                 the agencies to improve the effectiveness of their security programs.
                                 However, until these controls are in place, operating, and effectively
                                 established, IT management and security remain a material internal control
                                 weakness for the Department. Details follow.

                                  x   During fiscal year 2006, OCIO implemented an annual Departmentwide
                                      IT system inventory requirement. However, we were unable to reach a
                                      conclusion on the accuracy/completeness of the inventory because OCIO
                                      relied on the agencies to report system inventory without validating the
                                      information reported. OCIO was unable to verify the accuracy and/or
                                      reliability of those agency-provided inventories.
1
    Audit Report No. 50501-7-FM, “Fiscal Year 2006 Federal Information Security Management Act,” dated September 29, 2006.
USDA/OIG-A/50401-59-FM                                                                                                  Page 10
                                   x   Agencies had not followed NIST guidance when preparing security
                                       plans, risk assessments, and disaster recovery plans. During fiscal year
                                       2006, the Department acknowledged that certification and accreditation
                                       (C&A) documentation submitted prior to October 1, 2005, was
                                       inadequate and instituted a concurrency review process where second
                                       party approval was required prior to recommending agency
                                       accreditation. We found this process needed enhancements. We
                                       concluded that the three concurrency reviews we examined should not
                                       have resulted in approval for agency accreditation.

                                  x    The Department reported the level of C&A compliance in its quarterly
                                       reports to OMB. However, we noted that eight systems had only
                                       obtained a conditional approval to operate. OMB policy states that an
                                       information system should not be accredited during a period of limited
                                       authorization to operate. 2

                                  x    Department oversight over contingency planning and testing information
                                       needed improvement. We reviewed the Department’s system for storing
                                       contingency and disaster recovery plans and found some systems were
                                       not included and others were missing critical information. We examined
                                       a sample of five test plans and found that they lacked specific success
                                       criteria, detailed schedules, scenarios, and notification procedures, and/or
                                       internal or external connectivity.

                                  x    The Department implemented a new system to track plan of actions and
                                       milestones (POA&M) during fiscal year 2006. While this was a marked
                                       improvement over the legacy reporting system, numerous problems were
                                       encountered during implementation. Specifically, we found that known
                                       IT weaknesses were not reported, not all weaknesses were tracked,
                                       conflicting information was reported, and agencies did not ensure that
                                       corrective actions were taken before closing out the weaknesses. In
                                       addition, the information contained in the system was not being used to
                                       report to OMB.

                                  x    We noted that improvements were needed in the Department’s reporting
                                       of system risk categories. For example, we found that two general
                                       support systems were rated as moderate risk even though those systems
                                       processed data from 18 high risk applications. In another example, a
                                       system that stored information on biological agents and toxins was rated
                                       as moderate risk.

                                  x    Annual risk assessments within the Department did not always include an
                                       assessment of actual controls within the systems. One agency reported
2
    OMB Circular No. A-130, Appendix III, “Security of Federal Automated Information Resources,” dated November 28, 2000.
USDA/OIG-A/50401-59-FM                                                                                                      Page 11
                                     that change management was fully implemented, yet our audit disclosed
                                     that its policies and procedures were ineffective. In another assessment
                                     the agency listed 93 controls as not applicable, because the hosting
                                     agency was responsible for them. Our audit disclosed that some of the
                                     controls did belong to the agency and should have been assessed.

                                x    The Department implemented a security review program to periodically
                                     evaluate the accuracy of information provided by the agencies and
                                     provide effective oversight of agency security programs. However, we
                                     found that this program needed improvements. We noted that in the 8
                                     reviews performed during fiscal year 2006, there were 123 weaknesses
                                     identified by OCIO. Of those, only 52 were addressed in the agency
                                     POA&Ms. This occurred because the Department did not always follow
                                     up on the findings to ensure the agencies were accurately mitigating
                                     weaknesses.

                                x    We found that USDA’s Information Security Status (scorecard) did not
                                     always contain accurate information. We found that agencies were not
                                     properly reporting the status of their programs in the monthly or quarterly
                                     updates to OMB. We found inaccurate reporting by the agencies in every
                                     category except security awareness training.

                                x    We completed four stand-alone IT security audits that fed into our
                                     FISMA consolidation. We also ensured that the IT security audit
                                     coverage for our fiscal year 2006 financial statement audits was
                                     completed in time to be consolidated into our FISMA report. We noted
                                     that configuration management within the Department was not always
                                     effective. Although most agencies had policies and procedures, we found
                                     that they were not always followed. We found that controls were not
                                     always implemented to help ensure that system software changes were
                                     properly authorized, documented, tested, and monitored.

                                x    We noted that the Department’s vulnerability scanning and patch
                                     management program needed improved oversight. We found that the
                                     number of devices that needed scanning varied significantly on a monthly
                                     basis. In addition, at one agency, we found that 6,270 devices needed
                                     scanning and 10,505 devices needed patches.3 We also noted unmitigated
                                     vulnerabilities that were not reported as weaknesses on agency POA&Ms.

                                x    We noted that incident reporting within the Department needed
                                     improvement. We found that incidents were not always tracked, reported
                                     to appropriate authorities, and/or timely closed. For example, our review
                                     of incidents reported through July 15, 2006, disclosed that (1) incidents

3
 Scanning should be performed on all devices on the network, while patching is done only as new vulnerabilities are found and vendors
mitigate them. The number of devices patched should not significantly outnumber the total number of devices scanned.
USDA/OIG-A/50401-59-FM                                                                                                    Page 12
                       were not always closed within 30 days, (2) incidents were missing from
                       the tracking spreadsheet, (3) incidents were not always reported to
                       appropriate authorities, and (4) false positives documentation was deleted
                       and not further tracked, even though some were ultimately found to be
                       actual incidents.

                   x   We noted that the Department needed an internet protocol (IP) address
                       inventory system.

                   Due to the significance of these issues, IT security remained a material
                   internal control weakness for the Department. The Department and its
                   agencies are in the process of addressing the above weaknesses by
                   implementing recommendations made in other audit reports. Therefore, we
                   are making no additional recommendations in this report.




USDA/OIG-A/50401-59-FM                                                                   Page 13
Section 2.        Internal Control Over Financial Reporting – Reportable Condition

                              Reportable conditions are matters coming to our attention that, in our
                              judgment, should be communicated because they represent significant
                              deficiencies in the design or operation of internal control, which could
                              adversely affect the organization’s ability to meet the objectives of internal
                              control.


Finding 3                       Additional Financial Management Issues Warrant Attention

                              Our review disclosed additional reportable, but not material, areas where
                              financial management processes and practices could be improved. For
                              example:

                                   x    The Foundation Financial Information System (FFIS) uses SVs to
                                        process adjustments to the general ledger. SVs use predefined debits
                                        and credits based on business rules. We reviewed 122 SVs processed
                                        during fiscal year 2006 but prior to October 1, 2006. Our review
                                        disclosed that the supporting documentation was inadequate for 47
                                        SVs. We also noted that 24 of the SVs reviewed were needed due to a
                                        systemic weakness and 45 were processed to compensate for a control
                                        weakness (including correcting a previous SV). The types of problems
                                        that we found could have been reduced had the agencies effectively
                                        implemented the controls outlined in applicable FFIS Bulletins. 4

                                        In addition, we reviewed 56 documents processed after the close of
                                        agency fiscal month 12. These were needed to correct account
                                        balances for financial reporting. Many of the documents reviewed
                                        impacted cash or budgetary accounts. We noted that 28 of the
                                        documents were processed to (1) correct a prior adjustment, (2)
                                        compensate for a control weakness, and/or (3) correct a system
                                        weakness.

                                   x    Our review disclosed that the credit reform processes used by the
                                        Department’s lending agencies had improved from previous years. 5
                                        However, we noted that further improvements were needed. These
                                        conditions were primarily caused by lack of adequate management
                                        oversight and/or second party review.


4
   FFIS Bulletin 02-06, “Internal Controls Over Standard Vouchers in the FFIS,” through July 31, 2006. On August 1, 2006, OCFO
issued FFIS Bulletins 06-03 and 06-04, “Internal Controls Over Standard Vouchers in the FFIS,” and “Internal Controls Over Balanced
Vouchers,” respectively. These were implemented in response to OIG’s recommendation last year.
5
  OIG reported material internal control weaknesses for fiscal years 2001-2005 relating to credit reform processes and practices.
USDA/OIG-A/50401-59-FM                                                                                                  Page 14
                                              x   CCC made errors in making changes to its cash flow models.
                                                  Furthermore, there was no evidence of a technical review of the
                                                  changes prior to implementation.

                                              x   Rural Development’s processes related to the revision of its
                                                  cash flow models, accuracy of data used in the models and
                                                  controls over the related footnote disclosure needed
                                                  improvement.

                                         OCFO informed us that it will revise Departmental guidance relating to
                                         cash flow models to clarify testing and approval requirements after
                                         changes are made. OCFO plans to finalize this guidance in December
                                         2006.

                                    x    Our review again disclosed that obligations were not always valid
                                         because agencies were not effectively reviewing all unliquidated (open
                                         or active) obligations and taking appropriate actions (de-obligating). 6
                                         Invalid obligations increase the risk that funds may be inappropriately
                                         diverted for purposes other than what Congress intended. Treasury’s
                                         annual closing guidance (Treasury Bulletin No. 2006-08) requires the
                                         annual review of unliquidated obligations. Departmental Regulation
                                         (DR) 2230-1, “Reviews of Unliquidated Obligations,” dated April 17,
                                         2002, requires semiannual reviews and annual certifications from
                                         agency Chief Financial Officers (CFO) that the semiannual reviews
                                         were performed and unliquidated obligations existing at yearend were
                                         valid based on the reviews. Last year, we selected 60 unliquidated
                                         obligations from 4 agencies for which no activity had occurred for over
                                         2 years and we found that 54 of 60 (90 percent) obligations reviewed
                                         were invalid and agencies indicated the items would be de-obligated.

                                         This year, we selected a similar sample of 61 obligations from 11
                                         agencies and found that 32 (52 percent) of the obligations reviewed
                                         were invalid and agencies planned to de-obligate the items. In
                                         response to our recommendation last year, the Department revised the
                                         DR on August 22, 2006. The DR now requires annual reviews and
                                         certifications. Additionally, the Department is in the process of
                                         developing a reporting tool for agencies to use to perform the required
                                         reviews of unliquidated obligations.

                                    x    Our review disclosed that agencies had not adequately monitored
                                         overrides of document errors. 7 OIG recommended in fiscal year 2002

6
 Obligation means a binding agreement that will result in outlays, immediately or in the future. Budgetary resources must be available
before obligations can be incurred legally.
7
  The FFIS system has built in edits for processing documents that can be overridden by authorized users. For example, funds control
edits may give an error message if the obligation entered exceeds the amount allotted to that particular fund. An authorized user can
override this error message to process the document.
USDA/OIG-A/50401-59-FM                                                                                                     Page 15
                                       that the Department ensure that agencies track and monitor overrides
                                       of FFIS edits or control processes, and take action to address
                                       inappropriate overrides. 8     In response, the Department issued
                                       guidance that required agencies to track and monitor overrides,
                                                9

                                       perform monthly reviews, and provide the override analysis to the
                                       agency CFO quarterly for review and certification. Generally,
                                       agencies did not provide evidence of reviews or the evidence provided
                                       did not demonstrate that overrides had been effectively reviewed.

                              OCFO has immediate and long-term plans to improve its financial
                              management systems. These actions include working with the business
                              process owners to address the problems with the legacy feeder systems, with
                              the objective to provide an improved integration of the financial management
                              architecture within the Department.

Recommendation 1

                              Ensure that agencies comply with FFIS Bulletin 02-12 by providing a standard
                              and effective method of monitoring and reviewing overrides and taking
                              remedial action to address inappropriate overrides or develop other
                              compensating controls.




8
 Audit Report No. 50401-42-FM, “Audit of Selected Foundation Financial Information System Operations,” dated June 24, 2002.
9
 FFIS Bulletin 02-12, “Policy for Agencies to Implement a Monthly Review of the Override Logging Table to Track and Monitor Users
Overriding Document Errors in the Foundation Financial Information System,” dated October 1, 2002.
USDA/OIG-A/50401-59-FM                                                                                                 Page 16
Section 3.   Compliance With Laws and Regulations

                    The management of USDA is responsible for complying with applicable laws,
                    regulations, and Governmentwide policy requirements, including
                    noncompliance with laws and regulations disclosed by the audit, except for
                    those instances that, in our judgment, are clearly inconsequential. As part of
                    obtaining reasonable assurance about whether the consolidated financial
                    statements are free of material misstatement, we performed tests of USDA
                    compliance with certain provisions of laws and regulations, noncompliance
                    with which could have a direct and material effect on the determination of the
                    consolidated financial statement amounts, and certain provisions of other laws
                    and regulations specified in OMB Bulletin No. 06-03, including certain
                    requirements referred to in the Federal Financial Management Improvement
                    Act (FFMIA). We noted noncompliance with certain aspects of FFMIA, the
                    Improper Payment Information Act, and Managerial Cost Accounting
                    Practices.


Finding 4           Substantial Noncompliance With FFMIA Requirements

                    Under FFMIA, agencies are required to annually assess whether their financial
                    management systems comply substantially with (1) Federal Financial
                    Management Systems Requirements (FFMSR), (2) applicable Federal
                    accounting standards, and (3) the U.S. Government Standard General Ledger
                    (SGL) at the transaction level. In addition, FISMA requires each agency to
                    report significant information security deficiencies, relating to financial
                    management systems, as a lack of substantial compliance under FFMIA.
                    FFMIA also requires auditors to report in their CFO Act financial statement
                    audit reports whether the financial management systems substantially comply
                    with FFMIA’s systems requirements.

                    During fiscal year 2006, USDA evaluated its financial management systems to
                    assess compliance with the Act. The Department reported that it was not
                    substantially compliant with FFMSR, applicable Federal accounting standards,
                    the SGL at the transaction level, and FISMA requirements. As part of its
                    financial systems strategy, USDA indicated that it would work continuously to
                    meet FFMIA and FISMA objectives. During the fiscal year, the OCFO, OCIO
                    and component agencies worked together to address IT security weaknesses in
                    USDA’s financial systems. As a result, corrective actions were taken to
                    eliminate/mitigate several significant deficiencies. These noncompliances are
                    discussed in detail in Section 1, “Internal Control Over Financial Reporting –
                    Material Weaknesses,” of this report.



USDA/OIG-A/50401-59-FM                                                                    Page 17
                              The Department plans to continue its effort to achieve compliance with the
                              FFMIA requirements. OCFO indicated that all scheduled completion dates
                              have been targeted for completion by fiscal year 2009.

                              Additionally, OIG recommended in 2004 10 that OCIO and OCFO ensure that
                              reports for FISMA, FMFIA, and FFMIA are consistent and complete.
                              According to OCFO, additional work is needed in fiscal year 2007 to complete
                              the process for reconciling the three reports.

                              Improving Federal financial management systems is critical to increasing the
                              accountability of financial program managers, providing better information for
                              decision-making, and increasing the efficiency and effectiveness of services
                              provided by the Federal Government.




Finding 5                      Improper Payment Information Act

                               USDA was not in full compliance with requirements of the Improper
                               Payment Information Act (IPIA). Under the IPIA, executive agencies must
                               identify any of their programs that may be susceptible to significant improper
                               payments, estimate the annual amount of improper payments and submit
                               those estimates to Congress. USDA has four programs required to report
                               under Section 57 of OMB Circular No. A-11, “Preparation, Submission, and
                               Execution of the Budget,” and has identified an additional 11 programs at
                               risk of significant improper payments through the risk assessments process.
                               USDA is taking steps to implement IPIA. USDA will be able to move to
                               “green” status when error rates are available for all programs and it
                               demonstrates that reduction and recovery goals are being met. For the
                               programs without an estimated error rate, USDA is working with OMB to
                               develop interim methods to establish and track erroneous payment
                               percentages.

                               USDA has disclosed its IPIA compliance status, including its planned
                               remedial actions, in its Performance and Accountability Report. As a result,
                               we are making no further recommendations in this report.




10
 “U.S. Department of Agriculture’s Consolidated Financial Statements for Fiscal Years 2004 and 2003,” Audit Report No. 50401-53-
FM, dated November 15, 2004.
USDA/OIG-A/50401-59-FM                                                                                                Page 18
Finding 6                        Managerial Cost Accounting Practices

                                 The CFO Act of 1990 11 contains several provisions related to managerial cost
                                 accounting (MCA), one of which states that an agency’s CFO should develop
                                 and maintain an integrated accounting and financial management system that
                                 provides for the development and reporting of cost information. Statement of
                                 Federal Financial Accounting Standards No. 4, Managerial Cost Accounting
                                 Concepts and Standards for the Federal Government, established accounting
                                 standards and system requirements for MCA information at Federal agencies.
                                 The FFMIA of 1996 12 built on this foundation and required, among other
                                 things, CFO Act agencies to comply substantially with Federal accounting
                                 standards and FFMSR.

                                 GAO recently issued a report addressing USDA’s MCA practices. 13 It
                                 reported that USDA had not shown strong leadership to promote, guide, and
                                 monitor MCA implementation. USDA did not have a Departmentwide MCA
                                 system in place and, instead, had delegated responsibility for MCA
                                 implementation to the component agencies. USDA, moreover, did not have
                                 procedures in place to monitor component agency MCA initiatives, and had
                                 only limited information on the status of MCA implementation at its
                                 component agencies at the time of our review.

                                 USDA’s current financial system, FFIS, was not designed to provide in-depth
                                 MCA information. FFIS analysis and reporting functions and their related
                                 data warehouses allow users to conduct inquiries and execute ad hoc reports
                                 on, for instance, the status of funds and open obligations. These analyses,
                                 however, do not integrate nonfinancial data with financial data to provide the
                                 cost of activities or outputs on an ongoing basis.

                                 According to USDA officials, the Financial Management Modernization
                                 Initiative (FMMI) system is scheduled to replace FFIS by the end of fiscal
                                 year 2012. FMMI is expected to include a cost accounting module which
                                 officials said will incorporate MCA functionalities required by the Office of
                                 Federal Financial Management at OMB.




11
     Public Law No. 101-576, 104 Stat. 2838 (November 15, 1990).
12
     Public Law No. 104-208, div. A., 101 (f), title VIII, 110 Stat. 3009, 3009-389 (September 30, 1996).
13
     GAO-06-1002R, “Managerial Cost Accounting Practices,” dated September 21, 2006.
USDA/OIG-A/50401-59-FM                                                                                      Page 19
Exhibit A – Audit Reports Related to the Fiscal Year 2006 Financial
Statements




     AUDIT                        AUDIT TITLE                            RELEASE
    NUMBER                                                                DATE
                Federal Crop Insurance Corporation/Risk
  05401-15-FM   Management Agency’s Financial Statements for            November 2006
                Fiscal Years 2006 and 2005
                Commodity Credit Corporation’s Financial
  06401-21-FM                                                           November 2006
                Statements for Fiscal Years 2006 and 2005
                Forest Service’s Financial Statement Audit for Fiscal
  08401-7-FM                                                            November 2006
                Years 2006 and 2005
                Fiscal Year 2006 Review of the National Finance
  11401-24-FM                                                           September 2006
                Center General Controls
                Rural Telephone Bank’s Financial Statements for
  15401-7-FM                                                            November 2006
                Fiscal Year 2006
                Food and Nutrition Service’s Financial Statements
  27401-31-HY                                                           November 2006
                for Fiscal Years 2006 and 2005
                Fiscal Year 2006 Federal Information Security
  50501-7-FM                                                            September 2006
                Management Act Report
                Rural Development’s Financial Statements for Fiscal
  85401-13-FM                                                           November 2006
                Years 2006 & 2005
                Management and Security Over the U.S. Department
  88501-6-FM    of Agriculture Universal Telecommunication               August 2006
                Network
                National Information Technology Center General
  88501-9-FM                                                            September 2006
                Controls Review-Fiscal Year 2006




USDA/OIG-A/50401-59-FM                                                                   Page 20
     Exhibit B – Summary of Prior Year Recommendations
                                                                                                               Exhibit Page 1 of 2

                                           PRIOR YEAR RECOMMENDATIONS 14

     NUMBER          RECOMMENDATION                             DEPARTMENTAL STATUS                            OIG RESULTS

         1        Finalize supporting                  The Department agreed to document the                The Office of Inspector
                  documentation for any required       rationale used to prepare the SoF, (published        General (OIG) reviewed
                  manual adjustments to the SoF.       November 15, 2005 for both the Department and        the support provided to
                  The SoF compilation should be        FS) and noted that the compilation was               the FS auditors and re-
                  supported by transactions and        supported by transactions and account balances       issued the FS fiscal year
                  account balances that are            traceable to the general ledger. Subsequently,       2005 audit report.
                  traceable to the general ledger.     sufficient, evidential matter was provided to the
                                                       FS auditors to substantiate the fair presentation
                                                       of certain line items within the FS fiscal year
                                                       2005 SoF. The FS audit report was then re-
                                                       issued December 21, 2005, with a revised
                                                       unqualified opinion. The Department considered
                                                       corrective action completed with the re-issuance
                                                       of the FS financial statement audit report.

         2        Provide additional training on       The Department agreed and planned to conduct         OIG staff attended
                  the relationship of the SoF to the   training sessions on the compilation process for     training sessions
                  statements of budgetary              the SoF for all USDA agencies. The training          provided by the
                  resources and net cost.              was conducted in May and June 2006. Thus, the        Department to its
                                                       Department indicated corrective action was           agencies.
                                                       completed June 30, 2006.

         3        Continue to assess the overall       The Department agreed and planned to take            As discussed in
                  process used to compile the SoF      several actions: perform an independent review       Finding 1, CCC did not
                  in order to identify approaches      of crosswalk used to create the SoF, review of       always follow
                  and techniques that provide for a    the crosswalk in conjunction with the audit of the   applicable guidance in
                  more efficient, accurate, and        FS financial statements (conducted by an             preparing its SoF and
                  consistent compilation process.      independent public accounting firm), and re-         provided no evidence of
                  The compilation should be            convene the financial statement crosswalk            a technical review by
                  subjected to a secondary review      committee (which includes all mission areas) to      management of the
                  by a trained manager who is          review, analyze and approve the mapping of           compilation process.
                  independent of the financial         current and future accounting entries affecting
                  statement preparation process.       the SoF. The Department indicated that the final
                  In addition to reviewing specific    corrective action was completed September 1,
                  support for the compilation, the     2006.
                  review should also include an
                  analytical analysis of the
                  relationships among balances.

         4        Provide oversight to the lending     The Department agreed and planned several            OIG participated in the
                  agencies to ensure that cash         actions to provide oversight through: (1)            Departmental and
                  flow models and data inputs as       monitoring agency progress via bi-weekly credit      agency cash flow model
                  well as estimates and                reform working group meetings; (2) issuance of       meetings throughout the
                  reestimates are subject to           guidance to standardize the methodology and          year. OIG also
                  appropriate controls, including      internal controls over cash flow model               reviewed guidance
                  management oversight review.         development and changes; (3) completion of           issued, model changes,



14
   Recommendations were made in Audit Report No. 50401-56-FM, “U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2005 and 2004,” issued November 15, 2005.
USDA/OIG-A/50401-59FM                                                                                                         Page 21
   Exhibit B – Summary of Prior Year Recommendations
                                                                                                      Exhibit Page 2 of 2

                                              fiscal year 2006 cash flow model changes in          and re-estimates. We
                                              accordance with the new guidance; and (4)            found additional
                                              issuance of guidance to standardize the              improvements were
                                              management oversight review process to be used       needed, as discussed in
                                              for re-estimates. The Department indicated these     Finding 3.
                                              actions were completed as of August 9, 2006.

      5    Ensure that agencies adhere to     The Department agreed and planned to take three      OIG reviewed the
           FFIS Bulletin No. 02-06,           actions: (1) review all agencies’ SV forms and       revised guidance and
           “Internal Controls Over            approval process, (2) reduce the universe of         monitored the progress
           Standard Vouchers (SV) in the      available SVs (by removing inactive and              of the posting models.
           FFIS.”                             noncompliant posting models from applicable          As noted in Finding 3,
                                              FFIS tables) and (3) update and expand FFIS          we analyzed 178
                                              Bulletin No. 02-06. The Department advised us        adjustments made for
                                              that these actions were completed August 4,          fiscal year 2006. Our
                                              2006.                                                review disclosed that
                                                                                                   agencies again did not
                                                                                                   consistently adhere to
                                                                                                   the requirements of
                                                                                                   applicable FFIS
                                                                                                   Bulletins.

      6    Ensure that agency approval of     The Department agreed that sensitive documents,      OIG’s review of agency
           appropriate significant            as defined by OMB Circular No. A-123, should         approvals for sensitive
           documents is required prior to     require secondary approval. The functionality        documents disclosed
           processing.                        for such approval is involved by table settings      that approvals for
                                              controlled by the agencies. The Department           sensitive documents
                                              provided oversight to ensure that agencies set the   were generally required.
                                              approval flag correctly as part of a project to
                                              standardize table settings. The Department
                                              indicated the table settings for secondary
                                              approvals were implemented September 1, 2006.

      7    Provide oversight to ensure that   The Department agreed and planned to revise          OIG reviewed the
           general ledgers reflect valid      Departmental Regulation-2230-01 (DR),                updated DR. As
           obligations and that agencies      “Improvement of Management Controls Over             discussed in Finding 3,
           perform the required reviews of    Unliquidated Obligations.” Additionally, the         we also reviewed a
           unqualified obligations            Department planned to develop a report to obtain     sample of unliquidated
           appropriately and effectively.     information about each agency’s unliquidated         obligations. Agencies
           Additionally, ensure that          obligations without activity in the past two years   indicated that 52
           agencies maintain evidence of      and then use the new report to obtain                percent (32 of 61)
           the reviews.                       justification for each unliquidated obligation or    would be de-obligated.
                                              agency action to liquidate. As of September 30,
                                              2006, the Department indicated the revised DR
                                              was in signature process and the report tool was
                                              still in development.




USDA/OIG-A/50401-59FM                                                                                                Page 22
Exhibit C – Agency Response




USDA/OIG-A/50401-59FM         Page 23
Exhibit D – Performance and Accountability Report




 USDA Performance and Accountability Report
            for Fiscal Year 2006



                        (Prepared by USDA)


   SECTIONS 1, 2, AND 4 ARE UNAUDITED. THOSE
 SECTIONS WERE NOT PROVIDED TO OIG FOR REVIEW
           UNTIL NOVEMBER 15, 2006.




USDA/OIG-A/50401-59FM                               Page 24
                                                  Table of Contents
Message from the Secretary.......................................................................................... ii
About this Report ....................................................................................................... iv
I.     Management’s Discussion and Analysis ................................................................ 1
        An Overview of the United States Department of Agriculture .................................................................. 1
        Resources..................................................................................................................................................... 5
        Performance Goals, Objectives and Results................................................................................................ 6
        Management Challenges............................................................................................................................. 8
        Future Demands, Risks, Uncertainties, Events, Conditions and Trends ................................................. 14
        USDA’s Results Agenda—Implementing Federal Management Initiatives ............................................ 15
        Financial Statement Highlights ................................................................................................................ 28
        Systems, Controls and Legal Compliance ................................................................................................ 31
             Management Assurances.................................................................................................................. 31
             Federal Managers’ Financial Integrity Act Report on Management Control.................................. 32
             Federal Financial Management Improvement Act Report on Financial Management Systems ..... 37
             Inspector General Act Amendments of 1988 Management’s Report on Audit Follow-Up ........... 39
             Management’s Report on Audit Follow-Up .................................................................................... 42
II.    Annual Performance Report................................................................................47
        Strategic Goal 1: Enhance International Competitiveness of American Agriculture............................... 48
        Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies ........ 59
        Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life In
        Rural America ........................................................................................................................................... 72
        Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply............. 82
        Strategic Goal 5: Improve the Nation’s Nutrition and Health ................................................................. 96
        Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment ............ 108
        Program Assessment Rating Tool (PART) Evaluations ........................................................................ 129
        Program Evaluations............................................................................................................................... 138
III. Financial Statements, Notes, Supplemental and Other Accompanying
     Information......................................................................................................145
        Message from the Chief Financial Officer.............................................................................................. 145
        Report of the Office of Inspector General .............................................................................................. 147
        CONSOLIDATED BALANCE SHEET........................................................................................... 148
        Notes to the Consolidated Financial Statements.................................................................................... 153
        Required Supplementary Stewardship Information................................................................................ 219
        Required Supplementary Information .................................................................................................... 227




                                                                                                                                                                           USDA
                                                                                    FY 2006 PERFORMANCE                  AND    ACCOUNTABILITY REPORT                       i
IV.   Other Accompanying Information.....................................................................241
      Appendix A—Management Challenges................................................................................................. 241
      Appendix B—Improper Payment and Recovery Auditing Details......................................................... 270
      Appendix C—Table of Exhibits ............................................................................................................. 291
      Appendix D—Acronyms ........................................................................................................................ 293
                            Message from the Secretary
The United States Department of Agriculture (USDA) appreciates this opportunity to
share with all Americans, Congress and the Executive Branch information on the progress
made on your behalf during the past year.

From enhancing economic opportunities for agricultural producers, to protecting the
Nation’s food supply, to improving nutrition and health, to protecting the Nation’s
natural resources and environment, USDA has a proud record of accomplishment in FY
2006. We are pleased to share the highlights of our efforts in this FY 2006 Performance
and Accountability Report.

USDA and its more than 100,000 employees touch the lives of every American every day.
The 143-year-old USDA is one of the most complex departments in the Federal
Government, with more than 300 programs. Annually, we spend more than $75 billion of
our fellow Americans’ money. In 2006, these resources helped:

    Aid U.S. agricultural producers battered by severe weather conditions;
    Expand economic opportunities and security for farmers, ranchers and rural communities by implementing the Farm
    Security and Rural Investment Act of 2002;
    Provide access to a healthy diet for needy households;
    Improve the health of low-income pregnant and postpartum women, infants and children;
    Enhance U.S. farm export opportunities by advancing America’s commitment to free trade;
    Implement the President’s Healthy Forests Initiative;
    Protect public safety, homes and resources during a severe fire season;
    Support the increased use of renewable fuels, such as ethanol and biodiesel, to provide new revenues to farmers while
    reducing our Nation’s dependence on foreign fuel;
    Improve and expand conservation programs;
    Invest in infrastructure that can bring new economic opportunities and jobs to rural areas;
    Modernize the nutrition guidance we give the Nation to reflect the latest scientific information and combat our
    country’s growing obesity epidemic;
    Further advance food safety and protect U.S. agriculture from both existing and emerging threats; and
    Leverage technology to ensure that the resources provided to us by Congress and the American people reach those
    who need them, with minimal expense and maximum impact.

The USDA Senior Management Control Council, co-chaired by the Deputy Secretary and the Chief Financial Officer,
oversees and administers the Department’s assessment of internal controls for our programs, financial systems and
financial reporting relating to the Federal Manager’s Financial Integrity Act (FMFIA) and the Federal Financial
Management Improvement Act (FFMIA). I am proud to report that USDA fully implemented the requirements to
assess and report on internal control for financial reporting this year — a significant accomplishment given the scope of
our activities and the complexity of our operations. Our assessment identified four material weaknesses in our financial
reporting controls for which we have created and begun executing corrective actions plans. As such, I provide qualified
assurance that, except for the material weaknesses described in the Management Assurances section of this report,
USDA management controls, financial systems and financial reporting controls meet the objectives of FMFIA and
FFMIA. The financial and performance information presented herein are complete and accurate, and in accordance
with Office of Management and Budget guidance and the Reports Consolidation Act of 2000.
USDA was first called “the people’s department” by President Abraham Lincoln. I believe we still live up to that title. I
am proud of our employees and the positive impact their diverse efforts have had on American life during the past year. I
also want to thank you for your interest in USDA and its work. I am pleased to share this information with all of our
stakeholders, and I look forward to reporting even more progress in the year ahead.




Mike Johanns
Secretary of Agriculture
November 15, 2006
                                         About this Report
The Government Performance and Results Act of 1993 requires all Federal agencies to engage in a strategic planning
process that directly aligns resources with results, and enhances the accountability of all government endeavors to the
American taxpayers who finance them.

This results-oriented process includes the development and implementation of a five-year strategic plan, as well as
annual reporting that sets specific, measurable targets for performance at the beginning of each fiscal year, and then
offers a concrete, data-based assessment at year-end of the success of these endeavors.

This FY 2006 Performance and Accountability Report is the year-end progress report of the United States Department
of Agriculture (USDA). It reviews the strategic goals and objectives the Department set for itself at the beginning of the
fiscal year and compares initial targets to actual performance. The data used by USDA to measure actual performance is
collected using standardized methodology that has been vetted by Federally employed scientists and policymakers and,
ultimately, by the undersecretaries of the respective mission areas, all of whom attest to the completeness, reliability and
quality of the data.

In addition to promoting accountability and enhancing the management of USDA programs, this reporting also helps
illuminate the strategic allocation of resources in the future by directly linking program performance to budgetary
decisions.

This report aims to inform the decisions of policymakers who make critical choices that impact USDA programs. It also
strives to provide transparency to all Americans interested in the workings of their government and USDA’s ability to
“manage for results” in performing its many vital public functions.
         I.




                             Management’s Discussion and Analysis

An Overview of the United States Department of Agriculture
                                                              rapidly diversifying and highly competitive business

T
   he United States Department of Agriculture (USDA)
                                                              environment that is driven by sophisticated consumers.
   is a diverse and complex organization with programs
   that touch the lives of all Americans every day. More      This report provides information on USDA’s core
than 100,000 employees deliver more than $75 billion in       performance measures as described in its revised FY 2006
public services through USDA’s more than 300 programs         Annual Performance Plan/Performance Budget. There
worldwide, leveraging an extensive network of Federal,        are six strategic goals that guide the Department today.
State and local cooperators.                                  Strategic goals one and two contribute to the economic
                                                              opportunities for agricultural producers. They are:
Founded by President Abraham Lincoln in 1862, when
more than half of the Nation’s population lived and               To enhance international competitiveness of
worked on farms, USDA’s role has evolved with the                 American agriculture;
economy. Today, USDA improves the Nation’s economy                To enhance the competitiveness and sustainability of
and quality of life by:                                           rural and farm economies;
    Enhancing economic opportunities for U.S. farmers             To support increased economic opportunities and
    and ranchers;                                                 improved quality of life in rural America;
    Ensuring a safe, affordable, nutritious and accessible        To enhance protection and safety of the Nation’s
    food supply;                                                  agriculture and food supply;
    Caring for public lands and helping people care for           To improve the Nation’s nutrition and health; and
    private lands;
                                                                  To protect and enhance the Nation’s natural resource
    Supporting the sound, sustainable development of              base and environment.
    rural communities;
                                                              For the purposes of this report, it should be noted that
    Expanding global markets for agricultural and forest
                                                              USDA adopted its new strategic plan in the spring of
    products and services; and
                                                              2006. The new strategic plan is to be implemented by the
    Working to reduce hunger and improve America’s            revised FY 2006 Annual Performance Plan/Performance
    health through good nutrition.                            Budget. As detailed in the revised budget, goals one and
                                                              two are reported separately and aggregate to the major
Addressing these timeless concerns in the modern era
                                                              goal to Enhance Economic Opportunities for Agricultural
presents its share of challenges. America’s food and fiber
                                                              Producers for performance aspects of the report.
producers operate in a global, technologically advanced,
                                                              However, the financial statements and other graphic


                                                                                                                 USDA
                                                             FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT       1
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




presentations follow the approved FY 2006 Annual                Some of the more substantial reforms called for by this
Performance Plan/Performance Budget depicting five              legislation include:
goals.                                                              Introducing counter-cyclical farm income support to
The primary legislative authority guiding USDA’s efforts            assist farmers during hard times;
today is the Farm Security and Rural Investment Act                 Expanding conservation programs and improving
(Farm Bill) of 2002. This law aims to advance: a reliable,          farm environmental practices;
safe and affordable food and fiber supply; sound                    Restoring food stamp eligibility for legal immigrants;
stewardship of agricultural land and water resources; the
                                                                    Adding several commodities to those requiring
economic opportunities available for American farm
                                                                    country-of-origin labeling;
products at home and abroad; continued economic and
infrastructure development in rural America; and leading-           Introducing animal welfare provisions; and
edge research to maintain an efficient and innovative               Enhancing the Nation’s biobased product and
agricultural and food sector.                                       bioenergy programs.




USDA
   2        FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                         MANAGEMENT’S DISCUSSION AND ANALYSIS




Exhibit 1:   Headquarters Organization                             programs and other direct producer-to-consumer
                                                                   market opportunities.

                     Mission Statement                         MISSION AREAS
                                                               To ensure that USDA’s efforts focus squarely on meeting
      The United States Department of
                                                               its real world objectives, the Department’s work is
      Agriculture provides leadership on food,                 organized by mission areas, which are a collection of
      agriculture, natural resources, quality of life          agencies that work together to achieve USDA’s
      in rural America and related issues based                aforementioned strategic goals. A description of USDA’s
      on sound public policy, the best-available               seven mission areas follows.
      science and efficient management.                        Natural Resources and Environment
                                                               The Natural Resources and Environment (NRE) mission
USDA’s FY 2006 key milestones include:                         area consists of the Forest Service (FS) and the Natural
                                                               Resources Conservation Service (NRCS). These agencies
     Issuing of $1.8 billion in Conservation Reserve
                                                               work to ensure the health of the land through sustainable
     Program rental payments, which compensate                 management. FS manages 193 million acres of national
     producers an average of $4,143 per farm enrolled in       forests and grasslands for the American people. NRCS
     the program;
                                                               assists farmers, ranchers and other private landowners in
     Sponsoring a food safety education conference to help     managing their acreage for environmental and economic
     educate doctors, nurses and health officials about        sustainability. Both agencies work in partnership with
     those most at risk to foodborne illness, including        Tribal, State and local Governments, communities,
     young children, older adults, pregnant women and          related groups and other Federal agencies to protect the
     people with weakened immune systems;                      Nation’s soils, watersheds and ecosystems.
     Reopening markets overseas for U.S. beef and beef         Farm and Foreign Agricultural Services
     products;
                                                               The Farm and Foreign Agricultural Services (FFAS)
     Completing negotiations with Japan to end its             mission area is comprised of the Farm Service Agency
     decades-old ban on the import of U.S. fresh potatoes;
                                                               (FSA), which delivers most traditional farm programs, the
     Partnering with the U.S. Department of Energy and         Foreign Agricultural Service (FAS), which assists with
     the U.S. Environmental Protection Agency to               U.S. agricultural exports, and the Risk Management
     sponsor a renewable energy conference;                    Agency (RMA), which predominately handles programs
     Working with the U.S. Department of the Interior          that help farmers and ranchers address the unavoidable
     and the U.S. Department of Health and Human               challenges inherent in agriculture, such as natural
     Services to enhance a national framework for the early    disasters.
     detection of highly pathogenic avian influenza in wild    This mission area also includes two Government-owned
     migratory birds in the U.S. This effort expanded and
                                                               corporations. The Commodity Credit Corporation
     unified ongoing efforts among Federal, State, regional    (CCC) works to stabilize farm income and prices to help
     and local wildlife agencies; and                          ensure an adequate, affordable supply of food and fiber.
     Unveiling of new grant programs designed to help          This corporation is the financial mechanism by which
     improve and expand domestic farmers markets,              agricultural commodity, credit, export, conservation,
     roadside stands, community-supported agriculture          disaster and emergency assistance is provided. The


                                                                                                                  USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT     3
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




Federal Crop Insurance Corporation (FCIC) improves                Research, Education and Economics
the economic stability of agriculture through a sound             The Research, Education and Economics (REE) mission
system of crop insurance.                                         area brings together all of the efforts underway
Rural Development                                                 throughout USDA to advance a safe, sustainable and
                                                                  competitive U.S. food and fiber system through science
The Rural Development (RD) mission area focuses on
                                                                  and the translation of science into real-world results. This
creating economic opportunities and improving the
                                                                  mission area is integrally involved with every aspect of
quality of life in rural America. This mission area unites a
                                                                  USDA’s work. REE is comprised of the Agricultural
variety of valuable programs including housing programs
                                                                  Research Service (ARS), the Cooperative State Research,
and economic development initiatives. Rural
                                                                  Education and Extension Service (CSREES), the
infrastructure projects that finance the delivery of
                                                                  Economic Research Service (ERS), the National
everything from safe, running water to high-speed
                                                                  Agricultural Statistics Service (NASS), and the National
Internet access also come together in this mission area.
                                                                  Agricultural Library.
Collectively, these programs demonstrate core Federal
efforts to ensure that rural communities are full                 Marketing and Regulatory Programs
participants in modern America.                                   The Marketing and Regulatory Programs (MRP) mission
Food, Nutrition and Consumer Services                             area is made up of the Agricultural Marketing Service
                                                                  (AMS), the Animal and Plant Health Inspection Service
The Food, Nutrition and Consumer Services (FNCS)
                                                                  (APHIS) and the Grain Inspection, Packers and
mission area is comprised of the Food and Nutrition
                                                                  Stockyards Administration (GIPSA). This mission area
Service (FNS), which administers Federal nutrition
                                                                  facilitates the domestic and international marketing of
programs, and the Center for Nutrition Policy and
                                                                  U.S. agricultural products, including food and fiber,
Promotion (CNPP), which provides science-based dietary
                                                                  livestock and grain through a wide variety of efforts,
guidance to the Nation. USDA’s 15 Federal nutrition
                                                                  including the development of domestic and foreign
assistance programs include the Food Stamp Program,
                                                                  agricultural trade standards via Federal, State and foreign
Child Nutrition Programs, such as school lunches and
                                                                  cooperation. This mission area also conducts increasingly
breakfasts, and the Special Supplemental Nutrition
                                                                  critical and sophisticated efforts to protect U.S.
Program for Women, Infants and Children. These
                                                                  agriculture from plant and animal health-related threats,
programs provide vital access to nutritious food and
                                                                  and ensures the humane treatment of animals.
support for better dietary habits for one in five Americans.
USDA’s nutrition research and promotion efforts aid all           DEPARTMENTAL OFFICES
Americans by linking cutting-edge scientific research to
the nutritional needs of consumers.                               Department-level offices provide centralized leadership,
                                                                  coordination and support for USDA’s policy and
Food Safety                                                       administrative functions. Their efforts maximize the
USDA’s Food Safety and Inspection Service (FSIS) is the           energy and resources agencies devote to the delivery of
public health agency responsible for ensuring that the            services to USDA customers and stakeholders.
Nation’s commercial supply of meat, poultry and egg
products is safe, wholesome and labeled and packaged
correctly.




USDA
   4          FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                                            MANAGEMENT’S DISCUSSION AND ANALYSIS




Resources
Congressional appropriations are the primary funding source for USDA operations. FY 2006 program obligations
totaled $130.7 billion, an increase of $4.4 billion compared to FY 2005. These are current year obligations from
unexpired funds. They do not include prior year upward or downward obligation adjustments. Staff year resources
totaled 106,716, a decrease of 3,185 compared to FY 2005.
Exhibit 2:   FY 2006 and 2005 USDA Program Obligations Dedicated to Strategic Goals


                                                       USDA Program Obligations Dedicated to Strategic Goals
                                              FY 2006 Actual                                          FY 2005 Actual

                                2006 PROGRAM OBLIGATIONS                                                                  2005 PROGRAM OBLIGATIONS

                                                                                                                          Protect and Enhance
                              Protect and Enhance                                                                         the Nation’s Natural
                              the Nation’s Natural                                                                        Resource Base and
                              Resource Base and
                                                                                                                          Environment — 8%
                              Environment — 8%                               Enhance Economic
                                                                             Opportunities for
                                                                             Agricultural Producers                                                                       Enhance Economic
                                                                             — 35%                                                                                        Opportunities for
                                                                                                                                                                          Agricultural Producers
                                                                                                                                                                          — 34%


                                                                                                          Improve the Nation’s
              Improve the Nation’s
                                                                                                          Nutrition and Health
              Nutrition and Health
                                                                                                          — 40%
              — 41%

                                                                   Support Increased
                                                                   Economic                                                                                      Support Increased
                                                                   Opportunities and                                          Enhance Protection                 Economic
                                     Enhance Protection
                                                                   Improved Quality of                                        and Safety of the                  Opportunities and
                                     and Safety of the
                                                                   Life in Rural America                                      Nation’s Agriculture               Improved Quality of
                                     Nation’s Agriculture
                                                                   — 14%                                                      and Food Supply                    Life in Rural America
                                     and Food Supply —
                                                                                                                              — 3%                               — 15%
                                     2%




Exhibit 3:   FY 2006 and 2005 USDA Staff Years Dedicated to Strategic Goals


                                                                    USDA Staff Dedicated to Strategic Goals
                                             FY 2006 Actual                                                                             FY 2005 Actual
                                                                                                                                        2005 Staff Years
                                             2006 Staff Years

                                                                                                                                                                   Enhance Economic
                                                                                                                                                                   Opportunities for
                                                                      Enhance Economic                                                                             Agricultural Producers
                                                                      Opportunities for
                                                                                                                                                                   — 23%
                                                                      Agricultural Producers
             Protect and Enhance                                                                       Protect and Enhance
             the Nation’s Natural                                     — 20%
                                                                                                       the Nation’s Natural
             Resource Base and                                                                         Resource Base and
             Environment — 52%                                                                         Environment — 49%

                                                                                                                                                                         Support Increasede
                                                                             Support Increased                                                                           Economic Opportunities
                                                                             Economic Opportunities                                                                      and Improved Quality of
                                                                             and Improved Quality of                                                                     Life in Rural America
                                                                             Life in Rural America
                                                                                                                                                                         — 7%
                                                                             — 6%


                                                                                                                                                                Enhance Protection
                                                                Enhance Protection                                                                              and Safety of the
                                                                and Safety of the                                      Improve the Nation’s                     Nation’s Agriculture
                              Improve the Nation’s              Nation’s Agriculture                                   Nutrition and Health                     and Food Supply
                              Nutrition and Health              and Food Supply                                        — 3%                                     — 18%
                              — 2%                              — 20%




                                                                                                                                                                                                   USDA
                                                                                                       FY 2006 PERFORMANCE                           AND   ACCOUNTABILITY REPORT                    5
                                               MANAGEMENT’S DISCUSSION AND ANALYSIS




Performance Goals, Objectives and Results
Of the 38 performance goals contained in USDA’s FY 2007 and Revised FY 2006 Budget Summary and Annual
Performance Plan, 32 were met or exceeded, 1 was reported as deferred and 5 were unmet. The following Performance
Scorecard table, organized by USDA’s strategic goals and objectives, provides a summary of the Department’s
performance results. Additional analyses of these results can be found in the Performance Section of this report.
Information on data quality is contained in the Data Assessment of Performance Measures section.
Exhibit 4:      USDA Scorecard for FY 2006


                                                           Performance Scorecard for FY 2006
                         Objectives                                                 Annual Performance Goals                              Result
                                      Strategic Goal 1: Enhance International Competitiveness of American Agriculture
 1.1         Expand and Maintain International Export       1.1.1   Dollar value of agricultural trade expanded through trade             Unmet
             Opportunities                                          agreement negotiation, monitoring, and enforcement (Non-Sanitary
                                                                    and Phytosanitary)
 1.2         Support International Economic                 1.2.1   Number of mothers, infants and schoolchildren receiving daily        Exceeded
             Development and Trade Capacity Building                meals and take-home rations under McGovern-Dole
                                                            1.2.2   Number of recipient countries that make substantive improvements       Met
                                                                    in national trade policy and regulatory frameworks that increase
                                                                    market access
 1.3         Improved Sanitary and Phytosanitary (SPS)      1.3.1   Increase the dollar value of trade expanded through negotiation or   Exceeded
             System to Facilitate Agricultural Trade                preserved through USDA staff intervention and trade agreement
                                                                    monitoring activities (Sanitary and Phytosanitary) ($ in millions)
                              Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies
 2.1         Expand Domestic Market Opportunities           2.1.1   Number of items designated as biobased for Federal procurement         Met
 2.2         Increase the Efficiency of Domestic            2.2.1   Agricultural Statistics Board reports released on time                 Met
             Agricultural Production and Marketing
             Systems
 2.3         Provide Risk Management and Financial          2.3.1   Increase the value of Federal Crop Insurance Corporation (FCIC)      Exceeded
             Tools to Farmers and Ranchers                          risk protection coverage provided through FCIC-sponsored
                                                                    insurance ($ in billions)
                                                            2.3.2   Increase percentage of program benefits delivered through a Web        Met
                                                                    environment
                                                            2.3.3   Increase percent of loans to beginning farmers, racial and ethnic    Exceeded
                                                                    minorities, and women farmers financed
                                                            2.3.4   Reduce average processing time for direct loans                      Exceeded
                                                            2.3.5   Reduce average processing time for guaranteed loans                  Exceeded
                        Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life in Rural America
 3.1         Expand Economic Opportunities by Using         3.1.1   Jobs Created or Saved                                                Exceeded
             USDA Financial Resources to Leverage
             Private Sector Resources and Create
             Opportunities for Growth
 3.2         Improve the Quality of Life Through USDA       3.2.1   Homeownership opportunities provided                                  Unmet
             Financing of Quality Housing, Modern           3.2.2   Customers served by new or improved water and waste disposal         Exceeded
             Utilities, and Needed Community Facilities             facilities
                                                            3.2.3   Customers served by new or improved community facilities             Exceeded
                                                            3.2.4   Customers served by new or improved electric facilities              Exceeded
                                                            3.2.5   Customers served by new or improved telecommunications               Exceeded
                                                                    facilities




USDA
    6             FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                                          MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                     Performance Scorecard for FY 2006
                 Objectives                                                  Annual Performance Goals                                 Result
                         Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply
4.1   Reduce the Incidence of Foodborne             4.1.1   Prevalence of Listeria monocytogenes in ready-to-eat meat and            Exceeded
      Illnesses Related to Meat, Poultry, and               poultry products
      Egg Products in the U.S.                      4.1.2   Prevalence of E. coli 0157:H7 in ground beef                             Exceeded
                                                    4.1.3   Number of consumers reached with food safety messages                      Met
4.2   Reduce the Number and Severity of             4.2.1   Improve the capabilities of animal and plant diagnostic laboratories       Met
      Agricultural Pest and Disease Outbreaks       4.2.2   Number of significant introductions of foreign animal diseases and         Met
                                                            pests that spread beyond the original area of introduction and cause
                                                            severe economic or environmental damage, or damage to the health
                                                            of animals
                                                    4.2.3   Number of emerging plant pest (EPP) programs where an outbreak            Unmet
                                                            has not been contained within the quarantine area


                                          Strategic Goal 5: Improve the Nation’s Nutrition and Health
5.1   Improve Access to Nutritious Food             5.1.1   Eligible populations participating in the major Federal nutrition          Met
                                                            assistance programs
5.2   Promote Healthier Eating Habits and           5.2.1   Application and usage level of nutrition guidance tools (pieces of       Exceeded
      Lifestyles                                            nutrition guidance distributed)
5.3   Improve Nutrition Assistance Program          5.3.1   Increase Food Stamp payment accuracy                                     Deferred
      Management and Customer Service
                         Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment
6.1   Protect Watershed Health to Ensure Clean      6.1.1   Number of Comprehensive Nutrients Management Plans applied                 Met
      and Abundant Water
                                                               Conservation Technical Assistance
                                                               Environmental Quality Incentives Program
                                                    6.1.2   Increase Conservation Reserve Program (CRP) acres of riparian and          Met
                                                            grass buffers
6.2   Enhance Soil Quality to Maintain              6.2.1   Conservation plans for cropland written, million acres                     Met
      Productive Working Cropland                   6.2.2   Reduction in acreage of cropland soils damaged by erosion, millions        Met
                                                            of acres
                                                             Conservation Technical Assistance Program
                                                             Environmental Quality Incentives Program
6.3   Protect Forests and Grasslands                6.3.1   Number of acres of hazardous fuel treated that are in the wildland        Unmet
                                                            urban interface
                                                    6.3.2   Number of acres of hazardous fuel treated that are in condition           Unmet
                                                            Classes 2 or 3 in Fire Regimes I, II or III outside the wildland-urban
                                                            interface
                                                    6.3.3   Number of acres of other hazardous fuel treated that are outside the     Exceeded
                                                            wildland-urban interface
                                                    6.3.4   Conservation plans written for grazing lands                             Exceeded
                                                    6.3.5   Grazing lands with conservation applied to protect the resource base     Exceeded
                                                            and environment, Conservation Technical Assistance, millions of
                                                            acres
                                                    6.3.6   Grazing lands with conservation applied to protect the resource base     Exceeded
                                                            and environment, Environmental Quality Incentives Program, millions
                                                            of acres




                                                                                                                                       USDA
                                                                        FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT             7
                                            MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                        Performance Scorecard for FY 2006
                    Objectives                                                Annual Performance Goals                                 Result
                        Strategic Goal 5 (Cont’d): Protect and Enhance the Nation’s Natural Resource Base and Environment
 6.4     Protect and Enhance Wildlife Habitat to      Wetlands created, restored or enhanced
         Benefit Desired, At-Risk And Declining       6.4.1  Conservation Technical Assistance                                       Exceeded
         Species
                                                      6.4.2    Wetlands Reserve Program                                              Exceeded



ACTIONS ON UNMET AND DEFERRED GOALS
USDA continuously works to improve its performance across all of its strategic goals and objectives. While substantial
anecdotal information exists that USDA has been successful in pursuing its strategic objective to improve the Nation’s
nutrition and health, with the exception of research goals, the Department has deferred reporting on these goals until
accurate and complete data are available to document the progress of these efforts in FY 2006. Sometimes circumstances
arise that result in the Department falling short of its goals. At other times, the Department consciously alters its
approach in ways that enhance its service to the public, but makes a specific performance goal a less effective indicator of
real progress. The Annual Performance Report section of this report offers further discussion of the Department’s
actions on its goals.

Management Challenges
The Office of Inspector General (OIG) prepares an annual report to the Secretary on the most serious management
challenges faced by the Department (Appendix A). USDA management addresses these challenges and, if applicable,
responds by providing accomplishments for the current fiscal year and/or planned actions for the upcoming fiscal year.
All of the challenges identified in FY 2005 remain for FY 2006, and one new challenge was added. However, the OIG
has removed issues associated with certain challenges because of the improvements made by the Department. The
following table identifies only those challenges that changed from FY 2005 to FY 2006.

                   FY 2005 Management Challenges                                                    FY 2006 Changes
 (1) Interagency Communication, Coordination and Program Integration     Issue Removed—Implementation of a Department-wide research misconduct
 Need Improvement                                                        policy.
                                                                         Issue New—Increase organizational communication and understanding
                                                                         among the agencies that administer the farm and conservation programs.
                                                                         Issue New—Improve communication and strengthen controls for beef
                                                                         exported to Japan.
                                                                         Issue Moved to Challenge #5—Ensure that animal disease surveillance
                                                                         program policies and procedures are well defined and supportable, and
                                                                         terminology and practices are consistent with public announcements.
 (2) Implementation of Strong, Integrated Management Control             Issue New—Capitalize on Farm Service Agency (FSA) compliance activities
 (Internal) Systems Still Needed                                         to improve program integrity.
 (5) Departmental Efforts and Initiatives in Homeland Security Need to   Issue Removed—Establish Department-wide policies and procedures for
 be Maintained                                                           defining sensitive and dual-use information and implement adequate
                                                                         controls to protect such information.




USDA
   8           FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS




                   FY 2005 Management Challenges                                                         FY 2006 Changes
                                                                            Issue New—Develop a comprehensive approach for surveillance and
                                                                            monitoring for outbreak of avian influenza, including live bird markets or
                                                                            other “off-farm” environments.
                                                                            Issue Moved from challenge #1—Ensure animal disease surveillance program
                                                                            policies and procedures are well defined and supportable.
                                                                            Issue New—Develop an information system to better track noncompliance
                                                                            violations related to specified risk materials.
                                                                            Issue New—Improve security and accountability of explosives and
                                                                            munitions.
 (6) Department-wide Efforts and Initiatives on Genetically Engineered      Issue Removed—Strengthen germplasm policies and procedures.
 Organisms Need to be Strengthened                                          Issue New—Develop a comprehensive strategy for increasing exports of
                                                                            genetically engineered crops.
                                                                            Challenge #7 Added—USDA’s Response to the 2005 Hurricanes Needs
                                                                            Ongoing Oversight:
                                                                            x     Provide sufficient oversight to ensure that monies allocated for
                                                                                  housing, food stamps, conservation and farm programs are used
                                                                                  effectively.


The following table includes FY 2006 accomplishments and/or FY 2007 planned actions.
USDA’s Management Challenges

 1) Interagency Communications, Coordination, and Program Integration Need Improvement
 x    Integrate the management information systems used to implement the crop insurance, conservation and farm programs; and
 x    Increase organizational communication and understanding among the agencies that administer the farm and conservation programs.
      Fiscal Year 2006 Accomplishments
       Developed a Web-based notification system to allow FSA county offices and approved insurance providers to communicate on reported
        discrepanices in information provided by producers and to track the progress in resolving the discrepancies.
       FSA and RMA improved the 2001 Reconciliation Process by working together on recommendations to standardize RMA and FSA common
        business elements and reporting requirements.
       NRCS and FSA met to strengthen interagency communication in regard to the Wetland Reserve Program (WRP) implementation, and the
        affect on issuing payments under the Direct and Counter Cyclical (DCP) Program. Clarification of notification to producers for WRP
        participation was addressed and corrected in September 2006.
      Planned Actions for Fiscal Year 2007
       USDA will pilot a Comprehensive Information Management System (CIMS) Managers’ Report to identify differences in information
        provided by producers to RMA and FSA;
       FSA will update procedures for reconciliations, obtain data from RMA to conduct reconciliations, and provide results to RMA;
       FSA and NRCS managers will meet once a week to improve communication and to assure that one agency’s actions do not adversely
        affect the other agency’s programs;
       Publish Routine Uses for System of Records in the Federal Register to allow producer information to be disclosed to RMA and
        subsequently to approved insurance providers, their agents and loss adjusters under contract with RMA; and
       Continue to develop and implement CIMS;
       Establish a FSA/RMA working group to review and implement consistent crop reporting dates;
       Enhance FSA/RMA transition tables to compare State, county and crop data;
       Continue efforts to design, build and implement new functionality within the Conservation Programs ProTracts application to streamline
        and integrate program management and program payments associated with easement programs better. This new functionally will leverage
        cross-agency Web services;
       Develop an integrated application for USDA’s Grants Management Line of Business. This initiative will establish business processes and
        technology-based services to improve customer access, submission processes, decision-making and reporting;
       Continue cross-agency coordination meetings to address data sharing opportunities, common development practices, increase awareness
        of agency information systems and help eliminate duplicate information management systems. Current data sharing efforts include
        geospatial, eligibility Web services, land and tract information, payment information and customer files; and
       Continue efforts to incorporate data mining technology into its business applications to detect anomalies and potential for erroneous payments.




                                                                                                                                                USDA
                                                                             FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT               9
                                                 MANAGEMENT’S DISCUSSION AND ANALYSIS




x        Improve communication and strengthen controls for beef exported to Japan.
         Fiscal Year 2006 Accomplishments
            Posted approved products listed for all export verification (EV) programs on shared internal Web site;
            Signed a Memorandum of Understanding outlining the responsibilities of both AMS and FSIS pertaining to the EV program;
            Issued a revised policy notice (#19-06) that describes the process for certifying beef products under export verification programs; and
            Provided training to responsible inspection program personnel and conducted audits of all plants approved for shipments to Japan.
         Planned Actions for Fiscal Year 2007
          Continue to provide training to employees who are responsible for EV.



2) Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed.
x        Strengthen the quality control in the Federal Crop Insurance Programs.
         Fiscal Year 2006 Accomplishments
          RMA completed a review of selected approved insurance providers operations to determine their compliance with quality control guidelines
           outlined in the Standard Reinsurance Agreement and associated Appendix IV.
         Planned Actions for Fiscal Year 2007
          Continue reviews of selected Approved Insurance Provider operations to determine their compliance with quality control guidelines outlined
            in the Standard Reinsurance Agreement and associated Appendix IV.
x        Improve Forest Service (FS) internal controls and management accountability in order to effectively manage its resources, measure its
         progress towards goals and objectives, and accurately report its accomplishments.
         Fiscal Year 2006 Accomplishments
          Completed actions to improve controls over unliquidated obligations and accruals which reduced the material weaknesses to reportable
           conditions;
          Established accountability and implemented management controls to ensure performance reporting accuracy;
          Developed plans and schedules to accomplish unmet targets and goals from the FY 2006 Program Directive;
          Resolved key issues regarding further implementation of the Performance Accountability System (PAS);
          Conducted comprehensive internal control risk assessment for FS programs and developed plans to address identified risks; and
          Developed and installed additional security features needed to meet the minimum security standards at aviation facilities.
         Planned Actions for Fiscal Year 2007
          Conduct oversight reviews on performance accountability in various regions and annual risk assessments of all financial/mixed financial
           systems;
          Implement corrective actions identified through OMB Circular A-123, Appendix A, and OIG audits; and
          Improve oversight of national firefighting contract crews.
x        Capitalize on Farm Service Agency compliance activities to improve program integrity.
         Planned Actions for Fiscal Year 2007
          Review results from the County Operations Review Program monthly and address internal control weaknesses;
          Monitor progress toward remediation of control weakness identified in the OMB Circular A-123, Appendix A assessment; and
          Implement recommendations to improve internal control and reduce/eliminate improper payments.




3) Continuing Improvements Needed in Information Technology (IT) Security
x        Emphasize security program planning and management.
         Fiscal Year 2006 Accomplishments
          Developed a Department-wide FISMA Cyber Security scorecard that is issued monthly to Senior IT leadership and executive management
           within the Department;
          Implemented an automated tool (ASSERT) for management of IT Systems Security categorization in accordance with FIPS 199 and
           management of Plan of Action and Milestones (POAMs) for the resolution of identified security vulnerabilities; and
          Implemented a Cyber Security Liaison Program to assist USDA agencies in the implementation and management of IT risk management
           programs.
         Planned Actions for Fiscal Year 2007
          Establish an Executive Management Committee to address all issues of the IT material weaknesses and issue action lists for corrections to
           eliminate USDA’s material weaknesses; and
          Complete a full review of the Cyber Security Departmental manual and revise its policies, procedures and requirements as needed to
           closely align with NIST and other Federal regulations and laws.




USDA
    10             FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




x   Establish an internal control program throughout the systems’ lifecycle.
    Fiscal Year 2006 Accomplishments
     Developed the Capital Planning and Investment Process throughout USDA; and
     Identified a matrix organizational structure within OCIO in which subject matter experts who work closely with systems owners and
      program offices to ensure all Federal control requirements are incorporated into a system’s lifecycle.
    Planned Actions for Fiscal Year 2007
     Implement an internal control program that includes the continuous monitoring required by systems and processes covered under A-123.
       In addition, USDA will conduct agency-level security reviews and verify POAM closures.
x   Identify, test, and mitigate IT security vulnerabilities (risk assessments).
    Fiscal Year 2006 Accomplishments
     Performed periodic on-site compliance reviews.
    Planned Actions for Fiscal Year 2007
     Use the ASSERT tool to ensure that risk ratings are properly assigned and risk assessment performed; and
     Update policy and procedure, implementing new scorecard reporting elements, and conduct risk assessments in ASSERT.
x   Improve access controls.
    Fiscal Year 2006 Accomplishments
     Established a program office responsible for implementing the Homeland Security Presidential Directive-12; and
     Ensured that OCIO network monitoring and system patching programs have resulted in a reduction of security incidents in comparison to
      previous years.
    Planned Actions for Fiscal Year 2007
     Increase oversight of configuration control processes.
x   Implement appropriate application and system software change control.
    Fiscal Year 2006 Accomplishments
     Reviewed Configuration Control Board charters and meeting minutes from all USDA component agencies.
    Planned Actions for Fiscal Year 2007
     Increase oversight of configuration control processes within the Department.
x   Develop disaster contingency (service continuity) plans.
    Fiscal Year 2006 Accomplishments
     Successfully tested 97 percent of agency Continuity of Operations Plans.
    Planned Actions for Fiscal Year 2007
     Fully implement the Living Disaster Recovery Plan System.




4) Reducing Improper Payments Continues to be a Priority of the Administration and Congress.
x   Assign sufficient resources and provide management oversight.
    Fiscal Year 2006 Accomplishments
     Implemented the Management Initiatives Tracking System (MITS) scorecard module (MITS is an interactive Web-based database
      designed to allow Department management to monitor progress toward achieving management initiatives); and
     Enhanced the statistical sampling process to include FSA County Office Review Program (CORP) Staff.
    Planned Actions for Fiscal Year 2007
     Develop plans to measure improper payments for high risk programs.
x   Strengthen program risk assessment methodology to identify and test the critical internal controls over program payments totaling more than
    $100 billion.
    Fiscal Year 2006 Accomplishments
       Developed a list of all USDA programs and completed scheduled risk assessments;
       Completed statistical sampling process required for high-risk programs and developed corrective action plans;
       Updated risk assessment, measurement plan and corrective action plan guidance;
       Received OMB concurrence to remove several subcomponents from the high risk list;
       Established a team to review field operations and make recommendations to improve processes to reduce improper payments;
       Identified critical program requirements and internal controls for eligible payment; and
       Tested internal controls to ensure they were working as intended.




                                                                                                                                          USDA
                                                                          FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT             11
                                                 MANAGEMENT’S DISCUSSION AND ANALYSIS




         Planned Actions for Fiscal Year 2007
          Complete all risk assessments;
          Develop testing criteria to complete the statistical sampling for the FY 2007 review cycle; and
          Review effectiveness of mitigating controls and develop a plan to remediate controls, as applicable.
x        Develop a supportable methodology/process to detect and estimate the extent of improper payments.
         Fiscal Year 2006 Accomplishments
         Implemented a process for the statistical sampling of high-risk programs.
         Planned Actions for Fiscal Year 2007
          Conduct a statistical sample for specific high risk programs, initiate corrective actions and set improvement targets; and
          Identify the types of administrative errors affecting improper payments and remediate weaknesses.
x        Develop and implement a corrective action plan to address the weaknesses that allowed the improper payments to occur.
         Planned Actions for Fiscal Year 2007
          Establish a field operation team to evaluate field vulnerabilities; and
          Develop and implement recommendations from the field operations team to reduce improper payments.
x        Agencies that have identified programs that are susceptible to improper payments need to develop and implement action plans to reduce the
         amount of these payments.
         Fiscal Year 2006 Accomplishments
          Chartered a Task Force consisting of a cross-section of field office representatives to study, analyze results and make recommendations to
           improve program delivery and reduce improper payments;
          Identified training needs for National, State and county office staffs; and
          Issued notices to all offices pertaining to the Improper Payment Improvement Act and findings associated with reviews of the Loan
           Deficiency Payments, Marketing Assistance Loans, Crop Disaster, Direct and Counter Cyclical Programs.
         Planned Actions for Fiscal Year 2007
          Revise performance standards for field operations staff and program managers to include responsibilities for reducing improper payments
           as a element;
          Implement a quarterly review process for service center staff to ensure quality of work;
          Implement a training course to assist service center employees in understanding the impact of completing all the needed actions prior to
           making program payments;
          Complete review and update national instructions to remove ineffective controls; and
          Monitor the action plans to respond to areas of weaknesses identified by the sampling results.



5) Departmental Efforts and Initiatives in Homeland Security Need to be Maintained.
x        Continue vulnerability and risk assessments to determine adequate food safety and security over agricultural commodities that the
         Department manages, transports, stores and distributes; and
x        Continue to work with other USDA agencies to ensure effective coordination and implementation of Homeland Security Presidential Directive
         (HSPD) 9; e.g., develop animal and plant diagnostic and tracking networks.
         Planned Actions for Fiscal Year 2007
          Host bi-weekly homeland security discussions with mission area representatives;
          Require bi-weekly updates on homeland security projects from component agencies, and quarterly status reports on Homeland Security
           Presidential Directive 9 tasks from mission areas;
          Conduct CARVER + Shock risk assessment (CARVER + Shock is a risk tool designed to identify vulnerabilities and rate the risk
           associated with those vulnerabilities) to determine appropriate levels of security needed to USDA-owned agricultural commodities; and
          Analyze risk assessment findings and identify changes needed to existing policies and procedures, and issuing revised policies and
           procedures.




USDA
    12            FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




6) Department-wide Efforts and Initiatives on Genetically Engineered Organisms (GEO) Need to be Strengthened.
x    Strengthen GEO field testing process.
    Fiscal Year 2006 Accomplishments:
     Developed the Plant Made Pharmaceutical and Plant Made Industrial guidance.
    Planned Actions for Fiscal Year 2007
      Prepare updated guidance for developers of agricultural biotechnology that will specify required field data reports;
      Publish an environmental impact statement (EIS) on the APHIS regulation revisions;
      Coordinate with the Biotechnology Regulatory Services on inspections of notifications and permit field tests;
      Continue bilateral and multilateral activities to provide continuity and sustained presence needed to assure market access for U.S.
       agricultural exports and to foster the global acceptance of agricultural biotechnology, as well as targeting new activities in support of free
       trade discussions;
     Maintain rapid response mechanisms to address evolving and emergency issues, implement programs, and coordinate biotech initiatives
       with broader USDA and USG trade policy initiatives; and
     Initiate activities that inform new areas of biotechnology research and product development.
x   To promote export of genetically engineered crops, develop a coordinated global market strategy that will guide negotiations with countries
    reluctant to import genetically engineered crops and open new markets willing to import American agricultural products.
    Fiscal Year 2006 Accomplishments:
     Drafted strategy for inter-U.S. Government agency review aimed at advancing the international development of science and rule-based
      regulatory systems for the products of agricultural biotechnology and adherence to WTO principles. This is intended to help foster global
      market access for U.S. agricultural products produced through genetic engineering;
     Provided strategy and rationale for funding proposal to the FAS Emerging Markets Program for international outreach programs intended
      to help foster global market access for U.S. agricultural products produced through genetic engineering;
     Met regularly with other USDA agencies and other U.S. Government agencies to plan and coordinate responses to biotechnology policy
      issues and to plan international biotechnology outreach and promotion activities; and
     Undertook numerous bilateral and multilateral activities aimed at advancing the development of science and rule-based regulatory systems
      and to maintain liberal trade policies and market access for U.S. genetically engineered crops.
    Planned Actions for Fiscal Year 2007
     Continue bilateral and multilateral activities to provide continuity and sustained presence needed to assure market access for U.S.
      agricultural exports and to foster the global acceptance of agricultural biotechnology, as well as targeting new activities in support of free
      trade discussions;
     Maintain rapid response mechanisms to address evolving and emergency issues, implement programs, and coordinate biotech initiatives
      with broader USDA and USG trade policy initiatives; and
     Initiate activities that inform new areas of biotechnology research and product development.


7) USDA’s Responses to the 2005 Hurricanes Needs Ongoing Oversight.
x   Provide sufficient oversight to ensure that monies allocated for housing, food stamps, conservation and farm programs are used effectively.
    Fiscal Year 2006 Accomplishments
     Community programs has developed a Duplicate Assistance Disclosure Statement. The statement certifies that the applicant has not
      previously received Federal funds from another Federal agency for the same purpose that Community programs will be utilized. The
      statement is included with the application package which is to be signed by the applicant during the pre-aplication, obligation and closing
      stages of the loan;
     Published Federal regulations and procedures for administering programs under Section 32 of the Agricultural Act of August 24, 1935; and
     Drafted Federal regulations and procedures for Supplemental Disaster Programs.
    Planned Actions for Fiscal Year 2007
     Close out acceptance of applications for disaster assistance authorized under Section 32 and Supplemental Disaster Programs, obligate
      funds and issue payments;
     Establish a Memorandum of Understanding with applicable States for Catfish Grant Program and distribute block grants to States for
      catfish feed losses;
     Publish Federal regulations and program procedure Supplemental Disaster Programs;
     Develop plans to correct deficiencies noted in OIG and GAO reports;
     Discuss disaster issues at National Food Stamp Director’s Conference;
     Modify the Disaster Assistance Web site to better reflect food assistance mission and role;
     Update the Disaster Food Assistance Handbook; and
     Perform periodic inspections to ensure compliance with guidance.




                                                                                                                                               USDA
                                                                            FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT               13
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




Future Demands, Risks, Uncertainties, Events,                    Sharp fluctuations in farm prices, interest rates and
                                                                 unemployment also impact the ability of farmers,
Conditions and Trends
                                                                 other rural residents, communities and businesses to
                                                                 qualify for credit and manage their debts;
                                                                 The impact of future economic conditions and actions
                                                                 by a variety of Federal, State and local Governments
                                                                 that will influence the sustainability of rural
                                                                 infrastructure;
                                                                 The increased movement of people and goods, which
                                                                 provides the opportunity for crop and animal pests
                                                                 and diseases, such as avian influenza and bovine
                                                                 spongiform encephalopathy, to move quickly across
                                                                 national and foreign boundaries;
                                                                 Potential exposure to hazardous substances, which
USDA is influenced by many of the same forces that               may threaten human health and the environment, and
shape the American economy—globalization of markets,             the ability of the public and private sectors to
scientific advances and fundamental changes in the               collaborate effectively on food safety, security and
Nation’s family structure and workforce. U.S. farmers and        related emergency preparedness efforts;
food companies operate in highly competitive markets
                                                                 The risk of catastrophic fire is dependent on weather,
with constantly changing demand for high quality food
                                                                 drought conditions and the expanding number of
with a variety of characteristics, including convenience,
                                                                 communities in the wildland-urban interface; and
taste and nutrition.
                                                                 Efforts to reduce hunger and improve dietary
Additionally, homeland security is a significant, ongoing        behaviors depend on strong coordination between
priority for USDA. The Department is working with the            USDA and a wide array of Federal, State and local
U.S. Department of Homeland Security to help protect             partners.
agriculture from intentional and accidental acts that might
affect America’s food supply or natural resources.

External factors that challenge USDA’s ability to achieve
its desired outcomes include:
    Weather-related hardships and other uncontrollable
    events at home and abroad;
    Domestic and foreign macroeconomic factors,
    including consumer purchasing power, the strength of
    the U.S. dollar, and political changes abroad that can
    impact domestic and global markets greatly at any
    time;
    The availability of funds for financial assistance
    provided by Congress and the local and national
    economies;



USDA
   14       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




USDA’s Results Agenda—Implementing Federal                  USDA employees are charged with executing these
                                                            management initiatives, which they do with an emphasis
Management Initiatives
                                                            on customer service. The PMA calls for the U.S. Office
USDA is working to strengthen its focus on results          of Management and Budget (OMB) to score departments
through vigorous execution of the President’s               on each initiative. Green indicates success, yellow
Management Agenda (PMA). This agenda focuses on             indicates mixed results and red indicates an unsatisfactory
management improvements that help USDA consistently         score. There are two scores awarded. “Status” indicates
deliver more efficient and effective programs to its        that a department is meeting the standards established for
stakeholders. This process is designed to improve           success. “Progress” indicates that it is progressing
customer service and provide more effective stewardship     adequately in meeting established deliverables and
of taxpayer funds. As discussed in the Department’s         timelines.
Strategic Plan for FY 2005-2010, USDA plans to:
   Ensure an efficient, high-performing, diverse                                 HUMAN CAPITAL
   workforce, aligned with mission priorities and             Status                                           Progress
   working cooperatively with partners and the private
   sector;                                                  The PMA calls on Federal Government leaders to think
                                                            boldly and strategically about ways to improve the
   Enhance internal controls, data integrity,
                                                            management and performance of government.
   management information and program and policy
   improvements as reflected by an unqualified audit        This applies to a key initiative of the PMA, strategic
   opinion;                                                 management of human capital.
   Reduce spending and burden on citizens, partners and     USDA is pleased to report that it has fully or substantially
   employees by simplifying access to the Department’s      completed most of the human capital objectives included
   information. This enhancement is added by                in its 2004 Human Capital Strategic Plan. Thus, USDA
   implementing business processes and information          has earned a “green” for status and a “green” for progress
   technology needed to make its services available         for Human Capital. Through the implementation of the
   electronically;                                          Human Capital plan, USDA achieved the following:
   Link budget decisions and program priorities more            Conducted a USDA-wide skills gap analysis;
   closely with program performance and consider the
   full cost of programs and activities;                        Developed and implemented new performance and
                                                                awards policies;
   Reduce improper payments by developing targets and
   implemented corrective action plans;                         Transitioned all mission areas to a multi-level
                                                                performance appraisal program this year;
   Efficiently and effectively manage its real property;
                                                                Achieved a hiring timeline of 21.3 days, one of the
   Transform IT enterprise infrastructure to be cost            lowest in the Federal Government, exceeding the 45-
   effective and consistent across all agencies and             day hiring standard for General Schedule employees;
   geographic regions;                                          and
   Improve its research and development investments by          Developed and maintained a diverse and talented
   using objective criteria; and                                workforce capable of achieving the USDA mission.
   Support the essential work of faith-based and
   community organizations.



                                                                                                                  USDA
                                                           FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT         15
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




In the future, USDA will work with its human capital                    ratings. As a first step to correct this and ensure
partners, OMB and the Office of Personnel                               that performance awards are given according to
Management, and other agencies to help create programs                  level of performance, all agencies in USDA have
that will enhance employee development, increase the use                transitioned to a multi-level performance
of human capital flexibilities for managers in the areas of             appraisal system to allow for distinctions in
recruitment and retention, streamline processes for more                performance. Additionally, USDA has issued
efficient and faster service, and ensure that its workforce             guidance that performance awards tie to level of
has the skills to meet the challenging demands of the 21st              performance;
century. USDA is committed to lead by example and                    Under-representation continues to improve. Last
serving as the vanguard of the Federal Government’s                     year, USDA improved in the representation of
overall human capital transformation efforts.                           Hispanics, American Indians and Asian
USDA has scored green for status and yellow for progress                Americans;
on the September 30, 2006 scorecard.                                 The USDA online training system, AgLearn,
Actions taken by USDA in FY 2006 to achieve these                       continues to expand. Close to 90,000 employees
results include:                                                        have desktop access to more than 1,800 courses,
                                                                        some leading to certificates and university
    Moving aggressively to improve its human capital and
                                                                        degrees;
    increase workforce capacity. These improvements
    have benefited employees and resulted in better                  USDA has 19 mission critical occupations that tie
    systems to hire, retain and reward employees.                       directly to the accomplishment of the strategic
                                                                        goals of the organization. Occupations in the
     USDA recruits thousands of individuals every                      areas of general biological science, soil
        year. In the past, many talented individuals were
                                                                        conservation, forestry, veterinary medicine,
        lost in the recruitment process due to lengthy
                                                                        consumer safety, nutrition, statistics, food
        hiring timelines. To improve this process, USDA
                                                                        inspection and others are critical to the success of
        revamped its hiring processes leading to
                                                                        USDA’s mission. As a result of an effort to
        substantial reductions in the time it takes to hire
                                                                        identify and close skill gaps in these mission
        employees. For general schedule employees,
                                                                        critical occupations, USDA closed gaps in all but
        hiring timelines dropped from more than 40 days
                                                                        1 mission critical occupation, GS-404, Biological
        to an average of just over 21 days, making it the
                                                                        Science Technician, to less than 3 percent; and
        best hiring timeline for a Cabinet-level agency in
        the Federal Government. For senior executive                 Agencies in USDA such as the Forest Service and
        employees, hiring timelines decreased from more                 Food Safety and Inspection Service are moving
        than 100 days 2 years ago to only 43 days. This is              forward with new leader development training
        also one of the best hiring timelines in                        programs to ensure that leaders and managers
        government;                                                     have the skills they need to manage the workforce
                                                                        of the future.
     On the 2004 Federal Human Capital survey,
        USDA employees indicated a concern that they             These are just some of the improvements in human
        were not being rewarded according to level of            capital during the past year. These improvements and
        performance. Some employees receiving                    others are benefiting employees and contributing to
        satisfactory ratings were getting performance            mission accomplishments.
        awards equal to those receiving outstanding



USDA
   16       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                      MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                                     REE-ARS completed 2 studies on 270 FTEs in
                 COMPETITIVE SOURCING                                   FY 2005. Estimated gross savings is $8.1 million
   Status                                           Progress
                                                                        over a 5-year period with annualized savings of
                                                                        $1.62 million for competitive sourcing studies
USDA’s Competitive Sourcing is overseen by the Office
                                                                        completed in FY 2005. Actual savings on the
of the Chief Financial Officer (OCFO). USDA is
                                                                        studies completed in FY 2005 totaled $568,000;
implementing competitive sourcing reasonably and
rationally to achieve significant cost savings, improved             The Forest Service (FS) implemented the public-
performance and a better alignment of the agency’s                      private competition of Information Technology
workforce to its mission. This initiative is aimed at                   services, which is expected to save $146.7 million
improving organizations through efficient and effective                 over 5 years demonstrating the Department’s
                                                                        ability to use the competitive sourcing
competition between public and private sources. The
                                                                        management tool to achieve positive results. FS
Department will continue to simplify and improve the
                                                                        achieved actual savings of $16.8 million in FY
procedures for evaluating sources.
                                                                        2005; and
The Department improved its use of the competitive                   In FY 2006, conducted feasibility studies covering
sourcing process by ensuring that the studies it conducts               more than 3,000 FTEs. If the results of the
reflect more strategically grouped and related functions to             feasibility studies indicate a favorable return on
maximize the impact of this initiative. USDA required                   investment and market research indicates
that a feasibility study, including cost-benefit analysis, be           potential qualified vendors exist, then an A-76
completed prior to conducting a competitive sourcing                    competition will be conducted. If the results are
study. This ensures that functions selected for public-                 not favorable, competitions will not be conducted.
private sector competitions will result in an organization
                                                                    Conducted training on feasibility studies, most
implemented with lower costs and increased management
                                                                    efficient organization and FAIR Act inventory; and
efficiencies. Studies are now being linked to agency
human capital plans to ensure work force planning and               Convened a Department-wide group to review the
restructuring, and retention goals are met while achieving          FAIR Act inventory justifications for similar positions
                                                                    among different agencies Department-wide and
cost savings.
                                                                    addressed inconsistencies in the classification of like
USDA plans to continue to evaluate its positions to                 functions.
identify those that can be studied to achieve efficiency
                                                                 Challenges
and/or quality improvement.
                                                                    FS Legislative Restrictions—House Appropriations
As a result of its achievements and improvements in the             Committee’s Interior, Environment and Related
Competitive Sourcing Program, USDA has earned a                     Agencies Subcommittee limitations on competitive
“green” for status and a “green” for progress.                      sourcing.
Actions taken by USDA to achieve this result include:               Farm Service Agency and Rural Development Legislative
                                                                    Restriction—The Appropriations Act prohibits funds
(Competitive Sourcing results are reported to Congress
                                                                    to be used to study, complete a study of, or enter into a
annually on December 31 for the preceding fiscal year.              contract with a private party to execute, without specific
The results provided in this report are for FY 2005 as              authorization in a subsequent Act of Congress, a
reported to Congress on December 31, 2005.)                         competitive sourcing activity of the Secretary of
    Completed competitions to improve productivity and              Agriculture, including USDA support personnel,
    produce annual savings;                                         relating to rural development or farm loan programs.



                                                                                                                       USDA
                                                                FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT        17
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                                 systems standards and provides maximum support to the
                FINANCIAL PERFORMANCE                            USDA mission. FMMI targets replacement of the
  Status                                           Progress
                                                                 Foundation Financial Information System (FFIS) and the
USDA’s Financial Performance is overseen by the                  replacement of the legacy financial and program ledgers
OCFO, which works in partnership with all USDA                   used in the USDA programs. Replacing FFIS, the core
agencies and staff offices to ensure the Department’s            financial management system, and program ledgers with a
financial management reflects sound business practices.          modern, Web-based core financial management system is
The PMA requires all Federal agencies to maintain an             also expected to eliminate the need to operate and
unqualified financial statement audit opinion, which             maintain many of USDA’s legacy feeder systems as well as
indicates a Department’s financial statements are free of        the data warehouse currently required to produce timely
significant errors or misstatements. USDA financial              external financial statements.
managers have focused significant attention on enhancing         The FMMI investment has the following key attributes:
internal controls, improving asset management,
implementing a standard accounting system and                        Integration with existing and emerging eGovernment
improving related corporate administrative systems across            initiatives such as eGovernment Travel Services,
the Department. USDA’s clean audit opinion was                       ePayroll, Grants.gov, eLoans, (e.g., asset management
sustained in FY 2006.                                                and procurement), and program-specific systems that
                                                                     are subsidiary to the general ledger (e.g.,
Effectively managing the use of taxpayer dollars is a                programmatic loan systems);
fundamental Federal responsibility. USDA intends to
                                                                     Integration with performance management and
ensure that all funds spent are accounted for properly to
                                                                     budgeting, allowing USDA to meet the President’s
taxpayers, Congress and the Government Accountability
                                                                     Management Agenda and Government and
Office. The OCFO works to improve financial
                                                                     Performance Results Act (GPRA) requirements; and
management, in partnership with the chief financial
officers (CFOs) of USDA agencies, as a core attribute of             Compliance with the Federal Financial Management
the Department’s operating culture. OCFO is working                  Improvement Act (FFMIA), including Federal
closely with USDA agencies to eliminate all material                 financial management system requirements,
weaknesses.                                                          applicable Federal accounting standards, and U.S.
                                                                     Government Standard General Ledger at the
OCFO will lead efforts to improve financial management               transaction level performance and highest measure of
information by helping USDA’s agencies develop and                   accountability of taxpayer-dollar use.
access useful and timely information. This information
                                                                 Reducing the Number of Financial System Feeders—USDA’s
includes monthly financial reports, on-line access to real-
                                                                 current financial management system portfolio uses
time information and program cost reporting. By
                                                                 administrative systems to “feed” data into and provide an
enhancing the integrity of financial and administrative
                                                                 integrated financial system solution. Until the legacy
data, the Department will protect corporate assets and
                                                                 applications are retired and replaced, they will be kept
conserve scarce resources.
                                                                 compliant with the Financial Systems Integration Office
Financial Management Modernization Initiative (FMMI)—            core financial systems requirements.
FMMI’s primary objective is to improve financial
                                                                 The Department began to modernize and retire the legacy
management performance by efficiently providing USDA
                                                                 administrative systems in FY 2003. USDA has retired
agencies with a modern, core financial management
                                                                 several of the legacy applications including the
system that both complies with Federal accounting and



USDA
   18       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                   MANAGEMENT’S DISCUSSION AND ANALYSIS




Transportation System, the FTS Telephone System               automated adjustments to payments for outstanding
Program, Billings and Collections System, Fedstrip            producer obligations. This will reduce timeframes from
System and the Motor Pool System. The Personal                application to receipt of benefits; add self-service channels
Property System, Equipment Management System and              via the internet; and store data centrally so that the
Energy Reporting Systems are to be retired and replaced       customer is not bound to a single service center. In
by a different portfolio and investment. The Personal         addition, the computer system will provide a repository of
Property System is to be retired at the end of FY 2007        data and legal transaction records that will allow real-time
and the Equipment Management System at the end of             queries to support the needs of Congress, FSA
FY 2008. The Energy System will be retired when the           headquarters, the Office of Management and Budget, and
data are integrated into another application during FY        other Federal agencies and organizations.
2008. The Purchase Order System will be retired in FY
                                                              FFMIA Financial System Strategy—USDA has evaluated its
2007 following the implementation of the Integrated
                                                              financial management systems to assess compliance with
Acquisition System. The Travel (TDY Portion) and
                                                              the FFMIA. Currently, the Department is not compliant
Government Transportation System applications will be
                                                              with the Federal Financial Management System
replaced and retired by the eGovernment Travel
                                                              Requirements, applicable Federal accounting standards,
Application Service provider during FY 2008. The
                                                              the Standard General Ledger at the transaction level or
Purchase Card Management System may be replaced in
                                                              the Federal Information Security Management Act
FY 2009 by an Application Service Provider since the
                                                              (FISMA) requirement. USDA’s financial systems strategy
purchase cards, which are part of the GSA Smartpay
                                                              is to continue working in FY 2007 to meet FFMIA and
process will be renegotiated and in place by that time.
                                                              FISMA objectives. The Office of the Inspector General
Telephone and Utilities applications are being reviewed to
                                                              identified material weaknesses for USDA’s information
be replaced by an Application Service Provider during FY
                                                              technology security and controls in FY 2006. The
2007.
                                                              Department added new initiatives with several milestones
FSA/CCC MIDAS The Modernize and Innovate the Delivery of      to improve the controls over the CCC’s information
Agricultural Systems (MIDAS)—MIDAS will transform the         security program and financial management systems and
delivery of farmer benefits through a direct linkage with     reporting, and the NRCS’ application controls for the
USDA’s FMMI system. This link will help reduce                Program Contracts System. While USDA has completed
erroneous payments. MIDAS will increase staff                 many of the FY 2006 initiatives to comply with statutory
productivity through streamlined and automated farm           requirements, it will continue monitoring progress on
program procedures. Fewer staff will be needed to handle      plans to improve its financial management systems. The
the current program volume as staff will be freed from        Department also will work to comply fully with FISMA
cumbersome manual processing, duplicative data entry,         requirements.
and daily system maintenance activities required by the
                                                              USDA’s plans to improve financial management include:
legacy environment. County office employees can focus
on serving the customer while meeting program                     Maintaining an unqualified audit opinion on its
requirements. MIDAS also leverages modern technology              financial statements;
to enable Web user interface and strengthens USDA’s               Continuing to work toward eliminating all material
considerable investment in geospatial technology.                 weaknesses;
MIDAS will provide automated real-time centralized
                                                                  Improving financial reporting procedures and
payment eligibility determination, thorough
                                                                  systems; and
documentation of business ownership/participation, and



                                                                                                                   USDA
                                                             FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT        19
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




   Increasing the use of financial information in day-to-        financial statement line-item variance and other
   day decision-making.                                          aspects of financial statement preparation to assure
                                                                 quality of financial statement data throughout the
USDA has scored red for status and green for progress on
                                                                 fiscal year;
the September 30, 2006 scorecard.
                                                                 Partnered with the U.S. Department of Veterans
Actions taken by USDA in FY 2006 to achieve these
                                                                 Affairs Financial Services Center in Austin, Texas, to
results include:
                                                                 process USDA telephone and utility bills through the
   Sustained an unqualified audit opinion on its FY              Electronic Data Interchange (EDI) process. This
   2006 consolidated financial statements;                       new process will allow for the invoices to be received
   Held monthly meetings with agency CFOs to discuss             electronically rather than by mail in a paper invoice
   financial management policy, information systems              form. More than 250,000 bills will be processed
   and quality assurance issues and initiatives. At these        annually through EDI. In addition, a vendor inquiry
   meetings, agencies are provided with financial                system will be implemented, which will allow USDA
   indicator data to provide focus for financial reporting       vendors and agencies to check on the status of
   quality control activities;                                   invoices and submit electronic ones. The
                                                                 implementation of this process will greatly increase
   Began Web enablement of USDA Corporate
                                                                 efficiency in the processing of requests for payments
   Financial and Performance Reporting, a quarterly
                                                                 from utility and telephone service providers.
   performance system that the Secretary of Agriculture
   and his senior executives use to drive program results;       During the past 18 months, replaced 350,000 paper
                                                                 checks, which previously would have been issued for
   Implemented the Account Relationship Tool (ART)
                                                                 payments to vendors, with electronic funds transfers
   dashboard, which is the OCFO’s new research and
                                                                 (EFT), saving the taxpayer more than $250,000 and
   analysis application, designed to improve financial
                                                                 providing better and faster service to customers and
   management practices and mitigate weaknesses
                                                                 suppliers. USDA directly deposits funds into
   identified in previous audits. The ART dashboard
                                                                 customers’ and suppliers’ accounts faster than they
   provides financial managers, Department-wide, a
                                                                 would have received a check and reduces costly
   standard analysis tool for quickly identifying where
                                                                 manual effort and potential mistakes; and
   and why general ledger account relationships are out
   of sync, which promotes timely corrective action and          USDA completed all Risk Assessments,
   more accurate financial reporting;                            Flowcharts/Narratives, IT Information Gathering,
   Trained nearly 300 of the Department’s                        Risk and Control Matrices, Entity-level Controls,
   approximately 2,500 financial managers to use ART.            General Computer Controls, Katrina Controls,
   Initial user reactions indicate significant time savings      Process and IT Test Plans and results as required to
   when researching relationship anomalies allowing              implement A-123 Appendix A, “Internal Control
   more time for analysis and corrective action;                 over Financial Reporting.” USDA agencies have
                                                                 finalized remediation summaries and corrective action
   Improved agencies’ financial performance measures,
                                                                 plans to address reportable conditions and material
   targets and milestones as part of their efforts to
                                                                 weaknesses. USDA will track critical path activities
   expand the use of financial information for decision-
                                                                 related to its assessment of internal control over
   making;
                                                                 financial reporting and make monthly status reports
   Continued reviews and analysis of year-end adjusting          on progress toward correcting material weaknesses.
   entries, standard general ledger abnormal balances,



USDA
  20        FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                                wide credential service providers. This certification
               ENHANCING EGOVERNMENT                            enables USDA to provide Level 2 credentials to other
  Status                                         Progress
                                                                Federal agencies;
USDA launched a Department-wide effort in 2001 to               Integrating USDA’s eAuthentication Service with
improve the methods through which its agencies                  Grants.gov. Previously, the Service was integrated
collectively executed its broad mission objectives. The         with the U.S. Department of Commerce
Department’s strategies, published in USDA’s                    (www.export.gov), the National Park Service
eGovernment Strategic Plan in 2002, focus on improving          (Research Permit Reporting System), U.S.
the delivery of information and services and reducing           Department of Housing and Urban Development
costs. USDA participates in 22 of the 26 Presidential           (FHA Connection mortgage lending) and National
eGovernment Initiatives and 8 of the 9 lines of business.       Science Foundation (FastLane);

USDA is using its Enterprise Architecture (EA) to               Integrating USDA’s eAuthentication Service with
inform and guide its decision making. (EA refers to a           another 78 USDA Web-based applications, bringing
strategic information asset base.) The base defines a           the total number of integrated applications to 211 —
Department’s mission, the information and technologies          exceeding both the FY 2006 target of 175 and the
necessary to perform that mission, and the transitional         FY 2007 target of 200;
processes executed in response to any changing mission          Authorizing more than 95,000 employees and
needs.                                                          110,000 customers for USDA’s eAuthentication
                                                                Service;
USDA activities for FY 2006 support the following goals:
                                                                Continuing the promotion of AgLearn as USDA’s
    Provide customers with single points of access to
                                                                official training system (AgLearn is the Department’s
    information and shared services;
                                                                implementation of the eTraining Presidential
    Simplify and unify business processes spanning              eGovernment Initiative). In a typical month, 45,000
    multiple agencies;                                          employees completed 760 different courses on
    Establish information and service-delivery standards;       AgLearn;
    and                                                         Integrating the USDA Graduate School’s catalog of
    Consolidate redundant IT services and systems               courses into AgLearn;
    through the use of shared USDA or Government-               Initiating a data feed from AgLearn to OPM to
    wide services.                                              transmit mandatory employee training data
                                                                electronically. This information is then accessible
USDA has scored red for status and yellow for progress
                                                                through the Electronic Official Personnel Folder;
on the September 30, 2006 scorecard.
                                                                Providing Department-wide, agency-specific
Actions taken by USDA in FY 2006 to achieve these
                                                                mandatory training, e.g., security, privacy and ethics
goals include:
                                                                training, through AgLearn;
    Expanding the IT capital planning process to include
                                                                Offering more than 3,000 agency-specific courses on
    EA, IT governance, earned-value management and
                                                                AgLearn;
    independent baseline reviews of all major IT
    investments;                                                Negotiating a volume discount for AgLearn that
                                                                reduced the cost per license by 28 percent;
    Receiving certification of USDA’s eAuthentication
    Service as one of four GSA-approved, Government-



                                                                                                                USDA
                                                            FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      21
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




   Launching the Enterprise Correspondence                      priorities based on the strategic goals and desired
   Management Module (ECMM) to replace the legacy               outcomes included in the Department’s strategic plan.
   Staff Action system to manage the Secretary’s                USDA continues to improve its ability to measure
   correspondence. ECMM is designed to track                    performance with an emphasis on measuring gains in
   incoming correspondence from public, private or              efficiency.
   political sources. Several agencies now use ECMM to
                                                                USDA plans to:
   track their own correspondence;
                                                                    Continue using performance information during all
   Converting more than 730,000 staff action documents
                                                                    stages of the budget process;
   to ECMM. More than 120,000 documents have been
   created since ECMM launched at the beginning of                  Systematically evaluate programs and integrate the
   FY 2006;                                                         results of those evaluations into the budget decision-
                                                                    making process, i.e., rely upon PART assessments in
   Moving 20 business applications to the Enterprise
                                                                    budget formulation;
   Shared Services platform provided by USDA’s
   National Information Technology Center (NITC).                   Improve measurement of program performance and
   NITC operates 24 hours a day, 7 days a week, offers              efficiency improvements; and
   Level 4 security clearances and hosts                            Develop the Department’s budget focusing on
   GovBenefits.gov;                                                 achieving the goals and outcomes contained in the
   Converting more than 40 agency Web sites to the                  new strategic plan.
   standardized format established by the Department.
                                                                USDA has scored yellow for status and green for progress
   Another 46 Web sites are in the planning/building
                                                                on the September 30, 2006, scorecard.
   phase; and
                                                                Actions taken by USDA in FY 2006 to achieve these
   Migrating four agencies (Animal and Plant Health
                                                                results include:
   Inspection Service, Foreign Agricultural Service,
   Farm Service Agency and Food Safety and Inspection               Publishing a new Strategic Plan for 2005-2010 that
   Service) to the Federal Docket Management System                 identified key policy and management objectives. It
   (FDMS) in partnership with the E-Rulemaking                      focuses on providing effective management of the
   Presidential Initiative. FDMS makes all information              Department’s resources to deliver its multifaceted
   pertaining to Federal regulation available to the public         programs most effectively;
   via the Internet. All remaining USDA rulemaking                  Working with OMB, USDA conducted 33 PART
   agencies will convert to FDMS in FY 2007.                        assessments during FY 2006 – 20 of these were new
                                                                    PARTs and 13 were reassessments of programs that
                                                                    had previously earned a “Results Not Demonstrated”
              BUDGET AND PERFORMANCE
                                                                    (RND) rating. Now less than 3 percent of funding
  Status            INTEGRATION                   Progress          goes to programs that have RND PART ratings.
                                                                    Additionally, no USDA programs have an
USDA continues to improve how it integrates
                                                                    “Ineffective” rating;
performance information into its budget decisions and
throughout the budget process. This integration includes            Working with agencies to ensure that the specific
the use of the Program Assessment Rating Tool (PART)                plans and milestones developed to address PART
to assess and improve program performance and efficiency            recommendations are reasonable and detailed enough
to achieve better results. USDA establishes its budget              to fully address PART recommendations. The
                                                                    Department uses the internal scorecard process to


USDA
  22        FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




    track agency progress toward meeting performance                  USDA Real Property Asset Management Strategic Objectives
    targets and addressing PART recommendations;                 1.  Department’s holdings support agency missions and strategic
                                                                     goals and objectives
    Developing budget requests and making budget                 2. Maximize facility utilization by co-locating agency operations
    decisions supported by sound and thorough analysis.              when possible
                                                                 3. Accurately inventory and describe real property assets using the
    This analysis considered the effects of funding                  Corporate Property Automated Information System
    decisions on costs and performance. These budget             4. Use performance measures as part of the asset management
    decisions were presented and justified to Congress               decision process
                                                                 5. Employ life-cycle, cost-benefit analysis in the real property
    and others using performance information;                        decision-making process
    Improving its ability to track and demonstrate the           6. Provide appropriate levels of investment
                                                                 7. Eliminate unneeded assets
    efficient delivery of its programs. USDA worked with
                                                                 8. Use appropriate public and commercial benchmarks and best
    OMB to identify the cost savings related to efficiency           practices to improve asset management
    measures and developed new ones for several                  9. Advance customer satisfaction
    programs; and                                                10. Provide for safe, secure and healthy workplaces

    Developing a new Management Initiatives Tracking
    System to enable more active and efficient                  USDA’s plans include:
    participation by senior Department officials during               Obtaining approval of the USDA Asset Management
    the integration of budget and performance. This                   Plan (AMP), which features policies and
    system will provide the ability to track                          methodologies for maintaining property holdings in
    implementation of the Budget and Performance                      an amount and type according to agency budget and
    Integration Initiative. System features include the               mission. It is designed to optimize the level of real
    implementation of PART improvement plans and                      property operating, maintenance and security costs;
    achievement of performance targets.                               Implementing the approved USDA AMP and
                                                                      accompanying agency building block plans (BBPs);
                                                                      Continuing to gather data to establish baselines and
                     REAL PROPERTY
  Status                                          Progress            draft goals and targets for asset management
                                                                      performance measures;
Executive Order 13327, Federal Real Property Asset                    Identifying and analyzing best internal USDA
Management, establishes the framework for improved use                practices for possible implementation Department-
and management of real property owned, leased or                      wide;
managed by the Federal Government. It is USDA policy
to promote the efficient and economical use of its real               Ensuring that agencies close any remaining data gaps
property assets and assure management accountability for              for constructed asset-level reporting;
implementing Federal real property management reforms.                Maintaining a comprehensive inventory and profile of
Based on this policy, USDA agencies recognize the                     agency real property, and providing timely and
importance of real property resources through increased               accurate information for inclusion into the
management attention, the establishment of clear goals                Government-wide real property inventory database;
and objectives, improved policies and levels of                       Continuing to draft the three-year rolling timeline for
accountability and other appropriate actions. As the                  meeting goals and objectives of the AMP and BBPs.
foundation of USDA’s real property asset management                   The timeline will include an initial list of assets for
program, the following strategic objectives will be used for
real property management improvement:


                                                                                                                             USDA
                                                               FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT             23
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




   disposition and an investment prioritization list for
   mission critical and dependent assets; and                                 RESEARCH AND DEVELOPMENT
   Actively participating in such Government-wide                  Status        INVESTMENT CRITERIA               Progress
   management vehicles as the Federal Real Property
                                                                 This program initiative calls on Federal agencies to apply
   Council (FRPC). FRPC provides a forum to address
                                                                 a framework for planning and assessing research programs
   critical real estate and workplace issues challenging all
                                                                 using three criteria—relevance, quality and performance.
   Federal agencies.
                                                                 USDA’s research and development agencies—the
USDA has scored red for status and yellow for progress           Agricultural Research Service (ARS); Cooperative State
on the September 30, 2006, scorecard.                            Research, Education and Extension Service (CSREES);
Actions taken by USDA in FY 2006 to achieve these                Economic Research Service (ERS); National Agricultural
results include:                                                 Statistics Service; and Forest Service Research and
                                                                 Development—have moved aggressively to integrate this
   Submitting and receiving approval of the
                                                                 framework into their program planning and management
   comprehensive AMP, including agency-specific
                                                                 processes. The use of the criteria is an effective means to
   BBPs;
                                                                 ensure that programs are addressing the right issues,
   Implementing the USDA AMP and agency BBPs;                    meeting high-quality standards and accomplishing their
   Establishing baselines and draft goals and targets for        respective goals.
   asset management performance measures;
                                                                 USDA’s plans include:
   Identifying best internal USDA practices and
                                                                     Continuing to apply the investment criteria in
   including implementation plans in the AMP
                                                                     program planning, management and assessment;
   initiatives for those determined to be for Department-
   wide implementation;                                              Promoting coordination among research agencies to
                                                                     ensure common criteria and performance measures
   Ensuring that USDA agencies continued closing data
                                                                     are used when appropriate; and
   gaps in constructed asset-level reporting;
                                                                     Using the results of program assessments to inform
   Maintaining a comprehensive inventory and profile of
                                                                     program management and budget decision making.
   agency real property;
   Providing timely and accurate information for                 USDA has scored green for status and green for progress
   inclusion into the Government-wide real property              on the September 30, 2006 scorecard.
   inventory database; and                                       Actions taken by USDA in FY 2006 to achieve these
   Finalizing the three-year timeline for meeting goals          results include:
   and objectives of the AMP and agency BBPs, and                    CSREES completed the last of 14 portfolio reviews
   included an initial list of assets for disposition and an         covering its entire program. The reviews have
   investment prioritization list for mission critical and           stimulated additional program level activity, such as
   dependent assets.                                                 preparation of new strategic plans, reallocation of
                                                                     resources, hiring decisions and budget requests. On-
                                                                     going annual self-assessments of the portfolios assess
                                                                     progress;




USDA
  24        FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




    The FS Research and Development (R&D) Division               payments. They are the Farm Security and Rural
    designed its program assessment process based on the         Investment Programs and Wildland Fire Suppression
    R&D criteria and completed its first program review.         Management. Based on these results, USDA met with
    It also completed its first customer-satisfaction survey;    OMB to discuss removing these programs from the high-
    ERS completing its first program review and drawing          risk list. Based on this meeting, USDA will be requesting
    on the recommendations to enhance the program. A             that 5 of the 6 subcomponents of the Farm Security and
    second review has begun;                                     Rural Investment Programs be removed from the high-risk
                                                                 list. It is anticipated that this request will be approved. The
    ARS continuing to conduct program reviews and
                                                                 last component of the Farm Security and Rural Investment
    establishing and filling a position to coordinate the
                                                                 Programs and the Wildland Fire Suppression Management
    program-review process; and
                                                                 program will remain on the high-risk list and be statistically
    ARS and CSREES using the R&D criteria in their               tested in FY 2007. It is expected that these programs will be
    PART analyses.                                               removed from the high-risk list in future years if they
                                                                 continue to perform below the 2.5 percent error rate. Below
                                                                 is a breakout of the two programs.
            ELIMINATE IMPROPER PAYMENTS                              Farm Security and Rural Investment Programs (no
  Status                                           Progress
                                                                     longer high risk)
The Improper Payments Information Act (IPIA) was                      Wildlife Habitat Incentive Program (no longer
implemented in FY 2004 and became a President’s                          high risk)
Management Agenda (PMA) initiative in FY 2005. IPIA
                                                                      Conservation Security Program (remains high
requires that agencies measure their improper payments
                                                                         risk in FY 2007)
annually, develop improvement targets and corrective
action plans and track the results annually to ensure that            Grassland Reserve Program (no longer high risk)
the corrective actions are effective. OCFO has issued                 Wetlands Reserve Program (no longer high risk)
specific policy guidance including templates and timelines
                                                                      Farm-Ranch Lands Protection Program (no
for implementing IPIA and meeting the goals of the
                                                                         longer high risk)
PMA initiative.
                                                                      Environmental Quality Incentive Program (no
Based on recent audit estimates, Federal agencies make                   longer high risk)
annually improper payments totaling more than $37.2
                                                                     Wildland Fire Suppression Management (remains
billion. USDA’s FY 2006 sampling estimated that the
                                                                     high risk in FY 2007)
Department’s improper payments totaled $4.634 billion.
USDA has identified 15 programs that are at risk for             The Farm Service Agency (FSA) made improvements to the
improper payments. The Department has prepared                   quality of its risk assessments and statistical sampling.
corrective action plans for these programs to reduce and         Unfortunately, these improvements resulted in significant
recover improper payments. Reductions in improper                increases in improper payment rates for programs already
payments include decreasing errors for direct benefit            designated as high risk, and four additional programs being
programs and contracting/administrative payments.                declared susceptible to improper payments. The improved
                                                                 statistical sampling focused on verifying program eligibility
Improper payment sampling in FY 2006 showed that 2
                                                                 and uncovered administrative weaknesses that prevent FSA
USDA high-risk programs no longer meet the 2.5 percent
                                                                 from determining if payments are proper. Thus, CCC is
error rate needed to be considered susceptible to improper
                                                                 reporting more than $2.9 billion in estimated potential



                                                                                                                        USDA
                                                                FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT         25
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




improper payments in this report. Aggressive corrective           Actions taken by USDA in FY 2006 to achieve these
action plans are being developed to improve the quality of        results include:
documentation for program eligibility.                               Consolidated small and similar programs together for
USDA’s plans include:                                                improved focus in the risk assessment process. USDA
                                                                     moved from 286 programs in FY 2005 to 146
    Assessing the risk of improper payments in all its               programs in FY 2006;
    programs (programs and activities) annually;
                                                                     Revised risk assessment processes to allow stable
    Working at the Department and agency levels to                   programs previously determined to be at low risk and
    reduce the number of improper payments made;                     with no significant changes to reassess the risk of
    Recovering, where possible, overpayments made to                 improper payments triennially. In FY 2006, 94 stable
    individuals and organizations;                                   low-risk programs relied on the conclusions reached
                                                                     in FY 2005;
    Creating aggressive correction plans with measured
    performance;                                                     Reassessed the risk of improper payments in 41
                                                                     programs and concluded that 4 new programs are at
    Reporting and prosecuting fraud;
                                                                     high risk of improper payments;
    Training field personnel on key controls and teaching            Statistically, or other approved method, sampled 13 of
    the importance of control procedures and the                     15 programs determined to be high risk. The results
    potential risks of noncompliance. Training will be               of these tests are shown in Appendix B of this report;
    delivered through various means including in person              and
    and via AgLearn, a USDA enterprise-wide learning
                                                                     Planned corrective actions and set targets to both
    management system. Communications and job aids
                                                                     reduce and recover improper payments. USDA
    then will follow to help facilitate compliance to
                                                                     submitted these plans to OMB for approval.
    controls;
    Enhance individual accountability of controls by
    performing quarterly control testing on each                               IMPROVED CREDIT PROGRAM
    employee’s program-related payment transactions. A              Status          MANAGEMENT                     Progress
    sample of five producer payments will be selected for
                                                                  Improved Credit Program Management is a new initiative
    each employee for quarterly testing. The results from
                                                                  under the President’s Management Agenda. Beginning in
    these tests will be included as part of the employee’s
                                                                  FY 2006, this initiative required USDA to:
    annual performance plans for the county, district and
    State executive directors;                                       Develop risk factors for predicting the cost of loan
                                                                     programs;
    Integrate the employee’s individual results into his or
    her annual performance rating; and                               Require that guaranteed lending partners have
    Reiterating current program policies regarding                   effective loan-portfolio management and loss recovery
    program compliance through the issuances of national             rates;
    notices to State and county office personnel.                    Verify that lending partners have established quality
                                                                     collateral valuation processes;
USDA has scored yellow for status and green for progress
on the September 30, 2006, scorecard.                                Calculate the cost of originating, servicing and
                                                                     liquidating loans; and




USDA
   26        FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




    Comply with all relevant provisions of the Debt                volume, exceptions to underwriting standards,
    Collection Improvement Act of 1996.                            concentrations of credit risk, delinquency and default
                                                                   rates, rating changes, problem loans, and charge offs,
USDA’s loan portfolio is approximately $100 billion in             and using such information to improve program
outstanding public debt. It represents nearly one-third of         results;
all debt in the Federal Government. USDA often is the              Establishing mutually agreeable goals that can be
lender of last resort, making many loans to borrowers who          justified by comparisons to relevant programs to
are at a higher risk for default.                                  control the total cost of originating, servicing and
USDA is committed to achieving the goals of its credit             liquidating loans and improve the rate of debt
                                                                   recovery; and
programs while effectively managing its portfolio’s
performance. While USDA’s initial scorecard rating was             USDA complying with all relevant provisions of the
“Red” overall and “Red” in progress, the Department also           Debt Collection Improvement Act of 1996.
is developing plans to meet the initiative’s goals. USDA       Actions taken by USDA in FY 2006 include detailed
hopes to receive OMB approval soon. Thus, the                  plans to achieve the requirements for improving credit
Department was upgraded to “Yellow” in progress in the         program management, which were developed and
fourth quarter.                                                submitted to OMB, June 15, 2006.
USDA’s plans include:
    Setting goals related to reaching target borrowers and                        FAITH-BASED AND
    reducing deviation from risk standards;                      Status         COMMUNITY INITIATIVE              Progress
    Setting goals to reduce the total cost of servicing and
    liquidating loans, and improve the debt-recovery rate;     This initiative supports the essential work of faith-based
                                                               and community organizations serving those in need. The
    Establishing customer satisfaction ratings that meet
                                                               initiative accomplishes this goal by ensuring that these
    or exceed industry standards;
                                                               organizations are allowed to compete on equal footing for
    Defining its target borrower segments clearly,             Federal dollars and educating them on grant
    regularly assessing whether its borrowers meet that        opportunities. Agencies have already identified several
    definition and whether such borrowers comprise an          barriers to participation in Federal programs and are
    acceptable risk that can be managed effectively;           working to eliminate them. They are increasing outreach
    Establishes or verifies that partner lenders have          and technical assistance to these organizations. The
    established sound lending policies and procedures          agencies are also testing innovative ways to improve
    implemented in effective transaction-approval              program services by engaging faith-based and community
    processes, loan portfolio management and loss              organizations in pilot projects.
    recovery;;
                                                               USDA has a long history of working with faith-based and
    Establishing or verifying that partner lenders have        community organizations to help those in need. The
    created collateral valuation processes with clear          Department is strengthening these partnerships and
    policies and procedures ensuring independence in           creating new ones to alleviate hunger and build strong
    appraisals and valuations, and adequate monitoring of      communities.
    appraisers’ quality and certification;
                                                               USDA’s plans include:
    Maintaining a reasonable level of risk and
    productivity of taxpayer cash used in lending                  Ensuring that faith-based and community
    programs through effective management information              organizations have equal access to USDA programs;
    reporting. This reporting includes indicators of loan


                                                                                                                    USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT       27
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




    Educating these organizations about any programs            received during the year, spending authority from
    designed to enhance their capacity to serve their           offsetting collections and other budgetary resources.
    communities;
                                                                Appropriations Received as reported in the Statement of
    Continuing to reduce barriers and encourage                 Budgetary Resources differ from Appropriations Received
    participation through improved coordination with            as reported in the Statement of Changes in Net Position
    State and local organizations;                              due to Special and Trust funds receipts. These are shown
    Seeking opportunities to meet the needs of                  as Appropriations Received in the budgetary statement
    communities through USDA programs; and                      but are reported based on their nature, either as exchange
    Reporting on progress to ensure that USDA is                revenue in the Statement of Net Cost, or non-exchange
    producing real results for Americans in need.               revenue or transfers in the Statement of Changes in Net
                                                                Position.
USDA has scored green for status and green for progress
on the September 30, 2006, scorecard.                                                            2006      2005     % Change
                                                                 Appropriations                 109,856    88,940     24%
Actions taken by USDA in FY 2006 to achieve these
results include:                                                 Obligations Incurred           145,458   140,835     3%
                                                                 Net Outlays                     99,674    89,799     11%
    Conducting almost 4,600 outreach and technical
                                                                 Data in millions
    assistance activities throughout the country to help
    engage faith-based and community organizations as
                                                                Appropriations increased by $20.9 billion during FY
    partners;
                                                                2006. Commodity Credit Corporation (CCC) received
    Developing a wide range of Web-based information            $12.7 billion in funds for its prior year realized losses.The
    and resources promoting partnership opportunities           Food and Nutrition Service (FNS) reflected an increase of
    and information on applying for programs;                   $6.4 billion, which was attributed primarily to greater
    Establishing systems to ensure monitoring and               participation in the Food Stamp Program and for higher
    compliance of the Equal Treatment Rule and related          food costs.
    regulations for Federally and State-administered
                                                                Obligations and Outlays
    programs;
                                                                Obligations Incurred increased in FY 2006 by $4.6
    Removing key barriers to access for faith-based and
                                                                billion. $2.8 billion is attributable to the dissolution of
    community organizations; and
                                                                Rural Telephone Bank and 100-percent redemption of
    Expanding efforts and improving data-collection             Class B and C stock. FNS’ obligations for the Food
    quality at the Federal and State levels to measure          Stamp and Child Nutrition Programs accounted for an
    progress on ensuring results for Americans in need.         additional $2.6 billion.
Financial Statement Highlights                                  Net Outlay increases in FY 2006 amounted to $9.9
                                                                billion. These directly relate to the Program Obligations
BUDGETARY RESOURCES AND OUTLAYS                                 as described above. In addition, $1.3 billion of
USDA receives most of its funding from appropriations           disbursement increases in the Electric and Telephone
authorized by Congress and administered by the U.S.             direct financing fund due to the new “Underwriters”
Department of the Treasury. Total resources consist of          program, and $1.6 billion incurred in FY 2006 by NRCS
the balance at the beginning of the year, appropriations        due to the increase in the management for the
                                                                Environmental Quality Incentive Program (EQIP).




USDA
   28       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




BALANCE SHEET AND NET COST OF OPERATIONS
Presented below are some key components of the USDA Balance Sheet for comparison and analysis.
                                                   CONDENSED BALANCE SHEET DATA
                                           As of September 30, 2006 and September 30, 2005
                                                              (in millions)

                                                                              FY 2006        FY 2005       % CHANGE
                      Fund Balance with Treasury                             $42,191        $42,327             0%
                      Accounts Receivable, Net                                  8,881        10,154           -13%
                      Loans Receivable & Related Foreclosed Property           77,791        75,176             3%
                      General Property, Plant, and Equipment, Net               4,905          4,885            0%
                      Other                                                       461           442           -18%
                      Total Assets                                           134,229        132,984             1%
                      Debt                                                     83,447        83,516             0%
                      Loan Guarantee Liability                                  1,296          1,214            7%
                      Other                                                    39,210        46,276           -20%
                      Total Liabilities                                      123,953        131,006            -5%
                      Unexpended Appropriations                                26,385        21,490            23%
                      Cumulative Results of Operations                       (16,109)       (19,512)          -17%
                      Total Net Position                                       10,276          1,978          420%
                      Total Liabilities and Net Position                    $134,229       $132,984             1%



Assets                                                                  importers of tobacco products and importers of foreign
Fund Balance with Treasury                                              tobacco.
Congressional appropriations are the primary funding                    Loans Receivable and Related Foreclosed Property
source for USDA operations.                                             Loans Receivable and Related Foreclosed Property is the
Appropriations are used to fund programs and are                        single largest asset on the USDA Balance Sheet.
available to pay current liabilities and finance authorized             Rural Development offers both direct and guaranteed
purchase commitments. Funds received and disbursed are                  loan products for rural housing and rural business
generally processed by the U.S. Treasury.                               infrastructure. These represent 83 percent of the total
Accounts Receivable                                                     USDA loan programs. Commodity Loans and Credit
In FY 2005, CCC recognized a public receivable in the                   Programs administered by Commodity Credit
amount of $7.1 billion under the Tobacco Transition                     Corporation represent 9 percent of the total. CCC’s loans
Payment Program (TTPP). The receivable is recorded at                   are used to improve economic stability and provide an
the present value of the remaining expected receipts in the             adequate supply of agricultural commodities. CCC credit
Tobacco Trust Fund over a ten-year period beginning in                  programs provide foreign food assistance, expand foreign
2005 and ending in 2014. In FY 2006, $.9 billion was                    markets, and provide domestic low-cost financing to
collected from assessments levied upon manufacturers and                protect farm income and prices. The remaining 8 percent
                                                                        of loans receivable are the direct and guaranteed loan



                                                                                                                               USDA
                                                                       FY 2006 PERFORMANCE      AND    ACCOUNTABILITY REPORT    29
                                          MANAGEMENT’S DISCUSSION AND ANALYSIS




programs administered by the Farm Service Agency,                     during the year and the current year Net Cost of
providing support to farmers who are temporarily unable               Operations. The increase in Net Position by
to obtain private, commercial credit.                                 approximately $8.3 billion can be attributed primarily to
                                                                      the receipt of appropriations in the current year for CCC’s
General Property, Plant and Equipment, Net (PP&E)
                                                                      realized loss in the prior year.
Improvements to Land, which represent 46 percent of the
net PP&E, consist primarily of forest road surface                    NET COST OF OPERATIONS
improvements. Building Improvements and Other
Structures represent an additional 23 percent. Other                              CONDENSED STATEMENT OF NET COST
categories of PP&E include equipment and software.
                                                                                                                             %
Liabilities                                                                                           FY 2006    FY 2005   CHANGE
Liabilities represent the amount of monies or other                    Enhance International
                                                                       Competitiveness and
resources that are likely to be paid as a result of a                  Sustainability of Rural and
transaction or event that has already occurred. However,               Farm Economies:               $24,862    $26,773      -7%
                                                                       Support Increased
no liability can be paid absent an appropriation. Where an             Economic Opportunities
appropriation has not been enacted, liabilities are                    and Improved Quality of
                                                                       Life in Rural America:          3,068      1,014    203%
considered not covered by budgetary resources.                         Enhance Protection and
                                                                       Safety of the Nation’s
Debt-Intragovernmental                                                 Agriculture and Food
Debt of $83 billion represents amounts owed to Treasury                Supply:                         2,980      2,441     22%
                                                                       Improve the Nation’s
from CCC and RD. For CCC, the represents financing                     Nutrition and Health:          53,028     50,987      4%
to support Direct and Counter Cyclical programs, Crop                  Protect and Enhance the
                                                                       Nation’s Natural Resource
Disaster and Loan Deficiency programs. For RD, the                     Base and Environment:          11,488      9,798     17%
debt represents Single and Multi Family Housing Loans                  Net Cost of Operations        $95,426    $91,013      5%
and other Loan Programs.
Loan Guarantee Liability
                                                                      USDA Net Cost of Operations totaled $95 billion and
USDA’s loan guarantee liability is affected by
                                                                      $91 billion for FY 2006 and FY 2005, respectively. FNS
guaranteeing new loans, adjustments from loan activity
                                                                      and RD represent the largest portion of the cost increases.
(i.e. collecting fees, interest subsidies, claim payments),
                                                                      For FNS, the goal to improve the Nation’s nutrition and
and the annual reestimate of loan costs.
                                                                      health amounted to an increase of $2 billion due to
Other                                                                 increased participation and food costs. For RD, the Single
Of the $7 billion decrease in other liabilities, $3.9 billion         Family Housing reestimates and liquidating loan
represents the return of monies to Treasury. These are for            allowance changes in 2006 contributed to approximately
excess funds generated by RD in the pre-Credit Reform,                $2 billion in increased costs associated with the goal to
Rural Housing Insurance and Electric and Telephone                    support increased economic opportunities and improved
Funds. For CCC, the payments to Treasury related to                   quality of life in rural America.
collection of loans made to Russia.

Net Position
The Net Position on the Balance Sheet represents on an
accrual basis, the changes of the assets and liabilities



 USDA
    30         FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT
                                 MANAGEMENT’S DISCUSSION AND ANALYSIS




Systems, Controls and Legal Compliance
Management Assurances
STATEMENT OF ASSURANCE




      The United States Department of Agriculture’s (USDA) management is responsible for establishing
      and maintaining effective management control, financial management systems and internal control over
      financial reporting that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA).
      USDA provides a qualified statement of assurance that internal control, financial management systems
      and internal controls over financial reporting meet the objectives of FMFIA, with the exception of four
      material weaknesses. The details of the exceptions are provided in the FMFIA section of this report.

      USDA conducted its assessment of the financial management systems and internal control over 1) the
      effectiveness and efficiency of operations and compliance with applicable laws and regulations as of
      September 30, 2006, and 2) financial reporting as of June 30, 2006, which includes safeguarding of
      assets and compliance with applicable laws and regulations, in accordance with the requirements of the
      Office of Management and Budget Circular A-123, “Management’s Responsibility for Internal
      Control.” Based on the results of these evaluations, USDA identified four material weaknesses in its
      internal control over financial reporting.

      Other than the exceptions noted in the FMFIA section, financial management systems conform
      substantially with the objectives of FMFIA and the internal controls were operating effectively and no
      other material weaknesses were found in the design or operation of the internal control over 1) the
      effectiveness and efficiency of operations and compliance with applicable laws and regulations as of
      September 30, 2006, and 2) financial reporting as of June 30, 2006. However, Departmental
      management identified potential violations of the Anti-Deficiency Act. These potential violations relate
      to restrictions on the use of funds to combat forest fires and transportation costs for donated food
      commodities. The latter transaction also potentially violated the Commodity Credit Corporation
      Charter Act and commodity procurement regulations.

      Insert Agency Head Signature

      Mike Johanns
      Secretary of Agriculture
      November 15, 2006



                                                                                                                 USDA
                                                          FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT       31
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




Federal Managers’ Financial Integrity Act Report on              On December 21, 2004, OMB revised Circular A-123,
Management Control                                               “Management’s Responsibility for Internal Control.”
                                                                 Circular A-123 provides guidance to Federal managers on
BACKGROUND                                                       improving the accountability and effectiveness of Federal
The Federal Managers’ Financial Integrity Act of 1982            programs and operations by establishing, assessing,
(FMFIA) requires ongoing evaluations of internal control         correcting and reporting on internal control. It also
and financial management systems culminating in an               provides updated internal control standards by GAO and
annual statement of assurance by the agency head that:           new specific requirements for conducting management’s
                                                                 assessment of the effectiveness of internal control over
    Obligations and costs comply with applicable laws            financial reporting (A-123, Appendix A).
    and regulations;
    Federal assets are safeguarded against fraud, waste          In November 2005, USDA adopted the governance
    and mismanagement;                                           structure recommended by OMB in the revised circular.
                                                                 The Department also established a Senior Management
    Transactions are accounted for and properly recorded;        Control Council (SMCC) and Senior Assessment Team
    and                                                          (SAT) to ensure the highest levels of management
    Financial management systems conform to standards,           commitment to compliance with the objectives of internal
    principles and other requirements to ensure that             control. The SMCC is chaired by the Deputy Secretary
    Federal managers have timely, relevant and consistent        and co-chaired by the Chief Financial Officer.
    financial information for decision-making purposes.          Undersecretary and staff agency leaders comprise the
                                                                 committee. The SMCC monitors the Department-wide
Furthermore, FMFIA provides the authority for the
                                                                 assessment activities and progress in correcting USDA’s
Office of Management and Budget (OMB), in
                                                                 material weaknesses. It also ensures that appropriate
consultation with the Government Accountability Office
                                                                 follow-up is executed. Ultimately, the SMCC
(GAO), to establish and revise periodically the guidance
                                                                 recommends to the Secretary of Agriculture the level of
to be used by Federal agencies in executing the law.
                                                                 assurance to be provided in the annual assurance
In addition to FMFIA, the Federal Information Security           statement. SAT derives its authority from the SMCC and
Management Act (FISMA) requires agencies to report               oversees the assessment process for internal control of the
any significant deficiency in information security policy,       financial reporting. A Department-wide Assessment
procedure or practice identified (in agency reporting):          Implementation Team also was established to plan and
    As a material weakness in reporting under FMFIA;             execute the process for assessing the effectiveness of the
    and                                                          Department’s internal control over financial reporting.

    If relating to financial management systems, as an           USDA operates a robust internal control program to
    instance of a lack of substantial compliance under the       ensure compliance with the requirements of FMFIA and
    Federal Financial Management Improvement Act                 other laws, and OMB Circulars A–123, “Management’s
    (see the Report on Financial Management Systems).            Responsibility for Internal Control,” and A–127,
    The act requires that financial management systems           “Financial Management Systems.” All USDA managers
    comply substantially with: (1) Federal financial             are responsible for ensuring that their programs operate
    management system requirements; (2) applicable               efficiently and effectively, and comply with relevant laws.
    Federal accounting standards; and (3) the Standard           They also must ensure that financial management systems
    General Ledger at the transaction level.                     conform to applicable laws, standards, principles and
                                                                 related requirements. In conjunction with OIG and



USDA
   32       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                      MANAGEMENT’S DISCUSSION AND ANALYSIS




GAO, USDA management works aggressively to                           Physical Access Control—Weaknesses include lack of
determine the root causes of its material weaknesses to                 access approval documentation to data centers,
correct them promptly and efficiently. The term                         and financially significant systems and software
“material weakness” describes both material weaknesses                  operating outside of controlled data centers;
and financial system non-conformances, collectively.                 Software Change Control—Weaknesses include
USDA remains committed to reducing and eliminating                      changes made to software without testing,
the risks associated with its deficiencies and operating its            unauthorized users with the ability to update
programs efficiently and effectively in compliance with                 production data and incomplete change control
FMFIA.                                                                  documentation; and
                                                                     Disaster Recovery—Weaknesses pertain to the lack
FY 2006 Results                                                         of timely recovery capability and controls in the
The “Secretary’s Statement of Assurance” provides                       event of a disaster, such as established agreements
qualified assurance that USDA’s systems of internal                     for backup recovery sites.
control comply with FMFIA’s objectives. During FY
2006, USDA completed a single-year implementation of                USDA County Office Operations—The Commodity Credit
OMB Circular A-123, Management’s Responsibility for                 Corporation (CCC) issues payments and loans to
Internal Control, Appendix A. Management’s assessment               farmers through the Farm Services Agency’s 2,400
of internal controls over financial reporting, as of June 30,       county offices. Given the large number of offices and
2006, identified four material weaknesses, three existing           the limited resources available to staff them,
and one new material weakness.                                      management acknowledged that segregation of duties
                                                                    and access issues exist because a single employee can
Corrective action plans have been prepared for each                 record, approve and issue payments, and create and
deficiency. Progress toward correcting them will be                 maintain producer information, and approve and issue
monitored monthly, as required. A description of each               commodity loans and receive loan repayments.
weakness as of June 30, 2006, is described below.
                                                                    Financial Accounting and Reporting—CCC and FS
    USDA Information Technology (IT)—Management identified          management reported a lack of effective preventive
    internal control deficiencies in the design and                 and detective controls around the completeness,
    operating effectiveness of controls in the following            accuracy and validity of accrual estimate calculations.
    four general computer control areas which aggregate             While the FS was successful in downgrading accruals
    to an overall IT Material Weakness: Logical Access              from a standalone material weakness, the reportable
    Controls, Physical Access Controls, Software Change             condition when aggregated at the Department level
    Controls and Disaster Recovery. Agency internal                 remains a material weakness.
    control weaknesses were aggregated and contribute to
                                                                    Additionally, the CCC financial statement audit
    the USDA material weakness as identified below.
                                                                    revealed deficiencies in the compilation of the
     Logical Access Control—Weaknesses include user                Statement of Financing.
        accounts without approved access request forms,
                                                                    Funds Control Management—Internal controls supporting
        lack of certification of access to critical files and
                                                                    the accuracy, completeness and validity of obligations
        databases, weak password parameters, lack of
                                                                    were not operating effectively at Commodity Credit
        audit logs, lack of audit log review and terminated
                                                                    Corporation (CCC) and Forest Service (FS) through
        users whose access to IT systems has not been
                                                                    June 30, 2006. Additionally, the audit found that the
        removed;
                                                                    FS year-end process was not operating effectively.



                                                                                                                    USDA
                                                                FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT     33
                                               MANAGEMENT’S DISCUSSION AND ANALYSIS




      The consolidated financial statement audit also                            Exhibit 5:     Material Weaknesses Increased Slightly
      disclosed that certain component agencies were not
                                                                                                                   Corrected/
      effectively reviewing all unliquidated obligations and                         Fiscal      Beginning        Downgraded          New           Remaining
      taking appropriate actions as of September 30, 2006.                            Year      Weaknesses        Weaknesses       Weaknesses       Weaknesses
                                                                                     2003           19                12                1                8
Historical Data on Material Weaknesses                                               2004            8                 7                2                3
                                                                                     2005            3                 1                1                3
In FY 2005, USDA identified three material weaknesses.                               2006            3                 0                1                4
In FY 2006, one new material weakness and additional
areas of concern for the IT material weakness were added
as a result of the assessment of internal control over
financial reporting.

SUMMARY OF MATERIAL WEAKNESSES

Exhibit 6:    Summary of Outstanding Material Weaknesses and Estimated Completion Dates


     Material          1. USDA Information Technology                                Overall Estimated           FY 2008
     Weakness                                                                        Completion Date
     Description—Weaknesses have been identified in changes made to software without testing, unauthorized users updating production data,
     incomplete change-control documentation, lack of timely recovery capabilities in the event of a disaster, lack of certification of access to critical
     files and databases, weak password parameters, lack of audit logs and reviews, users without appropriate access forms, terminated users not
     being removed from IT systems, and mission-critical and software operated outside of controlled data centers or in data centers without
     adequate physical and environmental protection.

     Responsible Agency(ies)—Multiple agencies.
     Initiative 1.1—Software Change Control
     Critical Corrective Action Milestones:
 x     Evaluate options and conduct market research based on                     x     Perform quarterly reviews of access permissions to production
       requirements analysis to determine configuration management                     servers, security logs, critical folders, file creation, file modification
       software;                                                                       for the separate environments to ensure controls are operating
 x     Update policies, procedures and directives over systems design life             effectively;
       cycle development, testing approval and implementation;                   x     Develop and execute a project to clean up Access Control Facility
 x     Implement procedures, processes and tools and train all staff;                  (ACF2) access rules;
 x     Implement Virtual Local Area Network to install separate                  x     Review all systems for the presence of outdated software and
       environments;                                                                   update or delete any identified;
 x     Test implementation of processes and procedures regularly by              x     Review all systems for missing critical patches and/or updates; and
       selecting changes moved to production for appropriate                     x     Review any improperly configured services, servers or systems
       documentation;                                                                  and configure them in accordance with best practices and Federal
 x     Ensure new users, who require the ability to move code to                       criteria.
       production in accordance with configuration management
       procedures, complete an access-request form and obtain
       appropriate security officer approval prior to obtaining access;
     Initiative 1.2—Disaster Recovery
   Critical Corrective Action Milestones:
 x   Purchase and install servers in alternate WebFarm locations;                x     Review failover test results, update disaster recovery plans and
 x   Ensure that contigency and disaster recovery plans are in                         implement required changes for all USDA financially significant
     compliance with NIST Special Publication 800-34.                                  applications;
 x   Develop comprehensive test plans for testing critical applications;         x     Implement contract for recovery services on critical WebFarm
                                                                                       applications; and




USDA
     34         FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS




    Material          1. USDA Information Technology                               Overall Estimated        FY 2008
    Weakness                                                                       Completion Date
x     Conduct annual disaster recovery failover tests for all USDA             x    Develop continuity of operations plan, regional service-level
      financially significant applications;                                         agreements, contracts for back-up sites and business impact
                                                                                    analyses for critical data centers.
    Initiative 1.3—Logical Access Controls
    Critical Corrective Action Milestones:
x     Develop procedures and provide training on approving and                 x    Prepare cost summary and justification to fund additional servers,
      granting access to financially significant applications and general           central processing units and storage to support audit log software;
      support systems;                                                         x    Implement database audit logging and initiate supervisory review
x     Conduct quarterly reviews of access requests to ensure                        of database administrator activity;
      compliance with procedures;                                              x    Implement an automated process that runs nightly to identify and
x     Develop procedures and provide training to ensure that the                    disable user accounts on general support systems with more than
      quarterly verification process is performed by the appropriate                120 days of inactivity;
      official for user recertification of access to financially significant   x    Develop an employee-transfer policy addressing handling of
      applications and general support systems;                                     property, purchase cards and access to information systems;
x     Identify user role types and definitions, and map the current users      x    Establish a process to identify financially significant applications
      to roles by job assignments;                                                  and general support systems to review against human resource
x     Increase application password parameters to greater than six                  report of active employees and conduct periodic reviews;
      characters and enforce lockout after a limited number of failed login    x    Develop process to validate the completion of reviews and
      attempts for financially significant applications;                            independently verify if separated or transferred employees still
x     Develop process and procedures for distributing audit log report              possess information system access;
      covering security violations, database administrator activity logs,      x    Ensure that all third-party connections to USDA networks are
      network administrator activity logs and access to sensitive datasets          identified and conform to security standards by obtaining
      and resources;                                                                Interconnection Security Agreements, performing security scans
x     Develop process to monitor the review of reports using tracking               prior to network connection and implementing detective controls to
      tools;                                                                        identify unapproved devices; and
x     Generate reports and notification to recipients of security reports      x    Revise USDA network firewall rules to restrict access to only
      and produce monthly status reports showing reports created and                protocols and ports specifically required for USDA-agency mission
      received (information security chief approves and signs the status);          delivery.
x     Perform independent verification to determine that audit logs are
      being reviewed by management and responses monitored by
      information security;
    Initiative 1.4—Physical Access Controls
    Critical Corrective Action Milestones:
x     Review data center physical access policies and procedures, and          x    Obtain physical access request forms for all new users or users for
      revise where necessary;                                                       whom an initial form was never completed;
x     Update computer room facilities or migrate to alternative approved       x    Test for completion of new access request forms and successful
      data centers;                                                                 completion of data center access recertification;
x     Test all environmental controls regularly, at least annually;            x    Conduct site surveys to determine county office physical access
x     Perform recertification of all users with physical access to data             baseline;
      center(s) on an ongoing basis at least annually;                         x    Develop uniform access policies for county offices; and
                                                                               x    Consolidate county office data centers.




                                                                                                                                                USDA
                                                                               FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT                35
                                                 MANAGEMENT’S DISCUSSION AND ANALYSIS




    Material             2. USDA County Offices Operations                          Overall Estimated        FY 2009
    Weakness                                                                        Completion Date
    Description—Segregation of duties and compliance with manual controls in FSA county offices has become difficult to maintain. Controls and
    procedures developed to function with previous staffing are no longer effectively maintaining internal control over financial reporting.

    Responsible Agency(ies)—FSA/CCC
    Initiative 2.1—Management of Producer Banking Information Changes
    Critical Corrective Action Milestones:
x        Perform monthly spot checks of changes made to producer                x     Process bank account changes centrally using Form 1199A and
         banking information;                                                         maintain adequate segregation of duties; and
x        Use automated monitoring to identify potentially suspicious change     x     Automate notification to producers of banking information changes.
         activity;
    Initiative 2.2—Centralize Checkwriting
    Critical Corrective Action Milestones:
x        Conduct monthly spot checks of State and County Office                 x     Implement an automated monitoring tool to ensure proper roles are
         Automation Project (SCOAP) disbursements for compliance policy               maintained; and
         and procedure;                                                         x     Remove paper checks, conduct check inventory, destroy checks
x        Verify check stock inventory monthly;                                        and notify financial-processing institutions.
x        Centralize the payment process through the National Processing
         Service and remove the paper-based certification from SCOAP;
    Initiative 2.3—Internal Control over Collections
    Critical Corrective Action Milestones:
x        Formalize remittance acceptance controls;                              x     Eliminate cash collections.
x        Test these controls quarterly; and
    Initiative 2.4—Training and Improved Accountability
    Critical Corrective Action Milestones:
x        Train field personnel on the nature and importance of controls and     x     Provide for testing of individual accountability and relate results to
         potential risks of non-compliance; and                                       the annual performance process.


    Material             3. Financial Accounting and Reporting                      Overall Estimated        FY 2007
    Weakness                                                                        Completion Date
    Description—Improvement needed in financial accounting and reporting policies, practices and procedures.
    Responsible Agency(ies)— CCC and FS
    Initiative 3.1—Accruals
    Critical Corrective Action Milestones:
x        Develop a decision-tree to define the appropriate accounting           x     Review and enhance policies and procedures specific to each
         treatment for different types of accruals;                                   producer payment program to specifically describe the mechanics
x        Refine the accrual methodology to consider seasonality;                      of the accrual calculation and key program expense drivers to be
                                                                                      used to perform the final program accrual analytical review; and
x        Include additional variables into the accrual statistical model to
         better substantiate the correlation of unliquidation obligations and   x     Reassess the frequency of review for approved accrual entries.
         payment data;
    Initiative 3.2— CCC Financial Statements
Critical Corrective Action Milestones:
x        Assess and revise the overall process used to compile and review       x     Implement quality review procedures to comply with OMB Circular
         the financial statements and notes;                                          A-136, Financial Reporting Requirements.
x        Document the Statement of Financing compilation process; and




USDA
    36            FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                                              MANAGEMENT’S DISCUSSION AND ANALYSIS




     Material          4. Funds Control Management                           Overall              FY 2007
     Weakness                                                                Estimated
                                                                             Completion
                                                                             Date
     Description—Improvements needed in funds control mechanisms.
     Responsible Agency(ies)—Department-wide
     Initiative 4.1—Unliquidated Obligations
     Critical Corrective Action Milestones:
 x     Document CCC obligation business events and develop solutions     x    Select and implement software package;
       for providing pre-authorization of funds;                         x    Establish a Department-wide approach to ensure the effectiveness
 x     Prepare system requirements documentation;                             of control procedures related to unliquidated obligations; and
 x     Complete systems modernization business case;                     x    Implement revised policy for certification of outstanding obligations.
 x     Develop the to-be process design;
 x     Prepare a request for proposal for replacement of non-compliant
       processing systems;


Federal Financial Management Improvement Act                              System Requirements, applicable Federal accounting
Report on Financial Management Systems                                    standards, the Standard General Ledger at the transaction
                                                                          level or the FISMA requirement. As part of its financial
BACKGROUND                                                                systems strategy, USDA agencies will work continuously
The Federal Financial Management Improvement Act                          to meet FFMIA and FISMA objectives. A new Executive
(FFMIA) is designed to improve financial and program                      Information Technology Steering Committee has been
managers’ accountability, provide better information for                  formed to develop an integrated strategy for monitoring
decision-making and improve the efficiency and                            and correcting information technology weaknesses in
effectiveness of Federal programs. FFMIA requires that                    USDA’s financial systems. This committee is comprised
financial management systems provide reliable, consistent                 of senior representatives from the Office of the Chief
disclosure of financial data in accordance with generally                 Information Officer and the Office of the Chief Financial
accepted accounting principles and standards. These                       Officer.
systems must also comply substantially with: (1) Federal                  In assessing on FFMIA conformance, USDA considered
financial management system requirements; (2) applicable                  all the information available. This information included
Federal accounting standards; and (3) the Standard                        the auditor’s opinions on component agencies’ financial
General Ledger at the transaction level. Additionally, the                statements, the work of independent contractors and
Federal Information Security Management Act (FISMA)                       progress made in addressing the material weaknesses
requires that there be no significant weaknesses in                       identified in the FY 2005 Performance and Accountability
information security policies, procedures or practices to be              Report — Report on Management Controls section.
substantially compliant with FFMIA (referred to as
Section 4 in the accompanying table).                                     While USDA’s FY 2006 and FY 2005 Consolidated
                                                                          Financial Statements received an unqualified audit
FY 2006 RESULTS                                                           opinion from the Office of the Inspector General (OIG),
                                                                          the auditor’s Report on Compliance with Laws and
During FY 2006, USDA evaluated its financial
                                                                          Regulations also disclosed that the Department was not
management systems to assess substantial compliance
                                                                          substantially compliant with FFMIA requirements. As a
with the act. The Department is not substantially
                                                                          result of the assessment of internal control over financial
compliant with the Federal Financial Management
                                                                          reporting and the financial statement audit, additional


                                                                                                                                           USDA
                                                                         FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT               37
                                                  MANAGEMENT’S DISCUSSION AND ANALYSIS




weaknesses were identified in information technology                                     progress in addressing its information technology
management, financial accounting and reporting, and                                      weakness. However, additional effort is required to
funds control. These material weaknesses also constitute                                 comply substantially with the Act’s requirements. USDA
non-compliances with FFMIA. Planned corrective                                           will continue monitoring progress on plans to improve its
actions to address these material weaknesses/system non-                                 financial systems to comply fully with FFMIA and
compliances are included in the preceding FMFIA Report                                   FISMA requirements. Significant accomplishments in
on Management Control. The Department made some                                          FY 2006 are listed in the following exhibit.

Exhibit 7:   Initiatives Completed

                                                      Initiatives Completed to Achieve FFMIA Compliance
                                                                                                                                              Completion
                 Agency                                                Initiatives Completed                                                    Date
             Section 1—Federal Financial Management System Requirements
             CCC                 Software change/configuration management                                                                      06/30/2006
                                 Contingency planning                                                                                          06/30/2006
             APHIS               Cyber Security – Scanning and Patching                                                                         5/19/2006
             NRCS                Application controls – ProTracts                                                                               3/31/2006

             Section 2—Applicable Federal Accounting Standards
             FS                  SFFAS 2, Unliquidated Obligation errors; problems with preparing note disclosures;                             6/30/2006
                                 not assessing impact of remaining abnormal balances
                                 SFFAS No. 5 – Accounting for Liabilities of the Federal Government (Incorrect                                  6/30/2006
                                 accruals)
                                 SFFAS 7, Errors with recording timber and non-timber revenue                                                   7/30/2006

             Section 3—Standard General Ledger at the Transaction Level
             FS                  Compliance with the United States Standard General Ledger                                                      6/30/2006
                                                                                           1
             Section 4—Information Security Policies, Procedures or Practices
             1
              Completed corrective actions for this initiative aply to both Section 1 and Section 4 (information security policiies, procedures or practices)
             noncompliances and therefore and not repeated in Section 4.

Exhibit 8:   Initiatives To Be Completed


                                                      Outstanding Initiatives to Achieve FFMIA Compliance
                                                                                        Section of                                           Target
                                  Initiative                                        Non-compliance                   Agency              Completion Date
             Software Change Control                                            Section 1 and Section 4               Multiple             9/30/2008
             Disaster Recovery                                                  Section 1 and Section 4               Multiple             9/30/2008
             Logical Access Controls                                            Section 1 and Section 4               Multiple             9/30/2008
             Physical Access Controls                                           Section 1 and Section 4               Multiple             9/30/2008
             Financial Accounting and Reporting                                 Section 2                           CCC and FS               9/30/2009*
             Funds Control Management                                           Section 3                              Multiple              9/30/2009*
             Sections:
             FFMIA:                                                                    FISMA:
             1 – Federal financial management system requirements.                     4 – Information security policies, procedures or practices.
             2 – Applicable Federal accounting standards.
             3 – Standard General Ledger at the transaction level.

             *Mitigating controls will be placed into operation in the short-term for FSA until the Modernize and Innovate the Delivery of Agricultural
             Systems (MIDAS) initiative becomes fully operational.




USDA
   38            FY 2006 PERFORMANCE            AND   ACCOUNTABILITY REPORT
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




Inspector General Act Amendments of 1988                       Exhibit 9:     Decrease in Total Open Audit Inventory

Management’s Report on Audit Follow-Up
BACKGROUND
During the fiscal year, the Office of the Inspector General
(OIG) audits USDA’s programs, systems and operations.
OIG then recommends improvements to management
based on its findings. USDA management may or may
not agree with the audit’s findings and/or
recommendations. An agreement is reached during the
management-decision process. If management agrees              Note: The FY 2005 ending balance was revised from 164 to 174 to include 9 audits
                                                               that reached management decision in September 2005. One additional audit was
with a recommendation, a written plan for corrective           issued in FY 2005, but was not transmitted to OCFO until FY 2006. These
action with a target completion date is developed. The         adjustments are also reflected in the beginning balances for audits with disallowed
                                                               costs and funds to be put to better use shown in Exhibit 11 and Exhibit 13.
plan then is submitted to OIG for its concurrence. If both
OIG and management agree that the proposed corrective          Audit Follow-Up Process
action will correct the weakness, management decision is       The Inspector General Act Amendments of 1988 require
achieved for that recommendation. Once management              an annual report to Congress providing status of resolved
decision is reached for each recommendation in the audit,      audits that remain open. Reports on resolved audits must
it is considered resolved.                                     include the elements listed in the first three of the
                                                               accompanying bullets. Resolved audits that remain open
Audit follow-up ensures that prompt and responsive             one year or more past the management decision date
action is taken. USDA’s Office of the Chief Financial          require an additional reporting element, as described in
Officer (OCFO) oversees audit follow-up for the                the last bullet below:
Department. An audit remains open until all corrective
                                                                    Beginning and ending balances for the number of
actions for each recommendation are completed. As                   audit reports and dollar value of disallowed costs and
agencies complete planned corrective actions and submit             funds to be put to better use (see definitions below);
closure documentation, OCFO reviews them for
                                                                    The number of new management decisions reached;
sufficiency and determines if final action is completed.
                                                                    The disposition of audits with final action (see
FY 2006 Results                                                     definition below); and
USDA agencies closed 53 audits in FY 2006. The                      For each audit report that remains open more than
Department’s current inventory of audits that have                  one year past the management decision date, the date
reached management decision and require final action to             issued, dollar value and an explanation of why final
close totals 168 which includes 47 new audits in FY 2006.           action has not been taken. For audits in formal
One of these audits is in appeal status. As shown in the            administrative appeal or awaiting a legislative
accompanying exhibit, the Department continues its                  solution, reporting may be limited to the number of
decline in its inventory of open audits in FY 2006. This is         affected audits.
a 26-percent decrease over the past 5 years.




                                                                                                                                       USDA
                                                              FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT                    39
                                            MANAGEMENT’S DISCUSSION AND ANALYSIS




Exhibit 10: Audit Follow-Up Definitions                                   time-phased implementation plan. These reports show
                                                                          incremental progress toward completion of planned
     Term                              Definition                         actions, changes in planned actions, actual or revised
 Disallowed      An incurred cost questioned by OIG that                  completion dates and explanations for any revised dates.
 Cost            management has agreed should not be chargeable to
                 the Government.
                                                                          As USDA implements the Office of Management and
 Final Action    The completion of all actions that management has
                 concluded is necessary in its management decision        Budget’s revised Circular A-123, “Management’s
                 with respect to the findings and recommendations
                 included in an audit report. In the event that man-
                                                                          Responsibility for Internal Control,” greater emphasis is
                 agement concludes no action is necessary, final action   placed on documenting, monitoring, correcting and
                 occurs when a management decision is accomplished.
                                                                          reporting on internal controls. The Department is
 Funds To Be     An OIG recommendation that funds could be used
 Put to          more efficiently if management took actions to           implementing an online Web-based Audit Tracking
 Better Use      implement and complete the recommendation,               Module (ATM) that will help USDA meet key program
 (FTBU)          including:
                 x    Reductions in outlays;                              objectives that will: 1) improve the audit integration
                 x    De-obligation of funds from programs or             process; 2) streamline the audit tracking process; 3)
                      operations;
                 x    Withdrawal of interest subsidy costs on loans or
                                                                          improve data integrity within the online system; 4)
                      loan guarantees, insurance or bonds;                provide the ability to track multiple types of audits and
                 x    Costs not incurred by implementing
                      recommended improvements related to the
                                                                          findings; and 5) provide online real-time management
                      operations of the establishment, a contractor or    reporting. The ATM system includes several scheduler
                      grantee;
                 x    Avoidance of unnecessary expenditures noted
                                                                          tools that will track automatically due dates for corrective
                      in pre-award reviews of contract or grant agree-    action items and send reminders to USDA Agency Audit
                      ments; or
                 x    Any other savings which are identified
                                                                          Liaison Officials (AALO) of impending estimated
                      specifically.                                       completion dates for open items. Additionally, AALOs
 Management      Management’s evaluation of the audit findings and        will be able to request closure of audit recommendations
 Decision        recommendations, and the issuance of a final
                 decision on corrective action agreed to by
                                                                          and submit corrective action plans on-line.
                 management and OIG concerning its response to the
                 findings and recommendations.                            Beginning and Ending Inventory for Audits with Disallowed
                                                                          Costs (DC) and Funds to Be Put to Better Use (FTBU)1
OCFO works with component agencies and OIG to                             Of the 53 audits that achieved final action during the
identify and resolve issues that affect the timely                        fiscal year, 19 contained disallowed costs (DC). The
completion of corrective actions. USDA agencies are                       number of DC audits remaining in the inventory at the
required to prepare combined, time-phased                                 end of the fiscal year is 59 with a monetary value of
implementation plans and interim progress reports for all                 $90,723,102.
audits that remain open more than one year beyond the
                                                                          For audits with disallowed costs that achieved final action
management decision date. Time-phased implementation
                                                                          in FY 2005, OIG and management agreed to collect
plans are updated and submitted at the end of each
                                                                          $6,223,103. Adjustments were made totaling $2,069,952
quarter. They are updated to include newly reported
                                                                          (33 percent of the total) because of: 1) changes in
audits that meet the one-year-past-management decision
                                                                          management decision; 2) legal decisions; 3) write-offs; 4)
criterion. These plans contain corrective action milestones
                                                                          USDA agencies’ ability to provide sufficient
for each recommendation and corresponding estimated
                                                                          documentation to substantiate disallowed costs; 5) agency
completion dates.
                                                                          discovery; and 6) appeals. Management recovered the
Quarterly interim progress reports are provided to OCFO                   remaining $4,153,151.
on the status of corrective action milestones listed in the



USDA
   40           FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                                                       MANAGEMENT’S DISCUSSION AND ANALYSIS




Exhibit 11: Inventory of Audits with Disallowed Costs1                                  Audits with Funds to be Put to         # of
                                                                                                  Better Use                  Audits       Amount ($)
         Audits with Disallowed Costs                   # of         Amount ($)             Decisions
                                                       Audits                                Total Audits Pending               34        1,117,294,313
    Beginning of the Period                             68            68,693,567             Less: Final Actions                12          894,116,042
      Plus: New Management Decisions                    10            28,252,638       Audits with FTBU Requiring               22          223,178,271
                                                                                       Final Action at the End of the
      Total Audits Pending Collection of                79            96,946,205       Period
      Disallowed Costs
                                                                                       Disposition of Funds to Be Put to
      Adjustments                                                      (2,069,952)     Better Use:
        Revised Subtotal                                              94,876,253       FTBU Implemented                                     892,774,600
        Less: Final Actions (Recoveries)*               19            (4,153,151)      FTBU Not Implemented                                   1,341,442
    Audits with DC Requiring Final Action               59            90,723,102       Total FTBU Amounts for Final
    at the End of the Period                                                                                                                894,116,042
                                                                                       Action Audits
    *Recoveries do not include $48,270 of interest collected.



Exhibit 12: Distribution of Adjustments to Disallowed Costs
                                                                                      Audits Open One or More Years Past the Management
                                                                                      Decision Date
                     Category                                   Amount ($)            The number of audits open one or more years without
    Changes in Management Decision                                     72,529         final action increased slightly from 101 to 123 audits.
    Legal Decisions                                                 1,529,991
                                                                                      USDA attributes much of the increase to the additional
    Write-Offs                                                        382,577
    Agency Documentation                                               56,503
                                                                                      time required to finalize publication of guidance, e.g., IT
    Agency Discovery                                                     -352         related issues, and system development and
    OIG Agreed Amount System Error                                     11,500         enhancements. However, with increased monitoring of
    Appeals                                                            17,204         agency corrective action plans, USDA expects that these
    Total                                                           2,069,952         audits will decrease during the current fiscal year.
                                                                                      Exhibit 14: Increase In Audits Open One or More Years Past
Final action occurred on 12 audits that involved FTBU                                             Management Decision Date
amounts. USDA projects more efficient use for 99.8
percent of the amount identified based on the corrective
actions implemented. The number of FTBU audits
remaining in the inventory to date is 22 with a monetary
value of $223,178,271.
Exhibit 13: Inventory of Audits with Funds to be Put to Better
                 Use


     Audits with Funds to be Put to             # of
               Better Use                      Audits             Amount ($)
    Beginning of the Period                       30               954,103,210
         Plus: New Management                      4               163,191,103

1
  Exhibit 11 and Exhibit 13 include only those open audits with
disallowed costs and funds to be put to better use, respectively.
Additionally, some audits contain both DC and FTBU amounts. For
these reasons, the number of audits shown as the ending balances in
Exhibit 11 and Exhibit 13 will not equal the total resolved audit inventory
balance in Exhibit 9.



                                                                                                                                                  USDA
                                                                                     FY 2006 PERFORMANCE       AND      ACCOUNTABILITY REPORT        41
                                                MANAGEMENT’S DISCUSSION AND ANALYSIS




One audit is proceeding as scheduled, 86 are behind                                    Conclusion of investigation, negotiation or
schedule and agencies have completed corrective actions                                administrative appeal;
on 36 audits that are pending collection of associated                                 Receipt and/or processing of final action
disallowed costs. While an additional 13 audits were                                   documentation;
scheduled for completion by September 30, 2006, final
                                                                                       Systems development, implementation, reconciliation
action documentation will not be evaluated this reporting
                                                                                       or enhancement;
period.
                                                                                       Results of internal monitoring or program review;
Audits without final action one or more years past the
                                                                                       Results of agency request for change in management
management decision date and behind schedule are listed
                                                                                       decision;
individually in the table that follows. They are categorized
by the reason final action has not occurred. More detailed                             Office of General Counsel or OIG advice;
information on audits on schedule and audits under                                     Conclusion of external action; and
collection is available from OCFO. The categories are
                                                                                       Administrative action.
pending the following actions:
    Issuance of policy/guidance;

Exhibit 15: Distribution of Audits Open One or More Years Past the Management Decision Date, Disallowed Costs and FTBU

                                     Audits On Schedule                  Audits Behind Schedule                Audits Under Collection
                 Agency       No.      DC($)         FTBU ($)      No.        DC ($)         FTBU ($)    No.          DC ($)         FTBU ($)
             Totals            1         0              0          86       7,981,969     44,210,397      36        54,259,969      18,531,314



Management’s Report on Audit Follow-Up
Exhibit 16: Audits Open One Year or More Past the Management Decision Date and Behind Schedule

                                        Revised                                                                                Monetary Amount
                           Date        Completion
        Audits            Issued         Date                                  Audit Title                                     DC                FTBU
 (29) Pending issuance of policy/guidance
 02007-1-AT         3/13/03          TBD                ARS Florida Agricultural and Mechanical University –             $421,764                 -
                                                        Specific Cooperative Agreements for Establishment of a
                                                        Science Center
 03099-3-HQ               08/18/04       09/30/06       FSA Controls Over Contracting for the Disposal of Surplus              -                  -
                                                        Tobacco
 05600-1-TE               09/28/89       9/30/06        RMA Crop Year 1988 Insurance Contracts with Claims                     -                  -
 04801-4-CH               02/12/99        TBD           RHS Evaluation of Rural Rental Housing Tenant Income                   -                  -
                                                        Verification Process
 08016-1-SF               09/30/03        6/30/07       FS Follow-Up Review of FS Security Over Aircraft &                     -                  -
                                                        Aircraft Facilities
 08401-3-FM               1/26/04        9/30/07        FS Audit of Fiscal Year 2003 Financial Statements                      -                  -
 08601-1-HY               3/31/05         3/31/07       FS Implementation of the Government Performance and                    -                  -
                                                        Results Act
 08601-2-TE                9/27/04       12/31/06       FS Survey of Timber Theft Controls                                     -                  -
 08601-30-SF              03/31/03       03/31/07       FS Review of FS Security Over                                          -                  -
                                                        Explosives/Munitions/Magazines Located Within National
                                                        Forest System




USDA
   42            FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT
                                          MANAGEMENT’S DISCUSSION AND ANALYSIS




                                 Revised                                                                          Monetary Amount
                     Date       Completion
    Audits          Issued         Date                                 Audit Title                              DC              FTBU
08601-38-SF        9/23/04        6/30/07       FS Review of Firefighting Safety Program                          -              -
08601-40-SF          7/6/05       9/30/07       FS Emergency Equipment Rental Agreements Audit                    -              -
08801-2-TE          09/24/98     12/31/06       FS Assistance Agreements with Nonprofit Organizations          $140,497     $1,173,925
10099-1-TE          02/01/02      09/30/06      NRCS Security Over IT Resources                                   -                -
10099-10-KC         09/30/03      12/30/06      NRCS Homeland Security Protection of Federal Assets               -                -
23099-2-FM          05/22/02       6/30/07      DA Security of Information Technology Resources at                -                -
                                                USDA Departmental Administration
24099-3-HY          6/21/00         TBD         FSIS Imported Meat and Poultry Inspection Process                 -                -
24099-4-HY          02/25/03        TBD         FSIS Imported Meat and Poultry Inspection Process,                -                -
                                                Phase II
24601-4-HY           5/18/05        TBD         FSIS Oversight of the 2004 Quaker Maid Meats Recall                -               -
27601-3-CH          03/22/96      03/31/07      FNS Food Stamp Program—Disqualified Recipient System               -               -
27601-27-CH         04/30/02      06/30/07      FNS Food Service Management Companies                              -               -
34099-2-AT          09/14/01      03/37/07      RBS Business and Industry Loan Program, Omnivest              $4,052,351           -
                                                Resources, Inc.
34601-1-HY          07/22/98      03/31/07      RBS Business and Industry Loan Program—Morgantown,                -                -
                                                West Virginia
34601-3-CH          03/11/03      12/31/06      RBS Processing of Loan Guarantees to Members of the               -                -
                                                Western Sugar Cooperative
34601-7-SF          12/04/02      03/31/07      RBS B&I Liquidation of Loans to the Pacific Northwest             -         $14,000,000
                                                Sugar Company in Washington State
50099-17-KC         2/17/05       12/31/06      CSREES Biosecurity Grant Funding Controls over                    -              $4,318
                                                Biosecurity Grants Funds Usage
50601-9-AT         3/24/04          TBD         HS Controls Over Chemical and Radioactive Materials at            -                -
                                                U.S. Department of Agriculture Facilities
50601-9-KC          08/18/04        TBD         APHIS (FSIS) Phase I Review of BSE Surveillance                   -                -
50601-10-AT          3/8/04         TBD         HS Follow-up Report on the Security of Biological agents at       -                -
                                                USDA Laboratories
89099-1-HQ          10/21/02      10/31/06      OPPM Audit of Compliance with the National Energy                 -                -
                                                Conservation Policy Act of 1978, Energy Act of 1992 and
                                                Executive Order Number 13123
(2) Pending conclusion of investigation, negotiation or administrative appeal
04801-3-KC         03/31/99       07/31/07      RHS Bosley Management, Inc. – Sheridan, Wyoming                $146,690         $85,516
34004-5-HY         02/18/00         TBD         RBS Audit of Procurement Operations, Virginia State               -                -
                                                Office, Richmond, Virginia
(27) Pending receipt and/or processing of final action documentation
01001-2-HY          7/14/05       9/30/06       AMS National Organic Program                                      -              -
03099-32-KC         12/22/99     10/31/06       FSA Controls Over Administrative Payment Operations               -              -
04016-01-CH         9/30/04      12/31/06       RHS Rural Rental Housing Project Management                       -              -
05401-11-FM          1/9/03      12/31/06       RMA FY 2002 FCIC Financial Statements                             -              -
08003-5-SF         12/15/00       3/31/07       FS Land Acquisitions and Urban Lot Management Program             -         $10,329,300
08401-4-FM         11/10/04      12/31/06       FS Audit of Fiscal Year 2004 Financial Statements                 -              -
10099-4-TE         12/22/04       12/30/06      NRCS Survey of Controls Over Centers and Institutes               -                -
10501-1-SF         11/2/1999      12/30/06      NRCS Review of Application controls Over the Water and            -                -
                                                Climate Information System
12099-1-AT          1/23/04       12/29/06      OCE Management and Security of IT Resources                       -                -
13001-3-TE          8/16/04       12/31/06      CSREES Implementation of Agricultural Research,                  $3             $482,400
                                                Extension, and Education Reform Act of 1998
13501-1-HY           7/8/05       10/31/06      CSREES Application controls review of the Cooperative             -                -
                                                Research Education and Extension Management System




                                                                                                                                       USDA
                                                                       FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT             43
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




                                  Revised                                                                  Monetary Amount
                      Date       Completion
       Audits        Issued         Date                                Audit Title                        DC         FTBU
33001-5-HY           07/21/00      9/30/06      APHIS Wildlife Services Controls Over Hazardous            -            -
                                                Materials Inventory
33099-4-CH           03-03-04      9/30/06      APHIS Management and Security of Information               -            -
                                                Technology Resources
33501-1-CH           03/31/05      9/30/06      APHIS Review of Application Controls for the Import        -            -
                                                Tracking System
33601-1-AT           09/14/04      9/30/06      APHIS Security Over Owned and Leased Aircraft              -            -
34601-15-TE          09/30/03      3/31/07      RBS National Report on the Business and Industry Loan
                                                Program
50099-13-AT          03/29/02     12/31/06      Multi-Agency Audit Oversight and Security of Biological    -            -
                                                Agents at Laboratories Operated by USDA
50099-14-AT          9/29/03      12/31/06      HS Homeland Security Controls Over Biological, Chemical    -            -
                                                and Radioactive Materials at Institutions Funded by USDA
50099-27-FM          03/30/01      9/30/06      OCIO Security Over USDA Information Technology             -            -
                                                Resources Needs Improvement
50401-39-FM          2/26/01      10/31/06      OCFO USDA Consolidated Financial Statements FY 2000        -            -
50801-2-HQ           2/27/97       3/31/07      OCRE Evaluation Report for the Secretary on Civil Rights   -            -
                                                Issues, Phase I
50801-6-AT           3/31/99       9/30/06      FAS Private Voluntary Organization Grant Fund              -            -
                                                Accountability
50801-12-AT           9/9/02      12/31/06      DA Management of Hazardous Materials Management            -        $1,813,809
                                                Funds
60016-01-HY           9/8/05       3/31/07      OCRE Follow up on the Recommendations made to the          -            -
                                                Office of Civil Rights for Program and Employment
60801-1-HQ           9/30/98       3/31/07      OCRE Evaluation of the Office of Civil Rights Efforts to   -            -
                                                Reduce Complaints Backlog
60801-3-HQ           3/10/00       3/31/07      OCRE Evaluation Report for the Secretary on civil rights   -            -
                                                Issues (Phase 7)
85401-9-FM         11/7/03     03/31/07    RD Financial Statements for FY 2003 and 2002                    -            -
(11) Pending systems development, implementation, or enhancement
03099-27-TE        5/24/01     10/01/06    FSA Payment Limitations – Majority Stockholders of              -            -
                                           Corporations
06401-17-FM        11/5/04     06/30/07    CCC Financial Statements for FY 2004                            -            -
08001-1-HQ           06/28/00     12/31/06      FS Implementation of the Government Performance and        -            -
                                                Results Act
08099-6-SF           03/27/01     09/30/06      FS Security Over USDA Information Technology               -            -
                                                Resources
08401-2-FM           02/28/03     09/30/06      FS Audit of FY 2002 Financial Statements – Summary of      -            -
                                                Information Technology Findings
11401-20-FM          10/25/04     10/31/06      OCFO FY 04 Review of NFC General Controls                  -            -
24099-1-FM           08/11/03      9/30/06      FSIS Security Over Information Technology Resources at     -            -
                                                FSIS
33601-1-HY           2/14/05         TBD        APHIS (FSIS) Oversight of Beef Products from Canada        -            -
33601-4-CH           03/31/03        TBD        APHIS Controls Over Permits to Import Biohazardous         -            -
                                                Materials
50401-53-FM          11/15/04     12/30/06      OCFO USDA Consolidated Financial statements FY 2004        -            -
                                                and FY 2003
50501-1-FM           10/6/04         TBD         OCIO Fiscal Year 2004 Federal Information Security        -            -
(2) Pending results of internal monitoring or program review
05099-8-KC          03/31/00         TBD         RMA Standard Reinsurance Agreement Reporting              -            -
                                                 Requirements
06401-16-FM          11/7/03      09/30/06       CCC Financial Statements for FY 2003                      -            -




USDA
  44            FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




                                    Revised                                                                         Monetary Amount
                       Date       Completion
      Audits          Issued          Date                            Audit Title                                  DC              FTBU
 (3) Pending results of request for change in management decision
 04601-5-KC          08/08/02         TBD       RHS Rural Rental Housing Program Insurance Expenses,             $418,321     $15,500,000
                                                Phase III
 04801-6-KC          12/18/00        TBD       RHS Rural Rental Housing Program Insurance Expenses,             $1,029,999         $9,000
                                               Phase I
 33004-1-AT          03/07/00       TBD        APHIS Plant Protection and Quarantine Activities in Florida          -                -
 (2) Pending Office of General Counsel (OGC) or OIG advice
 23801-1-HQ          08/20/98        TBD         OO Review of Office of Operations Contract with B&G                -             $249,866
                                                 Maintenance, Inc.
 34601-14-TE         09/27/02        TBD         RBS Business and Industry Direct Loan Program –                    -                -
                                                 Arkansas
 (4) External Action Required
 06401-4-KC         2/26/02          TBD         CCC Financial Statements for FY 2001                               -             $19,586
 24601-1-CH        06/21/00          TBD         FSIS Laboratory Testing of Meat and Poultry Products               -                -
 27010-3-KC         3/22/00        12/31/06      FNS Child and Adult Care Food Program Wildwood Inc.             $199,759            -
 39099-1-AT         1/12/04          TBD         OBPA FY 2003 Information Technology Security Review                -                -
 (6) Pending Administrative Action
 05099-18-KC         6/1/04        12/31/06      RMA Management and Security of Information Technology              -                -
                                                 Resources
 05099-109-KC        1/27/05        9/30/10      RMA Activities to Renegotiate the Standard reinsurance             -                -
                                                 Agreement
 05601-7-AT          2/10/05       12/31/06      RMA Cotton Crop Insurance Premium Rates                            -                -
 06401-15-FM         12/26/02        TBD         CCC Financial Statements for FY 2002                               -                -
 13099-2-TE           8/6/02         TBD         CSREES Review of Research Grants to the National                $919,287            -
                                                 Center for Resource Innovation
 50601-5-AT          9/30/98       12/31/06      CSREES Managing Facilities Construction Grants                  $653,298         $542,677
 Total Number Audits (86)                        Total                                                         $7,981,969    $44,210,397



Conclusion
It is hoped that this overview of the Department helps                   services delivered in a high-quality, cost-effective way to
inform all stakeholders of the significant efforts underway              the American people. While this section has focused on
to enhance, through sound management practices, the                      overall management efforts that encompass the
performance of all USDA programs and the Department’s                    Department as a whole, additional information on how
stewardship of the significant taxpayer dollars entrusted to             these initiatives impact specific programs, agencies and
it. Through the performance and accountability process,                  USDA efforts can be found in the next section, the
USDA has undertaken an intensive effort to link                          Annual Performance Report, which offers a detailed,
Departmental and program management to the only                          objective-by-objective discussion of the progress USDA
result that matters: the provision of valuable programs and              made in reaching its FY 2006 goals.




                                                                                                                                         USDA
                                                                        FY 2006 PERFORMANCE       AND     ACCOUNTABILITY REPORT             45
                              MANAGEMENT’S DISCUSSION AND ANALYSIS




USDA
 46    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
        II.




                                      Annual Performance Report



T
  he United States Department of Agriculture’s (USDA)           A strategic plan that contains the Department’s long-
  mission is to provide leadership on food, agriculture,        term goals and strategies (www.ocfo.usda.gov);
  natural resources and related issues based on sound           An annual budget summary and performance plan
public policy, the best available science and efficient         that outlines strategies and targets for achieving
management. The Department executed this mission in             USDA’s long-term goals (www.obpa.usda.gov); and
FY 2006 through such activities as:
                                                                A performance and accountability report that
    Providing farmers and ranchers with risk management         illustrates to the American people and Congress how
    and financial tools;                                        well the Department did in reaching its goals.
    Meeting with experts from around the globe to
                                                            Most of USDA’s programs and activities are represented
    discuss current and emerging economic opportunities;
                                                            in specific performance goals and targets. The
    Ensuring the safety and protection of the Nation’s      Department also conducts and supports a broad range of
    food supply;                                            research, educational and statistical activities that
    Helping millions of low-income households and most      contribute to the achievement of each of its overall goals.
    of America’s children improve their health and diets    The creation of knowledge at the frontiers of physical and
    via targeted nutrition assistance programs;             social sciences, and the provision of that knowledge to
    Fostering better nutrition and health with dietary      agriculture, forestry, consumers and rural America are
    guidance and promotion;                                 fundamental to the Department’s success. Accordingly,
                                                            selected accomplishments in research are presented
    Completing new free trade agreements, opening new
                                                            throughout this report. Data collection methodology is
    international markets and maintaining existing
                                                            standardized and transparent and is vetted by scientists,
    markets;
                                                            policymakers, and undersecretaries. Methodology is
    Fighting potential pests and disease outbreaks;         available to the public through program administrators.
    Working to ensure the health and protection of the
                                                            As part of the President’s requirements to assess the
    environment; and
                                                            effectiveness of USDA programs, each program is
    Providing aid to those impacted by severe weather       measured using the Program Assessment Rating Tool
    and other disasters.                                    (PART) review. The PART identifies how well and
                                                            efficiently a program is working and what specific actions
USDA’s public performance management reporting
                                                            can be taken to improve its performance. Other program
process includes:
                                                            evaluations, which discuss the achievements or



                                                                                                               USDA
                                                           FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      47
                                              ANNUAL PERFORMANCE REPORT




conclusions from the completion of internal and other             natural resources, technologies and infrastructure enable
external assessments conducted during Fiscal Year (FY)            agricultural production beyond domestic needs.
2006 related to the measures, are also included. Only             Expanding global markets will increase demand for
Federal employees participated in the preparation of the          agricultural products and contribute directly to economic
performance information contained in the report.                  stability and prosperity for America’s farmers. To expand
                                                                  overseas markets and facilitate trade, USDA assists in the
When he created the USDA, it was President Abraham
                                                                  negotiation, monitoring and enforcement of trade
Lincoln’s hope “that by the best cultivation in the physical
                                                                  agreements. Working with producers and commodity
world, beneath and around us, and the intellectual and
                                                                  trade associations, USDA administers an array of market
moral world within us, we shall secure an individual,
                                                                  development and export promotion programs designed to
social and political prosperity and happiness, whose course
                                                                  build long-term markets abroad. The Department helps
shall be onward and upward, and which, while the earth
                                                                  expand trade opportunities through technical assistance
endures, will not pass away.” The following chapters of
                                                                  and training programs. These tools support agricultural
the USDA Performance and Accountability Report show
                                                                  development and growth in developing countries. They
how the Department committed itself to keeping
                                                                  also help these countries participate in, and benefit from,
President Lincoln’s dream alive during FY 2006.
                                                                  international trade. USDA works to facilitate trade by
                                                                  adopting science-based regulatory systems and standards.
Strategic Goal 1: Enhance International
Competitiveness of American Agriculture                           OBJECTIVE 1.1: EXPAND AND MAINTAIN INTERNATIONAL
                                                                  EXPORT OPPORTUNITIES
                                                                  Overview
                                                                  U.S. agricultural exports rose on broad-based gains for
                                                                  many products to a record $68.7 billion in FY 2006, up
                                                                  $6.2 billion from the previous year. This included a $1.8-
                                                                  billion increase in horticultural exports, mostly due to
                                                                  strong foreign demand and higher prices for many
                                                                  products. Gains for tree nuts and fresh fruit especially
                                                                  were strong. Corn exports rose $1.5 billion mostly on
                                                                  increased volume supported by a large U.S. crop and
                                                                  reduced foreign competition. Livestock product exports
A prosperous food and agricultural sector contributes to          rose $1.2 billion supported by gains for beef, pork and
the Nation’s economic vitality and standard of living. The        animal hides. Cotton exports jumped $800 million on
sector’s success depends on the ability to expand into new        record sales to China and higher prices.
markets, raise capital, protect itself against financial risk
                                                                  The Department works with the World Trade
and adjust to changing markets. Increasing the efficiency
                                                                  Organization (WTO) to establish export opportunities for
of the agricultural sector and developing new uses for
                                                                  U.S. agricultural producers. The WTO is charged with
agricultural products are critical to the Nation’s economic
                                                                  administering trade rules among its 149 member countries
health.
                                                                  and customs areas. While the goal of reaching agreement
Expanding global markets for agricultural products is             on the outline of a new multilateral trade agreement by
critical for the long-term economic health and prosperity         this past summer was not reached and efforts were
of the domestic food and agricultural sector. America’s           suspended in July 2006, USDA continues working with


USDA
   48        FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                           ANNUAL PERFORMANCE REPORT




Office of the U.S. Trade Representative (USTR) and its        U.S. agricultural exports to Japan were $8.2 billion,
trading partners to reach that goal. The Trade                making it the third-largest market. About 60 percent of
Representative is the lead trade negotiator for the U.S.      sales to Japan consist of bulk and intermediate
Government.                                                   commodities, mainly coarse grains, soybeans, wheat and
                                                              animal feeds. The rest of the sales are consumer-ready
In 2006, free trade agreements with Nicaragua, El
                                                              foods, mainly pork, fresh and processed fruits and
Salvador, Honduras, Guatemala and Bahrain took effect.
                                                              vegetables, and tree nuts. Japan recently announced that it
The Dominican Republic will follow, and Costa Rica’s
                                                              will resume beef trade, which had reached an annual level
new government is expected to ratify the Central
                                                              of $1.3 billion before the market was closed due to a
American Free Trade Agreement (CAFTA) soon.
                                                              finding of bovine spongiform encephalopathy, a chronic
CAFTA is a comprehensive trade agreement among
                                                              degenerative disease affecting the central nervous system
Costa Rica, the Dominican Republic, El Salvador,
                                                              of cattle.
Guatemala, Honduras, Nicaragua and the U.S.
Agreements have also been reached with Peru and               The EU remains the fourth-largest market for U.S.
Colombia. These agreements require congressional              agricultural products. It realized sales of $7.1 billion in FY
approval.                                                     2006, up slightly from the previous year. The EU is a
                                                              major market for soybeans, tobacco and animal feeds. It is
USDA also continues work on other free-trade
                                                              also an important market for selected consumer foods and
agreements, notably with Korea and Malaysia, which are
                                                              beverages, most notably tree nuts and wine. Opportunities
expected to create new opportunities for U.S. agricultural
                                                              remain limited in most other categories due to production
exports. The Department looks to conclude these
                                                              subsidies which keep domestic supplies high, trade
agreements prior to the 2007 expiration of the Trade
                                                              barriers that limit market access, and highly-competitive
Promotion Authority (TPA).
                                                              processed food industries.
USDA also continues to monitor the impact of the North
                                                              U.S. agricultural exports to China, the fifth-largest
American Free Trade Agreement (NAFTA), a
                                                              market, reached a record $6.7 billion in FY 2006. Exports
comprehensive trade-liberalization agreement between
                                                              to China have risen rapidly in the past few years, mostly
the U.S., Canada and Mexico. U.S. agricultural exports to
                                                              due to record soybean and cotton sales. China is also the
its NAFTA partners continue to set records. Canada
                                                              largest market for U.S. animal hides. While for the most
remains the largest market with U.S. sales at a record
                                                              part U.S. consumer food sales remain modest, China has
$11.6 billion in FY 2006. Canada is a major market for
                                                              become an important poultry meat market and sales are
U.S. fresh and processed fruits and vegetables, snack
                                                              rising for fresh fruit, tree nuts and many other consumer
foods, juices, wine and many other consumer-ready
                                                              foods. China’s trade barriers are being reduced through its
products. At a record $10.4 billion in FY 2006, Mexico
                                                              WTO membership, producing dividends which will
remains the second largest market for U.S. agricultural
                                                              continue for the next several years.
exports having overtaken Japan in 2005. Mexico has
enjoyed strong economic growth, with increased demand         In 2006, the EU was the fifth-largest market for U.S.
for foreign goods. While Mexico is a large buyer of coarse    agricultural products with sales of $6.6 billion, down from
grains, soybeans, cotton and wheat, higher-value              $6.9 billion in 2005. The EU is a major market for
consumer foods are increasingly important. Strong             soybeans, tobacco and tree nuts — especially almonds.
Mexican demand is behind rising sales of U.S. pork, beef,     Wine sales are also noteworthy; wine is among the top
poultry, fresh and processed fruits, and snack foods.         five U.S. agricultural exports to the EU. Opportunities
                                                              remain limited in most other categories. Production



                                                                                                                    USDA
                                                             FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT       49
                                             ANNUAL PERFORMANCE REPORT




subsidies in the EU keep domestic supplies high, and             developed a healthier wheat flour of hard white winter
trade barriers limit market access. Expansion                    wheat. Its creation assures U.S. competition in the
opportunities for U.S. agricultural exports to Europe            growing noodle markets domestically and in southeast
remain limited.                                                  Asia, and in the flatbread markets of the Middle East and
                                                                 North Africa. This variety, “Wendy,” is known for high
                       Key Outcome                               protein content, does not require sugar to be added to the
        Increased Access to Global Markets for U.S.              dough, and is low in an enzyme that causes noodle
            Agricultural Producers and Exporters                 discoloration.

                                                                 Consumption and marketing patterns are changing
USDA works closely with the USTR and other                       rapidly in China, the world’s largest consumer of many
government agencies to pursue new trade agreements.              U.S. agricultural commodities. These changes are
These groups also work to enforce the provisions of              generating uncertainty for food marketers. A USDA-
existing agreements, providing U.S. exporters and                funded conference, “Assessing the Chinese Market for
consumers with the full economic benefit of trade                U.S. Agricultural Products,” featured Chinese economists
agreements and rules. USDA also works to maintain                who provided current information and outlooks on
effective government-to-government relationships that            agricultural trends. WERA-101 efforts to facilitate
support open trade. Open trade will lead to increased            cooperation between scholars researching China’s
export opportunities for U.S. farmers and agribusinesses.        agriculture also have enhanced management information
The Department’s industry partners promote trade and             available to U.S. producers and processors greatly.
outreach activities to educate producers, processors and         (WERA-101 refers to conferences organized to assess
exporters on emerging market opportunities as a result of        important trends in China’s agricultural economy.)
trade agreements. To capitalize on trade opportunities,
USDA offers market intelligence, supply and demand               Facilitating Sales to Foreign Markets—Global Marketing
forecasts, and sales-development assistance to enhance           Support Services (GMSS) has provided access to
U.S. exporters’ success in the highly competitive global         exporting resources and opportunities to companies
marketplace.                                                     interested in expanding international sales. Partially
                                                                 supported with USDA research and extension formula
Selected Results in Research, Extension and Statistics           funding to the University of Arkansas-Fayetteville,
Controlling Flies in Exported Hay—The opportunity to export      GMSS activities have created 120 new jobs, $3.4 million
hay to Japan has been enhanced by its acceptance of              in labor income and $5.5 million in value added to the
phosphine fumigation as a quarantine treatment for               Arkansas’ economy.
polyethylene wrapped bales of Timothy hay. USDA                  India’s Emerging Global Presence—USDA research shows
scientists developed this treatment to control Hessian flies     how commodity trade patterns are changing with India’s
in hay. The treatment capped three years of collaborative        rising income. It also shows that decreasing protectionism
research with the National Hay Association. It will help         can further trade and improve welfare. For example, the
support a $70 million hay export market with Japan.              apple report indicates that investment and open market
Additionally, certification of the quarantine treatment by       competition that reduce high internal marketing costs and
the Japan Ministry of Agriculture, Forestry, and Fisheries       margins offer scope for significant gains in Indian apple
supports a $360 million market to Pacific Rim countries.         consumption and imports.
Improved Wheat Variety for Competitive Noodle Market—            USDA World Trade Negotiations— USDA research on trade
South Dakota State University, with USDA funding, has            policy provided analytical support to help inform and


USDA
   50        FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




strengthen U.S. negotiating positions on agriculture. The      separately under Objective 1.3. SPS refers to measures
analysis focused on the implications of U.S., European         imposed by governments to protect human, animal and
and other proposals for reforming global trade. USDA           plant health from foreign pests, diseases and
developed quantitative estimates of the impacts of market      contaminants. The number of trade maintenance issues
access and export subsidy liberalization under each of the     and their potential impact on U.S. exports depends
main proposals and those on U.S. trade and farm income.        primarily on foreign governmental action. Both the
Recent work examined the impacts of dairy policy reform        problems and the solutions are highly unpredictable.
on global dairy markets. The resulting report suggests that    Solutions can range from a quick agreement with officials
foreign dairy policy reform would result in lower global       at the port of entry to a long negotiation process followed
supplies of milk and dairy products, higher world dairy        by a lengthy regulatory or legislative process. The cost of
prices and higher value of dairy trade.                        an action can range from a few thousand to billions of
                                                               dollars.
Challenges for the Future
USDA can increase export opportunities for the U.S.            USDA’s selection of this performance measure
through a WTO agreement providing new rules for                demonstrates the critical role that the negotiation and
agricultural trade while working to complete other             enforcement of trade agreements play in expanding and
bilateral free trade agreements. New WTO rules would           maintaining export opportunities. As the U.S. continues
eliminate export subsidies, decrease trade-distorting          to negotiate new bilateral, regional and multilateral trade
domestic support and reduce market-access barriers             agreements, the challenge will be to monitor and enforce
around the world. Agriculture is a central theme for this      compliance. Monitoring will ensure that U.S. agriculture
round of WTO negotiations and a sensitive issue for most       receives full benefits from negotiated reductions in tariff
developing countries. In these countries, the food and         barriers.
agriculture sector is the dominant economic driver. Free       The exact value of new markets opened through trade
trade agreements with Malaysia and Korea will lead to          agreements is difficult to determine using traditional
access to critical markets in Asia. If TPA is extended,        economic models. In a new market, there are little data to
USDA will be able to engage in even more market-               estimate consumer demand. Market development takes
opening activities. TPA is designed to enable U.S.             time and centers on consumer and wholesaler education
negotiators to lead the way in completing major new trade      to create a desire to purchase U.S. products, rather than
agreements that advance the global interests of domestic       those of competitors. Therefore, it is difficult for USDA
agriculture. USDA will also continue to monitor the            to estimate the impact of monitoring and enforcement
implementation of existing agreements to preserve              efforts. Instead, the Department tracks only instances in
existing trade and expand markets.                             which there is a clearly defined and imminent threat,
Analysis of Results                                            which is then acted upon.
USDA did not reach its performance goal of $900 million        The figures in the accompanying exhibit reflect the
because Costa Rica and the Dominican Republic did not          uncertainty of trade negotiations and disruptions. Next
ratify and implement CAFTA, and because of delays in           steps include completion of the Doha Round of
finalization of the Peru and Colombia Free Trade               agriculture negotiations, various bilateral and regional free
Agreements. There were no large, unexpected threats            trade agreements, and continued monitoring and
addressed under Department monitoring and                      enforcement of existing agreements that affect U.S.
enforcement activities except for those related to sanitary    agriculture. (The Doha Round refers to multilateral
and phytosanitary (SPS) barriers, which are accounted for      negotiations to liberalize trade.)



                                                                                                                    USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT       51
                                                       ANNUAL PERFORMANCE REPORT




Exhibit 17: Increase U.S. Export Opportunities

                                                                                                               Fiscal Year 2006
                            Annual Performance Goals and Indicators                                Target             Actual             Result
           1.1.1    Dollar value of agricultural trade preserved through trade                      $900                $14             Unmet
                    agreement negotiation, monitoring, and enforcement (non-SPS)
                    ($ Mil)


Exhibit 18: Trends in Expanding and Retaining Market Access

                                                                                                      Fiscal Year 2006
                                      Trends                                  2002          2003            2004           2005           2006
           1.1.1    Dollar value of agricultural trade preserved             $1,327        $2,713           $3,950         $800            $14
                    through trade agreement negotiation,
                    monitoring, and enforcement
                    ($ Mil) Baseline: 1999 = $2,567
           FYs 2002 - 2004 data is based on SPS and non-SPS related trade barriers. FY 2005 and 2006 data is based on non-SPS trade barriers.



OBJECTIVE 1.2: SUPPORT INTERNATIONAL ECONOMIC                                    and avoid or eliminate unjustified trade barriers.
DEVELOPMENT AND TRADE CAPACITY BUILDING                                          Assistance in trade capacity building also supports
                                                                                 market-infrastructure development. This development
Overview                                                                         assistance includes market information, agricultural grades
                                                                                 and standards, and the cold-chain technology by which
                                                                                 perishables are kept cold until they reach consumers. The
                                                                                 assistance also helps increase capacity to purchase U.S.
                                                                                 exports. In combination with food assistance that covers
                                                                                 gaps in supplies and keeps the population healthy, USDA
                                                                                 deploys its unique resources and expertise in agricultural
                                                                                 development activities. These activities help advance
                                                                                 market-based policies and institutions, develop
                                                                                 sustainable agricultural systems, and strengthen research
                                                                                 and education in developing countries. Assistance focuses
                                                                                 on improving agricultural productivity and markets as the
                                                                                 engines for economic growth. The Department also helps
The ultimate goal for supporting developing countries is                         developing countries increase trade and integrate the
to help them become economically stable and capable of                           agricultural sector into the global economy through
supporting their populations. USDA participates in this                          regulatory reform. Other priorities include reducing
effort by providing food assistance and trade and                                hunger and malnutrition with sustainable, productivity-
development programs. The Department supports these                              enhancing technologies and supporting agricultural
programs along with other Federal agencies, such as the                          reconstruction in post-conflict or disaster areas.
U.S. Agency for International Development. USDA
                                                                                 Primary targets for USDA food assistance in developing
technical assistance and training play a vital role in
                                                                                 countries are school children and their mothers. The
helping developing countries meet their WTO
                                                                                 McGovern-Dole International Food for Education and
obligations, strengthen policy and regulatory frameworks,
                                                                                 Child Nutrition Program provides for the donation of



USDA
   52        FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




                                                                   Institution building to strengthen sustainable
                                                                   agriculture, market infrastructure and the
                                                                   development of market-information systems;
                                                                   Working with international standard-setting bodies
                                                                   to adopt science-based rules and policies; and
                                                                   Food assistance to support social stability and enhance
                                                                   economic development.

                                                               Recent examples of the above include progress toward
                                                               adopting agricultural biotechnology in the Western
                                                               Hemisphere and Southeast Asia. USDA efforts resulted
                                                               in agreement by member countries of the Inter-American
                                                               Institute for Cooperation on Agriculture, which agreed to
U.S. agricultural commodities and associated financial         develop a program on biotechnology and biosafety.
and technical assistance for pre-school and school-based       Additionally, USDA, the U.S. Department of State and
feeding programs in developing countries. McGovern-            the 10 members of the Association of South East Asian
Dole also authorizes the support of maternal, infant and       Nations participated in a roundtable discussion on
child nutrition programs. Its purpose is to support a          agricultural biotechnology. The group developed
healthy young population necessary for a stable society        recommendations for continued agricultural
and a capable workforce. A healthy and literate workforce      biotechnology exchange with the U.S. The
attracts jobs, supports a sustainable economy and helps        recommendations will be forwarded to the association’s
establish a secure food supply through domestic                subcommittee on biotechnology.
production and imports.
                                                               Selected Results in Research, Extension and Statistics
Americans want a world in which all countries are stable.      USDA provided technical assistance and training to
The 2002 National Security Strategy of the United States       improve agricultural statistics programs in 10 countries.
recognizes that the root of a foreign threat is the lack of    Short-term assignments supported work in Armenia,
economic development, which often results in political         Brazil, China, Costa Rica, El Salvador, Georgia, Mexico,
instability. The National Security Strategy is prepared        Mongolia, Russia and Ukraine. The Department also
periodically by the President for Congress and outlines        coordinated and/or conducted briefings and/or training
the major national security concerns of the U.S., and how      programs in the U.S. for 158 visitors representing 17
the administration plans to deal with them. For most           countries. These assistance and training activities promote
developing countries, a productive and sustainable             better data quality and improved access to data from other
agricultural sector bolsters economic well-being. Thus,        countries. Thus, U.S. analysts can understand the world
agricultural development is crucial to the National            supply and demand situation better. Improved analysis
Security Strategy. In developing and transitioning             supports trade and more efficient marketing of U.S.
economies, USDA focuses on:                                    agricultural products.
    Eliminating trade and investment barriers to
                                                               Challenges for the Future
    stimulate economic growth;
                                                               Hunger and malnutrition still impact much of the world.
    Science and technology advancement to raise
                                                               USDA works closely with the United Nations’ World
    agricultural productivity in a sustainable environment     Food Program and private voluntary relief and
    to boost food availability and improve nutrition;


                                                                                                                    USDA
                                                              FY 2006 PERFORMANCE   AND    ACCOUNTABILITY REPORT        53
                                             ANNUAL PERFORMANCE REPORT




development organizations. The program offers food               The U.S. is the world’s leader in food aid, providing more
assistance to natural-disaster victims, the displaced and        than half of total worldwide assistance to combat
the world’s hungry and poor.                                     malnutrition. U.S. food-aid programs are a joint effort
                                                                 across several Federal departments. USDA works with
                       Key Outcome                               USAID, private voluntary relief and development
        Improved Ability in Developing Countries to              organizations, American universities, Federal agencies and
        Sustain Economic Growth and Benefit from                 the United Nations’ World Food Program to provide
                   International Trade                           targeted food aid and assistance where it is needed most.
                                                                 Economic development activities aimed at market-
                                                                 capacity building for both domestic and international
Trade-capacity building (TCB), or trade-related technical        trade are supported through the provision of food
assistance, helps strengthen developing countries’               assistance.
agricultural institutions and regulatory systems,
encourages compliance with international norms, and              These activities combined with USDA technical
fosters the adoption of U.S. approaches to agricultural          assistance and training foster stable societies, economic
policy and regulatory procedures. TCB also supports the          growth and market-infrastructure development.
President’s national security strategy by assisting nations      Consequently, recipient countries are able to boost
in developing economic stability through free trade and          domestic production and, in turn, reduce their
open markets.                                                    dependence on food aid. The activities aid recipient
                                                                 countries in building sound economic policies that
USDA’s top trade policy priority — a successful                  support sustainable development and participation in
conclusion to the Doha Round — recognizes the                    global agricultural trade.
importance of trade to developing countries. Trade-
capacity building gives developing countries an incentive        Analysis of Results
to participate in the Doha process. By helping countries         The performance goal was exceeded. McGovern-Dole
joining WTO understand and meet their new                        promotes school enrollment and attendance, contributing
commitments, TCB builds markets for the future by                to an educated workforce and economic growth and
fostering economic growth.                                       development. The program’s primary goal of increasing
                                                                 school attendance can be measured with confidence. In
The United States is concluding a growing number of free
                                                                 FY 2005, McGovern-Dole used $91 million to provide
trade agreements with developing countries. In addition
                                                                 118,000 tons of food to 3.4 million children in 15
to promoting market access, such agreements encourage
                                                                 developing countries in Africa, Asia, Latin America and
economic growth and closer political ties with countries
                                                                 Eastern Europe. These efforts resulted in more children
important to U.S. national security. Because of these
                                                                 entering schools, improved student performance, and
linkages, technical assistance is an integral part of the
                                                                 greater parental and community involvement in
negotiating package.
                                                                 education. In FY 2006, McGovern-Dole used $99
TCB is critical in addressing the many technical barriers        million, which supported the feeding of 3.3 million
that impede access for U.S. agricultural products in global      women, infants and children. The target of 2.4 million
markets. By helping countries develop transparent,               was based on the effects of estimated increases in
science-based regulations and increasing understanding of        commodity and fuel prices. Price fluctuations, combined
the U.S. regulatory system, TCB can expand access for            with changes in distribution, resulted in the goal being
U.S. agricultural products. Likewise, this assistance            exceeded.
enables recipient countries to access other world markets.




USDA
   54        FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                                         ANNUAL PERFORMANCE REPORT




Exhibit 19: Support Foreign Food Assistance

                                                                                                                Fiscal Year 2006
                           Annual Performance Goals and Indicators                                   Target            Actual        Result
           1.2.1    Number of mothers, infants and schoolchildren receiving daily                     2.4                 3.3       Exceeded
                    meals and take-home rations through McGovern-Dole International
                    Food for Education and Child Nutrition Program (Mil)


Exhibit 20: Trends in Supporting Foreign Food Assistance

                                                                                                       Fiscal Year 2006
                                      Trends                                      2002        2003            2004         2005       2006
           1.2.1     Number of mothers, infants and                               N/A          2.5            2.0             3.4      3.3
                     schoolchildren receiving daily meals and
                     take-home rations through McGovern-Dole
                     International Food for Education and Child
                     Nutrition Program (Mil)


Exhibit 21: Support Improvement in Foreign Countries’ Trade Policies

                                                                                                                Fiscal Year 2006
                           Annual Performance Goals and Indicators                                   Target            Actual        Result
           1.2.2    Number of recipient countries that make substantive                                6                  6           Met
                    improvements in national trade policy and regulatory
                    frameworks that increase market access
           Note: This is a new measure; thus, trend information is unavailable.


The performance goal was met in six countries. USDA                                     2003, made significant improvements in its meat-
technical assistance to the Ministry of Agriculture in                                  inspection system; USDA sponsors Mexican meat
Montenegro resulted in establishment of a Montenegrin                                   inspectors at Department training courses in the U.S.
market information Web site. The site provides farmers
                                                                                        Following a USDA diagnosis of avian influenza (AI) in
access to better information and improved capacity for
                                                                                        2006, Afghanistan launched an immediate control effort.
agribusiness and economic development. In Serbia,
                                                                                        Since then, no new AI cases have been reported. This was
USDA biotechnology capacity-building activities led to a
                                                                                        due in part to an ongoing USDA program to develop an
new draft law on agricultural biotechnology. The law
                                                                                        effective monitoring system in the country via workshops
expands on the existing one and simplifies import of
                                                                                        and training programs conducted by Department
biotechnology products. In Romania, with the official
                                                                                        epidemiologists. Such a monitoring system helps alleviate
launch of the Good Manufacturing Practices manual,
                                                                                        fears that could stifle trade in poultry products.
Romalimenta (the Romanian Food Industry Federation)
and USDA are helping the food industry increase its                                     All private voluntary organizations that offer food aid
capacity to produce and regulate safe food.                                             through McGovern-Dole conduct extensive operational
                                                                                        and results surveys; USDA evaluates the results to
Additionally, a USDA technical review of food shelf-life
                                                                                        determine the programs’ effectiveness. Additionally, semi-
standards in Egypt resulted in a commitment by the
                                                                                        annual reports share results and challenges. Through the
Egyptian government to amend regulations and notify
                                                                                        use of the surveys and reports, USDA identifies strategies
WTO for comment prior to final enforcement. Mexico,
                                                                                        that address challenges and barriers.
after nearly losing meat export equivalence status in late


                                                                                                                                               USDA
                                                                                    FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT     55
                                            ANNUAL PERFORMANCE REPORT




OBJECTIVE 1.3: IMPROVED SANITARY AND                            In response, USDA will work closely with other Federal
PHYTOSANITARY (SPS) SYSTEM TO FACILITATE                        agencies to strengthen regulatory coordination, address
                                                                SPS measures and other technical barriers to trade, and
AGRICULTURAL TRADE
                                                                encourage trading partners to use sound science in
Overview                                                        regulatory decision making. The Department will lead
                                                                Federal efforts to monitor adherence to the SPS
                                                                Agreement of the WTO and will help lead enforcement
                                                                of the agreement. USDA will also continue to work
                                                                through international organizations to develop stronger
                                                                science-based standards to facilitate trade. Additionally,
                                                                the Department will conduct regulatory capacity-building
                                                                activities with selected trading partners. These activities
                                                                will help protect the life and health of humans, animals
                                                                and plants around the world; they will also facilitate trade
                                                                through efficient regulation.

                                                                USDA has several tools to help monitor international
                                                                regulatory activities. For example, WTO members submit
Sanitary and Phytosanitary (SPS) refers to measures             more than 800 annual notifications of intent to alter or
imposed by governments to protect human, animal and             create import requirements related to food safety or plant
plant health from pests, diseases and contaminants. These       and animal health. USDA maintains the official U.S.
measures often hinder trade, intentionally or                   Government Enquiry Point and Notification Authority to
unintentionally, reasonably or unreasonably. USDA               track and respond to these notifications. The Department
agencies work with other Federal agencies to address and        reacts aggressively to restrictive measures. USDA
mitigate SPS measures imposed by foreign governments.           maintains a monitoring system that allows it to address
                                                                problems quickly.
                      Key Outcome                               While some of the issues are difficult to resolve, USDA
           An Improved Global SPS System for                    can pursue long-term solutions. BSE is a good example.
              Facilitating Agricultural Trade                   In FY 2006, USDA reopened or expanded restricted beef
                                                                markets in Japan, Mexico, CAFTA countries, Peru,
The negative impact of some SPS measures is growing             Malaysia, Taiwan and Singapore. This came two years
due to increasing trade in food and agricultural products.      after the first domestic BSE case and subsequent market
This is apparent in the growth of trade in consumer-ready       closures. To do this, USDA worked to develop the
products such as meats, fruits, vegetables and processed        scientific information to support its case to revise
foods. The problem is compounded by the emergence of            international standards. The Department also strives to
threats like bovine spongiform encephalopathy (BSE is a         hold countries accountable for complying with their trade
chronic degenerative disease affecting the central nervous      agreements. This will continue to be a top priority for
system of cattle), poor regulatory infrastructure in many       USDA as it seeks to reopen markets for U.S. beef.
developing countries, and political pressures that cause
foreign governments to implement stricter-than-needed
SPS measures.




USDA
   56       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                             ANNUAL PERFORMANCE REPORT




Selected Results in Research, Extension and Statistics           Reducing a Phytosanitary Trade Barrier for Apples—The
                                                                 purported presence of the southern strain of Plum
                                                                 Curculio (PC) in fruit-producing counties (with a second
                                                                 generation in the fruit at harvest) has caused the
                                                                 imposition of trade barriers to Virginia apples. PC is a
                                                                 pest of temperate fruits. USDA-funded research at
                                                                 Virginia Polytechnic Institute and State University is
                                                                 supporting cellular sequencing to determine the
                                                                 distribution of the northern and southern strains of PC in
                                                                 Virginia. The studies have found a bacterial symbiont in
                                                                 both strains that may cause the reproductive isolation
                                                                 between the two. This discovery could enable the
                                                                 elimination of an important phytosanitary issue that has
New Strategies Keep Fresh-cut Produce Free of Pathogens—         caused a trade barrier in several European countries and
New intervention strategies for fresh-cut produce                several western states. Thus, the market for Virginia
dramatically reduce the risk of pathogen contamination,          apples increases considerably.
thereby promoting domestic sales and trade. USDA                 Challenges for the Future
scientists identified a safe and effective new sanitizer that
achieved a 99.999 percent reduction of E. coli 0157:H7,          Given the increasing global flow of food and agricultural
Listeria, and Salmonella on produce. The researchers             products, the ability of foreign countries to develop and
optimized sanitation treatment procedures to ensure good         implement sound science-based regulatory systems is vital
quality of shredded carrot and fresh-cut lettuce while           to the long-term safety of U.S. agriculture and our food
maintaining the sanitizer’s effectiveness. These findings        supply. U.S. agriculture benefits greatly from the
are especially useful to the fresh produce industry. They        development of regulatory frameworks in other countries.
provide practical information in selecting a suitable            These frameworks can address technical trade barriers and
sanitizer to maintain microbial safety and quality of fruits     SPS measures in a transparent and scientifically based
and vegetables.                                                  manner. Besides monitoring and enforcing its rights
                                                                 under the WTO SPS agreement, USDA is working to
New Treatment Promotes Export of Lettuce—A new ultra-low         support the development and adoption of science-based
oxygen treatment that disinfests insects on lettuce will         international standards and SPS regulatory systems.
expand the commodity’s export opportunities. Ultra-low           These efforts are critical to the Department’s ability to
oxygen treatments were developed for control of western          bring developing countries into the global trading system
flower thrips and lettuce aphid on iceberg lettuce with          so that they support further liberalization through
minimal or no negative effects on the vegetable’s quality.       multilateral trade negotiations.
This research, conducted by a USDA scientist, addresses
phytosanitary barriers facing U.S. lettuce in overseas           USDA works closely with the U.S. Trade Representative
markets. The ultra-low oxygen treatment potentially can          and other Government agencies to pursue and enforce
become a safe, effective alternative to traditional methyl       trade agreements. These agreements include technical
bromide fumigation for control of western flower thrips          regulations and measures designed to enhance food safety
and lettuce aphid on exported lettuce. It also should            and protect plant and animal health. USDA staff in more
increase export of U.S. lettuce to overseas markets.             than 90 countries helps open, retain and expand
                                                                 international markets for U.S. food and agricultural



                                                                                                                     USDA
                                                                FY 2006 PERFORMANCE   AND    ACCOUNTABILITY REPORT    57
                                                          ANNUAL PERFORMANCE REPORT




products. This staff includes veterinarians, economists,                            Trade issues and their impact on U.S. exports depends
marketing experts, plant pathologists, and others. While                            primarily on foreign action, sometimes in response to such
this group represents USDA overseas as its key supplier of                          events in the U.S. as a livestock disease outbreak. Both
market intelligence, it also helps solve minor trade threats                        the problems and the solutions are unpredictable.
before they become substantial disruptions. Staff members                           Solutions can range from a quick agreement with officials
do this by being able to speak knowledgeably with foreign                           at the port of entry to a long negotiation process followed
decision makers. They also help support U.S.-based                                  by a lengthy regulatory or legislative process in the
technical experts who develop science-based protocols and                           country in question. The impact of an action can range
health certification procedures for exporting food and                              from a few thousand dollars to billions of dollars. While
agricultural products.                                                              USDA can establish priorities in advance for known
                                                                                    constraints, additional events will occur that will require
Analysis of Results                                                                 realigning priorities.
USDA met its performance goal. This was accomplished
by trade opportunities preserved through monitoring and                             USDA’s selection of this performance measure
compliance enforcement, overseas advocacy and                                       demonstrates the growing importance of addressing SPS
negotiations of technical protocols. The two most                                   barriers to maintain or expand trade. As the U.S.
important successes were the European Union’s indefinite                            Government continues to negotiate new bilateral, regional
postponement of new requirements on wood-packaging                                  and multilateral trade agreements, the challenge will be to
material that exceeds the agreed-upon international                                 monitor and enforce compliance with both trade and
standard and the reopening of the Japan market for U.S.                             technical commitments. This monitoring will ensure that
beef.                                                                               U.S. agriculture receives full benefits from negotiated
                                                                                    reductions in non-tariff barriers.

Exhibit 22: Increase U.S. Export Opportunities

                                                                                                                 Fiscal Year 2006
                             Annual Performance Goals and Indicators                                Target             Actual             Result
           1.3.1       Increase the dollar value of trade expanded through                          $2.2                $2.6            Exceeded
                       negotiation or preserved through USDA staff intervention and
                       trade agreement monitoring activities (Sanitary and
                       Phytosanitary) ($ Bil)


Exhibit 23: Trends in Expanding and Retaining Market Access

                                                                                                     Fiscal Year 20061
                                       Trends                                2002           2003             2004          2005           2006
            1.3.1       Increase the dollar value of trade expanded         $1.327         $2,713            $3,950       $2,000         $2,600
                        through negotiation or preserved through
                        USDA staff intervention and trade
                        agreement monitoring activities (Sanitary
                        and Phytosanitary) ($ Mil) Baseline: 1999 =
                        $2,567
            1
                FYs 2002 - 2004 data is based on SPS and non-SPS related trade barriers. FY 2005 and 2006 data is based on SPS trade barriers.




USDA
   58           FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




The figures reflect the uncertainty of trade disruptions.     Overview
Just weeks after Japan resumed imports of beef in             Section 9002 of the Farm Security and Rural Investment
December 2005, it re-imposed the ban after finding beef       Act of 2002 (FSRIA) authorized the Federal Biobased
that violated the recently agreed-upon technical protocol.    Products Preferred Procurement Program (FB4P). The
After U.S. negotiations and inspection of processing          funding level for FY 2006 is $1.0 million in mandated
facilities, the Japanese market reopened in June 2006.        Commodity Credit Corporation funds and $1.5 million in
                                                              appropriated funding. The Office of Energy Policy and
Strategic Goal 2: Enhance the Competitiveness and
                                                              New Uses (OEPNU) is implementing it through
Sustainability of Rural and Farm Economies                    successive rulemakings. (OEPNU) assists the Secretary of
                                                              Agriculture in developing and coordinating Departmental
                                                              energy policy, programs and strategies. FB4P authorizes
                                                              the preferred procurement of biobased products that fall
                                                              under items (generic groupings of products) designated by
                                                              rulemaking. Creating a demand for biobased products
                                                              supports the farm and rural sectors by expanding and
                                                              stabilizing the demand for agricultural commodities. To
                                                              designate by rulemaking, USDA must provide
                                                              information on environmental and health effects of the
                                                              product and life-cycle costs. The Department also can set
                                                              a minimum biobased content for the item. USDA must
Rural America is home to 60 million people, but only          identify products and manufacturers. It also must gain
2 million are directly engaged in production agriculture.     their voluntary support in providing test information on
Most rural income comes from forestry, mining,                those products to enable the Department to begin item
recreation, manufacturing, support services, and              designation. A voluntary labeling program also is
renewable energy. Thus, rural America is of critical          available. Manufacturers of qualifying products can use it
importance to the Nation’s prosperity and technological       to carry the USDA Certified Biobased Product label and
advancement. It is in the Nation’s best interest to support   logo.
rural America, and USDA enhances the competitiveness
                                                              Congress created the FB4P to:
and sustainability of rural and farm economies by, among
other things, expanding domestic market opportunities,            Spur demand growth for new biobased products;
increasing the efficiency of domestic agricultural                Increase domestic demand for agricultural
production and marketing systems, and providing risk              commodities;
management and financial tools to farmers and ranchers.           Encourage development of processing and
                                                                  manufacturing in rural communities;
OBJECTIVE 2.1: EXPAND DOMESTIC MARKET
                                                                  Capture environmental benefits; and
OPPORTUNITIES
                                                                  Enhance the Nation’s energy security.

                       Key Outcome                            The final rule establishing the guidelines under which the
    • Increased use of biobased products throughout           program operates was published January 11, 2005. The
                 the agricultural sector                      first of a series of rules to designate items (generic
                                                              groupings of biobased products) for preferred



                                                                                                                  USDA
                                                        DRAFT FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT    59
                                             ANNUAL PERFORMANCE REPORT




procurement was published as a proposed rule in the
Federal Register, July 5, 2005. The final rule was
published, March 16, 2006. Six items (mobile equipment
hydraulic fluids, biobased roof coatings, water-tank
coatings, diesel fuel additives, penetrating lubricants; and
bedding, bed linens and towels) were designated in this
rule. Manufacturers of products falling under those items
have posted product and contact information on an FB4P
electronic catalog for qualifying products under
designated items.

The two proposed rules were published in the Aug. 17,
2006, Federal Register. The rules designated 20 items as
                                                                 The benefits of this program are broad. Some accrue
generic groupings of biobased products. The new items
                                                                 directly to the private sector through the program’s
included: Adhesive and mastic removers; Insulating foam
                                                                 operation. Others may accrue indirectly via the public
for wall construction; Hand cleaners and sanitizers;
                                                                 sector. FB4P defines qualified biobased products as:
Composite panels; Fluid-filled transformers;
Biodegradable containers; Fertilizers; Metalworking                  Those consistent with definition in statute;
fluids; Sorbents; Graffiti and grease removers; Two-cycle            Products for which the biobased content is known;
engine oils; Lip care products; Biodegradable films;
                                                                     Information is on the environmental and health
Stationary equipment hydraulic fluids; Biodegradable
                                                                     effects of product use are available;
cutlery; Glass cleaners; Greases; Dust suppressants;
Carpets; and Carpet and upholstery cleaners.                         Product performance, as tested against industry
                                                                     recognized standards, is known; and
Technical information to support each proposed rule is
                                                                     Designation is based on providing reliable and
available at the Federal Biobased Products Preferred
                                                                     relevant information to Federal agency.
Procurement Program Web site at
www.biobased.oce.usda.gov.                                       For Federal agencies, FB4P encourages the purchase of
                                                                 more environmentally sustainable products. It also helps
The two proposed rules announced are part of a series of
                                                                 agencies identify those products, increases the availability
rules that will be issued designating biobased items.
                                                                 and diversity of biobased products, and helps agencies
USDA has identified about 170 items for which it is
                                                                 reduce environmental footprint.
collecting test data needed for the additional designations
of items. These designations will extend preferred               For manufacturers and vendors, FB4P creates a preferred
procurement status to include all qualifying biobased            market for biobased products, provides large scale
products.                                                        demonstration of biobased products performance in use,
                                                                 spurs development of new biobased products and develops
Previously, USDA had issued final guidelines for the
                                                                 alternatives to fossil energy based products.
biobased procurement program. It also developed a model
procurement program of training and education to help            Collectively, the benefits from FB4P creates an
Federal procurement officials and users of biobased              information database that both the private and public
products identify and purchase qualifying biobased               sectors can use to evaluate designated items to make an
products. Information on the guidelines and the model            informed purchasing/procurement decision. This
program are available at http://www.usda.gov/biobased.           information also helps reduce the dependence of


USDA
   60        FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




petroleum-based products and improve the environment.          In response to these challenges, USDA is creating
FB4P increases the demand for processing facilities in         regulations and operating procedures for the Bioenergy
rural areas. It also boosts the demand for biomass material    Program and the FB4P. The Department also is
from agricultural, marine and forest sources. Currently,       developing a model procurement program for Federal
USDA is working to implement the program fully. Once           agencies to help them meet their responsibilities within
implemented, the aforementioned benefits will be               the program’s parameters. This model will educate and
realized.                                                      train Federal agencies about procurement and how to use
                                                               related informational resources. It also will allow
Challenges for the Future                                      manufacturers and vendors to identify and evaluate
USDA is looking for ways to develop an infrastructure to       biobased products available in the marketplace for their
support the efficient and economically viable development      use. The USDA Office of Procurement and Property
of biobased products. Other challenges include:                Management will announce the model procurement
                                                               program once agencies have implemented the model. If
    Informing rural America about the benefits of              successful, this model procurement program will make an
    biodiesel fuel use and helping farmers transition to a     important contribution toward creating market-based
    new style of operating;                                    opportunities to produce and consume increased amounts
    The continued need for public policies supporting the      of biobased products.
    development and use of biobased products;
                                                               Selected Results in Research, Extension and Statistics
    The need for public education about the
    environmental, performance and energy-security             Biobased Lubricants—Improved germplasm will expand
    benefits of using biobased products, and managing          production and marketing opportunities for biobased
    the carbon cycle more effectively;                         lubricants. Commercialization of Lesquerella – whose
                                                               seeds contain oil rich in hydroxy fatty acids, an important
    The development and evaluation of measures that            raw material for making resins, waxes, nylons, plastics,
    identify and assess the benefits of increased use of       lubricating greases, and cosmetics – is impeded by a lack
    biobased products, including benefits internal to the      of superior germplasm for crop production. USDA
    seller and user of the products and external benefits      scientists released a new variety of Lesquerella with higher
    that affect society and the environment;                   oil content than any other variety. The new line provides
    The willingness of manufacturers and vendors of            public and private researchers additional sources of
    biobased products, working with USDA, to provide           genetic diversity for future breeding and an alternative
    the material and data necessary to test and evaluate       domestic source of hydroxy fatty acids for lubricants
    the biobased content, environmental attributes and         currently made from imported castor oil.
    life-cycle costs required for the Department to
    designate generic groupings of products for preferred      Analysis of Results
    procurement within the program; and                        Rules are being issued designating biobased items.
    The willingness of manufacturers and vendors of            FB4P is expected to significantly increase the use of
    biobased products designated by rulemaking for             biobased products within the Federal Government. This
    preferred procurement within the program to                increased usage, in turn, will encourage the production of
    cooperate with USDA in publicizing their availability.     biobased products for that market. The program calls for
                                                               Federal agencies to give preference to designated biobased
This can be done by vendors voluntarily posting product
                                                               products in Government purchases within one year of
and contact information on the program Web site at
                                                               publication of the final designation rule.
www.biobased.oce.usda.gov. This will allow Federal
agencies to find biobased products for procurement.



                                                                                                                    USDA
                                                              FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT        61
                                                         ANNUAL PERFORMANCE REPORT




Exhibit 24: Increase the Use of Biobased Products

                                                                                                              Fiscal Year 2006
                           Annual Performance Goals and Indicators                              Target                Actual      Result
                                                                                            Publish 6 items       Published 6      Met
           2.1.1    Number of items designated as biobased for Federal
                                                                                             in Final Rule       items in Final
                    procurement.
                                                                                                                     Rule
           Note: This measure changes annually; thus, trend information is not available.


                                                                                    information, which USDA analyzes, compiles and
OBJECTIVE 2.2: INCREASE THE EFFICIENCY OF DOMESTIC
                                                                                    disseminates immediately to all interested parties.
AGRICULTURAL PRODUCTION AND MARKETING SYSTEMS
                                                                                    Market News provides agricultural producers access to the
                                                                                    necessary information for determining contract values,
                            Key Outcome                                             dispute resolution and reporting under trade agreements.
     Agricultural Producers Who Compete Effectively                                 Market News reports are used in judicial proceedings and
                  in the Economic Market                                            when the International Trade Commission is considering
                                                                                    dumping allegations with respect to agricultural
Overview                                                                            commodities and products entering the country. U.S.
                                                                                    Customs and Border Protection use USDA price data to
USDA improved market competitiveness and increased                                  assess the value of imports. Agricultural commodity and
the efficiency of agricultural marketing systems. The                               product contracts are routinely linked to prices reported
Department provided greatly enhanced access to                                      by Market News. The Market News portal provides a
marketing information for producers and marketers of                                Web-based search engine that allows users to find market
farm products, and those in related industries, by                                  information and tailor reports by commodity, variety,
initiating the Market News portal. The portal provides                              shipping point and destination market.
electronic access and custom report capability on current
market data for fruits and vegetables, livestock and grain.                         USDA worked closely with the rapidly expanding organic
Additional commodities will be added to the portal as                               agriculture industry to refine the definitions and
resources allow. Market News is the only nationwide                                 requirements for organic production and labeling.
mechanism for gathering and publishing price data on                                USDA’s National Organic Program conducted an organic
specific agricultural commodities. This timely, accurate                            dairy symposium and public comment and rulemaking
and unbiased market information covers local, regional,                             activities relating to access to pasture, the use of
national and international markets. The information is                              synthetics, import equivalency, aquaculture and pet food.
designed to help traders of U.S. agricultural products
                                                                                    This program originated from the Organic Foods
decide where and when to sell, and at what price. USDA
                                                                                    Production Act of 1990. It is designed to establish
also distributes Market News, which reports current data
                                                                                    national standards governing the marketing of agricultural
on supply, movement, contractual agreements, inventories
                                                                                    products as organically produced, to assure consumers that
and prices for many agricultural commodities. It does this
                                                                                    organically produced products meet a consistent standard,
by collecting, analyzing and disseminating market
                                                                                    and to facilitate commerce in fresh and processed food
information for numerous agricultural commodities.
                                                                                    that is produced organically. Before the program’s
Electronic access and e-mail subscriptions for all
                                                                                    creation, individual states established their own organic
commodities are available at http://marketnews.usda.gov/.
                                                                                    production and labeling requirements. The nationwide
Federal and cooperating State reporters obtain market
                                                                                    program provides a more efficient and competitive system




USDA
   62        FY 2006 PERFORMANCE            AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




for the marketing of organic agricultural products within      method of publishing and syndicating audio broadcasts
the U.S. and for exports.                                      through the Internet. It allows users to download audio
                                                               files to be played on computers or portable music players.
Additionally, USDA launched a new Farmers Market
Promotion Program, updated the Farmers Market                  USDA conducts the Agricultural Resources Management
Resource Guide, established a Farmers Market                   Survey (ARMS) annually. ARMS data travels through
Consortium, created a new Web site on Farmers Market           numerous Federal statistical agencies. The Department
resources and participated in the Farmers Market               estimates the largest cash receipts among the States.
Coalition. More information on all of these is available at    Meanwhile, the Bureau of Economic Analysis (BEA)
http://www.ams.usda.gov/farmersmarkets/. The program’s         produces county estimates using ARMS data in
marketing experts provide technical advice and assistance      combination with the U.S. Census of Agriculture data.
to States and municipalities interested in creating or         BEA data are used as a basis for distributing billions of
upgrading wholesale market facilities, auction and             Federal dollars back to the States and counties.
collection markets and retail farmers markets. They also
                                                               USDA continues to work closely with the World
conduct feasibility studies in cooperation with the private
                                                               Agricultural Outlook Board (WAOB) to provide short-
sector, not-for-profit organizations and other
                                                               and long-term projections of U.S. and world agricultural
Government agencies to evaluate and suggest efficient
                                                               production, consumption, and trade. WAOB serves as
ways to handle and market agricultural commodities.
                                                               USDA’s focal point for economic intelligence and the
USDA researches marketplace changes to assist States,
                                                               commodity outlook for U.S. and world agriculture. For
localities, market managers/operators and growers in
                                                               the FY 2007 President’s Budget, USDA used stochastic
making strategic decisions for future business
                                                               budgeting based on a Department project. USDA
development.
                                                               incorporated stochastic price and production information
The program facilitates distribution of U.S. agricultural      into its 10-year budget baseline projections. (Stochastic
products, identifies marketing opportunities, provides         budgeting helps analysts create a probability distribution
analysis to help take advantage of those opportunities and     of possible funding needs.) The Commodity Credit
develops and evaluates solutions. Marketing solutions          Corporation outlay projections for countercyclical
include improving farmers markets and other direct-to-         payments, marketing loan benefits and milk income loss
consumer marketing activities, researching and developing      contract payments were based on stochastic information
marketing channels, providing information and education,       generated by a USDA Food and Agricultural Policy
encouraging adoption of improved post-harvest                  Simulator (FAPSIM) model on feed grains (corn, barley,
technology, and designing market facilities. The program       sorghum, oats, wheat, rice, upland cotton, soybeans and
benefits agricultural producers by providing solutions to      dairy). FAPSIM is an annual econometric simulation
marketing problems so that they can remain financially         model.
viable. Consumers benefit from increased availability and
                                                               The Structure and Finance of U.S. Farms: 2005 Family
alternative, cost-efficient sources.
                                                               Farm Report, published in 2006, provides research
Selected Results in Research, Extension and Statistics         examining the status of family farms. Most U.S. farms—
USDA is taking advantage of the latest broadcast               98 percent in 2003—are family owned. They are
technology by becoming one of the first federal agencies       organized as proprietorships, partnerships or family
to offer podcasts. The same audio stories that are             corporations. Even the largest farms tend to be family
distributed to farm broadcasters and posted on the USDA        farms. While very large family farms account for a small
Web site now are available via podcast. Podcasting is a        share of farms, they represent a large—and growing—



                                                                                                                  USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      63
                                             ANNUAL PERFORMANCE REPORT




share of farm sales. While small family farms account for        percent of the corn growers are using higher populations,
most farms, they produce a modest share of farm output.          resulting in an economic gain of $1,200,000 in 2005.
Median income for farm households is 10 percent greater
                                                                 With USDA funding, Oregon Extension livestock
than that for all U.S. households. Small-farm households
                                                                 specialists taught producers to feed their animals more
also receive substantial off-farm income.
                                                                 scientifically by using: (1) ration formulation software; (2)
Farm-level data have been collected for use in assessing         a library of Oregon feeds and forages, developed for use
the relationship between approaches to management and            with the formulation software; and (3) other resources
farm financial success. This work examined the                   such as the new “Winter Feeding Workbook.”
management structure of farms to determine who controls          Participating producers report saving an average of $21
farm assets. Management units that make decisions for            per head by using these technologies.
farms were described, extending information about how
                                                                 New heat-tolerant germplasm with excellent fiber quality
farms control and guide their businesses. Results suggest
                                                                 will provide opportunities to expand U.S. cotton
that the size and nature of the management team along
                                                                 production. USDA partnered with a manufacturing firm
with the complexity of the farm system have important
                                                                 to release three improved lines of upland cotton to the
implications for the operation’s success.
                                                                 public for use in breeding new varieties. For the first time,
Ten years after the first generation of genetically modified     these lines combine some of the excellent fiber quality of
(GM) varieties became commercially available, USDA               Acala-type cottons with the heat tolerance of Delta-type
reviewed the adoption of domestic GM crops. It examines          cottons. They can be used as resources for breeders trying
the three major stakeholders of agricultural biotechnology       to improve the fiber quality of mid-south and southeast
and finds that (1) the pace of research-and-development          cottons. Those attempting to improve heat tolerance of
activity by GM-seed producers (the seed firms and                Acala cottons for the western U.S. also can use these
technology providers) has been rapid, (2) farmers have           materials.
adopted some GM varieties widely and quickly and
                                                                 The ability to produce fresh strawberries for fall and
benefited from such adoption, and (3) the level of
                                                                 winter will expand production and marketing
consumer concerns about foods that contain GM
                                                                 opportunities. Though there is market demand for fresh
ingredients varies by country, with European consumers
                                                                 strawberries in the fall and winter, most current
being most concerned.
                                                                 strawberry production methods produce fruit only in the
One of the most successful management strategies for             spring. USDA scientists have developed a new
improving yield in corn is the use of increased plant            transplant-propagation technique. This technique causes
populations. To realize this yield advantage, growers must       strawberry plants to flower within four weeks after field
find ways to offset decreases in stalk diameter and root         establishment. It also can be used to grow strawberries
mass. North Carolina State University conducted USDA-            that develop in both the fall and the spring. This
funded research that indicated that the use of starter           propagation technique stretches the picking season to late
fertilizer treatments featuring nitrogen and phosphorus          fall when the price is greatest. It also lessens the risk of
led to significant improvements in stalk diameter and root       weather-related crop loss.
mass. These improvements resulted in yield increases of
22 bushels per acre. The number of growers using high
                                                                 Analysis of Results
population corn systems increased dramatically in 2005           USDA published the 2006 Agricultural Statistics Board
(the latest year for which data is available) in North           (ASB) calendar early in FY 2006. The calendar lists
Carolina counties where corn is an important crop. Sixty         release dates and specified times for USDA’s national



USDA
   64       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                                    ANNUAL PERFORMANCE REPORT




agricultural statistics reports. These reports cover more                    USDA strives to release its ASB reports on time 100
than 120 crops and 45 livestock items. All of the 487                        percent of the time each year. It is imperative to deliver
agricultural statistics reports scheduled by ASB were                        high-quality, objective, relevant, timely and accurate
released on-time to achieve the 100-percent performance                      statistics to producers and other data users. Such statistics
target in FY 2006. Also, there were no errors published in                   allow users to make sound decisions. Official agricultural
FY 2006. USDA issues an official errata notice if the                        statistics promote a level playing field in production
errors in the report were determined to be “market                           agriculture with impartial information available to all at a
sensitive.” Reports with cosmetic and non-data errors or                     publicized time. These data, provided throughout the
“non-market sensitive errors” are also tracked,                              year, are important to the commodity and agricultural
documented and corrected. Revisions to preliminary data                      markets, and help provide a fair and equitable
series, forecasts or estimates are part of USDA’s standard                   environment. The data are also used by public officials to
operating procedures and are not considered errors. ASB                      make informed decisions. USDA policymakers and
prepares and issues official national and State forecasts                    Congress use this information to enable a strong,
and estimates relating to crop production, stocks of                         sustainable U.S. farm economy.
agricultural commodities, livestock products, dairy
products, poultry products, agricultural prices, agricultural
wage rates, chemical usage, and other related subjects.


Exhibit 25: Agricultural Statistics Reports Released On-Time

                                                                                                          Fiscal Year 2006
                          Annual Performance Goals and Indicators                             Target              Actual        Result
           2.2.1    Agricultural Statistics Board reports are released on time 100       Agricultural           Agricultural     Met
                    percent of the time.                                               Statistics Board          Statistics
                                                                                          reports are          Board reports
                                                                                         released on           were released
                                                                                           time 100             on time 100
                                                                                        percent of the         percent of the
                                                                                              time                  time




Exhibit 26: Trends in Agricultural Statistics Reports Released On-Time

                                                                                                Fiscal Year 2006
                                   Trends                             2002           2003              2004          2005       2006
            2.2.1   Agricultural Statistics Board reports are         99.8%          100.0%            99.2%         99.8%      100.0%
                    released on time 100 percent of the time.




                                                                                                                                         USDA
                                                                           FY 2006 PERFORMANCE            AND   ACCOUNTABILITY REPORT     65
                                             ANNUAL PERFORMANCE REPORT




OBJECTIVE 2.3: PROVIDE RISK MANAGEMENT AND                       Providing access to capital is one of USDA’s primary
FINANCIAL TOOLS TO FARMERS AND RANCHERS                          objectives. USDA makes direct and guaranteed farm
                                                                 ownership and operating loans to farmers and ranchers
USDA helps the Nation’s farmers and producers mitigate           temporarily unable to obtain commercial credit from a
the risks involved in agricultural production. The               bank, Farm Credit System institution or other lender at
Department continually works to improve its programs to          reasonable rates and terms. These loans can be used to
better serve the needs of producers better, and reach out        purchase land, livestock, equipment, feed, seed and
to new farmers and underserved populations. An                   supplies, construct buildings or make farm improvements.
economically prosperous agricultural sector contributes to       USDA loans are particularly important to beginning,
the Nation’s economic vitality and standard of living.           minority and women farmers, groups that have been
Consumers benefit from efficiently produced and                  underserved by the commercial lending industry.
marketed agricultural products that minimize their food          Additionally, their limited cash flow may prevent them
costs and maximize their choices. The success of U.S.            from qualifying for a commercial loan. USDA also helps
agriculture depends on the ability to expand into new            established farmers who have suffered financial setbacks
markets, obtain adequate capital, protect against financial      from natural disasters or whose resources are too limited
risk and adjust to changing conditions. This success also        to maintain profitable farming operations.
depends on the economic well-being of producers.
Producers must be able to increase production, either            The Department provides outreach and technical
through increased farm acreage or other methods,                 assistance to beginning, minority and women farmers and
maintain their farms and equipment, and utilize tools to         ranchers to help them establish and maintain profitable
mitigate the risks associated with various aspects of            farming operations. USDA works with other Federal,
production.                                                      State and local agencies, non-governmental organizations,
                                                                 land-grant universities and other educational
                       Key Outcome                               organizations. These groups identify and assist minority
             Economically Sound Agricultural                     farmers and women producers, and help remove program
                  Production Sector                              barriers to participation. Additionally, USDA works to
                                                                 ensure adequate funding for direct operating loans for
                                                                 minority, small, beginning, limited resource and other
There is much diversity in the farm sector due to                farmers.
differences in resources, climate, individual preferences
and even lifestyles. The needs, concerns and opportunities       USDA is positioning itself for the future to serve the
of larger, commercially oriented farms differ from those of      needs of America’s farmers and ranchers, food-aid
smaller, intermediate farms, regardless of location. Thus,       recipients, and the general public best. Although
USDA has a variety of farm-related programs designed to          agriculture and rural America have changed substantially,
enhance the economic opportunities for all agricultural          the Department’s field-office structure dates to the 1930s.
producers, while providing options for individual                USDA must change the way it conducts business to place
producers. The Department helps meet the credit needs            limited resources where they will be needed most. To
of farmers and ranchers through its farm loan programs. It       accomplish this, it is streamlining and modernizing its
also provides income stability to keep producers                 business processes, and working to improve program
economically viable through such economic safety-net             delivery and increase operational efficiency. USDA is
programs as crop insurance, direct and counter-cyclical          working to make more programs and services available
payments, marketing-assistance loans and other                   electronically. This step is designed to offer customers
commodity support programs.                                      more access to programs and information.



USDA
   66       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




USDA also is redesigning the way it interfaces with            producers’ names and addresses from a local database to a
farmers and producers in its traditional “safety-net”          national Web-based system accessible to all service center
programs. The Department is expanding online options           employees. This application is the foundation on which
while maintaining more traditional approaches. Offering        USDA’s enterprise initiatives are built. Data are available
programs in a Web environment will reduce the number           centrally to automate business rules fully for payment
of hours needed to verify and disburse program benefits        limitations, eligibility and other functions that require
greatly. Additionally, a Web environment also is more          nationwide data access. The Department is using cutting-
cost effective and increases customer satisfaction.            edge technology for a number of initiatives. These
                                                               initiatives are designed to decrease the amount of
USDA continues to streamline procedural handbooks,
                                                               administrative processing time significantly for many
information collections and regulations for the direct-loan
                                                               programs, enhance program delivery and allow customers
program. This process allows the Department to focus on
                                                               to complete and submit information and forms
providing technical assistance, services, monitoring and
                                                               electronically. Producers no longer have to travel to their
oversight. These are essential tasks in supporting high-
                                                               local USDA Service Center to complete these tasks, but
risk beginning and socially disadvantaged minority or
                                                               can view and print submitted contract options at any time.
women borrowers. A similar effort completed for the
                                                               While producers still have the option to apply for the
guaranteed loan program streamlined all business
                                                               program in person at their local USDA Service Center,
processes. This effort dramatically reduced the reporting
                                                               offering sign-up options through the Internet will help
burden for applicants and USDA. It also led to more
                                                               the Department serve more producers.
efficient loan processing. Comparable results are
anticipated for the direct loan program once the               Financial risk partially derives from the time lag between
streamlining effort is complete.                               when producers need assistance or capital and when they
                                                               actually receive the funds or credit. USDA is working to
The Department has responded with a number of
                                                               reduce the amount of time required to process its direct
initiatives designed to improve services for customers and
                                                               and guaranteed loan programs to get funds to producers
save time and money for its programs. Some of USDA’s
                                                               in a timelier manner. Reducing loan-processing time
Web-based tools improve internal processes and permit
                                                               ensures that financial resources are funneled more quickly
information sharing among agencies. Other
                                                               where needed. This effort allows recovery from setbacks
improvements allow customers to complete electronic
                                                               and improves operational efficiency. The Department also
transactions themselves, improving customer satisfaction.
                                                               plans to increase the percentage of transactions completed
Currently, USDA is developing the Farm Loan Program
                                                               electronically. Electronic transactions greatly reduce the
Information Delivery System (FLPIDS). This Web-
                                                               number of hours needed to verify and disburse program
based system will house all farm-loan programs and
                                                               benefits. Several USDA programs already are Web-
provide multiple improvements to operational efficiency.
                                                               enabled. This feature allows producers to file applications
For example, producer data will only have to be entered
                                                               and paperwork electronically, eliminating trips to USDA
once. Then, they will be available for any application
                                                               offices and expediting the administrative process. Getting
needed for that producer. Additionally, FLPIDS will
                                                               funds to producers more quickly and efficiently will
contain such enhanced decision-making tools as a
                                                               improve customer service and satisfaction. Thus, the
workflow system that will provide improved workload
                                                               Department will be able to meet the needs of operators,
data for managers.
                                                               farmers and the consumers who depend upon the results
In FY 2001, USDA implemented the Service Center                of the Nation’s agricultural sector better.
Information Management System. The system transfers



                                                                                                                  USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT     67
                                            ANNUAL PERFORMANCE REPORT




The USDA Federal crop insurance program provides an             USDA launched two new Pasture, Rangeland and Forage
actuarially sound risk management program to reduce             pilot insurance programs at the Texas A&M Beef Cattle
agricultural producers’ economic losses due to unavoidable      Short Course Annual Cattlemen’s College.
causes. Recently, USDA has seen dramatic growth in this         Approximately 1,500 livestock producers attended the
program. In FY 1998, the program insured 181.8 million          exhibition. USDA co-hosted a workshop for ranchers to
acres. Since that time, insured acreage has grown steadily,     explain the new pilot programs. Producers also could visit
and is currently at 245.8 million acres. Since FY 2000,         the USDA booth for personal demonstrations of the new
insured acreage in the program has increased 39.4 million       products. The exhibition attracted substantial media
acres or 19.1 percent. Federal crop insurance is available      attendance and coverage. Reporters interviewed ranchers
to producers solely through private insurance companies         and Department personnel regarding the new products.
that market and provide full service on policies upon           Various cattle organizations attended the exhibition and
which they share the risk with USDA. Principally, the           obtained information to distribute to their membership.
Standard Reinsurance Agreement (SRA) defines the
                                                                USDA also announced new agricultural risk management
amount of risk they share. The SRA calls for insurance
                                                                partnership agreements totaling $25.05 million. The
providers to deliver risk management insurance products
                                                                agreements provide funds for projects to develop new risk
to eligible entities under certain terms and conditions.
                                                                management tools for farmers and ranchers. They also
Providers oversee all aspects of customer service and
                                                                provide outreach and education opportunities to limited-
guarantee payment of producer premiums to the Federal
                                                                resource and other traditionally underserved farmers and
Crop Insurance Corporation (FCIC). In return, FCIC
                                                                ranchers. About $6.97 million was allocated to 64
reinsures the policies and provides premium subsidy to
                                                                partnerships with community-based, educational and not-
producers. It also provides reimbursement for
                                                                for-profit organizations. The funds are used to educate
administrative and operating expenses associated with the
                                                                women, limited-resource and other traditionally
companies delivering the insurance products. FCIC is a
                                                                underserved farmers and ranchers to manage and mitigate
wholly owned Government corporation created in 1936 to
                                                                agricultural risks. About $4.40 million was used to fund
provide for the nationwide expansion of a comprehensive
                                                                cooperative agreements to deliver crop insurance
crop insurance program.
                                                                education to producers in 15 historically underserved
In 2005, USDA renegotiated the SRA. These changes are           States. Specialty crop, livestock, nursery and horticulture
estimated to generate average annual Government savings         producers will benefit from $5.24 million in education
of $37 million. They also promote policy sales in less-         partnership agreements for 40 commodity partnership
profitable areas and reduce program fraud, waste and            programs.
abuse. The number of participating companies is up to 16.
                                                                When natural disasters strike, the Department reacts
Most of these companies have requested authorization to
                                                                quickly to help affected producers recover. USDA
increase the amount of premium they underwrite and the
                                                                partners with commercial lenders to guarantee ownership
number of States they intend to serve. USDA continues
                                                                and operating loans. It also makes direct loans to
to receive inquiries from additional insurance companies
                                                                producers and provides capital in times of emergency.
interested in joining the program. The value of risk
                                                                Additionally, the Department provides income stability.
protection provided to agricultural producers through
                                                                This assistance includes direct and counter-cyclical
FCIC-sponsored insurance exceeded $49.9 billion in FY
                                                                payments, marketing-assistance loans and other
2006. As recently as FY 1998, the value of risk protection
                                                                commodity support programs. USDA supports research
provided agricultural producers was less than $28 billion.
                                                                to identify new uses and more efficient technology for
                                                                producing and marketing agricultural products.



USDA
   68       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                               ANNUAL PERFORMANCE REPORT




Challenges for the Future                                          based vegetative index, and another based on a
Local and national economies impact USDA’s ability to              Temperature Constrained Normalized Difference
meet the credit needs of producers and the delivery of             Vegetation Index (NDVI) approach. NDVI uses data
services. Training, human-capital planning and                     derived from satellite-based remote sensing imagery. This
organizational efficiency are priorities as the Department         system describes the seasonal growth dynamics of
works to provide greater awareness of its programs and             vegetation for target areas. One such tool is a Seasonal
inform its customers of participation requirements.                Growth Constrained Rainfall Index. This index uses a
USDA farm loan programs are reviewed regularly. These              weighted warm season/cool season indexing period and
reviews ensure that customers are receiving services               the National Oceanic and Atmospheric Administration
efficiently and effectively, and that service staff are trained    rainfall data system. Another one is the Precipitation
to assist farmers during economic crises and natural               Index, which bases itself on a weighted average amount of
disasters.                                                         precipitation during a particular time period. FCIC will
                                                                   determine which of these approaches meets the criteria for
While a USDA strategic goal is to convert more of its              effective risk management coverage and will then approve,
programs to Web-based transactions, many producers                 modify or reject each approach for pilot testing in specific
neither are ready nor able to use new technologies. In             areas.
many areas of the U.S. high-speed Internet access is
unavailable. The Department recognizes the need to                 Analysis of Results
provide education and support to customers converting to
electronic transactions. At the same time, USDA must               In FY 2006, USDA met or exceeded each of its
                                                                   performance targets for providing risk management and
continue to provide traditional, face-to-face program
delivery for its customers. Thus, for the foreseeable future,      financial tools to farmers and ranchers.
service center staff must face the challenge of operating in       USDA introduced two new pasture, rangeland and forage
a dual environment of old and new processes and                    products that will be available for FY 2007. The Rainfall
procedures.                                                        Index Insurance and the Vegetation Index Insurance
                                                                   Programs will allow livestock producers to purchase
USDA will continue to increase the availability of
eGovernment initiatives to allow producers to have                 insurance protection for losses of forage produced for
around-the-clock access to farm programs. While USDA               grazing or harvested for hay. USDA will test the former
                                                                   program in 220 counties in Colorado, Idaho, North
offers many programs that can be accessed through the
Internet, its ability to offer services electronically depends     Dakota, Pennsylvania, South Carolina and Texas. This
upon continual updating and improvement of its                     program is based on rainfall indices used to measure
                                                                   expected production losses. The Department will test the
technological and physical infrastructure. Without
constant maintenance and upgrading, USDA’s ability to              latter program in 110 counties in Colorado, Oklahoma,
offer more services online will be constrained. Improving          Oregon, Pennsylvania, South Carolina and South Dakota.
                                                                   This program is based on satellite imagery that
equipment and technology and training staff in its use will
be essential for the Department to achieve its goal of more        determines the productivity of the acreage as a means to
Web-based transactions for customers.                              measure expected production losses. Together, these pilot
                                                                   programs will be available to provide coverage on
USDA is evaluating contracts for the development of new            approximately 160 million of the 640 million acres of
and innovative risk management solutions for insuring              grazing land and hay land in the U.S.
pasture, rangeland, forage and hay. The contracts include
developing a new plan that uses such tools as a satellite-



                                                                                                                       USDA
                                                                  FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT     69
                                             ANNUAL PERFORMANCE REPORT




USDA also reviewed program participation in States               administering programs and disbursing payments.
previously determined to be underserved by the Federal           Customers have the option of applying for Loan
Crop Insurance Program. This review confirmed the                Deficiency Payments (LDPs) online or going to a service
significant progress made in increasing participation in         center. Currently, USDA makes payment on approved
many of the underserved States. In FY 1998 for example,          electronic LDP applications within 48 hours. The
crop insurance covered only 30 percent of the planted            previous manual process could take up to eight weeks for
acreage of major crops in the underserved States. By FY          payment. Less than 1 percent of LDPs currently are
2005, the last year for which figures are available,             delivered through a Web-based environment. USDA will
participation had increased to 54 percent. Likewise,             increase the percentage to 100 percent by FY 2007. By
participation at buy-up levels of coverage increased from        using the Web-based system, USDA will realize
41 percent to 77 percent during this period. This review         substantial administrative savings. Additionally, when
further confirmed that every crop of economic                    fully implemented, customers will no longer be required
significance already has widespread insurance availability,      to visit USDA Service Centers to complete transactions.
except for pasture, rangeland and forage. The review also        This should increase customer satisfaction and reduce the
confirmed that, with a few exceptions, programs already          average processing time for delivering program benefits.
exist for the major crops in the States ostensibly
                                                                 USDA exceeded the annual goal for the percentage of
underserved by program. It is apparent that addressing
                                                                 beginning farmers, women, and racial and ethnic
participation concerns in underserved States largely
                                                                 minorities financed by the Department. In FY 2006, 46
requires a focus on USDA’s existing product portfolio.
                                                                 percent of farm operating and ownership loan dollars
This is particularly true for extensive education and
                                                                 went to these groups, surpassing the 40-percent target and
marketing, and improvements to existing products. The
                                                                 matching the record result achieved in FY 2005. The FY
Department is looking to secure outside expertise to help
                                                                 2006 results continue the long-term trend of providing
identify improvements needed in existing products for
                                                                 increased assistance to these farmers and ranchers.
underserved States. It also is continuing work on other
efforts that may offer a cost-effective approach to              The Department exceeded the processing time
delivering risk management products to various small             performance goals for both Direct and Guaranteed Loan
value and specialty crops.                                       programs. In the Direct Loan Program, the average
                                                                 processing time in FY 2006 was 31 days, exceeding the
USDA set a target to have 33 percent of its programs
                                                                 35-day target. The average processing time for
Web-enabled in FY 2006. It met this target. For
                                                                 Guaranteed Loans decreased from the FY 2005 level of
programs to be considered as such, producers and
                                                                 14.5 days to 12.63 days in FY 2006. Processing times for
ranchers must have access to the relevant program
                                                                 both loan programs have decreased significantly in the
software from their home or office. USDA met this goal
                                                                 past several years, with direct loans decreasing by 10 days
with three programs (Loan Deficiency Payment, Direct
                                                                 since 2002. Guaranteed loan processing decreased by
and Countercyclical Payment Program, and Tobacco
                                                                 more than five days per loan since 2001. By emphasizing
Successor-In-Interest Contracts). Another program, the
                                                                 the need to reduce processing time within each field
Milk Income Loss Payments Program, while Web-
                                                                 office, USDA now processes and administers loans to
enabled at all USDA county offices, remains unavailable
                                                                 customers more efficiently. Thus, farmers can receive the
to individual producers.
                                                                 financing they need in less time, and help sustain their
USDA is attempting to reduce administrative costs and            livelihood or income levels.
increase customer satisfaction as it moves from an
antiquated “legacy” platform to a Web-based system for



USDA
   70       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                                    ANNUAL PERFORMANCE REPORT




Selected Results in Research, Extension and Statistics                      They have substantial net worth, which cushions
USDA recently studied the role of farm subsidy programs                     uncertain farm income.
on rural economic well-being. Farm subsidy programs                         USDA examined the disposition of farm subsidies. Crop
were introduced in the 1930s largely due to concern for                     production is shifting to much larger farms. Since
chronically low and highly variable incomes of US farm                      Government commodity payments reflect production
households. Today, commodity-based support programs                         volumes for program commodities, payments also are
remain prominent, though the income and wealth of the                       shifting to larger farms. In turn, the operators of very
average farm household now exceeds that of their non-                       large farms have substantially higher household incomes
farm counterparts by a large margin. Farm income                            than other farm households. Thus, Government
continues to be highly variable. Despite this, the small set                commodity payments also are shifting to much higher-
of farm households most at risk for income variability —                    income households. Since the changes in farm structure
because farm income represents more than one-third of                       appear to be ongoing, commodity payments likely, under
household income — are those operating large farms.                         current policies, will continue to shift to higher income
                                                                            households.

Exhibit 27: Providing Tools to Help Farmers and Ranchers Stay Economically Viable

                                                                                                        Fiscal Year 2006
                         Annual Performance Goals and Indicators                            Target             Actual       Result
        2.3.1   Increase the value of risk protection provided to agriculture               $40.2              $49.9       Exceeded
                producers through FCIC-sponsored insurance ($ Bil)
        2.3.2   Increase percentage of program benefits delivered through a Web             33.0%              33.0%         Met
                environment.
        2.3.3   Increase percentage of beginning farmers, racial and ethnic                 40.0%              45.9%       Exceeded
                minorities, and women farmers financed
        2.3.4   Reduce average processing time for direct loans                            35 days            31 days      Exceeded
        2.3.5   Reduce average processing time for guaranteed loans                     14.25 days           12.63 days    Exceeded


Exhibit 28: Trends in Providing Tools to Keep Farmers and Ranchers Economically Viable

                                                                                              Fiscal Year 2006
                                  Trends                                  2002      2003             2004         2005       2006
        2.3.1   Increase the value of risk protection provided to         $37.3     $40.6            $46.7        $44.2      $49.9
                agriculture producers through FCIC-sponsored
                insurance. ($ Bil) Baseline: 1999 = $30.9
        2.3.2   Increase percentage of program benefits delivered           NA       NA               NA           NA        33%
                through a Web environment.
        2.3.3   Increase percentage of beginning farmers, racial           31%       33%             34%           40%       46%
                and ethnic minorities, and women farmers financed
        2.3.4   Reduce average processing time for direct loans             NA        41              43            37        31
                (days)
        2.3.5   Reduce average processing time for guaranteed               18        15              15            14       12.63
                loans (days)




                                                                                                                                      USDA
                                                                           FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT       71
                                             ANNUAL PERFORMANCE REPORT




Strategic Goal 3: Support Increased Economic                     The development of the Internet-based economy provides
                                                                 unique opportunities for rural America. Broadband
Opportunities and Improved Quality of Life In
                                                                 infrastructure greatly helps mitigate the limitations on
Rural America                                                    business development in rural areas caused by
OBJECTIVE 3.1: EXPAND ECONOMIC OPPORTUNITIES BY                  geographical distance and a limited customer base. USDA
USING USDA FINANCIAL RESOURCES TO LEVERAGE PRIVATE               is providing capital to finance access to broadband service
                                                                 for rural communities. This access is critical to enable
SECTOR RESOURCES AND CREATE OPPORTUNITIES FOR
                                                                 rural businesses to participate in the developing global
GROWTH                                                           economy.

                                                                 USDA’s Business and Industry (B&I) Guaranteed Loan
                                                                 Program provides up to an 80-percent guarantee to
                                                                 commercial lenders. The program allows lenders to raise
                                                                 the amount of a loan. A 2-year, $10.9 million B&I
                                                                 guaranteed loan allowed a Florida wood products
                                                                 manufacturer to modernize and increase safety standards
                                                                 while expanding product line and sale of lumber by-
                                                                 products. This saved or created 176 jobs.

                                                                 In Nevada, a $17.5 million B&I loan financed the
                                                                 construction of a 25-bed acute primary care medical
                                                                 center. An emergency room, operating theaters,
                                                                 diagnostic and imaging departments, full laboratory,
                                                                 physical therapy department, and heliport to
Overview                                                         accommodate patient air transport will make up the
                                                                 73,681-square-foot facility. When complete, more than
USDA’s programs support low interest financing of rural
                                                                 140 people will staff the medical center.
businesses to leverage limited private sector financial
resources. USDA funds promote opportunities for                  In Wisconsin a $6.8 million B&I loan to a farmer-owned
economic growth as measured by jobs created and saved.           cooperative (515 farmers in 17 States) enabled the organic
                                                                 producer-distributor to expand its business and to
One of USDA’s core missions is ensuring that rural
                                                                 establish a “green” headquarters building that incorporates
residents enjoy economic opportunities equivalent to
                                                                 the latest environmentally sound technologies.
those of other Americans. Credit limitations and other
market imperfections sometimes restrain the ability of           A $17 million construction loan to an Iowa cold storage
rural economies to create the jobs and incomes that would        facility created 24 jobs. The new automated warehouse
allow rural families to thrive and rural youth to remain in      allows the business to keep national customers from
their communities. USDA programs serve as capital                abandoning the area.
enhancement tools for rural America by providing access
                                                                 Banking regulations limiting the concentration of credit
to capital for investment in businesses and economic
                                                                 prevented a bank from providing financing for expansion
infrastructure. Through capital enhancement and by
                                                                 to an employee-owned engineering firm. A B&I loan
implementing energy-related provisions of the 2002 Farm
                                                                 guarantee of $4.4 million allowed this firm to consolidate
Bill, the Department will facilitate the expansion of
                                                                 headquarters facilities in Helena, Montana. Thus, the
economic opportunities in rural areas.


USDA
   72       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                             ANNUAL PERFORMANCE REPORT




firm increased its ability to serve new and expanding client     Whether a grant of $20,000 is used to improve a small
requirements. The 260 employee-owners served as the              town’s lighting, or provides targeted training to entice an
direct beneficiaries.                                            employer, all rural residents benefit from these
                                                                 investments. When a loan or grant is made to businesses
In Minnesota, a $13 million B&I guarantee created 57
                                                                 for expansion, modernization or start-up, the local job
jobs in a machine and metal fabrication business that
                                                                 market mix is increased and the local tax base improved.
would have closed otherwise.
                                                                 As a result of the economic stimulation, jobs are created
                                                                 and the economy improves enhancing the quality life for
                                                                 most citizens.

                                                                 Challenges for the Future
                                                                 Rural economies face challenges different from those of
                                                                 urban and suburban areas. These challenges include:
                                                                     Historic dependence on natural resources, mostly
                                                                     commodities, subject to cyclical trends and changing
                                                                     regulatory standards and oversight;
                                                                     Low profit margins on commodity sales and
                                                                     competition from foreign commodities;
                                                                     Large-scale changes in technology and the resulting
USDA revolving loan programs (IRP, RBEG, RDLG)                       efficiency gains in these industries along with the
make small grants to local not-for-profits to re-lend to             perceived limited skills available; and
start-ups, typically sole proprietorships or family                  Inaccessibility and low-density populations.
partnerships. The recipients usually have insufficient
credit histories to qualify for commercial loans. The            Additionally, rural areas typically have underdeveloped
intermediary organization provides business education            public services that make it difficult to attract or retain
and marketing support, along with loans. Under these             businesses. They lack public funding for amenities that
programs an intermediary can make small loans and                are offered in urban areas, such as dedicated business
usually provide consulting services as well. Typically, these    parks or expanded transportation links. Education, health
are working capital loans to entrepreneurs trying to             care and entertainment typically are perceived to be
provide new services or goods. For instance, in a nine-          marginally acceptable in rural areas. Every rural area has
county area of southern Kentucky,, start-up funds were           unique concerns.
used to purchase equipment for an outpatient home
                                                                 USDA State and area staff work with regional and State
infusion therapy center. This facility will employ 24
                                                                 entities, using Department dollars and other public and
people and provide needed medical service.
                                                                 private funds. Some areas need more jobs, while others are
                       Key Outcome                               being defined by new industries or commodities. USDA
                                                                 is sensitive to these needs.
          Enhanced Capital Formation for Rural
                    Communities                                  USDA’s grant programs provide funds to under resourced
                                                                 rural communities to improve their local infrastructure or
                                                                 expertise to be more attractive to new businesses and
Not only are rural businesses supported, but the
                                                                 maintain appeal to local residents. For instance, main
employment opportunities in rural areas are improved.


                                                                                                                     USDA
                                                                FY 2006 PERFORMANCE   AND    ACCOUNTABILITY REPORT      73
                                             ANNUAL PERFORMANCE REPORT




street improvements are usually funded by special local          A total of 30,000 agricultural operations from across the
business tax assessments, but in marginally viable areas an      Nation participated in the voluntary testing of the 2007
assessment would not be affordable. Frequently                   Census of Agriculture’s questionnaire in preparation for
companies looking for a new location need special skill          the data collection and processing the census data in FY
sets and USDA grants can fund small, targeted job                2008. The 2007 Census of Agriculture is expected to be
training programs.                                               mailed to all agricultural operations in December 2007.
                                                                 Specific changes planned for the 2007 Census of
All rural residents benefit when the local economy
                                                                 Agriculture include expanded data on organic agriculture,
prospers. More and better jobs, and more services, such as
                                                                 new data on agriculture practices, improved coverage of
health care facilities, improve the quality of life and
                                                                 small and minority operators, and electronic reporting
encourage young people to settle and stay. Additionally,
                                                                 capability for all respondents. Data from the 2007 Census
even small economic gains can increase public
                                                                 of Agriculture will be released in February 2009.
infrastructure through improved schools or expanded
amenities like greater entertainment options.                    Considering the high cost of doing business, New Jersey
                                                                 farmers cannot grow the same commodities as farmers in
                                                                 the Midwest competitively. Proximity to the largest
                                                                 consumer market in the Nation suggests that New Jersey
                                                                 farmers should produce high value prepared foods. A
                                                                 company supported by USDA competitive grants to
                                                                 Rutgers University provides research, education and
                                                                 business-development services to New Jersey’s agricultural
                                                                 and food industries. The company became the country’s
                                                                 first service-based, food agricultural industry incubator
                                                                 model. It already has become a template for similar
                                                                 programs throughout the U.S.

                                                                 Analysis of Results
                                                                 The number of jobs created or saved is linked directly to
                                                                 the amount of total available USDA business program
Selected Results in Research, Extension and Statistics           funding, amounts obligated and disbursed to awardees,
The economy of rural Appalachian communities                     and local economic conditions. Annual job targets are
historically is tied to the coal and steel industries. The       based on historical program operations, subsidy rates and
recent decline in these industries and concerns for              annual appropriations. The target job numbers assume a
environmental quality has stressed rural community               level funding horizon and timely allocations of funds,
economic development. USDA funded a company to                   without regard to the potential impact of major natural
develop a value-added product from residual mine waste.          disasters. In FY 2006, the aftermath of Hurricane Katrina
Since funding was initiated in 2000, this company has            and other natural disasters in rural America hampered job
processed and refined approximately 500 tons of mine             growth potential. Despite this issue, USDA programs met
waste to extract iron oxide for use in the pigment               the target for the fiscal year.
industry. This project reduced local environmental
                                                                 USDA exceeded its goal despite a decline in the number
pollution and improved economic opportunities in rural
                                                                 of loans and job numbers in one major program. A change
Pennsylvania.
                                                                 in program operations and the impact of Hurricane



USDA
   74       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                                 ANNUAL PERFORMANCE REPORT




Katrina delayed fund allocations to the States. This delay,               benefit to the rural community is estimated to be $2.50
in turn, suppressed demand from applicants. Yet FY 2006                   for every dollar in guaranteed loans closed. These
funds created or saved 73,072 jobs, expanding economic                    investments have long lasting positive impacts in rural
opportunities for more than 500 rural communities.                        communities. These impacts include bringing more
                                                                          dollars to downtown areas, increasing variety of goods and
Subsidy rates were low in FY 2001. The low rates caused
                                                                          services available, and offering start-up working capital.
relatively high program fund levels for some major USDA
business programs. At that time, the baseline for jobs                    In reality, USDA funds have long-lasting direct and
created or saved was set at 105,222. Annual budget                        indirect impacts on local rural economies that are hard to
authorities, subsidy rates and program levels have varied                 measure. Thus, the Department is making a bold attempt
since resulting in general decline in annual job numbers.                 to estimate the overall economic impact of budget dollars
FY 2006 results were in line with expectations given the                  on rural areas.
level of budget authority, subsidy rate and available
                                                                          USDA has developed a pilot information system, the
program funds.
                                                                          Socio-Economic Benefit Assessment System (SEBAS),
USDA business programs correlate the expansion of                         to enhance its ability to measure actual net program–
economic opportunity with job growth as measured by                       investment effectiveness. SEBAS uses detailed
jobs created and saved directly related to funded                         information about Department loan or grant investments
programs. Through the years job information has been                      in conjunction with other available Federal data resources.
gathered in different ways. The business and industry                     This process enables estimates of the direct and indirect
program and some grant programs estimate jobs based on                    impacts of program assistance on local and regional
business plan projections. Job counts are verified when                   economic performance. It also affects the quality of life in
each loan or grant is closed. The major revolving loan                    rural areas. SEBAS is being tested with several USDA
fund uses a life-cycle formula. State offices put huge                    programs in FY 2007. Future results will measure
efforts into substantially improving their ability to collect,            program effectiveness in many ways and serve as a
record and report job information on all programs quickly                 management tool to help improve program efficiency and
and consistently.                                                         performance with limited resources.

According to the U.S. Department of Labor, in addition
to direct jobs created or saved, the overall economic

Exhibit 29: Strengthen Rural Businesses

                                                                                                     Fiscal Year 2006
                         Annual Performance Goals and Indicators                        Target              Actual        Result
           3.1.1    Jobs Created or Saved                                               72,370              73,072      Exceeded



Exhibit 30: Trends in Creating or Saving Jobs

                                                                                          Fiscal Year 2006
                                 Trends                            2002         2003             2004          2005       2006
                                                                   76,301      87,619            81,030       73,617     73,072
            3.1.1   Jobs Created or Saved




                                                                                                                                   USDA
                                                                       FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT    75
                                             ANNUAL PERFORMANCE REPORT




OBJECTIVE 3.2: IMPROVE THE QUALITY OF LIFE THROUGH               their quality of life through increased economic
USDA FINANCING OF QUALITY HOUSING, MODERN                        opportunity.
UTILITIES, AND NEEDED COMMUNITY FACILITIES                       Providing reliable, affordable electricity is essential to the
                                                                 economic well-being and quality of life for all of the
Overview
                                                                 Nation’s rural residents. The electric programs provide
USDA successfully improved the quality of life in rural          capital to upgrade, expand, maintain and replace
America during FY 2006. The Department financed                  America’s vast rural electric infrastructure. They also
quality homes for 42,700 homebuyers, new/improved                provide leadership, guidance and other benefits.
water and waste disposal facilities for 1,500,000
subscribers, new or upgraded electric service for 8,183,649                              Key Outcome
consumers, broadband telecommunications in 458                            Improved Rural Quality of Life Through
counties for 297,027 subscribers and improved                          Homeownership, New and/or Improved Water
community facilities for 12 million rural residents.                   and/or Waste Disposal Facilities, New and/or
                                                                        Improved Electric Facilities and/or New or
The availability of adequate housing is critical to a                    Improved Telecommunications Facilities
community’s well-being. Ensuring that low-income
families have access to decent and safe housing is a major
concern in every area, whether urban or rural. USDA              In Fiscal Year 2006, USDA provided funds to construct,
provides financing for low- and moderate-income rural            renovate or improve 1,000 essential community facilities.
families who cannot obtain credit from other sources to          Rural Americans had new or improved services available
help them own homes. Owning a home provides stability            from 133 health care facilities, 520 public safety facilities,
for families and gives them the opportunity to strengthen        106 educational facilities, 10 energy-related facilities, 211
their financial condition through the accrual of equity.         public buildings and improvements and a number of other
The President has expressed his desire to increase               essential community facilities. In this period, 12 million
homeownership, particularly among minorities. He has             rural residents had new or improved services available to
established a major initiative to increase minority              them through these facilities.
homeownership nationwide. USDA is implementing an                Water and sewer facilities impact the economic
action plan aggressively to support the President’s goal.        infrastructure of communities. By investing in water and
If new businesses are to operate in a rural community,           sewer facilities, communities can:
that community must possess the amenities these firms                Save or create jobs;
require and employees desire. These amenities includes               Leverage funds with the private sector and local and
access to such basic needs as clean water, adequate                  state agencies;
housing, reliable electricity and telecommunications, and
such essential needs as quality education, health care, day          Attract Federal funds from other agencies; and
care, public safety services and cultural activities. If a           Enlarge the property tax base.
community cannot meet the public’s essential needs,
                                                                 During FY 2006, USDA leveraged $918,306,538 from
young people neither will stay in nor migrate to rural
                                                                 other sources with $1.5 billion of Department funds.
areas. USDA is an important source of credit and
technical assistance for developing the economic                 Investments in water and sewer facilities are critical in
infrastructure of rural America. These resources are             encouraging economic growth. For example, the
essential if rural residents and communities are to improve      wastewater treatment system in Rupert, Idaho,
                                                                 approached its design capacity and became unable to treat


USDA
   76       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




its waste and odor problems. Of concern was the                five years. These deferments and extension of maturity
continued viability of its industrial customers which          dates will provide financial assistance to these two
provide employment and represents the footing of the           cooperatives whose systems were significantly damaged by
local economy. Rupert and the Idaho Department of              Hurricane Katrina.
Environmental Quality joined forces. The city council,
                                                               USDA electric programs are responsible for the
working with the 1,946 residential customers, 250
                                                               engineering aspects of its borrowers. These aspects
commercial owners and 2 large food processors, decided
                                                               include standards, specifications, and other requirements
to upgrade the 28-year old plant. Rupert attracted
                                                               with respect to the design, construction, and technical
Government funds and invested its own funds for a total
                                                               operation and maintenance of power-plant, distribution,
of $13,230,000. The plant will be capable of treating 2.3
                                                               and transmission systems and facilities, including load
million gallons per day, providing for a 20-year growth
                                                               management, energy conservation and communications.
pattern. The design enables plant expansion as needed. It
                                                               Engineering practices, policies, standards and guidelines
increases the plant capacity 18 percent within the existing
                                                               relating to electric borrowers systems are developed;
footprint of the present site. Through extraordinary
                                                               analyses are conducted and guidance is provided on
cooperation, the major industry and commercial
                                                               matters relating to fuels for electric generating stations
customers have laid the foundation for long-term growth
                                                               and develops related policies and procedures for the
and prosperity.
                                                               electric programs. Criteria, procedures and analyses are
The Mountain City, Tennessee, sewer system suffered            developed for the improvement of the operating
numerous overflows and shutdowns for years. These              performance of electric borrowers and for the forecasting
overflows created problems for the inmates and staff of        of borrowers’ power requirements. These standards and
the North East Correctional Center (NECX). NECX is             specifications enabled cooperatives that were not affected
Mountain City’s largest employer. The town obtained            by Hurricane Katrina to assist those that were by sending
USDA funding and combined it with financing from the           supplies, equipment and crews. Electricity to cooperative
Tennessee Department of Corrections. Upgrading the             rural residents was re-established quicker than it could
sewer line will spur growth at the Johnson County              have been if the crews and personnel were unfamiliar with
industrial park and allow NECX to expand, spurring             the design of the system and lacked the proper
economic growth.                                               replacement equipment.

Disaster Relief Assistance, Hurricanes Katrina and Rita        The Town of Nickelsville, Virginia took advantage of
On September 29, 2006, the electric programs approved          USDA telecommunications funding to implement a Fiber
the following requests to defer certain debt service           Optic Network. Town officials are hoping the new service
payments on outstanding Rural Utilities Service notes          will lead to new business prospects and economic
under Section 12 of the Rural Electrification Act. Singing     development in their community. The project will enable
River Electric Cooperative, Inc., of Lucedale, Mississippi,    the provision of broadband services, including affordable
will defer principal in the amount of $5.7 million on          high-speed Internet access, digital television and
twelve loans. The deferment is for 3 years and the final       telephone services, to households and businesses in the
maturity of each note will be extended 3 years and             Town of Nickelsville and the surrounding areas. In
Jefferson Davis Electric Cooperative, Inc., of Jennings,       addition, a new public Internet access site connected to
Louisiana, will defer principal and interest in the amount     the fiber optic network has been established at the
of $4.9 million on two loans. The deferment is for five        Nickelsville Community Center.
years and the final maturity of each note will be extended



                                                                                                                  USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT     77
                                              ANNUAL PERFORMANCE REPORT




The new Nickelsville center provides free public access           The capital made available through the electric programs
computers with fast broadband connections to local                ensures that low-cost, reliable electric power is available to
residents during specific hours of operation. According to        rural consumers, businesses, schools, health facilities and
press accounts, the importance of the new fiber network           other consumers. The consumer density in rural areas is a
far outweighs its benefits to local residents. The                fraction of that in urban areas. This difference necessitates
availability of fast broadband helps to level the economic        access to lower cost capital to provide a comparable level
development playing field by allowing rural communities           of service. The electric program finances the construction
like Scott County to offer the same services as those in          of electric generation, transmission and distribution
larger areas. The introduction of the fiber optic network is      facilities serving 39 million rural residents in 2,500 of the
expected to draw small companies to rural areas like              country’s 3,100 counties. While rural electric cooperatives
Nickelsville.                                                     deliver about 12 percent of the total kilowatt hours sold in
                                                                  the country, they serve 75 percent of the landmass.
Challenges for the Future                                         Cooperatives service 6.5 consumers per mile of
Challenges to this objective continue to be the increased         distribution line compared to 33.5 for investor owned
cost of housing and other building costs. Rising building         utilities and 43.7 for municipal-owned systems. They also
costs result in fewer homes, community facilities and             generate $12,000 per mile of distribution compared to
water and waste systems. A challenge USDA faces                   $58,981 for investor owned utilities.
regarding water and wastewater is assisting rural
communities most in need of its financial and technical           Water programs are a leading source of credit for water
services. These communities usually have the least                and waste projects in rural America. They provide low-
resources for such services. Droughts, limited water              interest and guaranteed loans, grants and technical
resources, extreme temperatures and other environmental           assistance to rural communities to develop essential water
factors present unique problems in developing utility             and waste infrastructure. With dependable infrastructure,
systems. Solutions are expensive, resulting in the need for       communities can sustain economic development or
additional grant funds to develop projects.                       improve the quality of life for their residents. Rural
                                                                  Americans may enjoy the same high standards of living
USDA single-family housing programs assist low- and               and full participation in the global economy as their urban
moderate-income rural residents in becoming                       or suburban counterparts. Thus, the goal of water
homeowners. These programs are designed to strengthen             programs is to make funds available to small communities
families and communities, enhance wealth creation and             most in need of drinkable water and ensure that facilities
contribute to a more broadly based ownership society.             used to deliver drinking water are safe and affordable.
USDA housing program assistance reaches large numbers             In FY 2006, the programs invested over $1.6 billion in
of rural Americans with services critical to a better quality     direct and guaranteed loans and grants to help rural
of life. The program provides direct and guaranteed loans         communities develop 1,207 water and waste disposal
to help rural households achieve homeownership. More              facilities. These facilities provided new or improved water
than 22,838 low-income rural Americans achieved the               and waste disposal services to 1,637,554 subscribers.
dream of homeownership though these programs in FY
2006 which have made a special effort to increase the             Selected Results in Research, Extension and Statistics
number of minority homeowners. To stretch resources,              The Nurturing Homes Initiative, a collaborative effort
the programs’ loans and loan guarantees are supplemented          between the Mississippi State University supported by
with resources from private-sector banks, not-for-profit          USDA funds and the Mississippi Department of Human
agencies and State housing finance agencies.                      Service’s Office for Children and Youth, provides



USDA
   78        FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




educational programming and technical assistance to             forces that shape those events. USDA research will
family home providers for the estimated 57 percent of           continue to focus on the changing economic and social
Mississippi’s young children in unlicensed child-care           conditions of rural residents as they move through large-
settings. The program provides time-efficient and               scale, demographic transitions.
economically feasible training. Significant improvements
occurred in the quality of childcare provided by all of the
                                                                Analysis of Results
participants. Post-assessment scores revealed that 82           The targets were selected based on the Department’s
percent of the providers scored above the national median       expectations for loan obligations. The expectations were
score of the Family Day Care Rating Scale. The scale is         based on the anticipated price of housing and the
designed to assess family child-care programs conducted         probable continuation of the low interest rate
in a provider’s home.                                           environment prevalent in 2004 and 2005.

Low- to-moderate income families face many challenges           While the Section 502 guaranteed loan program has
when trying to build assets. USDA, the North Carolina           obligated more funding than last year, the actual number
A&T University Cooperative Extension, North Carolina            of new homeowners is less than anticipated. The reason
Housing and local lending institutions joined forces to         for this is that escalating home prices and rising interest
help families in Randolph and Davidson counties achieve         rates have made housing less affordable for low and
homeownership. This partnership resulted in the                 moderate-income borrowers. Higher home prices
availability of no- and low-interest loans, and in financial    and higher interest rates make it more difficult for low
education classes to help resolved financial issues that        and moderate-income borrowers to qualify for a loan.
could prevent them from qualifying for a loan. Twenty-six       Those that do qualify need larger loans to purchase their
participants attended the first financial education             homes, hence, more funding was obligated than last year
workshops. Thirteen successfully obtained an interest-free      despite a lower number of new homeowners.
loan of $50,000 to purchase homes from USDA for a               The difficulties from higher interest rates and home prices
total of $650,000.                                              shifted some of the demand to the direct program because
USDA research on non-metro population change focused            of the payment assistance feature and slightly longer loan
on the future impact of the baby boom on rural migration,       terms, making the direct program the only affordable
the relationship between Hispanic in-migration and              option for many households. The Section 502 direct
economic restructuring, and the growing number of               program fully utilized its appropriated funds plus some
African-American retirees choosing to live in non-metro         additional funding obtained to assist with the recovery
areas. Demographic trends also reflect a relentless             efforts from the 2005 hurricane disasters. Thus, the direct
geographic expansion of U.S. metro areas, a steady rise in      program was able to provide more assistance than
the number of long-distance commuters and rapid                 originally anticipated.
population growth in adjacent, non-metro counties. In           The water program far exceeded this year’s goal because of
contrast, more than 1,000 counties experienced overall          various factors both internal and external to the agency.
population loss since 2000, most of which are sparsely          Demand was much stronger than expected. The loan to
populated and isolated from metro regions. With natural         grant ratio also increased over last year which allowed
increase in non-metro areas now at historically low levels,     more loans to be made. Another reason the goal was
migration will dominate future rural demographic trends.        exceeded was because of USDA state offices funding
Thus, the fortunes of rural America in this new century         more projects. The offices had their full allocations in
are linked even more to events beyond its boundaries and        place and semi-annual pooling redistributed funding
with the social, economic, technological and political


                                                                                                                    USDA
                                                               FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT      79
                                                 ANNUAL PERFORMANCE REPORT




among the States earlier than previous years. additionally,               consumers while the results included the generation and
supplemental appropriation of $45 million for hurricane-                  transmission borrowers’ consumers. Even if the electric
affected areas in the gulf resulted in additional subscribers             programs had not changed its calculation of consumers,
being served.                                                             the target goal of 1,600,000 would still have been met.

The community facilities program exceeded its goal to                     The telecommunications program exceeded its goal of
provide needed community facilities to rural Americans                    customers served by new or improved telecommunications
because of the division’s emphasis on public safety and                   facilities by 28,563. The telephone loan lending authority
health care facilities. USDA staff has provided outreach at               was fully utilized. Although the Broadband Loan
national, State and regional conferences, emphasizing its                 Program obligations target was unmet, the Broadband
ability to provide facilities at reasonable rates and terms               Program exceeded its target for customers served by new
for rural Americans.                                                      or improved telecommunications facilities by more than
                                                                          100 percent.
The electric programs exceeded its performance goal
target for fiscal year 2006 by 6,583,649 consumers. The                   USDA continues to fund the deployment of advanced
2006 underestimation was due to a change in the                           telecommunications facilities in rural America. This
interpretation of consumers receiving new or upgraded                     continued investment results in many financial and
electric service. Other than in the year 2002, the electric               technical benefits for the borrowers. One result is the
programs have not put into its results the number of                      availability of new or improved service for the borrowers’
generation and transmission borrowers’ consumers                          customers, the residents and businesses that they serve. In
receiving new or upgraded electric service. The estimation                some cases, the financing provided by USDA reduces the
for 2006 was made excluding an estimation of generation                   operating and capital costs of the borrower, without a
and transmission borrowers’ consumers receiving new or                    direct increase in the number of subscribers. Thus, the
upgraded electric service. After making the estimation,                   number of customers served by new or improved
the electric programs re-evaluated its methods of                         telecommunications facilities has fluctuated over the last
calculation of consumers. A method was developed which                    few years, but a substantial number of customers continue
enabled the generation and transmission borrowers’                        to receive the benefit of these investments in
consumers to be included in the calculation and eliminate                 infrastructure made possible by USDA’s rural
double counting consumers. Therefore, the estimation did                  development programs.
not include generation and transmission borrowers’
Exhibit 31: Improving Rural Quality of Life through Homeownership Opportunities

                                                                                                     Fiscal Year 2006
                         Annual Performance Goals and Indicators                        Target             Actual       Result
           3.2.1    Homeownership opportunities provided                                43,500             40,517       Unmet



Exhibit 32: Trends in Rural Home Ownership

                                                                                          Fiscal Year 2006
                                  Trends                           2002         2003             2004         2005      2006
            3.2.1   Homeownership opportunities provided           43,036      44,130            48,894      43,224     40,517




USDA
   80        FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                                                      ANNUAL PERFORMANCE REPORT




Exhibit 33: Improving Rural Quality of Life through Water and Waste Disposal Facilities

                                                                                                          Fiscal Year 2006
                           Annual Performance Goals and Indicators                         Target                Actual         Result
            3.2.2    Number of program borrowers’ subscribers (or customers)             570,000                1,500,000      Exceeded
                     receiving new and/or improved water and/or waste disposal
                     service.


Exhibit 34: Trends in Water and Waste Disposal Service

                                                                                             Fiscal Year 2006
                                     Trends                           2002        2003              2004            2005         2006
             3.2.2    Number of program borrowers’ subscribers       796,768     593,582          965,780        1,325,000     1,500,000
                      (or customers) receiving new and/or
                      improved water and/or waste disposal
                      service.


Exhibit 35: Improving Rural Quality of Life through Community Facilities

                                                                                                          Fiscal Year 2006
                           Annual Performance Goals and Indicators                         Target                Actual         Result
            3.2.3    Customers served by new or improved community facilities                12                   15.2         Exceeded
                     (Mil)


Exhibit 36: Trends in Community Facilities

                                                                                             Fiscal Year 2006
                                     Trends                           2002        2003              2004            2005         2006
             3.2.3    Customers served by new or improved              7.2         7.2               12             12.9         15.2
                      community facilities (Mil)


Exhibit 37: Improving Rural Quality of Life through Electric Facilities

                                                                                                          Fiscal Year 2006
                           Annual Performance Goals and Indicators                         Target                Actual         Result
            3.2.4    Customers served by new or improved electric facilities             1,600,000              8,183,649      Exceeded




Exhibit 38: Trends in Electric Facilities

                                                                                             Fiscal Year 2006
                                   Trends                             2002         2003              2004            2005        2006
            3.2.4    Customers served by new or improved           11,524,931    3,745,559        4,325,985        2,360,477   8,183,649
                     electric facilities (Please check numbers)




                                                                                                                                           USDA
                                                                          FY 2006 PERFORMANCE             AND   ACCOUNTABILITY REPORT       81
                                                 ANNUAL PERFORMANCE REPORT




Exhibit 39: Improving Rural Quality of Life through Telecommunications Facilities

                                                                                                   Fiscal Year 2006
                         Annual Performance Goals and Indicators                       Target            Actual        Result
           3.2.5    Customers served by new or improved telecommunications             268,464          297,027       Exceeded
                    facilities


Exhibit 40: Trends in Telecommunications Facilities

                                                                                         Fiscal Year 2006
                                 Trends                            2002         2003             2004        2005       2006
            3.2.5   Customers served by new or improved            N/A         382,229       373,813        232,249    297,027
                    telecommunications facilities




Strategic Goal 4: Enhance Protection and Safety of                        meat, poultry and egg products imported from other
                                                                          countries are produced by a system equivalent to USDA’s.
the Nation’s Agriculture and Food Supply
                                                                          Ensuring the safety of America’s meat, poultry and egg
                                                                          products requires a strong infrastructure. Thus, USDA
                                                                          has stationed public-health servants throughout the
                                                                          country and in laboratories, plants and import houses.
                                                                          USDA will take an enhanced risk-based approach to
                                                                          inspection. Through these efforts, the Department will
                                                                          reallocate its resources to focus more closely on food safety
                                                                          systems and preventing public health problems before
                                                                          they occur. This initiative advances a coordinated national
                                                                          and international food safety, risk management system
                                                                          from farm to table. A significant contribution to the risk-
                                                                          based approached to inspection is the development of a
                                                                          public health infrastructure. This infrastructure will
                                                                          include: improvements to public health data analysis and
                                                                          information exchange; advanced surveillance and
USDA provides a secure agricultural production system                     detection systems; a well-trained workforce; swift, secure
and healthy food supply to consumers. The Department                      and multi-directional communications; and disaster
accomplishes this task by protecting the food supply                      preparedness and response capability.
against pests and diseases, minimizing production losses,
maintaining market viability and containing
environmental damage. USDA also ensures that the
commercial supply of meat, poultry and egg products
moving in interstate commerce or exported to other
countries is safe, wholesome, labeled and packaged
correctly. Additionally, the Department ensures that



USDA
   82        FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




OBJECTIVE 4.1: REDUCE THE INCIDENCE OF FOODBORNE               usually in response to a specific cause like a positive
ILLNESSES RELATED TO MEAT, POULTRY, AND EGG                    sample.
PRODUCTS IN THE U.S.                                           USDA provides safe handling and preparation
                                                               information to manufacturers of meat, poultry and
Overview                                                       processed egg products, and to consumers. This promotes
Protecting the Nation’s food supply from potential             product safety and reduces the opportunity for cross-
hazards is a formidable task. To accomplish this goal,         contamination between products. For retail and food-
USDA requires sound science to make the appropriate            service operations, USDA works collaboratively with the
decisions and policy development. Currently, a                 U.S. Food and Drug Administration and State programs
heightened public apprehension that terrorists could           through the Conference of Food Protection. This
target the Nation’s food supply exists. Additionally, there    partnership among regulators, industry, academia,
is the potential for new and emerging microbial hazards.       professional organizations and consumers works to
Thus, the Department must assess and update its food           identify problems, formulate recommendations and
safety systems continually.                                    develop and implement practices that ensure food safety.
                                                               These efforts ensure that the Food Code contains
During the past year, USDA has continued to eliminate
                                                               accurate, science-based guidance. The Food Code is the
foodborne illness through testing, risk assessments,
                                                               model for the establishment of State and local food
partnerships with its stakeholders and policy decisions
                                                               regulations regarding food safety and sanitation.
based on sound science.
                                                               The Department also supports public-health by
                                                               developing consumer information and education
                                                               programs. These programs are structured around a set of
                                                               food safety messages for the general public, are based on
                                                               science, use social marketing principles and are delivered
                                                               through a network of partnerships.

                                                               Challenges for the Future
                                                               USDA is continually challenged to prevent product
                                                               contamination, and to educate the public on safe food
                                                               handling.

                                                               One of the most significant challenges faced by USDA is
USDA conducted approximately 1,350 food safety                 that the safety of meat, poultry and egg products can
assessments in FY 2006. A food safety assessment is a          become endangered after Department inspection and
comprehensive evaluation of an establishment’s food-           prior to consumption. Consequently, USDA is assessing
safety system, including its sanitation controls, its          how to limit or prevent accidental or intentional
compliance with microbiological performance criteria, the      contamination.
adequacy of slaughterhouse and processing plant Hazard
                                                               USDA studied Listeria monocytogenes in ready-to-eat meat
Analysis and Critical Control Point systems, the
                                                               and poultry products and is developing a comparative risk
operation of its prerequisite programs and its response to
                                                               assessment. This comparative risk assessment will assist
food-safety control deviations. Enforcement, investigation
                                                               USDA in targeting its efforts to public health variables
and analysis officers conduct food safety assessments,
                                                               that are shown to be more effective at mitigating risk.



                                                                                                                     USDA
                                                              FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT         83
                                             ANNUAL PERFORMANCE REPORT




USDA will continue to assess which retail practices              and standards owners, lawyers and Government food-
present greater risk for introducing E. coli O157:H7 into        safety experts and certifiers. The workshop examined the
raw ground beef and then target such operations for              relation between USDA programs and third-party food
testing. The Department believes that its regulatory             safety certification, especially questions of liability. The
verification testing program can ensure that industry and        Department learned that, while certifiers have avoided
retail take steps to control food safety hazards. USDA           legal liability, they appear to be contributing to stricter
increases targeted testing at high-risk operations.              food safety production decisions throughout the supply
                                                                 chain. The workshop marked a first step in assessing the
As the statistics in Salmonella show, control of this
                                                                 importance of certification.
pathogen continues to be a challenge for USDA.
Therefore, USDA has announced the Salmonella initiative          As consumers increasingly rely on others to prepare food,
and the scheduling of food safety assessments to target          the importance of a knowledgeable and skilled workforce
broiler production in 2006 and 2007. While this group of         for all food outlets is critical in preventing foodborne
pathogens is commonly associated with poultry and eggs,          illness. The Safety Awareness in the Food Environment
it is found in multiple products such as produce, dairy          (SAFE) program provides food workers with practical
products and red meats.                                          information about food safety and sanitation. In 2005, the
                                                                 University of New Hampshire Cooperative Extension,
Additional challenges faced by USDA include the
                                                                 supported in part by USDA funds, conducted 32 SAFE
continued targeting of at-risk groups, namely the very
                                                                 programs, reaching 512 food workers. Sixty-nine percent
young, pregnant women, older adults, people with chronic
                                                                 of the participants scored 92 percent or greater on the
diseases, those with weakened immune systems and
                                                                 post-workshop knowledge questionnaire. Of seven
underserved populations.
                                                                 follow-up phone surveys, 86 percent of food managers in
Selected Results in Research, Extension and Statistics           establishments sponsoring a SAFE program reported food
                                                                 safety practice changes in their employees.
USDA estimates the societal costs of foodborne illnesses
from pathogens. Department researchers updated the cost          Clostridium perfringens is a common bacterium associated
of foodborne illness from Escherichia coli O157 (O157            with foodborne illness in the U.S. This bacterium
STEC). They used the U.S. Centers for Disease Control            produces a toxin termed enterotoxin. The chromosome
and Prevention (CDC) estimate of annual cases and                responsible for enterotoxin production, CPE, has been
newly available data from the Foodborne Diseases Active          strongly correlated to Type A food poisoning. Research
Surveillance Network (FoodNet) of CDC’s Emerging                 funded through the National Research Initiative Food
Infections Program. USDA estimates that the annual cost          Safety Program determined bacterium containing the
of illness from O157 STEC was $406 million in 2003,              CPE gene survived refrigeration (4˚C) and freezing (-
including $370 million for premature deaths, $31 million         20˚C) temperatures better, especially in meat products.
for medical care, and $5 million in lost productivity. The       Thus, the C. perfringens bacterium containing the CPE
Department recently added the O157 STEC estimates to             gene would be more difficult to kill by conventional
the Foodborne Illness Calculator to its Web site.                methods and more likely to cause sickness. While the
                                                                 CPE gene’s role in mediating cold and heat sensitivity
USDA research on traceability in food supply showed that
                                                                 remains unclear, this information provides scientists a new
there are many private-sector, third-party certifiers
                                                                 avenue for improving food safety.
worldwide. The Department and the University of
Pennsylvania conducted a workshop bringing together              A portable assay for E. coli O157:H7 will provide food
insurance industry representatives, third-party certifiers       safety regulators with additional tools. Most illness from



USDA
   84       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                             ANNUAL PERFORMANCE REPORT




E. coli O157:H7 has been associated with eating                  producer or processor of potential problems. Thus,
undercooked, contaminated ground beef. There is an               regulators could take remedial actions.
urgent need for sensitive, specific, and rapid detection of
these bacteria. USDA scientists developed a new assay                                   Key Outcome
based on a commercially available, portable fiber optic                          Basing Policies on Science
biosensor. This assay is specific for E. coli O157:H7 and
can detect very low levels of the bacteria in ground beef
within five hours. Higher levels of contamination can be         USDA issued two instructions related to Listeria
detected in even less time. The biosensor and battery pack       monocytogenes that clarified procedures used by consumer
can be carried in a briefcase. Its compactness allows assays     safety inspectors to conduct daily, routine
to be performed at the farm, processing plant, distribution      inspections. The instructions also provided new
center or retail store. This portable assay provides the food    procedures for enforcement, analysis, and investigation
industry and regulatory agencies a new screening tool to         officers to follow. This was designed to determine the
detect foodborne pathogens and food security threats             effectiveness of controls for Listeria monocytogenes. In
                                                                 March, 2006 USDA began the routine testing of food-
A new risk assessment model will help food safety                contact surfaces and the environment in addition to
regulators better address the issue of Listeria in ready-to-     testing product. Testing surfaces provides a better
eat foods. Predicting it is a high priority for USDA,            indication of sanitary controls than product testing alone.
DHHS and FDA. Department scientists produced                     Listeria monocytogenes is an environmental contaminant
models that enable risk assessors and food-safety                known to become permanently resident in establishments.
managers to predict the Listeria activity in delicatessen
salads at different storage temperatures and product             Regarding E. coli O157:H7, USDA is conducting a
formulations, and in commercially prepared cheeses. The          baseline study for trimmings used to make raw ground
models assist Federal regulatory agencies in developing          beef. Scientists serving on the National Advisory
risk assessment information for consumers and food               Committee on Microbiological Criteria for Foods
companies in designing salad formulations that present           (NACMCF) reviewed the study. NACMCF provides
lower health risks to consumers. The research also has           impartial, scientific advice to Federal food-safety agencies
helped food companies meet new Federal regulations.              in developing national food-safety systems, following
                                                                 products from the farm to final consumption. The
Methods to detect bacteria will help food safety regulators      committee issued its recommendations in a report titled
to ensure the safety of seafood better. USDA scientists          “NACMCF Response to USDA Request for Guidance
and collaborators developed a new, rapid, inexpensive,           on Baseline Study Design and Evaluations for Raw
enzyme-based assay to detect pathogenic Vibrio bacteria          Ground Beef Components.” The results of this study are
in seawater and shellfish. The assay may be used in              expected to inform USDA risk managers and risk
identifying peak periods when Vibrio bacteria are at their       assessors about this pathogen’s prevalence in trim used to
highest levels in east, west and gulf coast oysters and          produce raw ground beef.
growing waters. This would allow regulatory agencies to
control shellfish harvesting based on Vibrio bacteria levels     The Department also took steps to collect production
rather than using the current fecal coliform levels as           volume information at inspected beef facilities. This
indicators of pollution. Since the assay is inexpensive and      information, along with the results of the baseline study,
does not require major equipment, it also could screen           will be used to develop a risk-based verification testing
water quality in aquaculture facilities to forewarn the          program.




                                                                                                                      USDA
                                                                FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT       85
                                                 ANNUAL PERFORMANCE REPORT




Analysis of Results                                                     USDA now collects industry data on RTE products as
The overall percentage of positive Listeria monocytogenes               part of the October 2003 Listeria rulemaking. The
regulatory samples for FY 2006 was less than the targeted               Department used this data to revise its Listeria testing in
performance measure. USDA uses the results from the                     RTE products. In FY 2006, USDA used this data as one
ALLRTE program (i.e., a random sampling of all ready-                   means to identify higher risk operations and products.
to-eat meat and poultry products) to reflect progress                   The Department targets its regulatory verification testing
relative to Listeria control. USDA is pleased with the                  program towards operations that produce higher risk
results of this program, particularly because within the                products. USDA now tests food contact surfaces and the
sample population, products were included that are at                   environment routinely, in addition to product.
high risk for causing illness and for supporting the growth
                                                                        To illustrate the significance of these trends, the
of Listeria monocytogenes. In a separate sampling program
                                                                        accomplishments of USDA’s food safety initiatives are
targeted at these high risk products, the overall percentage
                                                                        presented in CDC’s annual 2005 report on the incidence
of positive samples remains lower than that of the
                                                                        of infections from foodborne illness. The report, which
ALLRTE sampling program.
                                                                        was released Spring 2006, noted significant declines from
Since an initial substantial decline in the percentage of               a 1996-1998 baseline in E. coli O157:H7-related illnesses
E. coli O157:H7-positive raw ground beef samples,                       (29 percent). CDC attributes the decline, in part, to
beginning in FY 2002, USDA has been able to maintain                    policies USDA implemented in 2002 and 2003. In late
the percentage positive samples at or below the targeted                2003, the Department released data that showed a 25-
performance measure. In FY 2006, the overall percentage                 percent drop in the percentage of positive Listeria
of positive samples showed a further decline from the                   monocytogenes regulatory samples from the previous year,
FY 2005 level. The Department will continue to monitor                  and a 70-percent decline compared with years prior to the
data related to human infections associated with the                    implementation of HACCP. The report also noted that
consumption of beef products. If there is a rise in human               illness associated with Listeria monocytogenes declined 32
illness associated with this pathogen and the consumption               percent from the baseline years of 1996-1998.
of beef, or a rise above 0.20 percent in the regulatory
testing program, USDA will take immediate steps.

Exhibit 41: Pathogen Reduction (Food Inspection)

                                                                                                   Fiscal Year 2006
                        Annual Performance Goals and Indicators                        Target            Actual        Result
           4.1.1   Prevalence of Listeria monocytogenes in ready-to-eat meat           0.70%             0.60%        Exceeded
                   and poultry products
           4.1.2   Prevalence of E. coli O157:H7 in ground beef                        0.20%             0.16%        Exceeded


Exhibit 42: Trends in Pathogen Reduction (Food Inspection)

                                                                                         Fiscal Year 2006
                                 Trends                            2002        2003             2004        2005        2006
           4.1.1   Prevalence of Listeria monocytogenes in         1.03%       0.0%             0.89%       0.70%       0.60%
                   ready-to-eat meat and poultry products         Baseline
                                                                   0.77%       0.37%            0.19%       0.20%       0.16%
           4.1.2   Prevalence of E. coli O157:H7 in ground beef
                                                                  Baseline




USDA
   86        FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




In 2005, the incidence of illnesses associated with Listeria    Each component of the integrated marketing program is
monocytogenes was higher than its lowest point in 2002. It      developed based on risk research, science drawn from
should be noted that the overall increase in illnesses          epidemiological studies concerning foods and behaviors
reported by CDC reflected all foods, not just meat and          that contribute to food safety risks, and social marketing
poultry products. USDA, in 2003, issued its interim final       principles derived from theory, market and consumer
rule on Listeria monocytogenes that specifically addressed      research.
control for this pathogen in ready-to-eat meat and poultry
                                                                Significant work continued with the USDA Mass Media
products. Since then, the percentage of positive Listeria
                                                                Campaign. The campaign objective is to create a program
monocytogenes regulatory samples has been declining in
                                                                that includes an umbrella brand and campaign logo, an
these areas.
                                                                educational strategy for targeted audiences and a media
                       Key Outcome                              buy plan. The campaign aims to gain acceptance of
            Raising Public Health Awareness
                                                                changing behaviors involving safe food handling.
                                                                Through this campaign, USDA will reach educators,
                                                                health officials, media, caregivers and consumers,
USDA consumer-education programs are based on                   including children and at-risk and underserved
“integrated marketing.” This concept has three                  populations.
components:
                                                                USDA also launched the “Be Food Safe” education
    Mass media, or reaching out to the public;                  campaign. The launch took place at the Food Safety
    Cluster targeting, which uses demographic,                  Education Conference, “Reaching At-Risk Audiences
    geographic and socio-demographic information to             and Today’s Other Food Safety Challenges.” The
    tailor communications to segmented audiences; and           conference focused on education programs and strategies
    One-on-one interactions, through the:                       for those most at risk. It also updated educators on the
                                                                latest in food-safety education and showcased new
     USDA Meat and Poultry Hotline; and                        national education projects.
     “Ask Karen,” which complements the hotline and
        allows USDA to expand its outreach programs,            During the conference, USDA unveiled a brochure series
        promote food safety and defense, and protect the        targeted to specific audiences most at-risk for foodborne
        public health.                                          illness. The brochures covered food safety for transplant
                                                                recipients, people with HIV/AIDS, diabetics, cancer
                                                                patients and older adults.

                                                                Food safety publications for both industry and consumers
                                                                have been translated into many languages including
                                                                Spanish, Korean, Vietnamese and Mandarin Chinese.
                                                                USDA also uses national television, cable networks,
                                                                educational television, radio, magazines, newspapers and
                                                                Web sites to enhance public education efforts.
                                                                Additionally, a hotline offers Spanish-speaking food-
                                                                safety specialists and Spanish-language Web sites and
                                                                printed materials.




                                                                                                                    USDA
                                                               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      87
                                                         ANNUAL PERFORMANCE REPORT




In other outreach efforts to the Hispanic community,
USDA developed a brochure and poster informing that
community’s consumers about food safety and protecting
their families from potential dangers. The Department
also created a public-service announcement and launched
an outreach program partnering with Hispanic
organizations and supermarkets. USDA continues to
work with the Partnership for Food Safety Education on
their Hispanic outreach initiative. USDA also targets
other underserved populations that include African-
Americans, Asian-Americans, Native American Indians
and Alaskan Natives, and the visually-impaired.

The Department continues its multi-year effort to provide
technical assistance and compliance guidance concerning                        Analysis of Results
major rules, policies and directives to small and very small                   A key outcome in reaching this goal is a significant
meat, poultry and egg processing establishments. These                         increase in raising public health awareness. By developing
outreach sessions bring industry and inspection program                        consumer education programs and disseminating
personnel together to promote a uniform understanding                          consumer information with food safety messages about
of food safety regulations. Information about the outreach                     the safe handling, preparation and storage of meat,
sessions may be found at:                                                      poultry and egg products through various channels of
www.fsis.usda.gov/Science/Small_Very_Small_Plant_Outreach                      communication, USDA is providing the tools and
/index.asp.                                                                    empowering consumers with the knowledge to prevent
                                                                               and reduce the risk of foodborne illness.


Exhibit 43: Public Health Awareness

                                                                                                        Fiscal Year 2006
                           Annual Performance Goals and Indicators                          Target            Actual       Result
           4.1.3    Number of consumers reached with food safety messages                    94                  94*        Met
                    (millions of viewings)
           *end-of-year projection as of 9/19/06

Exhibit 44: Trends in Public Health Awareness

                                                                                              Fiscal Year 2006
                                      Trends                            2002         2003            2004         2005     2006
            4.1.3    Number of consumers reached with food              90            92             123           120      94*
                     safety messages (millions of viewings)           Baseline
            *end-of-year projections as of 9/19/06




USDA
   88        FY 2006 PERFORMANCE             AND     ACCOUNTABILITY REPORT
                                              ANNUAL PERFORMANCE REPORT




OBJECTIVE 4.2: REDUCE THE NUMBER AND SEVERITY OF                 Animal disease-detection criteria have been developed for
AGRICULTURAL PEST AND DISEASE OUTBREAKS                          the following eight high-consequence diseases. Foot-and-
                                                                 Mouth Disease is a severe, highly contagious viral disease
                                                                 of cattle and swine. Exotic Newcastle Disease is a
                        Key Outcome                              contagious and fatal viral disease affecting all birds.
           Improve Animal and Plant Diagnostic                   Classical Swine Fever, or hog cholera, is a highly
                 Laboratory Capabilities                         contagious viral disease of swine. High Pathogen Avian
                                                                 Influenza and Low Pathogen Avian Influenza are viruses
Overview                                                         that can cause varying amounts of clinical illness in
The National Animal Diagnostic Network and Plant                 poultry. In 2006, the National Animal Health Laboratory
Diagnostic Network Centers ensure timely disease                 Network (NAHLN) worked with National Research
detection. They also enhance the process of producing            Initiative funded wild bird sampling and other wildlife
and maintaining a timely, comprehensive catalogue of             surveillance efforts to provide additional cooperative
pest and disease outbreak occurrences in a nationally            detection capabilities for various strains of Low Pathogen
accessible database. Identifying new or uncommon pests           Avian Influenza and High Pathogen Avian Influenza.
and diseases accurately will allow USDA, in conjunction          Bovine Spongiform Encephalopathy is a chronic
with the States, to expedite initial control responses, verify   degenerative disease that affects the central nervous
the physical boundaries of an outbreak and initiate              system of cattle. Scrapie is a fatal, degenerative disease
regional or national containment strategies. The ultimate        affecting the central nervous system of sheep and goats.
performance measure for these networks is their disease-         Chronic Wasting Disease attacks the central nervous system
detection preparation. The networks will continue to             of deer and elk. NAHLN is part of a national strategy to
study new diseases regularly to protect the Nation from          coordinate the Nation’s Federal, State and university
accidental or deliberate introduction of diseases.               laboratory resources.

Analysis of Results                                              USDA agencies partner with State agencies and
The performance goal was met. Limited trend data are             universities to achieve a high level of agricultural
available since the effort began in FY 2003 (plant) and FY       biosecurity. This process is done through the early
2004 (animal).                                                   detection, response and containment of outbreaks of
                                                                 invasive pests and diseases. The diagnostic laboratories,
Plant disease (and insect) detection criteria have been          adequately staffed and stocked with cutting-edge
developed for soybean rust, sudden oak death, Ralstonia stem     technology, are essential to accomplishing this mission.
rot, plum pox virus, pink hibiscus mealybug and potato wart.
Soybean rust is a fungal disease that attacks the foliage of a   Future challenges to improving laboratory capabilities
soybean plant, causing its leaves to drop prematurely.           include making non-Federal funding available. This
Sudden oak death is a plant disease that attacks many types      funding could be used to expand laboratory links in each
of plants and trees common to the Pacific Northwest.             State, increase the number of screened diseases and their
Plum pox virus browns the flesh and deforms stone fruit,         detection criteria, and ensure that more strategically
making it unmarketable. Pink hibiscus mealybug is a serious      located laboratories are prepared to deal with
insect threat to agricultural, ornamental and horticultural      geographically relevant disease threats.
plants in tropical and sub-tropical areas. Potato wart
creates ugly, warty outgrowths on potato plants.




                                                                                                                     USDA
                                                          DRAFT FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      89
                                                    ANNUAL PERFORMANCE REPORT




Exhibit 45: Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved

                                                                                                           Fiscal Year 2006
                                 Annual Performance Goals and Indicators                        Target         Actual       Result
           4.2.1    Improve the capabilities of animal and plant diagnostic laboratories:                                     Met
                       Specific plant diseases labs are prepared to detect                        6             6
                       Specific animal diseases labs are prepared to detect                       8             8


Exhibit 46: Trends Improving the Capabilities of Diagnostic Laboratories

                                                                                            Fiscal Year Actual
                                     Trends                                    2003               2004                   2006
           4.2.1                                                                 2                  3                      6
                       Specific Plant diseases labs are prepared
                        to detect
                       Specific animal diseases labs are                      N/A                     6                  8
                        prepared to detect
           N/A = Not Available



Selected Results in Research, Extension and Statistics                        producers, make the food supply safer through reduced
                                                                              pesticide inputs and reduce the environmental impacts of
A new Chemical Distribution Rate publication, released
                                                                              pest-control activities.
December 2005, contains data for agricultural chemical
usage for percent of acres treated, number of treatments,                     Currently, soybean cyst nematode is the most damaging pest
rate per application and rates per crop year. Data for the                    to U.S. soybean production. It causes $1 billion annual
2005 field and fruit crops were incorporated into the                         crop losses. Genetic resistance is the only viable means to
Agricultural Chemical Usage Field Crops Summary, May                          combat the SCN pathogen. With USDA funding, the
2006, and Agricultural Chemical Usage Fruit Crops                             Tennessee Agricultural Experiment Station developed
Summary, July 2006. These publications provided users                         and released a new soybean germplasm line (JTN-5303)
distribution-rate information on an accelerated schedule.                     with resistance to multiple SCN races. JTN-5303
                                                                              currently is being accessed by public and commercial
Insects and diseases that reduce peanut yields and increase
                                                                              breeders to incorporate SCN resistance throughout major
production costs for farmers and may be difficult and
                                                                              soybean production regions. This line is resistant to every
expensive to control with conventional methods. The
                                                                              major SCN race in Tennessee, resulting in improved,
University of Georgia, with partial support by USDA
                                                                              sustainable crop production. An estimated $9 million in
funding, have identified six plant introductions from
                                                                              crop loss in Tennessee alone can be eliminated through
Bolivia in the USDA Peanut Germplasm Collection and
                                                                              SCN resistance..
additional land race cultivars from Bolivia. These products
have shown good to excellent levels of pest resistance and                    New vaccines are being developed to protect against
better yield than accessions used to create the cultivars                     multiple strains of avian coccidiosis. Coccidiosis is a
currently being grown. Peanut-breeding programs have                          common intestinal protozoan infection of poultry that
used these new sources of resistance to add diversity to                      seriously impairs the growth and feed utilization of
peanut gene pools. They also have increased pest-                             infected birds. It is caused by seven distinct species of
resistance levels substantially in elite candidate peanut                     intracellular parasites. While anti-coccidial drugs are the
breeding lines. This finding will increase profitability for                  primary control method, drug-resistant coccidia strains



USDA
   90        DRAFT FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT
                                              ANNUAL PERFORMANCE REPORT




are emerging worldwide. Additionally, while vaccines               insect). These natural enemies were shipped to the
provide an important alternative to anti-coccidial drug            California Department of Food and Agriculture for mass
therapy, existing vaccines, which are comprised of one or          rearing and release. One species, Gonatocerus triguttatus,
more live coccidian species, do not provide cross-                 now is established and spreading beyond the release
protection against all seven species. USDA scientists have         locations.
discovered a protein named SZ1 that is present in three
species. The full-length gene from Toxoplasma gondii was                                  Key Outcome
characterized and expressed in a bacterial system. Then,                   A Secure Agricultural Production System
the protein was used to make antibodies to T. gondii SZ1.                         and Healthy Food Supply
These antibodies are being evaluated to determine
whether this protein provides cross-protective immunity            Overview
across Eimeria strains.
                                                                   To provide a secure agricultural production system and
USDA overseas laboratories helped identify a biological-           healthy food supply to U.S. consumers, USDA’s goal is to
control agent to mitigate the impact of the olive fruit fly.       reduce the number and severity of agricultural pest and
Invasive weeds and insect pests of foreign origin cause            disease outbreaks. This work includes:
more than $100 billion annually in economic losses and                 Safeguarding animal and plant resources against the
ecological problems in the U.S. Olive fruit fly first was              introduction of foreign agricultural pests and diseases,
reported in California in 1998 and now is established in               while meeting international trade obligations;
olive-growing regions in the central part of the state. The
                                                                       Detecting and quickly responding to new invasive
fly is capable of infesting 100 percent of the fruit on a
                                                                       pests and diseases and emerging agricultural health
tree, rendering the harvest unmarketable. In 2004, a
                                                                       situations;
project was initiated at the European Biological Control
Laboratory (France). Olive fly parasitoids (small wasps)               Managing existing agricultural pests and diseases and
were identified and sent to the University of California-              wildlife damage effectively; and
Berkeley and California Department of Food and                         Developing and applying scientific methods that
Agriculture cooperators, who first released the bio-control            benefit agricultural producers and consumers, protect
agent in 2005. When established, the parasitoids are                   the health of animal and plant resources, and sustain
expected to suppress an insect pest that threatens the                 agricultural ecosystems.
growing ($60-100 million) U.S. olive industry.
                                                                   USDA’s efforts in FY 2006 prevented the introduction of
Mass production of biological control agents offers new            foreign animal disease that spread beyond the original
hope for controlling the glassy-winged sharpshooter                area of introduction. Such a spread could cause severe
(GWSS) and Pierce’s Disease. USDA scientists determined            economic or environmental damage, or threaten animal
that an increasing proportion of GWSS adults become                health. Specific programs described below were conducted
positive for Xylella fastidiosa (the cause of Pierce’s Disease)    successfully to protect poultry, cattle, swine and other
as the insect ages, with correlate increases in                    species.
concentration of the bacterium. Thus, older leafhoppers
serve as a greater threat. Pierce’s Disease plagues grapes,        Despite USDA’s efforts, three emerging plant pest
agronomic and horticultural crops, and landscape,                  programs had pests or diseases that spread beyond the
ornamental and shade trees. To reduce insect numbers,              quarantined areas in place at the beginning of FY 2006.
USDA scientists collected and evaluated four species of            These were the programs for Emerald Ash Borer (EAB),
GWSS egg parasitoids (an insect that parasitizes another           Sudden Oak Death (SOD or Phytophtora ramorum), and



                                                                                                                       USDA
                                                                  FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT       91
                                                  ANNUAL PERFORMANCE REPORT




Citrus Canker. EAB is an exotic beetle that nibbles on the            the number and severity of pest and disease outbreaks.
inner bark of ash trees, disrupting the tree’s ability to transport   The global ecosystem depends upon international efforts
water and nutrients. SOD is a disease that is killing oaks and        to minimize the movement of harmful species. USDA
other plant species in the western U.S. Citrus canker is a            participates in these efforts as a world leader, benefiting
highly contagious bacterial disease of citrus crops. The              the public in many countries.
programs to eradicate the Asian Long Horned Beetle and
manage the Glassy-winged Sharpshooter prevented
                                                                      Challenges for the Future
outbreaks of target pests/diseases outside their quarantine           Important challenges face USDA in its efforts to reduce
areas. In collaboration with Federal and State regulatory             the number of pest and disease outbreaks. One is to
agencies and scientists, USDA developed a Citrus Health               prevent harmful exotic species from entering the country.
Response Plan (CHRP). CHRP is a comprehensive                         If they do enter, the bigger challenge is detecting them
framework for responding to citrus health concerns.                   early enough to reduce their spread and eradicate them
Beginning in FY 2007, USDA will address CHRP’s                        before they do significant damage. To help exclude and
performance aspects.                                                  detect, USDA creates and continually updates endemic
                                                                      pest and disease information, and monitors and conducts
USDA’s programs designed to reduce the number and                     surveys in cooperation with States and industry. Survey
severity of pest and disease outbreaks in plants and                  data are essential for initiating and directing programs.
animals contribute to the good life Americans enjoy. Due              They also result in better pest and disease management.
in part to the protection afforded by these programs to the           In the future, USDA will increase and expand monitoring
health of plants and animals, U.S. consumers receive an               and surveillance activities. This process will include
abundance of food and fiber. They also remain relatively              identifying potential pathways for animal disease
free of diseases that may be transmitted to them from                 transmission and increasing the number and intensity of
animals (zoonotic diseases) that affect people in many                plant pest surveys throughout the U.S. In addition to early
countries. Protecting the Nation’s plant and animal                   detection, the spread of communicable animal pests and
resources provides many Americans with employment in                  diseases can be prevented by regulatory enforcement
the agricultural sector and a livelihood serving farmers              activities.
with needed tools, supplies, technical knowledge and
money. USDA’s efforts help to ensure that such allied                 Once an exotic pest or disease is reported, USDA must
industries as the food-processing and pharmaceutical                  respond immediately by investigating and taking
industries, and grocery distributors receive the raw                  emergency action if necessary. To meet this challenge, the
materials they need to produce their products and services.           Department develops pathway studies and thoroughly
Its efforts also help to maintain public and private                  investigates the progression of outbreaks to determine the
landholders’ investments in a productive capacity,                    origin of plant and animal pests and diseases. Substantial
providing economic stability to American society. By                  costs are incurred as the result of outbreaks and
protecting U.S. plant and animal resources from pest and              introduction of economically significant plant and animal
disease outbreaks, USDA ensures U.S. agricultural                     pests and diseases. USDA seeks to reduce these costs
resources can move freely in international trade. Because             through enhanced, science-based, early detection and
of these programs, Americans can enjoy parks, preserves               rapid response efforts.
and recreational areas in their healthy natural state.
                                                                      In an emergency, the challenge is to mobilize a sizeable
Americans landscape their property with healthy nursery
                                                                      effort to eradicate or eliminate the disease or pest
stock and plant pure seed. The North American
                                                                      problem. USDA is continuing to enhance emergency-
ecosystem depends in part on USDA’s efforts to reduce
                                                                      coordination efforts and emergency-response capabilities.



USDA
   92         FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                                           ANNUAL PERFORMANCE REPORT




USDA will procure and strategically store materials           for a common understanding of international animal and
required to respond to the most threatening foreign           plant health standards. The programs in this grouping
animal diseases. This will allow the government to            include Agricultural Quarantine Inspection, Cattle Ticks,
provide rapid intervention in the case of an outbreak.        Foreign Animal Disease/Foot and Mouth Disease, Fruit
USDA agencies are participating on a government-wide          Fly Exclusion and Detection, Screwworm, Tropical Bont
team created in FY 2006. The team develops and                Tick, and Import Export (Domestic).
implements an Avian Influenza Response plan. USDA
                                                              USDA’s Plant and Animal Health Monitoring Programs
also will develop emergency management capacity to
                                                              quickly detect and diagnose new pests and diseases.
respond to emergencies involving plant pests and diseases
                                                              USDA conducts surveys in cooperation with the States to
better.
                                                              detect the pests and diseases, store the information and
A final challenge is to minimize the economic impact of       analyze it. The Department partners with States and
harmful diseases and pests where eradication is not           industry stakeholders to determine if there is a need to
feasible or will take many years to achieve. To accomplish    establish new pest or disease-eradication programs, and
this task, USDA monitors endemic diseases and pests           develop response capabilities for outbreaks. The programs
through surveys. The surveys are designed to detect the       in the Plant and Animal Health Monitoring grouping
location of pests and diseases. The Department also           include Animal Health Monitoring and Surveillance,
conducts inspections aimed at preventing their spread into    Animal and Plant Health Regulatory Enforcement, Pest
non-infested parts of the country. Additionally, USDA         Detection, Bio-surveillance, Emergency Management
works to prevent the spread of such zoonotic diseases as      Systems, Highly Pathogenic Avian Influenza, Pest
rabies and protects American agriculture from detrimental     Detection, Select Agents, and Wildlife Disease
predators through identification, demonstration and           Monitoring and Surveillance.
application of the most appropriate methods of control.       USDA’s Pest and Disease Management Programs are
USDA has several groups of programs that focus on             cooperative efforts with States to detect, prevent and
reducing the number and severity of pest and disease          eradicate pests and diseases harmful to agriculture. USDA
outbreaks, including Pest and Disease Exclusion               monitors and regulates interstate shipments of plants,
Programs, Plant and Animal Health Monitoring                  livestock and related materials to prevent the spread of
Programs, Pest and Disease Management Programs, and           pests and disease and the distribution of impure, unsafe
Scientific and Technical Services Programs.                   and ineffective materials and products. USDA also
                                                              protects agriculture from detrimental animal predators
USDA’s Pest and Disease Exclusion Programs prevent            through identification, demonstration and application of
the introduction of foreign plant and animal pests and        the most appropriate methods of control. The programs
diseases. The Department monitors plant and animal            in this grouping include: Aquaculture; Bio-control; Boll
health throughout the world and uses the information to       Weevil; Brucellosis; Chronic Wasting Disease; Cotton
establish effective import policies. USDA works with          Pests; Contingency; Emerging Plant Pests; Golden
other countries to control or eradicate agricultural pests    Nematode; Grasshopper; Gypsy Moth; Imported Fire
and diseases abroad. It develops quarantine regulations to    Ant; Johne’s Disease; Low Pathogenic Avian Influenza;
prevent them from being imported into the U.S. USDA           Noxious Weeds; Pink Bollworm; Plum Pox;
works with the U.S. Department of Homeland Security to        Pseudorabies; Scrapie; Tuberculosis; Wildlife Services
ensure compliance with those regulations at domestic          Operations; and Witchweed.
ports of entry and protect American borders. USDA’s
exclusion programs foster a trade environment that allows



                                                                                                                 USDA
                                                             FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT    93
                                             ANNUAL PERFORMANCE REPORT




USDA’s Scientific and Technical Services Programs                Some of its components are the National Animal Health
provide new tools and technologies to protect the health         Surveillance System (NAHSS), the National Animal
of American animal and plant resources. These programs           Identification System (NAIS), the National Animal
provide diagnostic services, products and training for           Health Laboratory Network, and the National Animal
surveillance, prevention and control and eradication             Health Monitoring System.
programs. They facilitate, monitor and regulate the
                                                                 The Emerging Plant Pest (EPP) program has performance
development of biotechnology-derived products. They
                                                                 measure 4.2.3, seen in the accompanying exhibit. This
ensure the purity, potency, safety and effectiveness of
                                                                 program’s goal is to maintain the ability to respond
veterinary biological products. They develop methods to
                                                                 quickly to any emerging plant pest problem. During FY
control animals and pests detrimental to agriculture,
                                                                 2006, the program focused on Citrus Canker, Glassy-
wildlife, and public safety. The programs in this grouping
                                                                 winged Sharpshooter, Emerald Ash Borer, Asian Longhorned
include Biosecurity, Biotechnology Regulatory Services,
                                                                 Beetle, and Sudden Oak Death (Phytophthora ramorum.) A
Environmental Compliance, Plant Methods, Veterinary
                                                                 performance target was set at 2 of 5 programs to ensure
Biologics, Veterinary Diagnostics, and Wildlife Services
                                                                 safeguarding of U.S. plant resources.
Methods.

USDA’s programs that endeavor to reduce the number
                                                                 Analysis of Results
and severity of pest and disease outbreaks contribute to a       During FY 2006, USDA met the target related to animal
secure agricultural production system and healthy food           disease outbreaks because of the successful effort of
supply. These programs benefit the public by providing           AHMS program components. This continued a record of
abundant food and fiber, good personal health, freedom           five years of success, broken only by the outbreak of Exotic
from zoonotic and nutritional diseases, jobs in the              Newcastle Disease (see the accompanying exhibit). By
agricultural and related sectors, industries that receive        meeting these goals, USDA provided for a continually
agricultural products and convert and sell them, freely          secure agricultural production system and health food
moving agricultural products in the international market         supply to consumers, minimized production losses and
place, protection of their herds, flocks, pets, crops,           maintained market viability for U.S. livestock.
landholdings, parks and natural areas from invasive              NAHSS strives to meet the requirements of the Animal
species, and an opportunity to enjoy a safe, beautiful and       Health Safeguarding Review and Homeland Security
sustainable ecosystem.                                           Presidential Directive 9 (HSPD-9). HSPD-9 establishes
As indicators of success in reducing the number and              a national policy to defend the agriculture and food
severity of pest and disease outbreaks, USDA has selected        system against terrorist attacks, major disasters, and other
two key performance measures of broad scope.                     emergencies. During FY 2006, USDA joined with other
                                                                 federal agencies to mount a significant effort to prepare
The Animal Health Monitoring and Surveillance
                                                                 for a potential outbreak of highly pathogenic avian
(AHMS) program uses performance measure 4.2.2, seen
                                                                 influenza. It concluded an enhanced bovine spongiform
in the accompanying exhibit, to track its progress. This
                                                                 encephalopathy (BSE) surveillance program and moved to
program’s goals are to conduct monitoring and
                                                                 an ongoing BSE surveillance program. Swine pseudorabies
surveillance activities to rapidly detect incursions of
                                                                 and brucellosis surveillance activities did not disclose any
foreign and emerging diseases, evaluate and enhance
                                                                 infected animals in commercial production swine herds,
surveillance for current disease control and eradication
                                                                 and significant progress was made in implementing the
programs, monitor domestic and foreign disease trends
                                                                 classical swine fever plan.
and threats, and provide timely and accurate animal
health information.


USDA
   94       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                                   ANNUAL PERFORMANCE REPORT




Exhibit 47: Strengthen the Effectiveness of Pest and Disease Surveillance and Detection Systems


                                                                                                             Fiscal Year 2006
                            Annual Performance Goals and Indicators                              Target          Actual       Result
            4.2.2 Number of significant introductions of foreign animal diseases and pests         0                0          Met
                  that spread beyond the original area of introduction and cause severe
                  economic or environmental damage, or damage to the health of animals
            4.2.3 Number of emerging plant pest (EPP) programs where an outbreak has             2 of 5           3 of 5      Unmet
                  not been contained within the quarantine area                                programs         programs



Exhibit 48: Trends in Strengthening the Effectiveness of Pest and Disease Surveillance and Detection Systems

                                                                                             Fiscal Year 2006
                                  Trends                              2002         2003          2004            2005         2006
             4.2.2 Number of significant introductions of foreign       0           0              1               0            0
                   animal diseases and pests that spread
                   beyond the original area of introduction and
                   cause severe economic or environmental
                   damage, or damage to the health of animals
             4.2.3 Number of emerging plant pest (EPP)                 N/A          4              3               2          3 of 5
                   programs where an outbreak has not been                                                                  programs
                   contained within the quarantine area


During FY 2006, the National Animal Health Laboratory                        implemented, NAIS will permit USDA to trace diseased
Network continued to increase the capacity of its                            animals back to their place of origin, and trace forward
laboratories to provide a secure communication, reporting                    the animals the diseased ones are likely to have infected.
and alert system. It also standardized rapid diagnostic
                                                                             USDA failed to meet its target related to the number of
techniques and added modern equipment and experienced
                                                                             emerging plant pest programs. Two emerging plant pest
personnel trained in the detection of emergent, foreign
                                                                             programs were successful in containing pests within the
and bioterrorist agents. A new structure was proposed for
                                                                             quarantine areas in place at the beginning of FY 2006.
the National Veterinary Accreditation Program that
                                                                             These were the programs for Asian Long Horned Beetle
would establish two categories of accreditation; require
                                                                             and Glassy-Winged Sharpshooter. Three of five emerging
that accreditation status be renewed triennially and
                                                                             plant pest programs had outbreaks that were not
require that participants receive continuing education to
                                                                             contained within their quarantine areas. These were
be eligible to renew accreditation credentials. Establishing
                                                                             Citrus Canker, Sudden Oak Death (SOD or Phytophthora
the three-year renewal would ensure up-to-date contact
                                                                             ramorum), and Emerald Ash Borer (EAB).
information for the Nation’s accredited veterinarian
population so they could be mobilized in the event of an                     Expanded spread of citrus canker beyond existing
animal health emergency. NAIS is expected to be a fully                      quarantined areas associated with the unprecedented
operational system in early 2007. Two of the three                           hurricanes of 2004 prompted USDA and Florida to
components, the premises registration and animal                             increase their eradication efforts. Unfortunately,
identification number management systems, became                             Hurricane Wilma, which struck in 2005, offset these
operational and the integration of private and State                         actions. Subsequently, a Department study concluded that
animal tracking databases was established. Once                              citrus canker had spread dramatically in Florida. It also



                                                                                                                                       USDA
                                                                    DRAFT FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT      95
                                             ANNUAL PERFORMANCE REPORT




found that additional spread and new detections would            Additional EAB funding is needed and was requested as
continue. This extensive spread prompted the Secretary of        part of the President’s FY 2007 budget proposal.
Agriculture to declare that the program in Florida would
shift from eradication to management as of January 10,           Strategic Goal 5: Improve the Nation’s Nutrition
2006. After consulting the State and citrus industry             and Health
representatives, USDA proposed developing the Citrus             USDA made strides in promoting access to a nutritious
Health Response Plan as an alternative to eradication.           diet and healthy eating behaviors for everyone in the U.S.
Since then, the Department has been assembling State             Through its leadership of the Federal nutrition-assistance
and Federal regulators, and scientists in consultation to        programs, the Department made a healthier diet available
identify practices to safeguard the U.S. citrus industry and     for millions of children and low-income families. The
its trading partners from various citrus diseases. It has        Center for Nutrition Policy and Promotion used
improved early pest detection by establishing minimum            interactive tools to motivate Americans to make positive
standards for all aspects of citrus production, harvesting       dietary behavioral changes. These interactive tools were
and packing.                                                     designed to help consumers establish and maintain
The U.S. Forest Service and the State of Oregon are              healthy diets and lifestyles, consistent with the Dietary
working together to eradicate Phytophthora ramorum, the          Guidelines for Americans and the President’s HealthierUS
causal agent of SOD. A limited outbreak of the disease           initiative. Key accomplishments included:
had struck Current County, Oregon. Overall, the                      Promoting access to the Food Stamp Program (FSP). Food
program has reduced the distribution of P. ramorum                   stamps help low-income families and individuals
significantly. While an additional area involving 11 square          purchase nutritious, low-cost food. FSP is the
miles has been reported, the overall distribution of the             Nation’s largest nutrition assistance program serving
disease has been reduced in Oregon. USDA regulations                 26.6 million people monthly in FY 2006. The
are directed toward preventing long-distance spread                  program enables eligible participants to improve their
through science-based restrictions on articles that serve as         diets by increasing their food-purchasing power via
pathways for P. ramorum spread. Thus far, these                      benefits redeemable at retail grocery stores and
regulations have prevented the establishment of SOD                  farmers markets across the Nation.
outside the quarantined areas on the West Coast. USDA                Continuing to ensure that the MyPyramid food guidance
also is responsible for establishing and implementing the            system serves the American public as an individualized
quarantines on counties when P. ramorum is detected in               approach to nutritional well-being and active living. The
nurseries or the environment.                                        high number of e-hits to MyPyramid.gov – more than
EAB was detected outside existing quarantine areas in                2 billion in FY 2006 – continued to show users’
2006. USDA continues to develop technologies to                      interest in personalizing their diet. To date, there are
improve pest detection, response and recovery. While                 more than 1.5 million registrations to the MyPyramid
regulations for quarantined areas are designed to prevent            Tracker, the dietary and physical activity assessment
long-distance spread of EAB, implementation requires                 tool. The new MyPyramid for Kids and MiPirámide
industries to be regulated and the general public to                 materials were made available in FY 2006. And an
comply with prohibited movement of firewood, nursery                 on-line customer satisfaction survey shows that 88
stock and listed ash wood products. As survey methods                percent of consumers said that the information and
improve and public outreach continues, detection of EAB              interactive tools at MyPyramid.gov prompted them to
populations that had gone undetected previously will                 take action to improve their health.
occur until the true distribution has been defined.



USDA
   96       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                              ANNUAL PERFORMANCE REPORT




    Continuing to ensure that Food Stamp benefits are              OBJECTIVE 5.1: IMPROVE ACCESS TO NUTRITIOUS FOOD
    accurately issued. The National Food Stamp Program
                                                                   Overview
    payment accuracy rate for FY 2005, the latest year for
    which data is available, was 94.16 percent, an all time        USDA’s nutrition assistance programs represent the
    high and a 34 percent improvement from just 5 years            Federal Government’s core effort to reduce hunger and
    ago. This improvement is a result of strong                    improve nutrition across the U.S. These programs aided
    partnerships with States administering agencies, and           one in five people in the U.S. during FY 2006. They
    program simplifications and policy options provided            promote better health for all people in the U.S., support
    in the 2002 Farm Bill.                                         the transition to self-sufficiency for low-income working
                                                                   families and support children’s readiness to learn in
In FY 2006, USDA continued to improve the quality of               school. A well-nourished, physically active population is
Americans’ diet through a nutritionally enhanced food              healthier, more productive and better able to fulfill its full
supply, and better knowledge and education to promote              potential.
healthier food choices. Four of the top 10 causes of death
in the U.S. (cardiovascular disease, cancer, stroke and            By working in partnership with States, USDA continues
diabetes) are associated with the quality of diets—diets           to implement effective nutrition assistance programs and
too high in calories, total fat, saturated fat and cholesterol,    deliver program benefits to eligible participants. The
or too low in fruits and vegetables, whole grains, and             programs promote access to a nutritious and adequate diet
fiber. The Nation is experiencing an obesity epidemic              for those with little income and few resources. For a
resulting from multifaceted causes including a “more is            variety of reasons, many individuals and families eligible
better” mindset, a sedentary lifestyle and the ready               to participate in these programs do not. USDA focuses on
availability and choices of fat- and sugar-laden high-             increasing the rate of participation among people eligible
calorie foods. Consumers are looking for foods that taste          for Food Stamps and expanding access to the School
good, offer nutrition and other health benefits, and are           Breakfast Program (SBP), which is not as widely available
convenient to prepare and consume: science-based dietary           as the National School Lunch Program.
guidance and promotion can help them integrate these
                                                                   In 2006, the Department continued to work with States
choices into a diet that promotes their long-term health.
                                                                   to implement FSP provisions from the Farm Bill of 2002
In FY 2006, USDA pursued national policies and
                                                                   that provides States with options to simplify the
programs to ensure that everyone has access to a healthy
                                                                   administration of the program. The Department also
diet regardless of income, and that the information is
                                                                   continued efforts to monitor and track outreach efforts to
available to support and encourage good nutrition and
                                                                   targeted populations to participate in the program. USDA
physical activity choices.
                                                                   continued a media campaign to inform low-income
USDA’s success in promoting public health through good             people of their potential eligibility. The Department also
nutrition and the effectiveness of its nutrition assistance        provided technical assistance, outreach and participation
education programs relies heavily on research. The                 grants and guidance to faith- and community-based
research provides critical knowledge of what we need to            organizations to encourage FSP participation.
eat to stay healthy and how that knowledge can be
                                                                   While SBP provides cash assistance to States to operate
conveyed to the public in a manner that leads to true
                                                                   breakfast programs in schools and residential child care
changes in our diets. Research also supports the
                                                                   institutions, many children who could benefit from
development of new healthy and tasty food products,
                                                                   breakfast at school do not use the program. On an average
providing another avenue for helping consumers eat well.
                                                                   school day, while more than 50 million children had



                                                                                                                         USDA
                                                                  FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT        97
                                             ANNUAL PERFORMANCE REPORT




access to school lunch and about 30 million children chose       adequacy of segments of the population at risk of
to eat a program lunch, but only about 9.8 million               inadequate nutrient intake, excessive intake or dietary
children received a school breakfast. USDA promoted              imbalances. The analysis is based on the Continuing
SBP by raising awareness of the program’s availability           Survey of Food Intakes by Individuals conducted in 1994-
with State and civic leaders, and supporting and                 96 and 1998. The segments included adolescent females,
celebrating National School Breakfast Week..                     older adults, children and adults at risk of overweight,
                                                                 individuals living in food-insufficient households, low-
The Department also continued to serve those eligible for
                                                                 income individuals and those targeted by and
the Special Supplemental Nutrition Program for Women,
                                                                 participating in food and nutrition assistance programs.
Infants and Children Program (WIC) who wish to
                                                                 The report adds to a growing literature that uses current,
participate within authorized funding levels – about 8.1
                                                                 improved knowledge of nutrient requirements and
million pregnant women, new mothers and their young
                                                                 recommended nutrient assessment methods to analyze
children in an average month in FY 2006. WIC helps to
                                                                 nutrient intakes. The report indicates:
safeguard the health of low-income women, infants and
children up to age 5 who are at nutritional risk. The                Inadequate intake of key micronutrients, especially
program provides nutritious foods to supplement diets,               magnesium, calcium, folate and vitamin E;
information on healthy eating and referrals to health care.          Energy intakes less than recommended energy
                                                                     requirements for adults; and
Finally, USDA reached out to a wide range of faith-based
and community organizations to deliver program benefits              Consumption of too much food energy from fat and
and services, and encourage access to the programs.                  not enough from carbohydrates; and inadequate
                                                                     intakes of fiber.
Selected Results in Research, Education and Statistics
                                                                 Additionally, diet adequacy deteriorates as individuals get
By allocating their food budgets in accordance with
                                                                 older. Children—especially infants and young children—
USDA’s Thrifty Food Plan (TFP), low-income U.S.
                                                                 have diets that are more nutritionally adequate than those
households can meet recommended dietary guidelines.
                                                                 of adolescents and adults.
TFP is a national standard for a low-cost nutritious at-
home diet. A USDA study seeks to determine whether               Because food stamps are designed to serve as a first-line
selected types of low-income households allocate their           defense against hunger, it would be ironic if food stamps
food budgets in accordance with the TFP. The study               were connected to America’s obesity problem. Though
finds that low-income households as a whole spend about          such a connection appeared to exist in the late 1980s and
86 percent of the TFP costs for food at home. While              early 1990s, it does not appear to hold today. USDA
these households spend approximately the TFP amount              research finds a weakening relationship between food
on cereals and bakery goods (102 percent), only 53               stamp receipt and weight status using the latest national
percent of the TFP costs on fruits and vegetables.               data. This reversal is most noticeable among women, the
Simulations for specific types of low-income households          group for which differences between participants and
indicate that female-headed households with children and         non-participants received the most attention and for
married couples with children are least likely to equal the      whom previous research has found the most consistent
TFP expenditures.                                                associations between food stamps and weight. For
                                                                 women, multi-year data show the opposite of what we
Recently, concerns about the nutritional adequacy of the
                                                                 would expect to find if food stamps were behind increased
diets of certain population subgroups have arisen. USDA
                                                                 obesity. For men, it appears that food stamp participants
research provides a comprehensive analysis of the nutrient
                                                                 are catching up weight-wise with non-participants.



USDA
   98        FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                             ANNUAL PERFORMANCE REPORT




In work funded in part by USDA, the University of                receive these benefits. USDA looks to improve access to
California, Riverside has developed technology that              and promote awareness of these programs among those
doubles the protein and oil content of corn grain. This is       who may benefit from their services with continued
accomplished by means of a genetic modification resulting        outreach and information strategies.
in single normal-sized kernel that contained two embryos.
Because the embryo contains the majority of protein and
oil of the kernel, the corn grain produced contained less
starch, but more protein and oil, resulting in “low-carb”
corn.

Apple consumption in the U.S. lags behind that in other
countries, despite its known health benefits. Apples are a
popular snack, but due to variability, bruising, and
softening they do not always provide a consistent product.
A breeding program at Cornell University partially
supported by CSREES funding has resulted in new
apples with non-browning flesh, higher vitamin C,
excellent flavors, and superior crunch and juiciness.
                                                                 USDA’s ability to achieve this objective depends partly on
Iron deficiency is the most common nutrient deficiency in
                                                                 adequate legislative authority for policies and program
the United States and is alleviated by iron fortification of
                                                                 initiatives. These initiatives would promote effective
food items. Different forms of iron can be used in
                                                                 access to nutrition assistance and funding to support
fortification, but little is known which form is most
                                                                 program participation for all eligible people who seek
beneficial. Researchers at the USDA ARS Grand Forks
                                                                 service. The quality of program delivery by third parties—
Human Nutrition Research Center received funding
                                                                 hundreds of thousands of State and local Government
through the CSREES National Research Initiative
                                                                 workers and their cooperators—is critical to Department
Competitive Grants Program to resolve this question.
                                                                 efforts to reduce hunger and improve nutrition. Economic
The researchers compared an elemental iron powder to
                                                                 changes can affect both the number of people eligible and
ferrous sulfate (FeSO4), a well-absorbed form of iron that
                                                                 the ability of cooperators to provide services.
can cause discoloration and decreased shelf life in fortified
grain products. The investigators determined elemental                                   Key Outcome
iron powder was not absorbed into the body as easily as
                                                                           Reduce hunger and improve nutrition
FeSO4 and absorption of the iron powder was less likely
to be enhanced by ascorbic acid. This research provides a
more comprehensive picture of how iron can be used most          The Department is committed to providing access to
effectively in fortified food products.                          nutritious food through the major nutrition assistance
Challenges for the Future                                        programs for all eligible people who wish to participate.
                                                                 Participation has increased in FSP and SBP, and was
Studies and analyses show that there continue to be large        maintained in WIC.
numbers of eligible people who do not participate in
Federal nutrition assistance programs. While recent              Analysis of Results
changes in FSP have made more low-income people                  In general, nutrition assistance program participation
eligible, many may be unaware of the opportunity to              reached levels as projected. As program participation is



                                                                                                                     USDA
                                                                FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT     99
                                            ANNUAL PERFORMANCE REPORT




voluntary, participation projections are estimates based on         Awarded 15 grants to small community and faith
economic and other factors that impact the likely behavior          based organizations to conduct localized outreach
of eligible populations. An analysis of the most recent             activities;
information available follows.                                      Awarded five participation grants totaling $5 million
                                                                    to increase access to the FSP. The participation grants
                                                                    focus on efforts to simplify both the application
                                                                    process and eligibility systems and complement the
                                                                    outreach grants; and
                                                                    Worked successfully with States to plan and
                                                                    implement 1,600 outreach activities with faith based
                                                                    and community-based organizations and public
                                                                    agencies.

                                                                USDA also conducts studies to measure the number of
                                                                people eligible for the program to determine the rate at
                                                                which eligible people are participating. The most recent
                                                                data indicates that about 23 million of the 38 million
                                                                individuals who were eligible for food stamp benefits in an
The Food Stamp Program served approximately 26.5
                                                                average month of 2004 participated, a participation rate of
million participants monthly, a 3 percent increase from
                                                                60 percent. The program provided 71 percent of the total
FY 2005 and the fourth year in a row of participation
                                                                benefits that all eligible individuals could receive, one
increases. USDA executed a range of efforts to support
                                                                indicator that people who are eligible for higher benefits
and encourage food stamp participation, including:
                                                                are more likely to participate than others. The overall
    Promoted the use of State policy options that               participation rate increased by nearly five percentage
    promote outreach and improve access to the program;         points between 2003 and 2004, the third annual increase
    Continued to implement FSP public information               in participation rates after falling for seven years.
    campaign. In March 2006, 3 new paid advertisements          National School Lunch Program (NSLP) participation
    in English began airing in 49 media markets and on 2        levels reached 30.1 million in FY 2006, up 1.7% percent
    Statewide radio networks across the Nation. Twelve          from FY 2005 and continuing the trend of increases in
    of the markets also aired two new ads in Spanish. Ads       recent years. NSLP provides nutritious meals to millions
    aired during March, April, July and August;                 of children at school; more than 95,000 schools operated
    Continued work with the Social Security                     the program in FY 2006.
    Administration to implement Combined Application            School Breakfast Program (SBP) participation levels
    Projects (CAP) demonstrations, which streamline the         reached 9.8 million in FY 2006, up 5 percent from a year
    eligibility determination process and assist in             ago and continuing a trend of increases during the last
    improving FSP participation among the elderly.              several years. SBP makes healthy, nutritious meals
    Thirteen States have been approved to operate CAP           available to millions of children at the start of each school
    projects, two are reviewing plans and six are planning      day. More than 49,000 schools operated the program in
    to submit plans in the next few months;                     FY 2006. USDA continued to support and encourage
                                                                SBP participation by:




USDA
  100       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                                          ANNUAL PERFORMANCE REPORT




    Promoting SBP through such activities as School                                  risen slowly but steadily in recent years. This use reflects
    Breakfast Week, which involves schools across                                    USDA’s continuing efforts to encourage schools to
    America in highlighting the program through events,                              operate the program.
    posters and student activities in the importance of a
                                                                                     In FY 2006, 8.1 million participants received WIC
    good breakfast—either at home or served through the
                                                                                     benefits. USDA continued to work with OMB, Congress
    program—in being ready for school:
                                                                                     and its State cooperators to ensure that funding was
    Working with various organizations and partners to                               available to support participation for all those eligible who
    help develop strategies for program expansion;                                   wish to participate.
    Developing school breakfast outreach materials for
                                                                                     USDA recently implemented a new methodology to
    schools and parents; and
                                                                                     estimate the number of people eligible to participate in
    Continuing to advance the implementation of the                                  WIC. The most recent data available show that 57.1
    Child Nutrition/WIC Reauthorization Act of 2004.                                 percent of eligible women, infants and children
In addition to the increase in the number of participating                           participated in the program in 2003, a slight decrease
children, trend data indicate that the proportion of all                             from 2002 but consistent with the rate since 2000.
children enrolled in schools who participate in SBP has
Exhibit 49: Improve Access to Nutritious Food
                                                                                                                            Fiscal Year 2006
                            Annual Performance Goals and Indicators                                       Target                  Actual       Result
        5.1.1    Eligible populations participating in the major Federal nutrition
                 assistance programs
                     Food Stamp Program Avg. Monthly Participation (millions of
                                                                                                         26.9 mil                  26.6
                                                                                                                                          1
                      people)
                     National School Lunch Program Avg. Daily Participation (millions
                                                                                                           30.2                    30.1
                                                                                                                                          2     Met
                      of people)
                     School Breakfast Program Avg. Daily Participation (millions of
                                                                                                          9.8 mil                   9.8
                      people)
                     Special Supplemental Nutrition Program for Women, Infants and
                                                                                                          8.2 mil                  8.1
                                                                                                                                         3
                      Children (WIC) Monthly Participation (millions of people)
        1
          Data assessment metrics to meet the target allow for an actual number in the range 24.9 to 28.9 million.
        2
          Data assessment metrics to meet the target allow for an actual number in the range 28.7 to 31.7 million.
        3
          Data assessment metrics to meet the target allow for an actual number in the range 8.0 to 8.4 million.

Exhibit 50: Trends in Improving Access to Nutritious Food

                                                                                                             Fiscal Year 2006
                                      Trends                                      2002           2003             2004              2005       2006
         5.1.1
                     Food Stamp Program Avg. Monthly                             19.1            21.3               23.9           25.7       26.6
                      Participation (mil)
                     National School Lunch Program Avg. Daily
                                                                                  28.0            28.4               29.0           29.6       30.1
                      Participation
                     School Breakfast Program Avg. Daily
                                                                                   8.1            8.4                8.9             9.3        9.8
                      Participation (mil)
                     WIC Program Monthly Participation (mil)                      7.5            7.6                7.9             8.0        8.1




                                                                                                                                                        USDA
                                                                                    FY 2006 PERFORMANCE              AND     ACCOUNTABILITY REPORT      101
                                            ANNUAL PERFORMANCE REPORT




                                                                 cornerstone of Federal nutrition guidance. Using the 2005
OBJECTIVE 5.2: PROMOTE HEALTHIER EATING HABITS AND
                                                                 Dietary Guidelines and MyPyramid, the educational tool
LIFESTYLES                                                       of the Guidelines, USDA will continue its leadership role
Overview                                                         of providing advice on patterns Americans can follow to
                                                                 improve overall health through proper nutrition and
Eating healthfully is vital to reducing the risk of death or     physical activity.
disability due to heart disease, certain cancers, diabetes,
stroke, osteoporosis and other chronic illnesses. Despite        In the same vein, the nutrition assistance programs
this, a large gap remains between recommended dietary            managed by USDA touch the lives of one in five
patterns and what people in the U.S. actually eat. The           Americans – an enormous opportunity to promote
Department uses Federal nutrition policy and nutrition           healthier behaviors. In 2006, the Department maintained
education, both for the general public and for those served      its focus on providing benefits to children and low-
by the nutrition assistance programs, to provide                 income people that contribute to a healthful diet, with
scientifically based information about healthful diets and       skills and motivation to encourage healthy eating and
lifestyles. The Department uses, for example, the Dietary        increased physical activity. For example, in the Food
Guidelines for Americans and MyPyramid to help                   Stamp Program, USDA established, with the help of
Americans make wise choices related to food and physical         stakeholders, a set of guiding principles that provide the
activity. The Guidelines provide advice about food choices       foundation for nutrition education for FSP applicants,
that promote health and prevent disease, and MyPyramid           recipients and those eligible for the Food Stamp Program.
provides the educational tools to help Americans take the        In FY 2006, the Principles were incorporated into
necessary “Steps to a Healthier You.”                            guidance for developing State Food Stamp nutrition
                                                                 education plans starting with Fiscal Year 2007.
Overweight and obesity is one of the leading cause of
premature death and disability in the U.S. Improved diets        Challenges for the Future
can help with weight management and reduce the risk of           USDA’s goal of reducing obesity levels begins with
certain types of cancers, as well as type II diabetes, the       understanding what constitutes a healthy diet and the
most common form of the disease. Thus, USDA’s efforts            appropriate balance of exercise. Ultimately success
focus on updating nutrition policy, providing information        requires individuals to change their diets by modifying
and promoting behavioral changes that can reduce                 their eating behavior. Crafting more effective messages
overweight, obesity and other diet-related health                and nutrition education programs to help people make
conditions. These actions hold the potential to improve          better food choices requires understanding their current
the lives of millions of Americans and reduce the social         choices and the relationships between these choices and
costs of these conditions.                                       their attitudes, knowledge and awareness of diet/health
                                                                 links. Accomplishing this understanding requires data
Science has established strong links between diet and
                                                                 that link behavior and consumption decisions for
health. Researchers attribute about 300,000 premature
                                                                 individuals of various backgrounds, regions, ages and
deaths annually to poor diets. The total costs attributed to
                                                                 genders. While data exist on a national scale, current
overweight and obesity are estimated to be nearly $120
                                                                 survey sample sizes do not yield reliable information for
billion annually. Even small improvements in the average
                                                                 population subgroups.
diet would yield large health and economic benefits to
individuals and society as a whole.                              While updated Federal nutrition guidance is an important
                                                                 step in helping Americans develop and maintain healthier
To this end, the Department will continue promoting
                                                                 diets and lifestyles, using this guidance to motivate
healthier eating and lifestyle behaviors as a vital public-
                                                                 Americans to change remains a formidable task in light of
health issue. The Dietary Guidelines for Americans is the
                                                                 the limited resources available for nutrition promotion.


USDA
  102        DRAFT FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                              ANNUAL PERFORMANCE REPORT




USDA will continue to explore ways to devote significant           motivate Americans to “Step Up to a Healthier You.”
long-term resources to develop consumer-friendly and               Indices of this leadership role include:
cost-effective nutrition education materials, and to make               Usage level of nutrition guidance tools was substantial
use of partnerships and “information multipliers” to                    for FY 2006. Nearly 2.2 billion pieces of information
maximize the reach and impact of these materials.                       were distributed via MyPyramid.gov and printed
Promotional materials will be used both within Federal                  materials. Visitors to MyPyramid.gov used
nutrition-assistance programs and with the general public.              MyPyramid interactive tools, MyPyramid for Kids
More broadly, attaining performance outcomes in this                    and MiPirámide. MyPyramid for Kids is a specialized
area depends partly on the emphasis that the Nation                     version of MyPyramid designed to promote dietary
                                                                        changes to children 6- to 11-years old, and
places on healthier eating, including products and
                                                                        MiPirámide, a Spanish-language version of
practices in the food marketplace. Additionally, physical
                                                                        MyPyramid. To date, there are 1.56 million registered
activity and other lifestyle issues significantly affect weight
                                                                        users of MyPyramid Tracker1, the assessment tool for
and health.
                                                                        dietary and physical activity status;
                        Key Outcome                                     Results from a satisfaction survey2 of MyPyramid.gov
                                                                        have been positive. Over 6 months, responses by site
       Promote More Healthful Eating and Physical
               Activity across the Nation                               visitors continued to confirm the usefulness of
                                                                        MyPyramid.gov;
                                                                        Overall, the site received a satisfaction score that
USDA promotes healthful eating through its
                                                                        ranged from 69 to 83. The score was based on site
comprehensive nutrition assistance research and education
                                                                        content, functionality, look and feel, navigation,
programs. Efforts are targeted to nutrition assistance
                                                                        search, and site performance;
program participants and the general public. For each
target audience, the challenge is to find effective ways to             Most survey respondents to the site continued to be
translate research into working knowledge to understand                 general consumers, students, and educators and
what people eat, and to find effective strategies to reach              teachers: 71 to 77 percent;
target populations with promotional information and                     Most survey respondents believed the level and depth
messages.                                                               of the information at MyPyramid.gov met their
                                                                        needs: 64 to 78 percent;
USDA tracks its annual performance in promoting                         Most survey respondents said that the information at
healthful eating and physical activity by monitoring its                MyPyramid.gov prompted them to take action
annual distribution of nutrition education materials. Over              regarding their health: 69 to 75 percent; and
the longer-term, USDA assesses the effect of these efforts
                                                                        Of those who were prompted to take action, most
with the Healthy Eating Index (HEI), a summary
                                                                        said they changed their diet or their family’s diet,
measure of diet quality developed by USDA’s Center for
                                                                        reduced unhealthful eating habits, started monitoring
Nutrition Policy and Promotion. The Department sets
                                                                        their intake, developed a personalized plan, or
targets for improvement in the HEI both for the U.S.
                                                                        established a goal for physical activity: 73 to 85
population as a whole and among people with incomes at
or below 130 percent of poverty.                                        percent.
                                                                     Data on the number of registrations to MyPyramid Tracker are
Analysis of Results                                                 cumulative from April 19, 2005; therefore, that information is reported
                                                                    separately.
To meet the needs of the general population, USDA                   2
                                                                     These data are compiled from two surveys conducted between
continued its leadership role in the promotion of nutrition         February 2 and May 3, 2006, and two surveys conducted between
                                                                    June 13 and September 25, 2006. The total number of respondents
guidance through educational tools that are designed to             was 2,242.




                                                                                                                                   USDA
                                                                  FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT             103
                                                        ANNUAL PERFORMANCE REPORT




Exhibit 51: Promoting Healthier Eating Habits and Lifestyles

                                                                                                                 Fiscal Year 2006
                           Annual Performance Goals and Indicators                                  Target             Actual          Result
           5.2.1    Application and usage level of nutrition guidance tools pieces*                1.5 billion       2.18 billion     Exceeded
                    of nutrition guidance distributed
           *Represents number of e-hits to MyPyramid.gov links and number of print materials distributed



Exhibit 52: Trends to Promote Healthier Eating Habits and Lifestyles

                                                                                                       Fiscal Year 2006
                                     Trends                                 2002           2003              2004         2005          2006
            5.2.1    Application and usage level of nutrition
                                                                             N/A*           N/A*             N/A*       1.0 billion   2.2 billion
                     guidance tools
            *Data was not available when the Annual Performance Plan was published.


Evidence from a range of sources indicates that problems                            consumer’s knowledge of health and nutrition, on a
related to diet quality persist, both among low-income                              consumer’s frequency of eating out and the type of
people and the general population. USDA’s ongoing                                   restaurants he or she chooses to patronize.
efforts during this period to promote behavior change,
                                                                                    USDA continued development of a comprehensive
both through the nutrition assistance programs and its
                                                                                    consumer food consumption database comprised of the
nationwide nutrition policy and promotional efforts have
                                                                                    Food Consumption (per capita) Data System, food intake
been focused on motivating changes to reduce and prevent
                                                                                    data gathered from the National Health and Nutrition
excessive weight gain and obesity.
                                                                                    Examination Survey (NHANES) and from proprietary
                           Key Outcome                                              datasets. USDA also finalized the development of the
          Increase Nutrition Information Available
                                                                                    Flexible Consumer Behavior Survey (FCBS) in 2006,
                       to the Public                                                which will be fielded as a supplement to the NHANES in
                                                                                    2007-2008. USDA acquired three additional food
                                                                                    consumption datasets: the 2003-4 NET (National Eating
Selected Results in Research, Extension and Statistics                              Trends) and CREST (Consumer Reports on Eating
Americans consume a growing proportion of their calories                            Share Trends) data from the NPD group and the AC
at restaurants and fast food places, although these foods                           Nielsen Homescan consumer panel data on packaged and
tend to be more calorie-dense and nutritionally poorer                              random weight food purchases.
than foods prepared at home, on average. However, little
                                                                                    Researchers studied a number of popular diets and found
is known about how the desire for a healthy diet and diet-
                                                                                    that they have no special effect on metabolism. Four
health knowledge affect consumer behavior in the fast
                                                                                    popular diets were tested for effectiveness and adherence
growing away-from-home market. Some have even
                                                                                    in 160 overweight and obese subjects for weight loss over
questioned whether consumers want healthful foods or
                                                                                    one year by USDA scientists. The diets were
apply their knowledge of health and nutrition, when
                                                                                    characterized as very low carbohydrate, high protein, very
making choices about where to eat out and how often to
                                                                                    low fat, or balanced low calorie. Weight loss was mainly
do so. This study examines the impact of the desires for
                                                                                    dependent on dietary compliance and the amount of
health, entertainment and convenience, along with the


USDA
  104        DRAFT FY 2006 PERFORMANCE              AND   ACCOUNTABILITY REPORT
                                             ANNUAL PERFORMANCE REPORT




calorie restriction rather than the type of diet. There was    and with a high level of customer service. Managing
no distinct benefit of high protein or limiting                Federal funds for nutrition assistance effectively, including
carbohydrates or fats.                                         prevention of program error and fraud, is a key
                                                               component of the President’s Management Agenda.
Researchers have discovered a genetic marker for obesity
                                                               USDA focused on maintaining strong performance in the
that is consistent across populations. ARS scientists have,
                                                               food stamp payment-accuracy rate as its key performance
for the first time, shown that common mutations of a
                                                               goal in this area.
gene called “perilipin” modulate body weight in humans
and more so in women. This genetic predisposition to           USDA continued to improve management practices by
obesity has been demonstrated in white Americans               reducing program errors and enhancing customer service.
randomly selected from the general population as well as       The delivery of food-stamp benefits remains a priority of
in Indians and Malays residing in Singapore. Identifying       the Department, as it continues to work with its State
people with a predisposition to obesity will help in the       agency partners in maintaining a high level of integrity in
tailoring of appropriate strategies for obesity prevention.    administering nutrition assistance programs. USDA’s
                                                               continued focus in 2006 on improving nutrition-
Research indicates that fruit and vegetable consumption
                                                               assistance program management and customer service
lowers risk for metabolic syndrome in young adults.
                                                               reflects its long-term core commitment to prevent waste,
USDA scientists found that low fruit and vegetable
                                                               inefficiency and abuse that diverts taxpayer resources from
consumption and high sweetened beverage intake are
                                                               the core purposes and goals of these programs. The sheer
independently associated with the prevalence of metabolic
                                                               size of these programs demands that the utmost attention
syndrome in young adults who participated in the
                                                               be given to applying efficient management practices and,
Bogalusa Heart Study. Metabolic syndrome, which is
                                                               to the extent possible, preventing errors in distributing
characterized by abdominal obesity and the inability to
                                                               benefits. Deficiencies in customer service undermine the
use insulin efficiently, is believed to be a forerunner of
                                                               effectiveness of the programs in reaching clients with the
coronary heart disease and type II diabetes.
                                                               benefits they need. Maintaining public trust in Federal
Smart Bodies is an interactive campaign designed to help       nutrition-assistance programs is vital to their success and
prevent childhood obesity that is a joint venture supported    continued support.
partially by USDA funding to Louisiana State University
                                                               Selected Results in Research, Extension and Statistics
and partially by the Blue Cross and Blue Shield of
Louisiana Foundation. The program has been                     Evidence is strong that, beginning in 1995, an increase in
implemented in nearly 100 schools and has reached an           reported certification-related costs per Food Stamp
estimated 12,000 youngsters. Preliminary results indicate      Program (FSP) household contributed to reduced error
the program is having a positive influence on the children.    rates. Recent research studied trends in FSP
“One school said they have started ordering more fruits        administrative costs and errors from 1989 to 2001,
and vegetables for the cafeteria because they started          describing the trends and composition of FSP
running out after the program was implemented.”                administrative costs. The results imply that, in the period
                                                               after the Personal Responsibility and Work Opportunity
OBJECTIVE 5.3: IMPROVE FOOD PROGRAM MANAGEMENT                 Reconciliation Act of 1996, States on average had to
AND CUSTOMER SERVICE                                           spend more effort on certification-related activities than
                                                               in previous years to achieve a given level of accuracy.
Overview                                                       Research results predict that, if a State’s FSP certification
USDA is committed to ensuring that nutrition-assistance        budget is fixed and the number of FSP households
programs serve those in need at the lowest possible costs


                                                                                                                     USDA
                                                              FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT        105
                                              ANNUAL PERFORMANCE REPORT




increase, the effort per FSP household will fall and error        Another report—South Carolina Food Stamp and Well-
rates will rise, if all other things are equal.                   Being Study: Transitions in Food Stamp Participation
                                                                  and Employment Among Adult-Only Households—
Over half of all infant formula sold in the United States is
                                                                  focused on adult-only households. Several recent changes
purchased through the Special Supplemental Nutrition
                                                                  in the Food Stamp Program have been directed at
Program for Women, Infants, and Children (WIC).
                                                                  households without children. Some of the changes, such
Typically, State WIC agencies obtain substantial
                                                                  as new work requirements and time limits for able-bodied
discounts in the form of rebates from infant formula
                                                                  adults without dependents (ABAWDs), are intended to
manufacturers for each can of formula purchased through
                                                                  encourage economic self-sufficiency and to reduce
the program. However, concern has been raised that the
                                                                  program dependence. Other changes are intended to raise
cost to the States of providing infant formula to WIC
                                                                  low program participation rates among vulnerable groups.
participants is increasing, a result that if sustained, could
                                                                  The study shows that households subject to ABAWD
have far-reaching negative implications for the WIC
                                                                  policies had shorter spells of food stamp participation,
program. This study found that the cost of providing
                                                                  longer spells of food stamp nonparticipation, and higher
infant formula to WIC participants has increased in
                                                                  rates of employment than did households not subject to
recent years. This increase in costs coincides with the
                                                                  the policies. In addition, adult-only households were
introduction of higher priced DHA- and ARA-
                                                                  much more likely to leave the FSP at recertification time
supplemented infant formulas. Conditions may change
                                                                  than at other times. Finding employment hastened exits
after the market adjusts to these new formulas.
                                                                  from the Food Stamp Program and delayed returns.
The South Carolina Food Stamp and Well-being Studies
                                                                  Challenges for the Future
examine patterns of Food Stamp Program use and other
                                                                  Some improper payment risks are inherent to the
types of in-kind assistance among current and former
                                                                  legislatively mandated program structure. The nutrition
welfare recipients in South Carolina and the role that
                                                                  assistance structure is intended to serve people in special
non-cash assistance plays in maintaining families’ well-
                                                                  circumstances and settings. USDA must shape its
being as they transition off of welfare. People who receive
                                                                  management approach in light of the need to make
public assistance confront a number of “clocks” that may
                                                                  services convenient and accessible to participants.
affect program participation. Examples of clocks include
                                                                  Additionally, State and local Governments bear direct
time limits on receiving benefits and recurring deadlines
                                                                  responsibility for delivering the programs. Thus, the
for reconfirming eligibility. This report examines the role
                                                                  Department must work with State and local personnel to
of program clocks, economic conditions, and other
                                                                  address improper payment problems through monitoring
circumstances on participation in South Carolina’s cash
                                                                  and technical assistance. This approach requires adequate
and food assistance programs. The study shows that
                                                                  numbers of trained staff supported by a modernized
South Carolina’s 2-year time limit in receiving TANF
                                                                  information technology infrastructure to ensure full
benefits in any 10-year period hastens exits from and
                                                                  compliance with national program standards and prevents
reduces returns to the program and that the State’s policy
                                                                  or minimizes error, waste and abuse.
of quarterly recertifications hastened exits from the FSP.
In addition, annual redeterminations may contribute to            To meet the challenge of continued improvements in FSP
TANF exits. Finding employment speeds exits from the              payment accuracy, USDA continues to dedicate resources
FSP and cash assistance and delays returns to the                 to this area. Significant challenges will impact future
programs. Cash assistance participation may lead to               success. State budgets have been and will continue to be
longer spells of receiving food stamps.                           extremely tight. This could hurt State performance in
                                                                  payment accuracy. USDA will continue to provide



USDA
  106        FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                                 ANNUAL PERFORMANCE REPORT




technical assistance and support to maintain payment                      Three State agencies in FY 2005 were assessed
accuracy in the context of this changing environment.                     liabilities totaling an aggregate of $3.6 million for
                                                                          having excessive error rates for 2 consecutive fiscal
                         Key Outcome                                      years.
          Maintain a High Level of Integrity in the
              Nutrition Assistance Programs                         USDA efforts such as the Partner Web (an intranet for
                                                                    State Food Stamp agencies) and the National Payment
                                                                    Accuracy Work Group (consisting of representatives from
While 2006 data are unavailable, payment accuracy                   USDA headquarters and regional offices) contributed
reached a record high in 2005, reflecting strong efforts in         significantly to this success by making timely and useful
this area that have resulted in significant error reductions        payment accuracy-related information and tools available
during the past several years. Even small changes in the            across regions and States. Additionally, the Department
food stamp error rate can save millions of dollars.                 continued to use an early detection system to target States
                                                                    that may be experiencing a higher incidence of errors
Analysis of Results
                                                                    based on preliminary QC data. Actions are then taken by
The FY 2006 Food Stamp Payment Accuracy Rate will                   regional offices to address these situations in the
become available in June 2007 and will be reported in the           individual States.
FY 2007 Performance and Accountability Report.
                                                                    USDA’s close working relationship with its State partners
The FY 2005 Food Stamp Payment Accuracy Rate                        over the last several years, along with program changes to
posted a new high of 94.16 percent, the seventh                     simplify rules and reduce the potential for error, has
consecutive year of improvement and a reduction in error            resulted in consistent increases in the Food Stamp
of 34 percent from 5 years earlier. Of the total FY 2005            Payment Accuracy rate. One of the most important
payment error rate of 5.84 percent, 4.53 percentage points          factors in maintaining improved performance in this area
represent the over issuance of benefits; the other 1.31             is the need for State partners to continue and renew their
percentage points represent under issuance of benefits.             leadership commitment to excellence in payment
Performance highlights include:                                     accuracy. To support State improvement, USDA will
    Thirty-two State agencies, including Illinois,                  continue efforts with the National Payment Accuracy
    Pennsylvania, and Texas, achieved a payment error               Work Group to share best practice methods and
    rate of less than 6 percent. California, with a payment         strategies. The Department also will continue to resolve
    error rate of 6.38 percent, continued to improve from           quality control liabilities through settlements, which
    its FY 2002 error rate of 14.84 percent; and                    require States to invest in specific program improvements.

Exhibit 53: Increase Efficiency in Food Management

                                                                                           Fiscal Year 2006
                         Annual Performance Goals and Indicators                 Target           Actual        Result
           5.3.1   Improve Food Program Management and Customer Service
                      Increase Food Stamp Payment Accuracy Rate                  93.8%            N/A         Deferred




                                                                                                                           USDA
                                                                   FY 2006 PERFORMANCE     AND   ACCOUNTABILITY REPORT       107
                                                        ANNUAL PERFORMANCE REPORT




Exhibit 54: Trends in Increased Efficiency in Food Management

                                                                                                     Fiscal Year 2006
                                     Trends                                 2002           2003            2004           2005       2006
            5.3.1    Increase Food Stamp Payment Accuracy                  91.7%          93.4%           94.1%           94.2%*     N/A
                     Rate
            *The figure published in the Annual Performance Plan was an estimate and the actual figure was released in June, 2006.




                                                                                   farmland and water sources can reduce the introduction of
Strategic Goal 6: Protect and Enhance the Nation’s
                                                                                   pollutants into rivers and lakes significantly. Buffers
Natural Resource Base and Environment                                              improve water quality and fish and wildlife populations by
OBJECTIVE 6.1: PROTECT WATERSHED HEALTH TO ENSURE                                  intercepting sediment, nitrogen and phosphorus in runoff
CLEAN AND ABUNDANT WATER                                                           before these pollutants enter lakes, ponds, wetlands and
                                                                                   waterways. The buffers provide shade—thereby cooling
Overview                                                                           streams and rivers—and provide conservation cover and
While agriculture produces the food and fiber necessary to                         increased wildlife habitats.
supply the Nation’s needs, much of its processes may
                                                                                   USDA conservation experts assisted agricultural
affect the quality of water resources under and around
                                                                                   producers in planning and applying conservation
agricultural land. For example, tilling the soil and leaving
                                                                                   practices. These practices helped reduce sediment,
it without plant cover for extended periods of time can
                                                                                   nutrient and pesticide runoff. They also helped maintain
accelerate soil erosion. Residues of chemical fertilizers and
                                                                                   and improve water supplies, restore wetlands and improve
pesticides may wash off the field into streams or leach
                                                                                   fish and wildlife habitat. On private land, USDA assisted
through the soil into groundwater. Irrigation can move
                                                                                   people in writing or updating conservation plans for
salt and other dissolved minerals to surface water.
                                                                                   almost 9.9 million acres of working cropland and 23.9
Livestock operations produce large amounts of waste
                                                                                   million acres of grazing lands. The Department also
which, if not disposed properly, can threaten human
                                                                                   helped implement conservation practices on nearly 20
health and contribute to excess nutrient problems in
                                                                                   million acres.
streams, rivers, lakes and estuaries. According to the U.S.
Environmental Protection Agency, agriculture is                                    The Department also assists State, Tribal and local
considered to be the leading source of pollutants that                             entities in improving water-resource conservation.
enter rivers and lakes. When pollutants degrade water                              Assistance provided to these entities includes advice on
quality, ecosystems are degraded and costs are imposed on                          drought and flood control management, natural resource
ecosystems and those who rely on water for drinking,                               data collection and dissemination, and cost-share and
recreational opportunities and economic livelihoods.                               technical guidelines. This assistance helps State and local
Individuals, communities and the environment then must                             Governments plan and implement conservation practices
bear the consequences and the costs for degraded water                             and mitigate drought and flood impacts.
quality.
                                                                                                                  Key Outcome
Water resources can be protected by reducing the amount                                                 Clean and Abundant Water
of sediments, nutrients and chemicals originating from
agricultural lands. Programs designed to reduce topsoil
erosion, monitor nutrients and provide buffers between


USDA
  108        FY 2006 PERFORMANCE            AND   ACCOUNTABILITY REPORT
                                           ANNUAL PERFORMANCE REPORT




In 2006, USDA helped producers develop conservation           likely to plan, apply and maintain conservation systems
plans for millions of agricultural acres. These plans         that support agricultural production and environmental
empowered producers with information on the capability        quality as compatible goals. These programs target land
of their soil, condition of their rangeland and woodlands,    for enrollment precisely where conservation benefits are
and requirements for irrigation. They also served as a        expected to have the greatest positive effect. USDA’s
land-use management tool to support healthy plant,            technical experts help people in communities work
animal and human communities. USDA also provided              together to protect their shared environment. The
producers with conservation cost-share benefits and           assistance provided to State and local Governmental
incentive payments. These incentives helped offset the        entities, tribes and private-sector organizations helps them
cost of installing conservation covers and riparian and       protect the environment and improve the standard of
grassland buffers and maintained sound conservation           living and quality of life for the people they represent.
practices while improving the productivity of agricultural    The funds provided to these communities preserve and
lands.                                                        protect the environment, which benefits society as a
                                                              whole.
Additionally, USDA provided technical assistance to
hundreds of thousands of producers in planning and            The environmental benefits of USDA conservation efforts
applying conservation to manage their soil and water          to protect watersheds from agricultural runoff include
resources better. The Department’s assistance helped          healthier streams, rivers and lakes. These benefits also
managers of private lands maintain soil quality, protect      lead to improved ecosystems and wildlife habitats. Studies
water and air quality, and enhance wildlife habitats. To      about the benefits of water-pollution reduction suggest
reduce the risk of nutrients entering waterways from          that the annual benefits from improving water quality
animal operations, USDA worked with agricultural              could total tens of billions of dollars. According to a 2003
producers to apply more than 4,400 Conservation               USDA report on agricultural resources and environmental
Nutrient Management Plans on approximately 7.4 million        indicators, water-quality benefits from erosion control on
acres. These activities provide the information and           cropland alone could total more than $4 billion annually.
effective tools resource managers need to be good             Improved water resources reduce water treatment costs
stewards of the Nation’s land and water.                      and mean safer drinking water supplies for communities.
                                                              USDA provided technical and financial assistance to
USDA efforts to protect the Nation’s water supply also
                                                              enable producers to use irrigation water on 953,528 acres
affect producers and communities. Farmers, ranchers,
                                                              more efficiently. The Department also helped local
private forest owners and other landowners manage two-
                                                              communities complete the installation of 149 flood-
thirds of the Nation’s land. Agricultural irrigation
                                                              prevention or mitigation measures.
accounts for a third of the water drawn from surface water
and groundwater. The Department helps these groups            USDA provided assistance to local groups and
develop environmentally sound management practices.           Governments to develop almost 900 watershed and area-
USDA also provides them with information on soil              wide plans. These plans address a wide range of water
quality, water management and quality, plant materials,       resources concerns. To help address flooding problems,
resource management and wildlife habitat. Additionally,       the Department assisted in completing 121 dam-
the Department provides technical and financial               condition assessments and 13 watershed-rehabilitation
assistance to agricultural producers to promote good          plans. The assessments were made to determine the risks
stewardship of agricultural and environmentally sensitive     associated with aging flood-control structures. The plans
lands. Land owners and managers who receive technical         also identified feasible strategies for mitigating identified
assistance and cost-share or incentive payments are more      risks.


                                                                                                                    USDA
                                                             FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT       109
                                             ANNUAL PERFORMANCE REPORT




USDA provided assistance to producers to improve                 enrolled, producers enter into 10-to-15-year contracts.
irrigation water management on over 1.1 million acres.           Current legislation requires equal consideration for soil
The Department assisted in the rehabilitation or removal         erosion, water quality and wildlife concerns. The program
of 4 dams determined to be at or nearing the end of their        addresses these natural resource concerns, providing
50-year design life. Upgrading and removing these dams           environmental and economic benefits both on and off the
eliminated threats to life and property. This move also          farm. The Department accomplishes this by using
may have mitigated flood damages, enhanced wetlands              environmental benefits indices in general sign-ups and
and wildlife, and created recreational benefits.                 through continuous ones that target primarily
                                                                 improvement of water quality and wildlife. Key benefits of
USDA provided financial assistance to individuals and
                                                                 the program include reduced soil erosion, increased
groups to implement structures and management systems.
                                                                 wildlife habitat and better protected surface and ground
This move improved water management and protected
                                                                 water supplies. Acreage enrolled in the program is planted
watersheds, including:
                                                                 with resource-conserving vegetative covers. This process
    $512 million for cost-shares and incentives for water        makes the program a major contributor to increased
    conservation and water quality.                              wildlife populations in many parts of the country.
    $5 million for Cooperative Conservation Partnership
                                                                 CRP has accounted for nearly 40 percent of the annual
    Initiative (CCPI) grants to help partners identify and
                                                                 1.2 billion tons reduction in soil erosion since 1982. In
    solve regional, State and local natural resources
                                                                 2004, CRP reduced nitrogen and phosphorus applications
    concerns. CCPI provides funds for watershed or
                                                                 by 683,000 and 113,000 tons, respectively. Reduced soil
    airshed-planning projects. The funds are designed for
                                                                 erosion and fertilizer applications improve water quality.
    projects that address terrestrial and freshwater aquatic
                                                                 Enrollment of conservation buffers and establishing
    wildlife habitat, invasive species, livestock nutrient
                                                                 permanent cover through CRP reduces or eliminates
    management, minor and specialty crop management,
                                                                 runoff. By reducing water runoff and sedimentation, CRP
    and agricultural air quality. CCPI also supports rapid
                                                                 protects groundwater and helps improve the condition of
    watershed assessments that will provide watershed
                                                                 lakes, rivers, ponds and streams. A study by the Food and
    assessments quickly to stakeholders and partners.
                                                                 Agricultural Policy Research Institute estimated the
    USDA also allocated $4.1 million in conservation
                                                                 impact of CRP enrollment on nitrogen, phosphorus and
    innovation grants to address water quality and other
                                                                 erosion leaving field edge and root zones and showed
    priority natural resource concerns in the Chesapeake
                                                                 significant reductions in runoff. These reductions mean
    Bay Watershed.
                                                                 that fewer pollutants enter water resources. CRP also
Programs such as the Conservation Reserve Program                addresses the loss of wetlands, grassland and wildlife
(CRP), a voluntary program available to agricultural             habitats that has occurred historically as lands were
producers, protect millions of acres of American topsoil         converted to agricultural uses.
from erosion. CRP safeguards millions of acres of land
                                                                 Users accessed the National Water and Climate Center
susceptible to erosion and other environmentally sensitive
                                                                 Web site millions of times. The site,
cropland by placing it in long-term protective cover.
                                                                 http://www.wcc.nrcs.usda.gov/, hosts data on snowpack,
Producers enrolled in the program plant long-term,
                                                                 hydroclimatic and soil moisture, which helps agricultural
resource-conserving covers (such as grasses and trees) to
                                                                 producers effectively use limited water supplies for
improve water quality, control soil erosion and enhance
                                                                 agricultural production. The data also assist Federal, State
wildlife habitat. In return, USDA provides participants
                                                                 and local agencies to manage water compacts and treaties,
with rental payments and cost-share assistance. Once
                                                                 and mitigate drought and flood damages. Officials from



USDA
  110       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                             ANNUAL PERFORMANCE REPORT




municipalities can visit the site for information on           Challenges for the Future
operating reservoirs and supporting fish and wildlife-         External factors present challenges to accomplishing the
management activities associated with species protection.      conservation goals set by USDA. If market prices are
This site also provides data to the scientific community.      favorable, agricultural producers may be enticed into
USDA developed and released new Web-based tools to             leaving targeted, environmentally sensitive cropland in
help producers manage their operations more efficiently.       crop production rather than establishing long-term
These tools, which help protect water resources and            conservation covers or buffers. High fuel prices affect
reduce their energy costs, include:                            farmers and ranchers by increasing overhead costs.
                                                               Landowners may be more reluctant to enroll in new
    Energy Estimator for Tillage — Helps farmers and
                                                               programs, implement new conservation practices or adopt
    ranchers calculate diesel-fuel use and costs associated
                                                               new technologies that could decrease their bottom line.
    with various tillage practices. Key conservation
                                                               Additionally, natural disasters and prolonged drought
    practices include crop-residue management, nutrient
                                                               conditions may also reduce the effectiveness of USDA’s
    management, irrigation-water management, precision
                                                               conservation programs.
    agriculture, pesticide management, intensified grazing
    systems and windbreaks/shelterbelts;                       Analysis of Results
    Energy Estimator for Nitrogen Fertilizer —                 USDA met its FY 2006 targets for helping producers
    Estimates savings in nitrogen-fertilizer applications      apply comprehensive nutrient management plans
    and helps farmers and ranchers make practical and          (CNMPs), which are systems for animal-feeding
    sound decisions regarding nitrogen fertilizer use on       operations designed to ensure that wastes and byproducts
    their farm or ranch; and                                   are collected, stored and disposed of in ways that
                                                               minimize environmental damage. These actions protect
    Energy Estimator for Irrigation — Helps producers
                                                               soil and water, and enable agriculture to meet long-term
    manage their irrigation water resources more
                                                               goals for clean water. Comprehensive nutrient
    efficiently. The tool provides an analysis of current
                                                               management plan targets were set for the Conservation
    water use, the reduced water use associated with
                                                               Technical Assistance Program (CTA) and Environmental
    various treatment options and the energy costs and
                                                               Quality Incentives Program (EQIP). CNMPs are
    savings of these treatment options based on data
                                                               complex systems that require substantial investment of
    entered by the producer.
                                                               time and money. The steady increase in the number of
USDA’s Plant Materials Program released 26 plants and          CNMPs assisted by EQIP reflects the increases in public
published 308 technical documents to protect watershed         investment in conservation authorized by the 2002 Farm
health. This plant technology is used to:                      Bill. The trend in CNMP work supported by CTA
    Manage and eradicate invasive species;                     reflects assistance available from non-USDA sources and
                                                               increasing regulatory pressures. As animal agriculture has
    Restore and enhance wetlands, grassland and wildlife
                                                               become more concentrated, public concern has increased
    habitat;
                                                               about the potential for damage to the environment.
    Control erosion;                                           USDA has focused on helping producers comply with
    Improve grassland condition;                               State and local regulations and minimize the potential
                                                               that their operations might damage water or air resources.
    Restore stream banks; and
    Mitigate damages resulting from such natural               In FY 2006, USDA met its performance targets and made
    disasters as drought, floods and fires.                    significant progress towards ensuring cleaner water. The



                                                                                                                   USDA
                                                              FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT   111
                                                          ANNUAL PERFORMANCE REPORT




Department helped farmers and ranchers create new                                     areas under the CRP program has increased steadily. In
riparian and grass buffers in agricultural lands. These                               2005, USDA exceeded its target of 1.75 million acres set
buffer areas intercept sediment and nutrients before they                             aside as buffer zones, an increase of more than 110,000
reach surface waters. The long-term goal for USDA                                     acres from the previous year. In FY 2006, also helped
conservation programs is to have a land-management                                    producers create conservation plans for their privately
system that maintains a highly productive resource base                               owned land. USDA set a target of 1.85 million additional
for future generations while meeting the needs of the                                 acres set aside for buffer areas and met its targeted
present. As one indicator of its performance in reaching                              number of acres for the year. Cumulative CRP enrollment
this goal, USDA establishes an annual target for acreage                              now stands at 36.7 million acres. These acres have
of agricultural lands to be enrolled in CRP as buffer                                 reduced soil erosion by 454 million tons annually, reduced
zones. The USDA Strategic Plan for FY 2005-2010 set a                                 nitrogen, phosphorus and sediment leaving the field by
strategy of helping producers increase the number of                                  more than 85 percent, and sequestered more than 48
riparian and grass buffers on agricultural lands. During                              million metric tons of carbon.
the past five years, the number of acres set aside as buffer


Exhibit 55: Healthy Watersheds, High Quality Soils and Sustainable Ecosystems

                                                                                                                       Fiscal Year 2006
                                Annual Performance Goals and Indicators                                   Target             Actual         Result
              6.1.1     Number of Comprehensive Nutrients Management Plans applied                                                           Met
                         Conservation Technical Assistance                                               §1,909             1900
                                                                                                                                  1


                         Environmental Quality Incentives Program                                        §2,552             2550
                                                                                                                                  2


              6.1.2     Increase Conservation Reserve Program (CRP) acres of riparian                   1.85 million      1.86 million       Met
                        and grass buffers                                                                 acres*             acres*
              1
                Data assessment metrics to meet the target allow for an actual number in the range 1,710 - 2,090.
              2
                Data assessment metrics to meet the target allow for an actual number in the range 2,250 – 2,750.
              * Cumulative



Exhibit 56: Trends in Application of Comprehensive Nutrient Management Plans

                                                                                                        Fiscal Year Actual
                                   Trends                                  2002             2003              2004              2005           2006
          6.1.1       Number of Comprehensive Nutrient
                      Management Plans applied
                       Conservation Technical Assistance                  2,292            2,132             2,372             2,420         1900
                                                                                                                                                     1


                       Environmental Quality Incentives                    956              948              1,055             2,032         2550
                                                                                                                                                   2

                          Program
          6.1.2       Increase Conservation Reserve Program            1.24 million      1.45 million      1.65 million      1.75 million   1.86 million
                      (CRP) acres of riparian and grass buffers          acres*            acres*            acres*            acres*         acres*
          1
            Data assessment metrics to meet the target allow for an actual number in the range 1,710 - 2,090.
          2
            Data assessment metrics to meet the target allow for an actual number in the range 2,250 – 2,750.
          * Cumulative.




USDA
  112             FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




Selected Results in Research, Extension and Statistics         to streams. USDA scientists in demonstrated that a
                                                               simple biofilter composed of wood chips buried in
Programs require understanding why producers
                                                               trenches adjacent to subsurface tiles can remove 60-70
participate in the programs, what incentives encourage
                                                               percent of the nitrate from the tile drainage. The systems
participation and how might policies be designed to
                                                               are easy to install and do not remove land from crop
encourage participation. Recent USDA research addresses
                                                               production. Biofilters could be systematically placed
the question regarding program participation. This report
                                                               within fields and watersheds where contamination is
examines the business, operator, and household
                                                               highest.
characteristics of farms that have adopted certain
conservation-compatible practices, with and without            New prediction technology will help producers and action
financial assistance from government conservation              agencies reduce wind erosion. USDA employees, crop
programs. The analysis finds that attributes of the farm       consultants, and others who advise producers have a
operator and household and characteristics of the farm         critical need for software that can predict the impact of
business are associated with the likelihood that a farmer      management practices on wind erosion. USDA scientists
will adopt certain conservation-compatible practices and       have led in the development of a new advanced wind
the degree to which the farmer participates in                 erosion prediction model known as the wind erosion
conservation programs. For example, operators of small         prediction system (WEPS). The software allows growers
farms and operators not primarily focused on farming are       to select the right approach to prevent erosion. In
less likely to adopt management-intensive conservation-        addition to predicting erosion, WEPS can also predict
compatible practices and to participate in working-land        emission of the tiny dust particles known as PM10 that
conservation programs than operators of large enterprises      may pose risks to human health and the environment.
whose primary occupation is farming.
                                                               Researchers partially supported by USDA funds at Iowa
Voluntary conservation payment programs must specify           State University’s Center for Agricultural and Rural
who is eligible to receive payments, how much can be           Development have developed a method for better
received, for what action, and the means by which              assessing the costs and benefits of a range of conservation
applicants are selected. Achieving program goals in a cost-    practices in agriculture to mitigate water pollution. State
effective manner hinges on the choices policymakers and        policymakers need to quantify the contributions of
program managers make when answering these questions.          agriculture to the problem and what effect different land-
A set of five Economic Briefs explores specific design         use decisions might have on meeting water quality
options these decision makers face: balancing income           objectives. Annual costs of conservation practices ranged
support and environmental objectives; whether and how          from about $300 million to $320 million, with land set-
to target programs to improve cost effectiveness and           aside and conservation tillage the most costly practices.
environmental performance; whether and how to use              The environmental effects of different practices varied
bidding in determining payment levels; balancing land          among the watersheds, with sediment decreases ranging
retirement with conservation on working lands; and             from 6 percent in the Little Sioux River Watershed to 65
Whether to pay for conservation practices or to link           percent in the Turkey River Watershed. The results
payments to environmental performance.                         suggest a targeted approach as the most cost-effective,
                                                               matching a specific watershed to its most effective
Low technology biofilters improve water quality by
                                                               conservation practice or mix of practices.
reducing nitrate in drain water from corn fields in the
mid-west. Corn production in tile drained soils leads to       The results of a multi-state research project supported by
high nitrate concentrations in drainage water discharges       USDA funds indicates that up to 25 percent of



                                                                                                                   USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      113
                                             ANNUAL PERFORMANCE REPORT




agricultural fields in the North-Central region are non-         under systems that maintained or increased soil condition
responsive to nitrogen fertilizer applications. They also        and soil carbon. By 2010, the goal is to increase that
found that farmers over-fertilized fields with up to 25 to       number to 70 percent.
30 pounds of nitrogen per acre or more. Applying
                                                                 USDA helps producers plan and apply conservation
unneeded or excessive fertilizer to fields affects the
                                                                 practices to enhance soil health. The Department assisted
environment and raises farmers’ production costs.
                                                                 producers apply conservation practices in plans covering
OBJECTIVE 6.2: ENHANCE SOIL QUALITY TO MAINTAIN                  13.4 million acres of cropland. The most widely applied
PRODUCTIVE WORKING CROPLAND                                      practices were residue management and conservation crop
                                                                 rotations. These practices protect soil quality by reducing
Overview                                                         erosion and increasing soil carbon. Soil organic matter
                                                                 improves soil structure and overall capacity to hold water
                                                                 and nutrients.

                                                                 USDA helps landowners and land users plan and adopt
                                                                 environmentally sound management. Land managers who
                                                                 receive the Department’s technical assistance are more
                                                                 likely to plan, apply and maintain conservation systems
                                                                 that support agriculture production and environmental
                                                                 quality as compatible goals. Thus, producers can be good
                                                                 stewards of the Nation’s resource base. Their good
                                                                 management ensures that the Nation will continue to
                                                                 have a quality soil-resource base. Such a resource base
                                                                 enables the sustained production of a safe, healthy and
                                                                 abundant food supply.
High-quality soils are the foundation of productive
croplands, forest lands and grasslands, and a vibrant and        Challenges for the Future
productive agriculture. These soils also can filter and hold     Economics and weather can impact producers’ willingness
nutrients, which prevents unwanted materials from                to adopt conservation measures that improve soil
entering water resources. Soil quality is affected by            condition on cropland. Weakness in the economy and
management—it can be hurt by poor management or                  rising energy costs could affect producers’ abilities to
maintained and even improved by good management.                 invest their own funds and their willingness to take any
Such conservation practices as residue management, cover         risk associated with changing management. Natural
crops, crop rotations, strip-cropping and irrigation-water       disasters and prolonged unfavorable weather conditions
management help protect and improve soil condition on            also could reduce the opportunities for producers to
cropland. Prescribed grazing and other grazing land              implement conservation practices. As it relates to the soil
practices are important to protecting soil quality on            data collection and dissemination, budget and staffing
grassland and rangeland.                                         constraints in partnering Federal and State agencies, and
                                                                 universities could reduce the number of acres mapped and
USDA has set a long-term objective for improving
                                                                 the total number of soil surveys updated.
cropland soil condition. The soils most vulnerable to
damage are those in such intensive uses as annual                USDA, in cooperation with other Federal, State, Tribal
cropping. In 2003, 60 percent of cropland was farmed             and local agencies, and private organizations, will work to



USDA
  114        FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                           ANNUAL PERFORMANCE REPORT




provide producers with information and other resources       information on the Energy Estimator Tools can be found
they need to adopt applicable conservation measures.         at http://energytools.sc.egov.usda.gov/.
USDA will face challenges associated with soil data
                                                             USDA helped producers develop or update conservation
collection and dissemination. The Department will seek
                                                             plans covering 10.3 million acres of cropland recorded in
to strengthen partnerships and form new ones with
                                                             its national conservation plan database. Additionally,
entities having common interests. It also will use
                                                             technical consultations helped land managers with other
technology to improve data-collection efficiency.
                                                             decisions not recorded as a final plan in the database. To
                      Key Outcome                            develop plans for good stewardship of soil resources,
                  Enhanced Soil Quality
                                                             USDA conservation planners helped land managers work
                                                             through a structured process to analyze and work with
                                                             complex natural processes in definable and measurable
High-quality soils support the efficient production of       terms. Conservation plans for individual fields and farms
crops for food, fiber and energy. Proper soil management     are designed in the context of the larger landscape. They
maximizes agricultural production and improves the           enable the producer to meet economic and environmental
environment. Intensively used cropland soils are most        goals.
vulnerable to degradation and damage. By helping
                                                             USDA helps producers install conservation practices and
producers reduce erosion, minimize compaction and
                                                             systems on their land that meet established technical
increase soil organic matter, USDA helps producers
                                                             standards and specifications. The majority of the
enhance the quality of cropland soils. The Department
                                                             quantitative performance measures that USDA has
assisted producers in making significant gains in
                                                             established for its conservation programs are for practices
protecting soil quality. These moves included:
                                                             implemented. Implementation feeds directly into
USDA mapped or updated 35.5 million acres of soils. It       achieving long-term outcome goals. USDA assisted in
also made 126 surveys covering 88 million acres available    applying conservation practices on 13.4 million acres of
on the Web at: http://websoilsurvey.nrcs.usda.gov/app/       cropland.
WebSoilSurvey.aspx. Soil surveys offer local information
                                                             USDA provides financial assistance to encourage
on the capabilities and conservation treatment needs of
                                                             producers to adopt land treatment practices proven to
soils within a given region. They provide basic
                                                             provide significant public benefits. Financial assistance
information for conservation planning and represent the
                                                             for practices applied primarily to address soil quality
foundation to sound land use planning and agricultural
                                                             issues included:
production. USDA provides the scientific expertise to
enable a uniform system of mapping and assessing soil            $150 million in cost-shares or incentives for adopting
resources across the Nation.                                     structural measures or management practices to
                                                                 reduce erosion and protect cropland; and
USDA developed and made new tools available to help
                                                                 $ 55 million in stewardship payments to producers
producers plan cropland conservation management that
                                                                 who meet or exceed standards for maintaining soil
improves soil quality and conserves energy. The Energy
                                                                 quality.
Estimator Tools for Tillage, Nitrogen, and Irrigation are
Web-based tools designed to increase energy awareness in     Analysis of Results
agriculture and to help farmers and ranchers identify        USDA performance is within the range considered as met
where they can reduce their energy costs. More               for its targets for helping producers plan conservation on
                                                             cropland. Conservation plans are essential to good



                                                                                                                 USDA
                                                            FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT     115
                                                          ANNUAL PERFORMANCE REPORT




management of soil and water resources. A conservation                               are protected through other programs. Because
plan describes the schedule of operations and activities                             conservation plans and practices may be applied with
needed to solve natural resource problems and take                                   assistance from more than one program, some acres
advantage of opportunities. The measure includes only                                reported for one program also may be included in those
conservation planning supported by the Conservation                                  reported for another program.
Technical Assistance (CTA) program. CTA helps
                                                                                     The progress against erosion damage is considered the
individual managers consider their operations within the
                                                                                     best indicator of accomplishments that link directly to the
larger landscape to which a farm or ranch belongs. The
                                                                                     long-term objective of increasing the acreage under soil-
program also helps land managers consider the effects of
                                                                                     enhancing management. This measure does not include
their actions on that wider environment. Managers can
                                                                                     all cropland where USDA provided needed assistance.
avoid actions that would damage natural resources offsite
                                                                                     Farming is dynamic because producers frequently change
while meeting their economic targets for the operation.
                                                                                     crops, equipment and management practices. Thus, they
USDA also met its program goals for reducing the                                     need help in adjusting conservation systems even on land
acreage of cropland soils damaged by erosion. This                                   well protected through the previous system. The
measure includes acres on which treatment applied in the                             Department helped producers apply conservation
fiscal year reduced erosion from a damaging rate to one                              practices in plans covering 13.4 million acres of cropland.
that does not exceed the “tolerable” rate for the soil.                              The most widely applied practices were residue
Targets are set only for CTA and the Environmental                                   management and conservation crop rotations. These
Quality Incentives Program (EQIP). CTA provides                                      practices protect soil quality by reducing erosion and
assistance for the most widely-used, economically feasible                           increasing soil carbon. Soil organic matter improves soil
practices such as residue management. EQIP provides                                  structure and overall capacity to hold water and nutrients.
cost shares for capital intensive practices needed to solve                          The majority of this basic soil protection was planned and
difficult problems on environmentally sensitive land or                              applied with assistance through CTA.
comply with local or State regulations. Small acreages also

Exhibit 57: Enhanced Soil Quality

                                                                                                                   Fiscal Year 2006
                                 Annual Performance Goals and Indicators                                  Target        Actual        Result
                                                                                                                               1
            6.2.1       Conservation plans for cropland written, million acres                              11          10.3           Met
            6.2.2       Reduction in acreage of cropland soils damaged by erosion,                                                     Met
                        millions of acres
                           Conservation Technical Assistance Program                                       3.0          3.9
                           Environmental Quality Incentives Program                                        1.5          1.7
            1
                Data assessment metrics to meet the target allow for an actual number in the range 9.9 – 12.1.




USDA
  116        FY 2006 PERFORMANCE              AND   ACCOUNTABILITY REPORT
                                                        ANNUAL PERFORMANCE REPORT




Exhibit 58: Trends in Soil Quality Protection

                                                                                                   Fiscal Year Actual
                                     Trends                                2002            2003           2004             2005           2006
             6.2.1    Conservation plans for cropland written,              5.2             6.3             7.4             8.5           10.3
                      millions of acres
             6.2.2    Reduction in the acreage of cropland
                      soils damaged by erosion, millions of
                      acres
                         Conservation Technical Assistance                 3.4             3.3            N/A*             3.9            3.9
                         Environmental Quality Incentives                  1.0             1.0            N/A*             1.5            1.7
                          Program
             *Data to report performance at the program level were not captured in the NRCS’ Integrated Accountability System in FY 2004; data on
             total for all programs was captured.


Selected Results in Research, Extension and Statistics                             Data Layer of small acreage and non-agricultural fields.
In response to Asian Soybean Rust concerns, USDA                                   In addition, through a cooperative agreement with
included soybean chemical usage data in the Agricultural                           Towson University, NASS created a cropland data layer
Chemical Usage Field Crops Summary, May 2006                                       for the 10-state mid-Atlantic region for the 2002 crop
publication. Soybean data were summarized from the                                 year, which was released in January 2006. NASS is also
Conservation Effects Assessment Project (CEAP) data                                creating a cropland data layer for Florida for the 2004
set. The data identified six active ingredients approved for                       crop year for release in the fall of 2006. Washington State
soybean rust applied by producers on the 2005 crop,                                University, through a cooperative agreement with NASS,
compared with four active ingredients applied to the                               is planning to create a cropland data layer for eastern
previous year’s soybean crop. From the CEAP data                                   Washington for the 2006 crop year. The malfunction of
source, only regional chemical usage data were                                     Landsat 7 in May 2003 has hampered the ability to obtain
publishable. Soybeans were not a targeted crop on the                              cloud-free satellite imagery during the growing season,
Agricultural Resources Management Survey (ARMS)                                    additionally Landsat 5 failed twice during the winter of
which prevented the data from being publishable at the                             2005, making NASS look for additional sources of
individual State level.                                                            imagery for crop year 2006. However, alternative imagery
                                                                                   sources such as GeoEye’s ResourceSat-1 AWiFS sensor is
The Agricultural Chemical Usage Field Crops Summary,                               being acquired by the Foreign Agriculture Service and
May 2006 and Agricultural Chemical Usage Fruit Crops                               NASS for analysis of the 2006 crops for acreage
Summary, July 2006, for the first time, included data for                          estimation.
sulfur used as a nutrient.
                                                                                   Research has demonstrated that no-tillage cropping
USDA’s National Agricultural Statistics Service (NASS)                             systems are as beneficial to soils as conservation grassland
created geospatial cropland data layers for Arkansas, Iowa,                        in sandy, semiarid soils. ARS researchers monitored a
Illinois, Indiana, Louisiana, Missouri, Mississippi,                               suite of critical soil parameters in conservation grasslands,
Nebraska, North Dakota, and Wisconsin covering the                                 conventionally tilled fields and no-tillage fields. They
2005 crop year, and the Snake River Plain in Idaho                                 found that no-tillage production fields maintained soil
following the final release of NASS’ county estimates for                          conditions better than conventional tillage and as
these states. Through a cooperative agreement with the                             favorable as those in the conservation grasslands,
Wisconsin Dept of Health and Family Services, NASS
re-released a modified and improved Wisconsin Cropland


                                                                                                                                                    USDA
                                                                                  FY 2006 PERFORMANCE             AND   ACCOUNTABILITY REPORT       117
                                             ANNUAL PERFORMANCE REPORT




indicating that farming with proper practices can be as          and rangeland conditions on lands of all ownerships. The
beneficial as placing lands in conservation reserve.             USDA-DOI projects largely consist of removing excess
                                                                 vegetation and prescribed burning (collectively, hazardous
Research has established that the use of polyacrylamide to
                                                                 fuel reduction) to reduce the risk from wildfires. In 2006,
reduce soil erosion has no negative effects on soil ecology.
                                                                 these wildfires burned more than 1.85 million acres. The
Polyacrylamide (PAM) has been shown to substantially
                                                                 integration and alignment of the hazardous fuels
reduce soil erosion, but some have expressed concern that
                                                                 reduction program with other restoration programs and
its widespread use might have deleterious effects on soil
                                                                 the overall increase in hazardous fuel treatment is
organisms. ARS scientists tested this concern by applying
                                                                 expedited by HFRA authorities and USDA leadership.
PAM at a rate of 1 ton per acre, much higher than the
                                                                 The Department will continue to protect the Nation’s
normal rate of 10 to 20 pounds per acre. They monitored
                                                                 communities and natural resources by treating hazardous
soil properties and conducted microbiological analyses for
                                                                 fuel and suppressing wildland fires.
six years and found almost no difference in soil microbial
activity despite the massive application rates. This             USDA is protecting the National Forests and Grasslands
demonstrates that there is no basis for concern about the        by implementing HFI and HFRA through collaboration
effects of PAM on soil biota.                                    among federal, State, tribal, and local governments, and
                                                                 non-governmental organizations. The Department is
OBJECTIVE 6.3: PROTECT FORESTS AND GRASSLANDS                    working with communities to develop Community
Overview                                                         Wildfire Protection Plans (CWPP). CWPPs identify
                                                                 wildland fire hazards in areas within and surrounding
                                                                 communities and identify high-priority work for the
                                                                 Forest Service. USDA’s State and local partners are
                                                                 leading this process, with active participation and
                                                                 technical assistance from USDA. Additionally, the
                                                                 Department is working to integrate vegetation
                                                                 management programs internally to achieve restoration
                                                                 goals. This effort will increase efficiency throughout the
                                                                 Department. USDA has been an active participant in
                                                                 Cooperative Conservation, promoting full partnership in
                                                                 the conservation of environmental and natural resources
                                                                 with States, local governments, tribes and individuals.
                                                                 The Department has updated the 10-year Comprehensive
                                                                 Strategy Implementation Plan, in cooperation with DOI,
USDA and the U.S. Department of the Interior (DOI)               State and local governments, and non-governmental
are using tools and authorities provided by the President’s      partners. This plan identifies a collaborative approach for
Healthy Forests Initiative and the Healthy Forests               reducing wildland fire risks to communities and the
Restoration Act of 2003 (HFRA) to expedite planning              environment. Goals established in the original 10-Year
and implementation of projects to reduce fire hazards and        Comprehensive Strategy Implementation Plan were met
restore forests and grasslands. HFI was launched in 2002         in fiscal year 2006, just five years after the establishment
to reduce administrative process delays. HFRA provides           of the National Fire Plan.
improved statutory processes for hazardous fuel reduction
projects and also provides other authorities and direction
to help reduce hazardous fuel and restore healthy forest


USDA
  118        FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




Other 2006 accomplishments in addressing hazardous            nationally across all land ownerships. There were 14
fuel conditions include:                                      wildfires that burned more than 100,000 acres each by the
    Receiving an “Adequate” rating from Office of             end of the fiscal year. Major fires include the Black
    Management and Budget’s Performance Assessment            Mountain, Sawtooth, and Rattlesnake complexes. This
    Rating Tool for the Wildland Fire Management              ongoing trend of costly and damaging wildfire seasons
    Program, an improvement over the 2002 rating of           indicates that the USDA, along with all other land-
    “Results not Demonstrated;”                               management agencies, must increase efforts to reduce fire
                                                              hazards using hazardous fuel reduction activities. Removal
    Developing new fire and fuels performance measures
                                                              of excess vegetation decreases fire hazards while also
    to more effectively measure the impact of treatments
                                                              improving firefighter and public safety. In 2006, USDA
    on the landscape;
                                                              treated more than 2.4 million acres to remove excess
    Investing over 70 percent of the dollars available for    vegetation. Approximately 1.4 million of these acres were
    hazardous fuel treatments in the wildland urban           treated specifically to reduce hazardous fuels. On an
    interface near communities;                               additional 1,102,293 acres, hazardous fuel levels were
    Continuing development of LANDFIRE, an                    reduced through restoration and rehabilitation treatments
    interagency landscape-scale fire, ecosystem, and          of other programs (i.e., wildlife habitat, watershed, timber
    vegetation-mapping project. The information               and pest management). USDA also used wildland fire use
    provided in LANDFIRE will help land managers              to achieve management objectives on more than 172,579
    make informed decisions for treatments to reduce          acres when naturally ignited fires met management
    wildland fire risks across landscapes;                    prescriptions. To improve upon this level of
                                                              accomplishment in 2007 and reduce the risk of future
    Removing forest debris from Hurricanes Katrina and
                                                              catastrophic wildland fires, USDA must use available
    Rita on more than 115,000 acres of National Forests
                                                              resources to work collaboratively with all Federal, State,
    in Louisiana, Mississippi and Texas;
                                                              tribal and local entities.
    Increasing wildland fire use (allowing natural
    ignitions to burn to meet resource objectives in areas    Non-Federal lands in forest and grassland ecosystems
    designated in Fire Management Plans if they meet          make up almost one-half of the area of the continental
    predetermined conditions) on over 172,500 acres in        U.S. Active, science-based management of vegetation
    2006; and                                                 ensures the health of the soil, water and wildlife resources
                                                              of these ecosystems. The primary threats to the health of
    Developing a new Hazardous Fuel Prioritization and
                                                              forest and grassland ecosystems are wildfire, invasive
    Allocation System to help USDA managers identify
                                                              species, fragmentation and unmanaged outdoor
    and display national priorities geographically. This
                                                              recreation.
    system incorporates Geographic Information System
    data across a wide range of emphasis areas, from          On non-Federal land, USDA provides technical and
    wildfire potential to threatened and endangered           financial assistance to help forest and grazing land
    species at risk from catastrophic wildfires.              managers plan and apply conservation practices that
Hazardous fuel-reduction treatments help protect life and     reduce threats to resource condition. The Department
property by reducing the intensity of wildland fires.         helps land managers apply conservation practices on over
                                                              27 million acres of privately managed grazing lands and
The FY 2006 fire season was considered above average,         forest lands. Conservation practices applied with USDA
with 1,842,395 acres of National Forest Systems lands         assistance include prescribed grazing, integrated pest
burned. Wildfires consumed more than 9.4 million acres        management, brush management, forest stand


                                                                                                                   USDA
                                                             FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      119
                                              ANNUAL PERFORMANCE REPORT




improvement and tree planting. These practices, alone             and financial assistance to those interested in creating,
and in combination with one another, provide food, cover          restoring, protecting and enhancing grassland, rangeland
and shelter for livestock and wildlife. They also improve         and forest lands. Technical assistance and tools are
animal health and productivity, maintain water quality            available to prevent problems and maintain good
and quantity, and reduce erosion.                                 conditions.

Byproducts removed during hazardous fuels reduction and           Challenges for the Future
landscape restoration activities are often utilized in certain
forest products (e.g., timber, engineered lumber, paper
and pulp, furniture) and bio-energy and bio-based
products (e.g., plastics, ethanol and diesel). In 2006,
USDA treated 380,000 acres mechanically; of these, 41
percent have included some sort of biomass utilization.
This biomass use contributes to economic diversification
of resource-dependent communities and reduces the
Nation’s dependency on international oil. A strategy to
improve our ability to support use by community
enterprises of the byproducts of fuel reduction and forest
restoration for bio-energy or bio-based products has been
proposed by the woody biomass utilization team,
including a list of action items relative to stable supply,       Future challenges include ensuring public and firefighter
research and development, and partnerships with                   safety while protecting public lands and assets still
communities, stakeholders and other agencies.                     threatened by fire in forests dense with ever-increasing
As more communities develop CWPPs, there is greater               vegetation and fuel. Additional challenges are the
opportunity for private citizens to engage in the                 continued drought conditions throughout much of the
management of public lands in a collaborative and                 Nation and the expansion of communities into previously
productive manner. For many, the experience provides              uninhabited wildlands. This expansion makes up what is
greater understanding of the role fire plays in ecosystem         known as the wildland urban interface. The historical
health, a chance to interact positively with federal land         trend is for increasing impact from wildland fire. As
managers, and business opportunities.                             drought continues and communities expand into forested
                                                                  areas, the potential increases for even more deadly and
Healthy, vigorous plant communities on rangeland, native          damaging fires. Another challenge is the cost of
and naturalized pasture, and forest lands protect soil            containing wildfires.
quality, prevent soil erosion and provide sustainable forage
and cover for livestock and wildlife. Such land also              The 2002 coarse scale assessment of wildland fuels
provides fiber, improves water quality, provides diverse          determined that approximately 56 percent of all acres
habitat for wildlife and removes carbon. Sustaining               managed by USDA have missed 2 or more expected fire
healthy grassland, rangeland and forest ecosystems is             cycles and are at elevated risk from wildland fire. The
achieved by focusing on interacting relationships between         finer scale data available from LANDFIRE is expected to
plant and animal species within a given ecosystem, and            show an even greater departure from expected conditions
their relationship to the physical features and processes of      in the Nation’s forests and woodlands. Commercial
their environment. USDA provides data and technical               utilization of excess vegetation has been identified as one
                                                                  way to lower the cost of government forest fuel-reduction


USDA
  120        FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




and restoration treatments. A barrier to expanding forest       reduction program is a key piece of this effort, along with
biomass utilization is the limited market for this material     treatments to improve timber and range productivity,
because of reduced forest products processing capacity in       wildlife habitat, forest health, and watershed quality.
many Western States. Much of this material is small             USDA and DOI are working together to implement a
diameter and non-traditional species. This factor presents      seven-step framework for the Strategic Placement of
a further barrier to utilization where forest products          Treatments (SPOTS). This approach to designing
processing capacity remains. Title II of HFRA authorizes        treatment patterns at landscape scales specifically to
measures to further commercial use of biomass. A                reduce fire size and severity and alter problem fire
significant challenge for USDA and DOI is to expand the         behavior while also benefiting other resources is a way to
acreage of hazardous fuel and restoration treatments with       leverage funds and align multiple management objectives
available funding by increasing the commercial utilization      into a single plan for interventions tailored to site-specific
of hazardous fuel. The Departments are developing a             needs and challenges. SPOTS approaches will support
strategy to encourage greater biomass utilization,              and increase the Department’s ability to protect
including as a domestic source of energy.                       communities and resources through active management of
                                                                forests and rangelands.
With regard to private land, producers’ willingness and
ability to implement the conservation measures that                                     Key Outcome
would achieve this outcome are affected by economic                   Sustainable Forest and Grassland Ecosystems
conditions, drought and invasive species. Much of
USDA’s activities on private forestland and rangeland are
taken in cooperation with State agencies. Thus, State-          Selected Results in Research, Extension and Statistics
level budget constraints that limited the assistance
available from State programs would hamper USDA                 There are continuing needs for new information to aid
efforts to meet the goal for non-Federal grazing land.          managers in the protection of the Nation’s forests and
                                                                grasslands. USDA conducted scientific research,
Both forest and grasslands are subject to land                  developed science-based management tools, and engaged
fragmentation pressures. Private forest land is the major       managers to bring new science into practice. A sampling
source of newly developed acres. Increasing fragmentation       of the accomplishments includes:
of forest and grassland landscapes will increase the risk of        Fundamental and applied research was initiated to
invasive species and wildfires. It also may threaten the            improve fire behavior prediction models for wildlands
overall health of forest and grassland ecosystems. To               and the wildland urban interface. This work is being
minimize problems, USDA will make more information                  advanced in collaboration with partners from national
and better planning tools available to local communities.           laboratories and universities in order to better
This assistance will help them plan comprehensively for             understand combustion processes in our wildlands
growth and resource protection.                                     and in intermixed vegetation and structures in the
USDA, in cooperation with other Federal, State, Tribal              wildland urban interface. The work will aid in fire risk
and local agencies and private organizations, will work to          assessment, fire suppression activities, and improved
provide producers with information and other resources              information that private citizens can use to protect
they need to adopt applicable conservation measures.                their property;
                                                                    USDA research personnel supported on-going fires in
Protecting communities and restoring forests and
                                                                    real time. A combination of personnel on-site at
grasslands involves the integration of several key USDA
                                                                    wildland fires and supporting scientists and
programs that manage vegetation. The hazardous fuel


                                                                                                                      USDA
                                                               FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT        121
                                             ANNUAL PERFORMANCE REPORT




    technicians working from their home offices supplied         conducted long-term studies of plant composition under
    state-of-the-art predictions of fire spread and              various livestock stocking rates. In both locations,
    economic impacts. Information from these efforts was         moderate levels of livestock grazing resulted in the same
    used to brief local officials and incident management        or higher levels of biodiversity as ungrazed areas. In
    teams for fires in Arizona, California, Minnesota and        Montana, non-native plants were found in higher
    Washington.                                                  numbers in the ungrazed areas. Therefore, excluding
    Working with headquarters Fire and Aviation                  livestock grazing on northern Great Plains rangelands is
    personnel, USDA refined estimates of seasonal                not the best strategy for improving and maintaining
    wildland fire expenditures. Produced every two weeks         biodiversity and ecological health.
    through the fire season, these estimates comprised a         Research has demonstrated that no-till seeding can
    primary information source for assessing budget              increase pasture productivity while reducing input costs.
    impacts of wildland fire suppression activities; and         The economic competitiveness of American agriculture,
    The frequent occurrence of extensive, severe fires in        particularly for limited-resource farmers, depends on
    recent years has elevated concern about what may             doing more with less. In the southern Great Plains,
    happen in the future given the uncertainty of future         feeding hay over the entire winter can cost limited-
    climate and the related changes in vegetation and fire       resource farmers as much as a third of farm income.
    activity. USDA projections of future vegetation and          USDA and university scientists evaluated no-till options
    fire patterns for the continental U.S. show higher           for seeding cool-season forages into dormant warm-
    levels of burned areas in all scenarios evaluated. Work      season pastures as an alternative to feeding hay or planting
    continues to refine models as our understanding of           winter forages using conventional tillage. They found that
    climate change advances.                                     no-till seeding of annual ryegrass increased annual pasture
                                                                 production by 19 percent and if the forage legume,
The Oregon State University Extension Service, partially
                                                                 Korean lespedeza, was added to the mix, forage
supported with USDA funding, delivers forest land
                                                                 production increased by 37 percent. The no-till pastures
management education and information to the state’s
                                                                 exceeded conventional tillage for overall production. The
166,000 non-industrial private forest landowners via the
                                                                 combination of reduced hay feeding, using legumes as a
Master Woodland Manager (MWM) Volunteer
                                                                 nitrogen source and less expensive no-till cultivation,
Program. A collaborative effort between Extension,
                                                                 reduced costs significantly.
Oregon Department of Forestry, and the Natural
Resources Conservation Service, volunteers visit                 To help achieve the targets for non-Federal forestland and
neighboring landowners to identify opportunities for             grazing lands, USDA provided a portfolio of products and
improving woodland stewardship. According to a survey            services, including:
of 80 forestland clients, 151 forest improvement projects            Conservation Planning and Technical Consultation—USDA
were initiated as a result of MWM visits.                            helped producers develop or update conservation
Research has established that properly managed livestock             plans covering 22.8 million acres of grazing lands
grazing can improve biodiversity in the Great Plains.                recorded in its national conservation plan database.
Livestock grazing on rangelands has come under attack                Technical consultations also helped land managers
because grazing is believed to reduce plant biodiversity,            with other decisions not recorded as a final plan in the
adversely affecting environmental quality. Because of the            database. The Department provided advice and
lack of scientific information on how to manage grazing              expertise to help landowners, Tribes, communities
to meet biodiversity goals, USDA scientists have                     and Federal land management agencies develop plans
                                                                     to achieve goals across landscapes that are a mosaic of


USDA
  122       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                           ANNUAL PERFORMANCE REPORT




    land in many types of ownership.                           compared to the cost of treatment through prescribed fire
    Conservation Implementation—USDA assisted in               severely limited accomplishment of established goals. The
    applying conservation practices on nearly 26.5 million     Department met or exceeded fuel reduction performance
    acres of non-Federal grazing lands. These lands            goals throughout the remainder of the country.
    included rangeland, pastureland, grazed forest and         These increased efforts have significant value to all
    native pasture. Through its programs, the                  Americans. They protect human life and whole
    Department also assisted on 550,000 acres of private,      communities that reside in areas adjacent to national
    non-industrial forestland.                                 forests and other public lands. USDA is increasing
    Financial Assistance—USDA provides financial               emphasis on the contribution of all vegetation
    assistance to encourage producers to adopt land            management programs toward the restoration of fire-
    treatment practices proven to provide significant          adapted ecosystems and reducing the threat of
    public benefits. Financial assistance for practices        catastrophic fire. Activities to restore forest health,
    applied primarily to protect and enhance grazing land      wildlife habitat, watershed condition, and timber and
    and forestland included:                                   range productivity in fire-adapted ecosystems contributed
     $113 million in cost-shares or incentives for            over 1.3 million acres toward these goals in FY 2006.
        adoption of structural measures or management
        practices.
     $15 million in easements to protect grassland
        ecosystems and ranching operations.
     $4 million in grants through the Grazing Lands
        Conservation Initiative (GLCI) for proposals to
        control and manage invasive species affecting
        grazing lands. GLCI, a partnership of individuals
        and organizations, maintains and improves the
        management, productivity and health of the
        Nation’s privately owned grazing land.

Analysis of Results
USDA fell short of its 2006 performance goals for              USDA tracked hazardous fuel treatment with a single
protecting the health of the Nation’s forests and              performance measure for all treatment activities prior to
grasslands against the risk of fire. The damage caused by      FY 2001 and initiation of the National Fire Plan. In FY
Hurricanes Katrina and Rita limited USDA ability to use        2003, an additional performance measure based on fire
prescribed fire as a treatment tool in affected areas. As a    regime condition class was established to track treatment
result, resources were dedicated to removing the               on forests more susceptible to catastrophic wildland fire
hazardous material left in the wake of these devastating       because of excess vegetation resulting from fire exclusion.
hurricanes through mechanical means. The Department            Performance since FY 2004 includes the contribution of
treated more than 115,000 acres of National Forest             improved Condition Class resulting from resource
System land in Mississippi and Texas, providing raw            restoration activities and direct hazardous fuel reduction
material for economic recovery and building materials to       treatments.
the region. While mechanical treatment is of great benefit
to communities, the cost of conducting these treatments


                                                                                                                   USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      123
                                                     ANNUAL PERFORMANCE REPORT




USDA exceeded its target for assisting in planning the                        time. The moisture available to support plant growth is
protection of non-Federal grazing land. Conservation                          limited in rangeland ecosystems. The measure includes all
plans are the essential tool enabling producers to meet                       land on which producers applied a conservation practice
their economic and environmental goals. Department                            in the fiscal year with USDA technical or financial
technical assistance for planning enables resource                            assistance. The conservation applied includes a wide range
managers to focus on the natural systems and ecological                       of practices tailored to the resource conditions and
processes that maintain the natural resource base. This                       producer’s operation and goals on the specific site. The
comprehensive approach considers all of the aspects of a                      conservation practices applied help protect the resource
site and sees the site as a part of a larger landscape. This                  base against on-site damage and prevent that to off-site
approach is essential to the sustainable, productive use of                   soil, water and air. High priority was given to activities to
natural resources. These comprehensive plans are the                          achieve the reduction of non-point pollution in impaired
framework within which more specific designs for                              watersheds, those of emissions to meet ambient air quality
individual practices can be developed. The acreage of                         standards, a lower soil erosion from unacceptable levels
grazing land plans developed each year has been                               and the promotion of habitat for at-risk species. The
increasing as USDA offers more assistance for it.                             Environmental Quality Incentives Program provided
Rangeland managers in many States have requested advice                       financial and technical assistance in implementing capital-
and assistance in protecting land against drought and                         intensive measures. CTA provided assistance for measures
mitigating damages caused by drought. Comprehensive                           that producers financed entirely with their own funds or
planning assistance is available primarily through CTA.                       with assistance from non-USDA sources.

USDA also met its target for assisting in the application                     To increase the effectiveness of its ongoing efforts to help
of conservation practices on non-Federal grazing land. In                     people protect and enhance plant and animal
2000, an estimated 288 million acres of non-Federal                           communities, USDA is working to improve the
grazing land were in minimal or degrading vegetative                          technology for measuring conditions. The Department
condition. USDA’s long-term goal is to reduce that by                         also is projecting the results of management options on
100 million acres by 2010. The measure of acres of                            grazing lands. Activities include accelerating the
grazing land treated is an indicator of progress toward the                   development of methodologies to measure and monitor
goal of improved condition. The acreage treated annually                      grazing land health, developing plants with a natural
is a surrogate used to indicate progress toward the long-                     resistance to pests and working with partners to address
term goal of improved condition. A surrogate annual                           grazing land health, including efforts to control invasive
measure is needed because improvement in condition                            species.
resulting from program action generally occurs slowly over
Exhibit 59: Hazardous Fuel Reduction

                                                                                                      Fiscal Year 2006
                         Annual Performance Goals and Indicators                            Target          Actual        Result
         6.3.1   Number of acres of hazardous fuel treated that are in the wildland       1,383,000       1,084,615       Unmet
                 urban interface
         6.3.2   Number of acres of hazardous fuel treated that are in condition           235,000         124,183        Unmet
                 Classes 2 or 3 in Fire Regimes I, II, or III outside the wildland-
                 urban interface
         6.3.3   Number of acres of other hazardous fuel treated that are outside          982,000        1,385,611      Exceeded
                 the wildland-urban interface




USDA
  124        FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                                                        ANNUAL PERFORMANCE REPORT




Exhibit 60: Trends in Treatment of Hazardous Fuel

                                                                                           Fiscal Year Actual (thousand acres)
                                        Trends                                   2002        2003           2004             2005      2006
          6.3.1      Number of acres of hazardous fuel treated that are in        764        1,114          1,712            1,649     1,241
                     the wildland urban interface
          6.3.2      Number of acres of hazardous fuel treated that are in        N/A         293            619             480        124
                     condition Classes 2 or 3 in Fire Regimes I, II, or III
                     outside the wildland-urban interface
          6.3.3      Number of acres of other hazardous fuel treated that         N/A         N/A            274             592       1,385
                     are outside the wildland-urban interface


Exhibit 61: Sustainable Forests and Grasslands

                                                                                                                 Fiscal Year 2006
                            Annual Performance Goals and Indicators                            Target               Actual             Result
      6.3.4    Conservation plans written for grazing land (millions of acres)                  18.0                  22.8            Exceeded
      6.3.5    Grazing lands with conservation applied to protect the resource base             9.0                   12.0            Exceeded
               and environment, Conservation Technical Assistance, millions of acres
      6.3.6    Grazing lands with conservation applied to protect the resource base             10.0                  13.6            Exceeded
               and environment, Environmental Quality Incentives Program, millions of
               acres

Exhibit 62: Trends in Protection of Non-federal Forests and Grasslands

                                                                                                       Fiscal Year Actual
                                      Trends                                     2002       2003             2004             2005        2006
       6.3.4      Conservation plans written for grazing lands, millions         8.1         11.7            15.1              19.2       22.8
                  of acres
       6.3.5      Grazing lands with conservation applied to protect the         9.0         9.9                9.7            9.9        12.0
                  resource base and environment, Conservation
                  Technical Assistance, millions of acres
       6.3.6      Grazing lands with conservation applied to protect the
                  resource base and environment, Environmental Quality           7.7         8.7                8.5            10.3       13.6
                  Incentives Program, millions of acres



OBJECTIVE 6.4: PROTECT AND ENHANCE WILDLIFE HABITAT                              species and provide economic and recreational benefits to
TO BENEFIT DESIRED, AT-RISK AND DECLINING SPECIES                                people. Fragmentation and loss of habitat resulting from
                                                                                 urban and suburban development, and intensive
Overview                                                                         agricultural uses have contributed to declines in
Protecting the Nation’s wildlife requires protecting the                         populations of many terrestrial and aquatic species.
interacting relationships between plant and animal species                       Invasive species are second only to habitat destruction as
within a given ecosystem. It also requires sustaining the                        the cause of native species declines. Improving the habitat
health and vigor of such a system. Protecting specific                           for declining and at-risk species is key to preventing
ecosystems and landscapes ʊ including wetlands, riparian                         further declines. It also ensures the continued survival of
areas, grasslands, floodplains, open water areas and certain                     those species and the overall health of the ecosystems of
types of forests ʊ can help support wildlife and aquatic                         which they belong.


                                                                                                                                                 USDA
                                                                              FY 2006 PERFORMANCE         AND    ACCOUNTABILITY REPORT           125
                                            ANNUAL PERFORMANCE REPORT




                                                                Fragmentation and loss of habitat have contributed to
                                                                declines in populations of many terrestrial and aquatic
                                                                species. Invasive species are second only to habitat
                                                                destruction as the cause of native species declines. These
                                                                adverse landscape impacts negatively affect both human
                                                                and wildlife populations. Loss of habitat means fewer
                                                                wildlife recreational opportunities for humans, less open
                                                                space and poorer air and water quality. The development
                                                                that fragments wildlife habitat can result in a landscape
                                                                with a greater susceptibility to flooding. The frequency
                                                                and severity of drought conditions also may increase.

                                                                Improving and protecting habitat for at-risk and declining
                                                                species is key to preventing further declines. It also
USDA’s efforts to improve habitat on private lands
                                                                ensures the continued survival of those species and the
include providing technical and financial assistance to
                                                                overall health of the ecosystems to which they belong.
landowners and managers. This assistance helps them
                                                                Improving watershed health for wildlife species also
manage working lands and waters to sustain wildlife,
                                                                improves conditions for humans. Humans will benefit
aquatic species and plant communities. USDA also
                                                                from improved water and air quality, control of invasive
acquires and manages easements to improve and restore
                                                                species, reduced flood damage, more open space and an
grassland, rangeland and forest ecosystems, and wetlands
                                                                increased opportunity for educational and wildlife
and their associated upland buffers. These moves are
                                                                recreational opportunities. Additionally, keeping wildlife
designed to create productive, diverse and resilient
                                                                populations healthy and sustainable minimizes the need
habitat.
                                                                for regulatory action to protect threatened and
USDA assisted individuals and groups to apply                   endangered species on privately owned land.
management that will maintain or improve habitat on
                                                                Challenges for the Future
15.4 million acres of non-Federal land. The land treated
included 12.3 million acres of upland wildlife habitat          The ability of agricultural producers to restore, improve
management and 400,000 acres of wetland wildlife habitat        and protect habitat is impacted by their immediate
management. The Department focuses on improving                 economic situation, market conditions, weather and
habitat for at-risk and declining species. USDA provided        personal cost/benefit analyses. Weakness in the economy
financial and technical assistance to improve and manage        could affect producers’ abilities to invest their own funds
3.6 million acres to benefit at-risk and declining species.     and their willingness to take any risk associated with
USDA’s goal on non-Federal land is to assist in 9 million       changing management. Many wildlife projects are
acres of essential habitat to benefit at-risk and declining     supported by a combination of Federal, State and local
species between 2006 and 2010. USDA is supporting               funds. State and local budget constraints would impact
efforts to achieve the President’s goal to restore, create,     project implementation.
enhance and protect 3 million acres of wetlands by 2010.        USDA, in cooperation with other Federal, State, Tribal
The Department assisted in creating, restoring or               and local agencies, and private organizations, will work to
enhancing 318,000 wetland acres on non-Federal lands.           provide producers with information and other resources to
Its goal is to address 1.5 million acres by 2010.               adopt applicable conservation measures. USDA also will
                                                                facilitate the development and implementation of



USDA
  126       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                            ANNUAL PERFORMANCE REPORT




landscape-scale habitat protection plans that provide at-      restore, create, enhance and protect 3 million acres of
risk and declining species access to water, food, shelter      wetlands by 2010. In support, USDA established a long-
and corridors for seasonal migration.                          term goal of 1.5 million acres created, restored or
                                                               enhanced by 2010. Reaching the target level established
                       Key Outcome                             for WRP and CTA will contribute significantly toward
       Improved Wildlife Habitat Quality Supporting            meeting the long-term goal. When 2006 results are
        Desired Species and Species of Concern                 combined with 2005 results and the projected
            (At-Risk and Declining Species)                    accomplishments through 2010 (strategic plan period -
                                                               2005-2010), these two programs will contribute 89
                                                               percent of the total goal.
Analysis of Results
USDA met its target for the creation, restoration or           USDA uses the acreage of wetlands created, restored or
enhancement of wetlands. Targets were set for two              enhanced as an indicator of progress toward improved
USDA programs; Conservation Technical assistance               habitat for many species. Acreage is used as an indicator
(CTA) and the Wetlands Reserve Program (WRP). On               because there is no feasible, widely-accepted methodology
wetlands where USDA provided technical assistance              for documenting the quality of habitat developed or the
through CTA, no financial assistance was provided by           suitability of the habitat for the target species USDA is
Department programs. In some cases, financial assistance       participating in cooperative efforts to quantify the results
may have been provided through non-USDA sources.               of its conservation practices for wildlife habitat.

                                                               Selected Results in Research, Extension and Statistics
                                                               USDA opened the Agricultural Wildlife Conservation
                                                               Center (AWCC) in Madison, Mississippi, to expand
                                                               efforts to preserve wildlife and wildlife habitat on private
                                                               lands. The center supports the development of wildlife-
                                                               habitat technology through a competitive grants program
                                                               available to many cooperative conservation partners,
                                                               including fish and wildlife conservation groups,
                                                               universities and State agencies. AWCC will ensure that
                                                               new technology is available to farmers and ranchers
                                                               nationwide through USDA service centers.
                                                               USDA helps farmers, ranchers, non-industrial private
                                                               forest landowners and other natural resource managers
WRP is a voluntary conservation program that offers            consider wildlife when they plan the use of their land.
landowners the means and opportunity to protect, restore       These plans consider wildlife needs for shelter, access to
and enhance wetlands on their property. WRP                    water, food in proper amounts, locations and times to
participants sign an easement or agreement with USDA.          sustain wildlife populations that inhabit the area during a
Some wetlands protection activity is carried out under         portion of their life cycle.
other USDA programs, including the CRP.
                                                               USDA assists in applying conservation practices to
In 2003, there were 111 million wetland acres on non-          enhance habitat on private lands. Department
Federal lands in the continental U.S. In 2004, the             conservationists provide on-site assistance to producers
President set a national goal to go beyond no net loss – to    and other landowners in controlling invasive species,



                                                                                                                    USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT         127
                                                  ANNUAL PERFORMANCE REPORT




adopting practices to improve grassland or forest habitat,                  $38 million for easements to protect wetlands;
and managing water levels in wetlands to control                            $9.5 million for Wetlands Reserve Enhancement
vegetation. Actions to sustain and enhance aquatic habitat                  Program partnership proposals. These proposals
include applying conservation practices that filter                         address wetland creation and enhancement efforts on
potential pollutants and moderate stream temperatures.                      prior-year enrolled contracts, those where cooperators
USDA assisted in applying practices that benefited                          will contribute significantly to the Wetlands Reserve
upland wildlife in plans covering 12.3 million acres.                       Program (WRP) delivery and technical assistance
Practices to benefit wetland species were applied in plans                  costs, and easement management projects; and
covering 400,000 acres.
                                                                            $1.6 million in competitive grants to develop and
USDA provided financial assistance to individuals and                       evaluate technological tools for fish and wildlife
groups to implement structures and management systems.                      habitat improvements. The Agricultural Wildlife
These moves to improve water management and protect                         Conservation Center will administer the grants.
watersheds included:
                                                                         WRP is a voluntary conservation program that offers
    $38 million for cost-shares and incentives for habitat
                                                                         landowners the means and opportunity to protect, restore
    protection;
                                                                         and enhance wetlands on their property.

Exhibit 63: Improved Wildlife Habitat

                                                                                                    Fiscal Year 2006
                            Annual Performance Goals and Indicators                       Target            Actual      Result
             Wetlands created, restored or enhanced, acres
             6.4.1    Conservation Technical Assistance                                   50,000         65.345        Exceeded
             6.4.2    Wetlands Reserve Program                                           170,000        181,979        Exceeded


Exhibit 64: Trends in Wildlife Habitat Enhancement

                                                                                       Fiscal Year Actual
                                 Trends                         2002          2003           2004            2005        2006
             Wetlands created, restored or enhanced, acres
             6.4.1    Conservation Technical Assistance         63,463        43,525        59,293           53,498      65,345
             6.4.2     Wetlands Reserve Program                139,927       137,151       123,363          180,358     181,979




USDA
  128        FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT
                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
11/15/2006 6:58 AM




Program Assessment Rating Tool (PART) Evaluations
The Program Assessment Rating Tool (PART) was developed to assess and improve program performance so that the
Federal government can achieve better results. The PART reviews of USDA programs help identify a program’s
strengths and weaknesses to inform funding and management decisions aimed at making the program more effective.
The PART therefore looks at all factors that affect and reflect program performance including program purpose and
design; performance measurement, evaluations, and strategic planning; program management; and program results.
Because the PART includes a consistent series of analytical questions, it allows programs to show improvements over
time, and allows comparisons between similar programs.

The summaries below represent programs PARTed in fiscal year 2006, including programs that were reassessed because
the programs’ previous ratings were unsatisfactory. The programs are summarized by Strategic Objective. Further detail
on USDA’s PARTed programs can be found at http://www.whitehouse.gov/omb/budget/fy2006/part.html.

       Strategic Objective 1.1                               Expand and Maintain International Export Opportunities
             Program Name                                     Export Enhancement/Dairy Export Incentive Program
  Current Rating                 x   Moderately Effective
  Lead Agency                    x   Foreign Agricultural Service
  Major Findings/                x   Globally, the export subsidy programs have not been able to demonstrate an ability to permanently expand
  Recommendations                    exports or build U.S. market share in targeted countries. However, the Dairy Export Incentive Program
                                     (DEIP) was successful in offsetting European Union export subsidies for dairy products to Mexico which
                                     permitted the U.S to develop and sustain a market for U.S. dairy product exports there.
  Actions Taken/Planned          x   These programs have not been operative for several years. However, a policy paper should be developed to
                                     lay out the circumstances where future reactivation of the programs would be warranted.


       Strategic Objective 1.1                               Expand and Maintain International Export Opportunities
             Program Name                                                 Trade Adjustment Assistance
  Current Rating                 x   Results Not Demonstrated
  Lead Agency                    x   Foreign Agricultural Service
  Major Findings/                x   The assessment found that the program is costly to administer when considered in relation to the number of
  Recommendations                    producers that have been assisted to date.
  Actions Taken/Planned          x   Performance baselines, based on survey results of individuals who received TAA program benefits in 2004
                                     and 2005, will be established. After that, ambitious performance targets will be established.


       Strategic Objective 2.3                       Provide Risk Management and Financial Tools to Farmers and Ranchers
             Program Name                                                        Crop Insurance
  Current Rating                 x   Moderately Effective
  Lead Agency                    x   USDA Risk Management Agency
  Major Findings/                x   Identify improvements in the program that will get it closer to becoming a complete risk management tool for
  Recommendations                    the agriculture sector, such as developing a successful livestock crop insurance plan.
  Actions Taken/Planned          x   Achieve proposed legislative changes to make the program more effective and efficient by covering more
                                     acres at a lower subsidy cost.
                                 x   Developed other efficiency measures that incorporate the whole taxpayer cost (administrative, indemnities,
                                     underwriting gains, premium subsidies and company reimbursements) needed to run the program.




                                                                                                                                          USDA
                                                                         FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT            129
                                              ANNUAL PERFORMANCE REPORT




  Strategic Objective 2.2                  Increase the Efficiency of Domestic Agricultural Production and Marketing Systems
       Program Name                                              Commodity Purchase Services (Section 32)
Current Rating              x   Results Not Demonstrated (Results Not Demonstrated)
Lead Agency                 x   Agricultural Marketing Service
Major Findings/             x   The Section 32 program has three purposes, but it lacks goals and measures in support of any of these
Recommendations                 underlying purposes.
Actions Taken/Planned       x   Developing outcome-based annual and long-term performance measures, including baselines and targets
                                that demonstrate progress towards a long-term programmatic outcome.


  Strategic Objective 2.2                  Increase the Efficiency of Domestic Agricultural Production and Marketing Systems
       Program Name                                                      Research and Promotion
Current Rating              x   Results Not Demonstrated (Adequate)
Lead Agency                 x   Agricultural Marketing Service
Major Findings/             x   R&P programs are directed by industry-governed boards appointed by the Secretary of Agriculture. Federal
Recommendations                 oversight by AMS includes reviewing and approving program plans, projects, and budgets. R&P programs
                                are designed to facilitate collective action among producers to maintain and expand markets.
Actions Taken/Planned       x   Clarifying long-term and annual measures to better demonstrate progress toward performance goals.



  Strategic Objective 2.2                  Increase the Efficiency of Domestic Agricultural Production and Marketing Systems
       Program Name                                                Market News and Marketing Services
Current Rating              x   Adequate
Lead Agency                 x   Agricultural Marketing Service
Major Findings/             x   The Marketing Services program (MSP) gathers, analyzes, and makes available market data for use among
Recommendations                 participants throughout the agricultural marketing chain. Increased information in the marketplace provides
                                all market participants with resources to inform their business transactions.
Actions Taken/Planned       x   Developing an automated system to collect and post Market News price data.


  Strategic Objective 2.2                  Increase the Efficiency of Domestic Agricultural Production and Marketing Systems
       Program Name                                                       Packers and Stockyards
Current Rating              x   Results Not Demonstrated
Lead Agency                 x   Grain Inspection, Packers and Stockyards Administration
Major Findings/             x   The program lacks well-defined internal processes to determine workload priorities, conduct effective
Recommendations                 investigations, evaluate investigative findings, and monitor industry activity to determine if regulatory reforms
                                are needed.
Actions Taken/Planned       x   Conducting business process re-engineering to improve internal controls.


  Strategic Objective 2.3                       Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                                     Dairy Program Income Loss
Current Rating              x   Results Not Demonstrated (Adequate)
Lead Agency                 x   Farm Service Agency
Major Findings/             x   Dairy production is increasing in the U.S., but declining on farms with fewer than 200 cows. Market forces
Recommendations                 continue to drive consolidation and increase output from larger dairies. The income payments from this
                                program have a modest impact on slowing the decline in production on small to medium size dairy
                                operations.
Actions Taken/Planned       x   Feedback from USDA’s 2007 farm bill forums will be used to examine this farm safety net program compared
                                to other government and private sector program alternatives to mitigate risk on farm operations




USDA
 130          FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
11/15/2006 6:58 AM



       Strategic Objective 2.3                         Provide Risk Management and Financial Tools to Farmers and Ranchers
             Program Name                                                         Dairy Price Support
  Current Rating                 x     Results Not Demonstrated (Results Not Demonstrated)
  Lead Agency                    x     Farm Service Agency
  Major Findings/                x     The purpose of the program is outdated. In 1933, USDA first facilitated the purchase of surplus dairy
  Recommendations                      products to ensure an adequate supply of milk. Today the program remains in place, even as the U.S.
                                       industry has matured as a global leader in milk production. Overall, USDA manages the program well;
                                       however, not at the least cost to the taxpayer.
  Actions Taken/Planned          x     Conduct biannual evaluations of the USDA set prices for nonfat dry milk and butter. Program managers will
                                       determine whether the program is operating at least cost to the taxpayer.


       Strategic Objective 2.3                         Provide Risk Management and Financial Tools to Farmers and Ranchers
             Program Name                                                Non-Insured Crop Disaster Assistance
  Current Rating                 x     Moderately Effective
  Lead Agency                    x     Farm Service Agency
  Major Findings/                x     The noninsured crop disaster assistance program is valuable for agricultural producers as one of their risk
  Recommendations                      management tools. It is delivered through local county FSA offices, which enable the greatest grassroots
                                       outreach possible in the specific county locations where intended beneficiaries live and farm. Participation in
                                       NAP has increased steadily over the years”
  Actions Taken/Planned          x     Eliminating shortcomings identified in financial audits by strengthening the processes and controls in the
                                       program’s disbursement system.


       Strategic Objective 2.2                         Enhance the Competitiveness and Sustainability of Rural Farm Economics
             Program Name                                     Economic Opportunities and Quality of Life for Rural America
  Current Rating                 x     Effective
  Lead Agency                    x     Cooperative State Research, Education and Extension Service
  Major Findings/                x     This program includes a significant number projects (earmarks) added to the Budget by the Congress. Within
  Recommendations                      the limitations of total funding, the inclusion of any unrequested projects reduces funding that could be used
                                       for high priority national programs.
  Actions Taken/Planned          x     The agency should consider the use Grants.gov (a Web-based peer review system), as well as virtual panels
                                       to improve the efficiency of the grant review process.


       Strategic Objective 3.1       Expand Economic Opportunities by Using USDA Financial Resources to Leverage Private Sector Resources and
                                                                         Create Opportunities for Growth
             Program Name                                                    Value-Added Producer Grants
  Current Rating                 x     Results Not Demonstrated (Adequate)
  Lead Agency                    x     Rural Development
  Major Findings/                x     This program provides valuable support for emerging markets. Though there is room for improvement on
  Recommendations                      how a project is selected for funding, in general, new market technologies are favored and the target
                                       audience is reached.
  Actions Taken/Planned          x     Increase targeting of program to emerging markets. Continue to assess the focus of the program on small
                                       and medium-sized producers.




                                                                                                                                              USDA
                                                                            FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT             131
                                                  ANNUAL PERFORMANCE REPORT




  Strategic Objective 3.2          Improve the Quality of Life Through USDA Financing of Quality Housing, Modern Utilities, and Needed
                                                                          Community Facilities
       Program Name                                                               Broadband
Current Rating                 x   Results Not Demonstrated
Lead Agency                    x   Rural Development
Major Findings/                x   Other findings include: the program is flawed as seen by the under utilization of two loan types; there are no
Recommendations                    periodic independent reviews that assess program performance; and the Rural Utilities Service is unable to
                                   track the full costs of operating the program.
Actions Taken/Planned          x   Reviewing program operations and community/constituent/borrower needs to determine program
                                   improvements to increase program efficiency and demand for under utilized loan types. A new regulation is
                                   pending.


  Strategic Objective 3.2          Improve the Quality of Life Through USDA Financing of Quality Housing, Modern Utilities, and Needed
                                                                          Community Facilities
       Program Name                                                          Community Facilities
Current Rating                 x   Results Not Demonstrated (Moderately Effective)
Lead Agency                    x   Rural Development
Major Findings/                x   The program is managed effectively. Data is collected and analyzed to ensure performance. Funds are
Recommendations                    tracked and spent in a timely manner using sound financial practices, and there is good collaboration with
                                   other Federal, state and local programs.
Actions Taken/Planned          x   Obtaining tangible statistics to create and improve performance measures by utilizing a newly created
                                   performance related computer model developed exclusively for Rural Development programs.


Strategic Objective 3.1, 3.2                Support Increased Economic Opportunities and Improved Quality of Life in Rural America
       Program Name                                                Resource Conservation and Development
Current Rating                 x   Results Not Demonstrated (Adequate)
Lead Agency                    x   Natural Resources Conservation Service
Major Findings/                x   The Natural Resources Conservation Service (NRCS) has improved its management of RC&D. NRCS: (1)
Recommendations                    has coordinated a nationwide program review and has taken actions to implement its recommendations; (2)
                                   revised the RC&D manual to reflect increased emphasis on program performance and linkages to national
                                   performance goals; and (3) increased performance and reduced Federal fund expenditures.
Actions Taken/Planned          x   Conducting an external, independent review that examines overall program effectiveness and makes
                                   recommendations for enhancing program efficiencies.


  Strategic Objective 4.2                        Reduce the Number and Severity of Agricultural Pest and Disease Outbreaks
       Program Name                                           On-going Pest and Disease Management Programs
Current Rating                 x   Effective
Lead Agency                    x   Animal and Plant Health Inspection Service
Major Findings/                x   The program purpose is clear. It addresses a clearly defined problem, and works to effectively target
Recommendations                    resources to areas most affected by specific plant and animal infestations.
Actions Taken/Planned          x   The program will continue to measure the value of damage mitigated and prevented, refining this new
                                   measure.




USDA
 132          FY 2006 PERFORMANCE     AND   ACCOUNTABILITY REPORT
                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
11/15/2006 6:58 AM



       Strategic Objective 5.1                                            Ensure access to nutritious food
             Program Name                                                 Summer Food Service Program
  Current Rating                 x   Moderately Effective
  Lead Agency                    x   Food and Nutrition Service
  Major Findings/                x   The program is effectively providing nutritious meals to low income children. Program benefits are well
  Recommendations                    targeted to low-income children, and meals provide the desired levels for most key nutrients and food energy.
  Actions Taken/Planned          x   Examine program meal patterns to address consistency with the 2005 Dietary Guidelines for Americans.


       Strategic Objective 5.2                                    Promote healthier eating habits and lifestyles
             Program Name                                                  Women, Infant, and Children
  Current Rating                 x   Effective
  Lead Agency                    x   Food and Nutrition Service
  Major Findings/
  Recommendations                x   OMB HAS NOT PROVIDED RECOMMENDATIONS
  Actions Taken/Planned          x   OMB HAS NOT PROVIDED RECOMMENDATIONS


       Strategic Objective 5.2                                    Promote healthier eating habits and lifestyles
             Program Name                                                 National School Lunch Program
  Current Rating                 x   Results Not Demonstrated (Moderately Effective)
  Lead Agency                    x   Food and Nutrition Service
  Major Findings/                x   The program has made progress in improving the nutritional content of meals by reducing the proportion of
  Recommendations                    calories from fat and saturated fat. Between 1993 and 1999 the proportion of calories from fat in the lunches
                                     was reduced from 39% to 34%.
  Actions Taken/Planned          x   Conducting nationally representative study updating information on the nutrient content of meals.


       Strategic Objective 5.2                                    Promote healthier eating habits and lifestyles
             Program Name                                                      Nutrition and Health
  Current Rating                 x   Moderately Effective
  Lead Agency                    x   Agricultural Research Service
  Major Findings/                x   While this program does include a number projects added to the Budget by the Congress, the number is
  Recommendations                    fewer than in other research programs. However, within the limitations of total funding, the inclusion of any
                                     unrequested projects reduces funding that could be used for high priority national programs.
  Actions Taken/Planned          x   The program will continue to monitor the actual use of research outputs (new knowledge and technologies).


       Strategic Objective 5.3                      Improve nutrition assistance program management and customer service
             Program Name                                               Child and Adult Care Food Program
  Current Rating                 x   Results Not Demonstrated (Adequate)
  Lead Agency                    x   Food and Nutrition Service
  Major Findings/                x   The program is well targeted to low-income children. Most participating centers and homes provide well-
  Recommendations                    balanced meals and snacks, supplying more than one-half of the Recommended Daily Allowances for
                                     calories and substantially more than two-thirds of key nutrients.
  Actions Taken/Planned          x   Developing new long-term measures to assess the nutrient content of meals; piloting a process to collect
                                     annual data on compliance with meal pattern requirements.




                                                                                                                                            USDA
                                                                          FY 2006 PERFORMANCE         AND    ACCOUNTABILITY REPORT            133
                                              ANNUAL PERFORMANCE REPORT




  Strategic Objective 5.3                      Improve nutrition assistance program management and customer service
       Program Name                                          Food Distribution Program On Indian Reservations
Current Rating              x   Adequate
Lead Agency                 x   Food and Nutrition Service
Major Findings/
Recommendations             x   FDPIR helps low-income Native Americans in areas with limited access to food stores meet their food needs.
Actions Taken/Planned       x   Partnering with Indian tribal organizations to develop a method of allocating administrative funds that is more
                                equitable and better supports program operations.


  Strategic Objective 5.3                      Improve nutrition assistance program management and customer service
       Program Name                                             Senior and WIC Farmers’ Market Programs
Current Rating              x   Results Not Demonstrated
Lead Agency                 x   Food and Nutrition Service
Major Findings/             x   The programs have no standardized means to demonstrate program results. The programs do not have
Recommendations                 annual performance measures that can demonstrate progress towards achieving the programs’ long term
                                goals. Program evaluations are limited and provide no firm conclusions about the impact on participants’
                                consumption of fresh produce.
Actions Taken/Planned       x   Establishing and implementing monitoring and reporting requirements for the Senior Farmers’ Market
                                Nutrition Program.


  Strategic Objective 5.3                                       Improve the Nation’s Health and Nutrition
       Program Name                                                        Nutrition and Health
Current Rating              x   Effective
Lead Agency                 x   Cooperative State Research, Education and Extension Service
Major Findings/             x   While this program does include a number projects added to the Budget by the Congress, the number is
Recommendations                 fewer than in other research programs. However, within the limitations of total funding, the inclusion of any
                                unrequested projects reduces funding that could be used for high priority national programs.
Actions Taken/Planned       x   The agency should consider the use Grants.gov (a Web-based peer review system), as well as virtual panels
                                to improve the efficiency of the grant review process.


  Strategic Objective 6.1                           Protect Watershed Health to Ensure Clean and Abundant Water
       Program Name                                                       Emergency Watershed
Current Rating              x   Results Not Demonstrated (Adequate)
Lead Agency                 x   Natural Resources Conservation Service
Major Findings/             x   The Natural Resources Conservation Service (NRCS) has improved its management of EWP. NRCS has:
Recommendations                 (1) revised its EWP regulation to increase program effectiveness; (2) developed State Emergency Recovery
                                Plans that allow for rapid response; (3) improved its coordination with other emergency assistance agencies;
                                and (4) addressed actions expressed in a number of internal and external evaluations.
Actions Taken/Planned       x   Improving data management to increase program accountability and efficiency, improve financial reporting,
                                and increase cost-effectiveness.




USDA
 134          FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
11/15/2006 6:58 AM




            Strategic Goal 6                         Protect and Enhance the Nation’s Natural Resource Base and Environment
             Program Name                                            Natural Resource Base and Environment
  Current Rating                x   Moderately Effective
  Lead Agency                   x   Agricultural Research Service
  Major Findings/               x   This program includes a significant number projects (earmarks) added to the Budget by the Congress. Within
  Recommendations                   the limitations of total funding, the inclusion of any unrequested projects reduces funding that could be used
                                    for high priority national programs.
  Actions Taken/Planned         x   The program should conduct an independent external retrospective panel to review the Global Change and
                                    Air Quality programs during FY 2007.


            Strategic Goal 6                         Protect and Enhance the Nation’s Natural Resource Base and Environment
             Program Name                                                    Emergency Conservation
  Current Rating                x   Results Not Demonstrated
  Lead Agency                   x   Farm Service Agency
  Major Findings/               x   ECP lacks a mechanism to effectively prioritize its limited disaster recovery funding. The program does not
  Recommendations                   have a system for prioritizing recovery dollars to geographic areas or individual farmers who are most in need
                                    of assistance. Instead, funding is generally provided on a first-come-first-served basis across relatively broad
                                    geographic areas.
  Actions Taken/Planned         x   Developing and using improved, outcome-based performance measures, including long-term, annual, and
                                    efficiency measures.


            Strategic Goal 6                         Protect and Enhance the Nation’s Natural Resource Base and Environment
             Program Name                                                           Watershed
  Current Rating                x   Results Not Demonstrated
  Lead Agency                   x   Forest Service
  Major Findings/               x   The Forest Service lacks a nationally consistent approach to prioritize watersheds and for management
  Recommendations                   activities on national forests and for providing grants to non-Federal entities. The Forest Service is working to
                                    address this.
  Actions Taken/Planned         x   Developing and implementing a strategy to prioritize watersheds for management activities as the basis for
                                    program allocations.


            Strategic Goal 6                         Protect and Enhance the Nation’s Natural Resource Base and Environment
             Program Name                                                        Mission Support
  Current Rating                x   Results Not Demonstrated
  Lead Agency                   x   Forest Service
  Major Findings/               x   The components of this program do not share a common purpose, beneficiary characteristics, or target
  Recommendations                   populations. However, the components address specific and existing problems, interests, or needs.
  Actions Taken/Planned         x   Examining with OMB the viability of a PART review for a combination of program activities, determining the
                                    components of the program, and providing an alternative option to assess the components.




                                                                                                                                            USDA
                                                                         FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT               135
                                              ANNUAL PERFORMANCE REPORT




       Strategic Goal 6                        Protect and Enhance the Nation’s Natural Resource Base and Environment
       Program Name                                                      Conservation Operations
Current Rating              x   Moderately Effective
Lead Agency                 x   Natural Resources Conservation Service
Major Findings/             x   Overall, Conservation Operations (CO) operates efficiently and effectively. CO has made strides in making its
Recommendations                 state allocation process more transparent; tracking non-field level activities, including those of contractors and
                                partnering organizations; and linking performance to state budget allocations.
Actions Taken/Planned       x   Improving CO program management by identifying national program priorities and conducting an independent
                                review of the allocation formula.


       Strategic Goal 6                           Protect and Enhance the Nation’s Natural Resource Base and Environment
       Program Name                                                   Conservation Security Program
Current Rating              x   FY 2008 - Results Not Demonstrated
Lead Agency                 x   Natural Resources Conservation Service
Major Findings/             x   Although CSP is the only conservation program that recognizes and rewards farmers and ranchers for
Recommendations                 ongoing high levels of environmental stewardship, it has not yet demonstrated that it effectively motivates
                                people to achieve a higher level of conservation than they otherwise would adopt.
Actions Taken/Planned       x   Conducting an external, independent review that examines overall program effectiveness.


       Strategic Goal 6                        Protect and Enhance the Nation’s Natural Resource Base and Environment
       Program Name                                             Resource Conservation and Development
Current Rating              x   Results Not Demonstrated (Adequate)
Lead Agency                 x   Natural Resources Conservation Service
Major Findings/             x   The Natural Resources Conservation Service (NRCS) has improved its management of RC&D. NRCS: (1)
Recommendations                 has coordinated a nationwide program review and has taken actions to implement its recommendations; (2)
                                revised the RC&D manual to reflect increased emphasis on program performance and linkages to national
                                performance goals; and (3) increased performance and reduced Federal fund expenditures.
Actions Taken/Planned       x   Conducting an external, independent review that examines overall program effectiveness and makes
                                recommendations for enhancing program efficiencies.


  Strategic Objective 6.3                                             Protect Forests and Grasslands
       Program Name                                                     Wildland Fire Management
Current Rating              x   Results Not Demonstrated (Adequate)
Lead Agency                 x   Forest Service
Major Findings/             x   Large wildfire costs are increasing as a result of many factors, but the Forest Service lacks an overall national
Recommendations                 management strategy for aligning incentives, improving accountability, and controlling costs by allocating
                                resources on the basis of risk. Multiple Forest Service units spend funds without limits or regard to overall
                                costs.
Actions Taken/Planned       x   Refining program delivery by basing resource allocation on risk mitigation, emphasizing accountability for
                                firefighting costs, improving management oversight, and ensuring fair sharing of costs.




USDA
 136          FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
11/15/2006 6:58 AM




       Strategic Objective 6.3                                           Protect Forests and Grasslands
             Program Name                                                        Invasive Species
  Current Rating                 x   Results Not Demonstrated (Adequate)
  Lead Agency                    x   Forest Service
  Major Findings/                x   The Forest Service has implemented a cohesive national strategy for invasive species management that
  Recommendations                    encourages coordination within the agency. Additional work is needed to ensure states and other
                                     cooperators link their proposed activities to the Forest Service’s Strategic Plan or annual performance
                                     measures.
  Actions Taken/Planned          x   Continuing to implement the integrated invasive species strategy based on input from the Regions and other
                                     customers; improving outreach and delivery of research and management information.


       Strategic Objective 6.4               Protect and Enhance Wildlife Habitat to Benefit Desired, At-Risk and Declining Species
             Program Name                                              Wildlife Habitat Incentives Program
  Current Rating                 x   Results Not Demonstrated (Adequate)
  Lead Agency                    x   Natural Resources Conservation Service
  Major Findings/                x   The Natural Resources Conservation Service has improved its management of WHIP. Since WHIP
  Recommendations                    underwent a PART assessment in 2002, it has: (1) adopted recommendations issued by internal and
                                     external oversight teams; (2) created new allocation and performance incentive formulas; and (3) instituted
                                     new software to track program activities and evaluate and rank applications.
  Actions Taken/Planned          x   Improving WHIP management by identifying national program priorities, standardizing the application
                                     selection and ranking process, and conducting an independent review of the allocation formula.




                                                                                                                                           USDA
                                                                         FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT             137
                                                    ANNUAL PERFORMANCE REPORT




Program Evaluations
 Objective                   Title                               Findings and Recommendations/Actions                            Availability
1.1          GAO Report, December 6, 2005;          Findings: GAO recommends that USTR develop a strategic               Report is available at
             GAO-06-167 —                           human capital management system addressing the areas of              http://www.gao.gov/cgi-
             INTERNATIONAL TRADE: USTR              strategic human capital leadership, planning, recruitment and        bin/getrpt?GAO-06-167
             Would Benefit from Greater Use of      retention, and performance management. There were no
             Strategic Human Capital                recommendations for USDA.
             Management Principals
                                                    Actions: No USDA action required.
             GAO Report, April 30, 2006; GAO-       Findings: This report reviews the results of the Doha Round          Report is available at
             06-596 — WORLD TRADE                   of WTO negotiations, and the possible completion of the              http://www.gao.gov/new.item
             ORGANIZATION: Limited                  negotiations in 2006.                                                s/d06596.pdf
             Progress at Hong Kong Ministerial
             Clouds Prospects for Doha              Actions:    No USDA action required.
             Agreement
             GAO Report, June 26, 2006; GAO-        Findings: While this report focuses primarily on the                 Report is available at
             06-737 —                               Department of State, it does refer to FAS’ overseas presence,        http://www.gao.gov/new.item
             OVERSEES STAFFING:                     repositioning efforts, and staffing levels. It includes a table of   s/d06737.pdf
             Rightsizing Approaches Slowly          FY 2007 Capital Security Cost Sharing charges. This report
             Taking Hold but More Action            contains recommendations for the Secretary of State and the
             Needed to Coordinate and Carry         Office of Rightsizing.
             Out Efforts
                                                    Actions:    No USDA action required.
             GAO Report, December 9, 2005;          Findings:  This data-driven, informational report is intended to     Report is available at
             GAO-06-162 —                           provide a “by-the-numbers” overview of the U.S.-China trade          http://www.gao.gov/cgi-
             CHINA TRADE: U.S. Exports,             relationship.                                                        bin/getrpt?GAO-06-162
             Investment, Affiliate Sales Rising,
             but Export Share Falling               Actions:    No USDA action required.

1.2          OIG Report, March 15, 2006;            Findings: OIG had 19 recommendations for FAS to improve              Report is available at
             07016-01-At —                          its administration and oversight of the food aid program.            http://www.usda.gov/oig/web
             Foreign Agricultural Service Private                                                                        docs/07016-01-AT.pdf
             Voluntary Organization Grant Fund      Actions: OIG has accepted FAS’ management decision on
             Accountability                         most of the recommendations, while FAS continues to work
                                                    with OIG on the few remaining.
2.3          OIG-05401-14-FM, Financial             Findings:  The Deloitte report on FCIC/RMA’s internal control        Report is available at
             Statements for Fiscal Years 2004       over financial reporting contains one reportable condition           http://www.usda.gov/oig/web
             and 2005                               identified during the fiscal year 2004 audit. FCIC/RMA is in         docs/05401-14-FM.pdf
                                                    process of resolving the condition. Therefore, this report
                                                    contains no recommendations.
                                                    Recommendations/Actions: RMA has completed the actions
                                                    recommended by OIG to address this matter.
             OIG-05801-03-KC, Financial             Findings:   Both OIG and GAO concluded that RMA had not              Report is available at
             Management Controls over               identified the financial deficiencies of the failed reinsured        http://www.usda.gov/oig/web
             Reinsured Companies                    company primarily because RMA emphasized past                        docs/05801-3-KC.pdf
                                                    compliance and financial data, rather than future financial
                                                    forecasts. OIG closed this review without recommendations
                                                    because the problematic issues identified were raised in a
                                                    December 3, 2003, memorandum to RMA prior to its 2005
                                                    SRA negotiations with reinsured companies, and that their
                                                    findings overlapped those reported by GAO in their June 1,
                                                    2004, report.




USDA
 138         FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT
                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
11/15/2006 6:58 AM



    Objective                       Title                             Findings and Recommendations/Actions                          Availability
                     OIG-05601-13-Te, New Crop            Actions: RMA completed actions necessary to address the           Report is available at
                     Products Submitted by Private        issues identified in the above referenced documents.              http://www.usda.gov/oig/web
                     Companies                                                                                              docs/05601-13-TE.pdf
                                                          Findings: RMA needs to establish written procedures to
                                                          monitor and review the implementation and performance of
                                                          section 508(h) products.
                                                          Recommendations/Actions: RMA completed the actions
                                                          recommended by OIG to address this matter.
                     OIG-05099-11-SF, Prevented           Findings: OIG found none of the cotton producers in their         Report is available at
                     Planting Payments For Cotton Due     sample improperly sold their water service rights, and nothing    http://www.usda.gov/oig/web
                     to Failure of the Irrigation Water   came to their attention to indicate that the pertinent controls   docs/05099-11-SF.pdf
                     Supply in California and Arizona     were not operating as prescribed. However, four cotton
                     Crop Year 2003                       producers in California did not meet program eligibility
                                                          requirements.
                                                          Actions:  RMA is reviewing the four producers to determine
                                                          whether loss payments were improperly paid to these
                                                          individuals.
  3.1.1              Business Programs Assessment         Findings: National Office engages Farm Credit Administration      Banking information and
                     Reviews                              to provide Commissioned Bank Examiners to assist in               borrower data is protected
                     (BPARS)                              evaluating performance and risk inherent in performance of        under Federal Bank Secrecy
                                                          up to 10 states each year. In FY 2006, six State Office           Laws, but redacted reports
                                                          operations and portfolio management were reviewed.                are available to the public
                                                                                                                            through Freedom of
                                                          This included assessment of local offices.
                                                                                                                            Information.
                                                          Actions:  Findings, causes and recommendations vary widely
                                                          state to state.
                                                          Each state office undertakes corrective actions in response to
                                                          the BPAR.
  3.2.2              2003 PART of Rural Water and         Findings: The Water Programs addressed the concerns of the        The program assessment is
                     Wastewater Grants and Loans and      Office of Management Budget (OMB) that the program                available at
                     2005 RePART                          needed to develop better long-term goals to quantify program      http://www.whitehouse.gov/o
                                                          success and identify solutions to better serve rural residents.   mb/expectmore/summary.10
                                                                                                                            000458.2005.html
                                                          Actions: In May 2005, the program revised its long-term
                                                          measures to focus strategically on reducing rural peoples’
                                                          exposure to water related health and safety hazards by FY
                                                          2010.
                     2003 PART of Rural Water and         Findings: OMB recommended that the Water Programs create          The program assessment is
                     Wastewater Grants and Loans and      reasonable long-term goals that measure outcomes.                 available at
                     2005 RePART                                                                                            http://www.whitehouse.gov/o
                                                          Actions: The Water Programs is in the process of developing       mb/expectmore/summary.10
                                                          indicators to assess the financial performance of its water and   000458.2005.html
                                                          wastewater borrowers. The Water Programs will track
                                                          borrowers’ financial ratios to gauge the financial viability of
                                                          borrowers’ systems. The target is to establish the data
                                                          collection format and scoring criteria for rating the borrower
                                                          based on the ratios. The Water Programs will consult the
                                                          Economic Research Service in identifying sources of
                                                          performance data.




                                                                                                                                                   USDA
                                                                                 FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT           139
                                                    ANNUAL PERFORMANCE REPORT




 Objective                   Title                             Findings and Recommendations/Actions                           Availability
             EPA Clean Watersheds Needs             Findings: The EPA Clean Watersheds Needs Survey 2000              Reports available at:
             Survey 2000 and the EPA 1999           showed that small communities of under 10,000 have                http://www.epa.gov/safewate
             Drinking Water Infrastructure          documented needs of $16 billion for wastewater systems.           r/needssurvey/index.html
             Needs Survey                           Needs for drinking water are significantly higher. The EPA        http://www.epa.gov/ipbpages
                                                    1999 drinking water survey showed $48.1 billion in needs for      /archive/V7/444.htm
                                                    communities of 10,000 or less and $31.2 billion in needs for
                                                    communities of 3,300 or less.
                                                    Investments in new, high quality environmentally safe water
                                                    and wastewater infrastructure or in replacing aging
                                                    infrastructure reduce reductions out-migration of young
                                                    people and attract new businesses.
                                                    Actions: The Water Programs2 has developed a measure to
                                                    track annually the number of borrowers; subscribers
                                                    (customers) receiving new or improved services from water
                                                    systems and facilities.
             2003 PART of Rural Water and           Findings: OMB recommended that the Water Programs                 The program assessment is
             Wastewater Grants and Loans and        develop better annual goals.                                      available at
             2005 RePART                                                                                              http://www.whitehouse.gov/o
                                                    Actions: The Water Programs developed a Loan/Grant Ratio          mb/expectmore/summary.10
                                                    to improve the loan to grant mix so that more loan dollars are    000458.2005.html
                                                    used by systems that can afford maximum debt capacity. This
                                                    result limits grant funds to the neediest systems.
             2003 PART of Rural Water and           Findings: The Office of Management Budget (OMB)                   The program assessment is
             Wastewater Grants and Loans and        recommended that the Water Programs develop better                available at
             2005 RePART                            annual goals to quantify program success and identify             http://www.whitehouse.gov/o
                                                    solutions to better serve rural residents better.                 mb/expectmore/summary.10
                                                                                                                      000458.2005.html
                                                    Actions: The Water Programs created an annual measure to
                                                    track the percent of total project costs from commercial credit
                                                    and other non- agency sources for projects funded from RUS
                                                    loans and grants
             OIG audit, “Rural Utilities Service,   Findings: OIG issued a report, showing that RUS was               The report is available at:
             Water and Waste Program: Grant         evaluating other credit inadequately.                             http://www.usda.gov/oig/web
             Eligibility, #09601-6-KC,                                                                                docs/09601-6-KC.pdf
             September 2003                         Actions:  The Water Programs WEP addressed commercial
             Referrals to commercial credit         credit by implementing an underwriting program that identifies
                                                    an applicant that has the resources and ability to use
                                                    commercial credit as part of its financing package. An annual
                                                    goal to measure applicant and borrower referrals to other
                                                    commercial credit was developed and implemented in 2005.
3.2.3        Community Facilities Program           During FY 2006, the Office of Inspector General completed a       The report is available at
                                                    program wide (Direct, Guaranteed, and Grant) audit (Report        http://www.usda.gov/oig/web
                                                    No. 04601-4-AT). This was a nationwide audit, even though         docs/04601-4-AT.pdf
                                                    reviews were primarily completed in North Carolina and
                                                    Virginia. This audit identified no outstanding issues and OIG
                                                    provide no recommendations which required a management
                                                    decision. The Community Programs Staff reviewed files in
                                                    five states during FY 2006 as part of a Management Control
                                                    Review. No material weaknesses were identified as part of
                                                    this review. Documentation and accessibility items were
                                                    identified and the Agency is taking action to rectify the
                                                    outstanding items.




USDA
 140         FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT
                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
11/15/2006 6:58 AM



    Objective                       Title                              Findings and Recommendations/Actions                                   Availability
  3.2.4 and          Telecommunications and Electric       Findings: Subscriber growth is tracked quarterly on an                    Performance data available
  3.2.5              Data validation process               aggregate basis for performance measurement reporting.                    in a variety of reporting
                                                                                                                                     documents and from the
                                                           Actions: Individual project data are periodically examined by             RUS BPI coordinator.
                                                           the program line offices, and are verified by General Field               Project data are available
                                                           Representatives when loans are in process.                                from the individual program
                                                                                                                                     line offices. Contact Electric
                                                                                                                                     Program at 202-720-9545
                                                                                                                                     Contact Telecommunications
                                                                                                                                     Program at 202-720-9554
  4.1 and            OIG-24601-0006-Ch: Food Safety        Findings: FSIS’ policies and procedures generally were                    Report available at
  4.1                and Inspection Service’s In-Plant     adequate and the system improved supervision and inspector                http://www.usda.gov/oig/web
                     Performance System                    accountability. However, the review process could be                      docs/24601-06-CH.pdf
                                                           strengthened in the areas of written guidance and                         Additional information may
                                                           management oversight. The final report was released to the                be requested from the
                                                           public March 2006.                                                        USDA’s Food Safety and
                                                                                                                                     Inspection Service—Office of
                                                           Actions: FSIS generally agreed with these findings and                    Program Evaluation,
                                                           continues to take action to address them.                                 Enforcement and Review,
                                                                                                                                     Program Evaluation and
                                                                                                                                     Improvement Staff
                                                                                                                                     USDA-FSIS (202) 720-6735
  4.2                GAO-06-132                            Findings: DHS and USDA’s coordination at Plum Island                      The report is available at
                     Plum Island Animal Disease            Animal Disease Center has been largely successful because                 http://www.gao.gov/new.item
                     Center: DHS and USDA Are              of the agencies’ early efforts to work together to bring                  s/d06132.pdf
                     Successfully Coordinating Current     structure to their interactions at the island. To make more
                     Work, but Long-Term Plans Are         effective use of limited space, GAO recommended that DHS,
                     Being Assessed, December 19,          in consultation with USDA, pursue opportunities to shift work
                     2005                                  that does not require the unique features of Plum Island to
                                                           other institutions.
                                                           Actions: APHIS continues to explore collaborations with other
                                                           institutions to allow for the most effective use of the limited
                                                           space at the Plum Island facility. In addition, access to
                                                           disease specific experts and efficient use of expertise is a
                                                           factor in determining projects that require use of the Plum
                                                           Island location.
                     Audit Report: Animal and Plant        Findings: OIG evaluated the elements of the interlocking                  The OIG report is available
                     Health Inspection Service Bovine      safeguards in place to protect US beef from BSE, particularly             on the Web at:
                     Spongiform Encephalopathy (BSE)       the expanded BSE surveillance program that was put in place               http://www.usda.gov/oig/web
                     Surveillance Program – Phase II       a BSE-positive cow was found in December 2003 and the                     docs/50601-10-KC.pdf
                     and Food Safety and Inspection        effectiveness of the controls and processes.
                     Service Controls Over BSE
                     Sampling, Specified Risk Materials,   Actions:  APHIS and FSIS were in general agreement with
                     and Advanced Meat Recovery            the findings and recommendations and provided specific
                     Products - Phase III, Report No.      actions they had taken or planned to take as well as
                     50601-10-KC, USDA Office of the       timeframes for implementing the proposed actions. Their joint
                     Inspector General, January 2006       response is included in its entirety as a separate exhibit in the
                                                           OIG’s report.
  5.1                Food Stamp Participation Rates        Findings: This report presents the latest in a series on participation    Available on the FNS Web
                     2004                                  rates based on Current Population Survey and national                     site at
                                                           participation rates for fiscal year 2004. The findings of this report     http://www.fns.usda.gov/oan
                                                           indicate that 60 percent of the individuals eligible for food stamp       e/MENU/Published/FSP/FIL
                                                           benefits choose to participate. As a result, it appears that FSP is       ES/Participation/FSPPart200
                                                           reaching the neediest eligible individuals. Although the FSP served       4.pdf
                                                           more than 60 percent of all eligible individuals, it provided 71
                                                           percent of the benefits that all eligible individuals could receive. As
                                                           a result, the FSP appears to be reaching the neediest eligible
                                                           individuals. Actions: The report contained no recommendations for
                                                           action by USDA.




                                                                                                                                                             USDA
                                                                                    FY 2006 PERFORMANCE             AND   ACCOUNTABILITY REPORT               141
                                                   ANNUAL PERFORMANCE REPORT




 Objective                  Title                                Findings and Recommendations/Actions                              Availability
             State Food Stamp Participation        Findings: In general, the pattern of participation rates based on       Available on the FNS Web
             Rates For The working Poor in         these estimates show that overall participation among the working       site at
             2003                                  poor vary widely across States, with some over 60 percent and           http://www.fns.usda.gov/oan
                                                   some under 40 percent. In most States, participation among the          e/MENU/Published/FSP/FIL
                                                   working poor is significantly less among all eligible.                  ES/Participation/WorkingPoo
                                                                                                                           r2003.pdf
                                                   Actions:    The report contained no recommendations for action by
                                                   USDA.
             South Carolina Food Stamp and         Findings: The study examined from a survey of families in South         Available on the ERS Web
             Well-Being Study Well-Being           Carolina who left the Food Stamp Program (FSP). The study               site at
             Outcomes Among Food Stamp             Results show that families with rising incomes are less likely than     http://www.ers.usda.gov/publ
             Leavers                               families with lower incomes to experience food hardships or other       ications/ccr22/ccr22.pdf
                                                   adverse events to have a negative view about life changes.
                                                   Actions:    The report contained no recommendation for action by
                                                   USDA.
             South Carolina Food Stamp and         Findings: The study examined from a survey of families in South         Available on the ERS Web
             Well-Being Study Well-Being           Carolina who left the Food Stamp Program (FSP). The study               site at
             Outcomes Among Food Stamp             Results show that families with rising incomes are less likely than     http://www.ers.usda.gov/publ
             Leavers                               families with lower incomes to experience food hardships or other       ications/ccr22/ccr22.pdf
                                                   adverse events to have a negative view about life changes.
                                                   Actions:    The report contained no recommendation for action by
                                                   USDA.
             WIC Participant and Program           Findings: This report summarizes demographic characteristics of         Available on the FNS Web
             Characteristics 2004                  WIC participants nationwide. Actions: This report did not contain       site at
                                                   recommendations for action by USDA.                                     http://www.fns.usda.gov/oan
                                                                                                                           e/MENU/Published/WIC/FIL
                                                                                                                           ES/pc2004.pdf
             WIC Program Coverage: How             Findings:This report illustrates the methodology used to calculate      Available on the FNS Web
             Many Eligible Individuals             the number of individuals eligible for the WIC program. In 2003,        site at
             Participated in the Special           about 57% of eligible participants.                                     http://www.fns.usda.gov/oan
             Supplemental Nutrition Program for                                                                            e/MENU/Published/WIC/FIL
             Women Infants, and Children           Actions:    This report did not contain recommendations for action by   ES/WICEligibles.pdf
             (WIC): 1994 to 2003?                  USDA.
5.2          Food Stamp Nutrition Education        Findings: The report presents a comprehensive and systematic            Available on the FNS Web
             Systems Review                        national description of food stamp nutrition education operations in    site at
                                                   the fiscal year 2004. It also provides a comparison of those            http://www.fns.usda.gov/oan
                                                   operations to the standards of excellence for nutrition education       e/MENU/Published/Nutrition
                                                   developed as the Food Stamp Education Guiding Principles.               Education/Files/FSNESyste
                                                                                                                           msReview.pdf
                                                   Actions:    This report did not contain recommendations for action by
                                                   USDA.
             Effects of Food Assistance and        Findings: This report provides a summary of a comprehensive             Available on the ERS Web
             Nutrition Programs on Nutrition and   review and synthesis of published research on the impact of             site at
             Health                                USDA’s domestic food and nutrition assistance programs on               http://www.ers.usda.gov/publ
                                                   participants’ nutrition and health outcomes.                            ications/fanrr19-4/fanrr19-
                                                                                                                           4.pdf
                                                   Actions: This report did not contain recommendations for action by
                                                   USDA.
             WIC Food Packages: Time for a         Findings: USDA contracted with the Institute of Medicine to             Available on the FNS Web
             Change                                evaluate the WIC food packages, and to recommend cost-neutral           site at
                                                   changes to improve the package to better meet the nutrition needs       http://www.fns.usda.gov/oan
                                                   of WIC participants.                                                    e/MENU/Published/WIC/FIL
                                                                                                                           ES/Time4AChange(mainrpt).
                                                   Actions: The report recommended a range of WIC food package             pdf
                                                   changes. USDA published a proposed rule that reflects these
                                                   recommendations in August 2006.




USDA
 142         FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT
                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
11/15/2006 6:58 AM



    Objective                       Title                             Findings and Recommendations/Actions                                 Availability
  5.3                The Effect of Simplified Reporting   Findings: This analysis suggests that the simplified reporting           Available on the FNS Web
                     on Food Stamp Payment Accuracy       policies adopted by States in 2004 could have lowered error rates        site at
                                                          by 1.2 to 1.5 percentage points. Therefore, if all states adopted the    http://www.fns.usda.gov/oan
                                                          policy of simplified reporting, the payment error rate might improve     e/MENU/Published/FSP/FIL
                                                          further.                                                                 ES/ProgramIntegrity/Simplifi
                                                                                                                                   edReporting.pdf
                                                          Actions:
                                                                 This report does not contain recommendations for action
                                                          by USDA.
  6.1                OIG Report, September 5, 2006,       Findings: OIG recommended that NRCS terminate its FY 2004                Report is available at
                     OIG/10099-5-SF – Natural             FRPP cooperative agreements with the land trust, and deobligate          http://www.usda.gov/oig/web
                     Resources Conservation Service       $1,021.438. NRCS will consult with legal counsel to consider legal       docs/10099-05-SF.pdf
                     Farm and Ranch Lands Protection      remedies available concerning the trust’s material noncompliance
                     Program in Alabama                   with the appraisal requirements for the FY 2003 easement
                                                          transactions.
                                                          Actions: NRCS is requesting closure from OCFO and developing
                                                          Completion Plan to address pending management decisions.
  6.2 and            GAO Report, September 27, 2006,      Findings: GAO recommended that NRCS document its rationale for           Report is available at
  6.3                GAO/06-969 – USDA Should             the factors and weights for its general financial assistance formula     http://www.gao.gov/new.item
                     Improve Its Process for Allocating   and use current and accurate data. GAO also recommended that             s/d06969.pdf
                     Funds to States for the              NRCS continue to analyze current and newly developed long-term
                     Environmental Quality Incentives     performance measures for EQIP program and use the information
                     Program                              to make farther revisions to the financial assistance formula to
                                                          ensure funds are directed to areas of highest priority.
                                                          Actions: NRCS has taken proactive steps to address the concerns
                                                          of the report by contracting for an independent review of all NRCS
                                                          conservation program allocation formulas, including EQIP. NRCS
                                                          also continues to make significant improvements in implementing
                                                          performance measures for tracking the environmental benefits
                                                          produced through EQIP.
  6.3                OIG 08601-6-AT Implementation of     Findings: Develop and implement specific, national guidance              Report is available at
                     the Healthy Forests Initiative       for assessing risks of wildland fires in determining the benefits        http://www.usda.gov/oig/web
                     (September 2006)                     of fuels treatment and restoration projects.                             docs/08601-6-AT.pdf

                                                          Actions: The Forest Service will develop national guidance for
                                                          the Regions to use in assessing the risks from wildfires.
                                                          Findings: Establish controls to ensure that the process and
                                                          methodology to identify and prioritize the most effective fuels
                                                          reduction projects can be utilized at all levels.
                                                          Actions: The FS will establish controls to assist Regions in
                                                          identifying and prioritizing hazardous fuels projects. Elements
                                                          may include proximity to a community, fuel type, etc.
                                                          Findings: Establish controls to ensure funds are distributed
                                                          according to where the highest concentrations of priority
                                                          projects are located.
                                                          Actions: The agency is developing a regional fuels allocation
                                                          strategy that will link the regional funding and associated fuels
                                                          reduction projects.
                                                          Findings: Develop, implement more meaningful outcome-
                                                          oriented performance measures for reporting metrics.
                                                          Actions: The FS developed a core set of new performance
                                                          measures. One measure is “Number of acres maintained and
                                                          improved by treatment category and of those improved, the
                                                          percent that change condition class.




                                                                                                                                                          USDA
                                                                                   FY 2006 PERFORMANCE            AND      ACCOUNTABILITY REPORT           143
                                                ANNUAL PERFORMANCE REPORT




 Objective                 Title                           Findings and Recommendations/Actions                          Availability
6.3                                             Findings: Improve accomplishment reporting by including
(Cont’d)                                        more detailed information, such as breaking down
                                                accomplishments by region, and differentiating between initial
                                                and maintenance treatments and multiple treatments on the
                                                same acres.
                                                Actions: The FS will update its reporting systems and
                                                documents to include more detailed information on
                                                accomplishments.
6.4          GAO Report, April 28, 2006,        Findings: GAO recommended that NRCS review its state             Report is available at
             GAO/06-312 – Despite Cost          offices’ wildlife habitat assessment criteria and develop a      http://www.gao.gov/new.item
             Controls, Improved USDA            process to preclude and identify duplicate payments.             s/d06312.pdf
             Management Is Needed to Ensure
             Proper Payments and Reduce         Actions: NRCS has requested states to submit a copy their
             Duplication with Other Programs    wildlife habitat assessment criteria for all proposed CSP
                                                watersheds for FY 2007 for review by Deputy Administrator
                                                and National Biology Team. NRCS has created an automated
                                                system within the ProTracts contracting software to conduct a
                                                comparison between existing WHIP, AMA, and EQIP with
                                                CSOP application to reveal potential areas of overlapping
                                                practices to minimize duplication of payments.




USDA
 144         FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




        III.




                       Financial Statements, Notes, Supplemental and
                              Other Accompanying Information

Message from the Chief Financial Officer
USDA programs and activities affect every American, every day. Most of USDA’s
impact on average citizens involves food, fiber and natural resources. To facilitate these
programs, the Department is entrusted with a vast amount of the citizens’ resources.
These resources are invested in grants, supplemental payments, loans and assets. We
are keenly aware of the importance of this fiduciary responsibility and remain
committed to the performance and accountability mandates put forward by the
President and Congress.

This year, USDA sustained its unqualified audit opinion on the consolidated financial
statements. The Department’s receiving this performance benchmark is evidence of its
focus and progress toward accountability, internal controls and data integrity.

Through the individual leadership and collaborative efforts of USDA managers,
employees, business partners and other stakeholders, we made significant strides in
2006 advancing the Department’s record of excellence in financial management. Here
are some highlights:

    The Department met the requirements for compliance with The Office of Management and Budget Circular
    A-123, Management’s Responsibility for Internal Control, Appendix A. This appendix is comparable to Sarbanes-
    Oxley, Section 404 in the private sector. The circular covers the documentation, testing and remediation of internal
    controls. Although the Department received the option of a multi-year implementation to reach compliance, we
    decided that the potential additional cost and the delay in necessary remediation necessitated compliance within one
    year. Our compliance efforts found four areas of material weaknesses. The detail of the material weaknesses and the
    Secretary’s letter of assurance can be found in the Management’s Discussion and Analysis section of this document;
    USDA continues to be a sponsoring organization of shared services in the Federal Government. The economies of
    scale provided by shared services that support more than 130 agencies provide a vast savings to USDA and the other
    agencies served. These services are located at the National Finance Center (NFC) in New Orleans, Louisiana. In


                                                                                                                     USDA
                                                               FY 2006 PERFORMANCE    AND    ACCOUNTABILITY REPORT   145
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



    2005, Hurricane Katrina forced NFC employees to deploy to various areas of the U.S. under their Continuity of
    Operations Plan. Not only was the plan executed successfully, but NFC added two large agencies to their systems.
    Early this year, the 1,288-employee NFC returned to New Orleans in a logistically complex move that required
    precise coordination of business operations and employees’ personal needs. To further support hurricane issues,
    NFC selected the Federal Center in Denver, Colorado, as the primary location for information technology. The
    primary location will be managed remotely from New Orleans allowing NFC to remain one of southern Louisiana’s
    largest employers. It also will support the President’s Gulf Coast rebuilding plan;
    The Department continues to focus even more on improper payments. This issue includes incorrect payments and
    incorrect paperwork related to payments. This year, USDA’s largest program, the Food Stamp program, reported
    improper payments of 5.84 percent ($1.645 billion), a .04-percent decrease from the prior year. Additionally, the
    Wildlife Habitat Incentive, Grassland Reserve, Wetlands Reserve, Farm-Land Ranch and the Environmental
    Quality Incentive Programs demonstrated that the risk level for improper payment has been lowered substantially.
    However, FSA completed the measurement of several programs using a statistical sampling approach. FSA’s results
    indicated a substantial increase in improper payments, which are due mostly to incorrect or missing paperwork
    required for payment. A few programs are still implementing plans to fully estimate the amount of improper
    payments due to complex program design and/or layering in the payment processes. The programs and the error
    rates are listed in Appendix B of this report. The leaders of the mission areas and I take improper payments
    seriously;
    USDA has issued a Request for Proposal (RFP) for the modernization of its financial systems. The Department
    currently operates nine general ledger systems that either are no longer supported by their vendors or were developed
    internally. The objective of this RFP is to support a Department-wide solution that will be the foundation for all
    USDA financial operations. The new system also will be designed to support electronic document approvals,
    consolidated financial reporting incorporating the Transparency Act of 2006 and shared services with other
    Government agencies;
    USDA developed the USDA Strategic Plan for FY 2005 – 2010, which guides Department efforts to align strategic
    direction, operating budgets and performance measures to drive continued performance enhancements, and clear
    accountability throughout the organization; and
    The Department developed pandemic continuity of operations plans and agency disaster-recovery plans.
While we continue to make progress in financial management, we cannot give unqualified assurance of compliance with
the Federal Managers’ Financial Integrity Act, or the financial systems requirements of the Federal Financial
Management Improvement Act. However, we will continue to focus our teams to resolve these deficiencies. USDA is
committed to providing sound management of the resources under its stewardship, and communicating the performance
of its programs through this report. USDA’s results are due to the hard work and innovative leadership of skilled, career
employees. These employees take seriously their responsibility for the substantial resources entrusted to them by
Congress, and to perform this important work for the American people.



Charles R. Christopherson
Chief Financial Officer
November 15, 2006



USDA
  146       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




Report of the Office of Inspector General
This section is under development.




                                                                                                       USDA
                                                   FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   147
       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




                                             CONSOLIDATED BALANCE SHEET
                                           As of September 30, 2006 and 2005
                                                       (in millions)

                                                                                             2006           2005
        Assets:
        Intragovernmental:
            Fund Balance with Treasury (Note 3)                                          $    42,191    $    42,327
            Investments (Note 5)                                                                  81             69
            Accounts Receivable, Net (Note 6)                                                    246            712
            Other (Note 11)                                                                        -              1
          Total Intragovernmental                                                             42,518         43,109

          Cash and Other Monetary Assets (Note 4)                                                224            242
          Investments (Note 5)                                                                     3             15
          Accounts Receivable, Net (Note 6)                                                    8,635          9,442
          Loans Receivable and Related Foreclosed Property, Net (Note 7)                      77,791         75,176
          Inventory and Related Property, Net (Note 8)                                            55             29
          General Property, Plant, and Equipment, Net (Note 9)                                 4,905          4,885
          Other (Note 11)                                                                         98             86

        Total Assets (Note 2)                                                                134,229        132,984

          Stewardship PP&E (Note 10)

        Liabilities:
          Intragovernmental:
            Accounts Payable                                                                       7            821
            Debt (Note 13)                                                                    83,447         83,515
            Other (Note 15)                                                                   14,080         18,591
          Total Intragovernmental                                                             97,534        102,927

          Accounts Payable                                                                     4,170          4,292
          Loan Guarantee Liability (Note 7)                                                    1,296          1,214
          Debt Held by the Public (Note 13)                                                        -              1
          Federal Employee and Veterans Benefits                                                 808            834
          Environmental and Disposal Liabilities (Note 14)                                        63             28
          Other (Notes 15 & 16)                                                               20,082         21,710
          Total Liabilities (Note 12)                                                        123,953        131,006

          Commitments and Contingencies (Note 17)

        Net Position:
         Unexpended Appropriations                                                                 -         21,490
         Unexpended Appropriations - earmarked funds                                             976              -
         Unexpended Appropriations - other funds                                              25,409              -
         Cumulative Results of Operations                                                          -        (19,512)
         Cumulative Results of Operations - earmarked funds                                      518              -
         Cumulative Results of Operations - other funds                                      (16,627)             -
         Total Net Position                                                                   10,276          1,978

        Total Liabilities and Net Position                                               $ 134,229      $ 132,984



                                 The accompanying notes are an integral part of these statements.



USDA
148    FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT
      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                 CONSOLIDATED STATEMENT OF NET COST
                              For the Years Ended September 30, 2006 and 2005
                                                 (in millions)

                                                                                          2006                    2005

Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
  Gross Cost                                                                          $    31,841             $    41,909
  Less: Earned Revenue                                                                      6,979                  15,136
    Net Cost                                                                               24,862                  26,773

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
  Gross Cost                                                                                    7,048               5,358
  Less: Earned Revenue                                                                          3,980               4,344
    Net Cost                                                                                    3,068               1,014

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
 Gross Cost                                                                                     3,629               3,071
 Less: Earned Revenue                                                                             649                 630
    Net Cost                                                                                    2,980               2,441

Improve the Nation's Nutrition and Health:
  Gross Cost                                                                               53,064                  51,033
  Less: Earned Revenue                                                                         36                      46
    Net Cost                                                                               53,028                  50,987

Protect and Enhance the Nation's
Natural Resource Base and Environment:
 Gross Cost                                                                                12,592                  10,686
 Less: Earned Revenue                                                                       1,104                     888
   Net Cost                                                                                11,488                   9,798


Total Gross Costs                                                                         108,174                 112,057
Less: Total Earned Revenues                                                                12,748                  21,044

Net Cost of Operations (Note 19)                                                      $     95,426            $    91,013




                            The accompanying notes are an integral part of these statements.



                                                                                                                            USDA
                                                            FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT       149
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                       CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                             For the Years Ended September 30, 2006 and 2005
                                                                (in millions)
                                                                                             2006                                      2005
                                                        Earmarked              All Other                            Consolidated    Consolidated
                                                          Funds                 Funds               Eliminations       Total           Total
Cumulative Results of Operations:
 Beginning Balances                                     $        964       $      (20,476)          $          -    $    (19,512)   $     (7,174)

 Budgetary Financing Sources:
    Appropriations Used                                        3,184               91,765                      -         94,949          77,921
    Non-exchange Revenue                                           -                    2                      -              2               8
    Donations and Forfeitures of Cash and Equivalents              1                    -                      -              1               2
    Transfers In (Out) without Reimbursement                     915                2,694                      -          3,609             686
    Other                                                          -                    -                      -              -              (1)
 Other Financing Sources (Non-Exchange):
    Donations and Forfeitures of Property                          -                    -                      -              -              31
    Transfers In (Out) without Reimbursement                       -                 (544)                     -           (544)         (1,001)
    Imputed Financing                                             43                3,113                 (2,349)           807             833
    Other                                                          5                    -                      -              5             196
 Total Financing Sources                                       4,148               97,030                 (2,349)        98,829          78,675

 Net Cost of Operations                                       (4,594)             (93,181)                2,349          (95,426)        (91,013)

 Net Change                                                     (446)               3,849                      -          3,403          (12,338)

   Cummulative Results of Operations, Ending                     518              (16,627)                     -         (16,109)        (19,512)

Unexpended Appropriations:
 Beginning Balances                                              923               20,567                      -         21,490          22,158

 Budgetary Financing Sources:
   Appropriations Received                                     3,308               97,832                      -        101,140           80,697
   Appropriations transferred in/out                              (5)                 103                      -             98             (507)
   Other Adjustments                                             (66)              (1,328)                     -         (1,394)          (2,937)
   Appropriations Used                                        (3,184)             (91,765)                     -        (94,949)         (77,921)
 Total Budgetary Financing Sources                                53                4,842                      -          4,895             (668)

   Unexpended Appropriations, Ending                             976               25,409                      -         26,385          21,490

 Net Position                                           $      1,494       $        8,782           $          -    $    10,276     $     1,978




                                           The accompanying notes are an integral part of these statements.



USDA
 150            FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                         COMBINED STATEMENT OF BUDGETARY RESOURCES
                                            For the Years Ended September 30, 2006 and 2005
                                                               (in millions)

                                                                                2006                                          2005
                                                                                    Non-Budgetary                                 Non-Budgetary
                                                                                     Credit Reform                                 Credit Reform
                                                                 Budgetary        Financing Accounts           Budgetary        Financing Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1 (Note 24)       $     19,170           $      6,828           $    18,756            $    6,325
Recoveries of prior year unpaid obligations                            9,071                    941                 6,243                   559
Budget Authority -
 Appropriation                                                       109,856                      -                88,940                     -
 Borrowing Authority (Notes 22 & 23)                                  44,465                 12,608                45,357                10,886
 Earned -
   Collected                                                          23,265                  7,864                27,460                 8,576
   Change in receivables from Federal Sources                           (129)                   (29)                    -                  (113)
 Change in unfilled customer orders -
   Advances received                                                     299                      -                (1,383)                    -
   Without advance from Federal Sources                                   70                     11                    15                     2
 Expenditure transfers from trust funds                                1,050                      -                   899                     -
Nonexpenditure transfers, net, anticipated and actual                   (342)                     -                  (907)                    -
Permanently not available                                            (55,745)                (8,798)              (39,871)               (4,911)
Total Budgetary Resources                                            151,030                 19,425               145,509                21,324

Status of Budgetary Resources:
Obligations Incurred (Note 21) -
  Direct                                                              87,185                 15,710                82,879                14,496
  Reimbursable                                                        42,563                      -                43,460                     -
Unobligated Balance -
  Apportioned                                                          7,818                  1,625                 5,919                 5,672
  Exempt from Apportionment                                              771                      -                 1,262                     5
Unobligated balance not available                                     12,693                  2,090                11,989                 1,151
Total status of budgetary resources                                  151,030                 19,425               145,509                21,324

Change in Obligated Balances:
Obligated balance, net, brought forward October 1 (Note 24)           26,555                 18,202                 21,010                17,136
Obligations incurred                                                 129,748                 15,710                126,339                14,496
Gross outlays                                                       (120,756)               (14,089)              (114,536)              (12,982)
Recoveries of prior year unpaid                                       (9,071)                  (941)                (6,243)                 (559)
Change in uncollected payments from Federal Sources                       59                     18                    (15)                  111
Obligated balance, net, end of period -
 Unpaid obligations (Note 28)                                         28,881                 19,722                28,961                19,042
 Uncollected customer payments from Federal Sources                   (2,344)                  (822)               (2,406)                 (840)
 Obligated balance, net, end of period                                26,537                 18,900                26,555                18,202

Net Outlays:
 Gross outlays                                                       120,756                 14,089               114,536                12,982
 Offsetting collections                                              (24,612)                (7,864)              (26,976)               (8,576)
 Distributed offsetting receipts                                      (1,708)                  (987)               (1,445)                 (722)
 Net Outlays                                                    $     94,436           $      5,238           $    86,115            $    3,684




                                          The accompanying notes are an integral part of these statements.



                                                                                                                                            USDA
                                                                          FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT            151
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                                CONSOLIDATED STATEMENT OF FINANCING
                                              For the Years Ended September 30, 2006 and 2005
                                                                 (in millions)

                                                                                                                     2006           2005
       Resources Used to Finance Activities:
       Budgetary Resources Obligated -
          Obligations Incurred                                                                                   $ 145,458      $ 140,835
          Less: Spending authority from offsetting collections and recoveries                                       42,413         42,258
          Obligations net of offsetting collections and recoveries                                                 103,045         98,577
          Less: Offsetting receipts                                                                                  2,695          2,167
          Net Obligations                                                                                          100,350         96,410

       Other Resources -
          Donations and forfeitures of property                                                                            -             31
          Transfers in(out) without reimbursement                                                                       (544)        (1,001)
          Imputed financing from costs absorbed by others                                                                807            833
          Other                                                                                                            5            196
          Net other resources used to finance activities                                                                 268             59

          Total resources used to finance activities                                                                 100,618        96,469

       Resources Used to Finance Items not Part of the Net Cost of Operations:
          Change in undelivered orders                                                                                  (840)        (2,192)
          Resources that fund expenses recognized in prior periods                                                      (812)          (432)
          Budgetary offsetting collections and receipts that do not affect net cost of operations -
           Credit program collections which increase liabilities for loan guarantees or allowances for subsidy        12,067         14,921
           Other                                                                                                       7,811         10,968
          Resources that finance the acquisition of assets                                                           (28,444)       (31,208)
          Other resources or adjustments to net obligated resources that do not affect net cost of operations         (1,860)          (932)

          Total resources used to finance items not part of the net cost of operations                               (12,078)        (8,875)

          Total resources used to finance the net cost of operations                                                  88,540        87,594

       Components of the Net Cost of Operations that will not Require or Generate
       Resources in the Current Period:
       Components Requiring or Generating Resources in Future Periods -
          Increase in annual leave liability                                                                              43              -
          Increase in environmental and disposal liability                                                                35              -
          Upward/Downward reestimates of credit subsidy expense                                                          650         (1,853)
          Increase in exchange revenue receivable from the public                                                       (377)        (7,791)
          Other                                                                                                           95          7,456
          Total components of Net Cost of Operations that will require or generate
           resources in future periods (Note 29)                                                                        446          (2,188)

       Components not Requiring or Generating Resources -
         Depreciation and amortization                                                                                   375           524
         Revaluation of assets or liabilities                                                                            (53)         (525)
         Other                                                                                                         6,118         5,608
         Total components of Net Cost of Operations that will not require or generate resources                        6,440         5,607

          Total components of Net Cost of Operations that will not require or generate
           resources in the current period                                                                             6,886         3,419

          Net Cost of Operations                                                                                 $    95,426    $   91,013




                                           The accompanying notes are an integral part of these statements.


USDA
152          FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




Notes to the Consolidated Financial Statements
As of September 30, 2006 and 2005
(in millions)


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
Organization
The Department of Agriculture (USDA) provides a wide variety of services in the United States and around the world.
USDA is organized into seven distinct mission areas and agencies that execute these missions.

Listed below are the missions and the agencies within each mission including four Government corporations:

Farm and Foreign Agricultural Services (FFAS)
        Farm Service Agency (FSA)
     Commodity Credit Corporation (CCC)
        Foreign Agricultural Service (FAS)
        Risk Management Agency (RMA)
     Federal Crop Insurance Corporation (FCIC)
Food, Nutrition, and Consumer Services (FNCS)
        Food and Nutrition Service (FNS)

Food Safety
        Food Safety and Inspection Service (FSIS)

Marketing and Regulatory Programs (MRP)
        Agricultural Marketing Service (AMS)
        Animal and Plant Health Inspection Service (APHIS)
        Grain Inspection, Packers and Stockyards Administration (GIPSA)

Natural Resources and Environment (NRE)
        Forest Service (FS)
        Natural Resources Conservation Service (NRCS)

Research, Education, and Economics (REE)
        Agricultural Research Service (ARS)
        Cooperative State Research, Education, and Extension Service (CSREES)
        Economic Research Service (ERS)
        National Agricultural Statistics Service (NASS)



                                                                                                               USDA
                                                           FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   153
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Rural Development
        Rural Development (RD)
     Rural Telephone Bank (RTB) – a corporation
     Alternative Agricultural Research and Commercialization Corporation (AARC)
With the passage of the 2006 Agriculture, Rural Development, Food and Drug Administration, and Related Agencies
Appropriation Act, Public Law No. 109-97, the legal restriction on redeeming Government-owned Class A stock was
removed for RTB. As a result of this change, the process of liquidation and dissolution of the RTB began. During FY
2008 RTB will be dissolved in its entirety and will no longer be a reportable entity.

Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental activity and balances are
eliminated, except for the Statement of Budgetary Resources that is presented on a combined basis. The financial
statements are prepared in accordance with generally accepted accounting principles for the Federal Government.

Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year presentation.

Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the
amounts reported in the financial statements and accompanying notes. Actual results could differ from those estimates.

Revenue and Other Financing Sources
Revenue from exchange transactions is recognized when persuasive evidence of an arrangement exists, delivery has
occurred or services have been rendered, sales price is fixed or determinable, and collection is reasonably assured. In
certain cases, the prices charged by the Department are set by law or regulation, which for program and other reasons
may not represent full cost. Prices set for products and services offered through the Department’s working capital funds
are intended to recover the full costs incurred by these activities. Revenue from non-exchange transactions is recognized
when a specifically identifiable, legally enforceable claim to resources arises, to the extent that collection is probable and
the amount is reasonably estimable. Appropriations are recognized as a financing source when used. An imputed fi-
nancing source is recognized for costs subsidized by other Government entities.

Investments
The Department is authorized to invest certain funds in excess of its immediate needs in Treasury securities.
Investments in non-marketable par value Treasury securities are classified as held to maturity and are carried at cost.
Investments in market-based Treasury securities are classified as held to maturity and are carried at amortized cost. The
amortized cost of securities is based on the purchase price adjusted for amortization of premiums and accretion of
discounts using the straight-line method over the term of the securities.

Accounts Receivable
Accounts receivable are reduced to net realizable value by an allowance for uncollectible accounts. The adequacy of the
allowance is determined based on past experience and age of outstanding balances.



USDA
  154         FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after fiscal 1991 are reported based on the present value of the net
cash-flows estimated over the life of the loan or guarantee. The difference between the outstanding principal of the loans
and the present value of their net cash inflows is recognized as a subsidy cost allowance; the present value of estimated
net cash outflows of the loan guarantees is recognized as a liability for loan guarantees. The subsidy expense for direct or
guaranteed loans disbursed during the year is the present value of estimated net cash outflows for those loans or
guarantees. A subsidy expense also is recognized for modifications made during the year to loans and guarantees
outstanding and for reestimates made as of the end of the year to the subsidy allowances or loan guarantee liability for
loans and guarantees outstanding.
Direct loans obligated and loan guarantees committed before fiscal 1992 are valued using the present-value method.
Under the present-value method, the outstanding principal of direct loans is reduced by an allowance equal to the
difference between the outstanding principal and the present value of the expected net cash flows. The liability for loan
guarantees is the present value of expected net cash outflows due to the loan guarantees.

Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for a fee are valued on the
basis of historical cost using a first-in, first-out method. Commodities are valued at the lower of cost or net realizable
value using a weighted average method.

Property, Plant and Equipment
Property, plant and equipment (PP&E) are stated at cost less accumulated depreciation. Depreciation is determined
using the straight-line method over the estimated useful lives of the assets. Useful lives for PP&E are disclosed in Note
9. Capitalization thresholds for personal property and real property are $25,000, and $100,000 for internal use software.

Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is recognized at the time the
employees’ services are rendered. The expense is equal to the actuarial present value of benefits attributed by the pension
plan’s benefit formula, less the amount contributed by the employees. An imputed cost is recognized for the difference
between the expense and contributions made by and for employees.

Other Post-employment Benefits
Other post-employment benefits expense for former or inactive (but not retired) employees is recognized when a future
outflow or other sacrifice of resources is probable and measurable on the basis of events occurring on or before the
reporting date. The liability for long-term other post-employment benefits is the present value of future payments.

Earmarked Funds
In accordance with SFFAS 27, Identifying and Reporting Earmarked Funds, which became effective in FY 2006, the
USDA has reported the earmarked funds for which it has program management responsibility when the following three
criteria are met: (1) a statute committing the Federal Government to use specifically identified revenues and other
financing sources only for designated activities, benefits or purposes; (2) explicit authority for the earmarked fund to
retain revenues and other financing sources not used in the current period for future use to finance the designated
activities, benefits or purposes; and (3) a requirement to account for and report on the receipt, use, and retention of the



                                                                                                                    USDA
                                                              FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT      155
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



revenues and other financing sources that distinguishes the earmarked fund from the Government’s general revenues. In
accordance with SFFAS 27, the USDA did not restate FY 2005. In FY 2005, these funds were considered to be
dedicated collections.

Stewardship PP&E
SFFAS 29, Heritage Assets and Stewardship Land, was issued in July 2005. SFFAS 29 reclassified all heritage assets
and stewardship land information as basic except for condition information, which is classified as RSI. The
reclassification as basic is being phased in per SFFAS 29. Heritage assets and stewardship land information that was
previously reported in RSSI will temporarily shift to RSI until it moves to a note on the balance sheet as basic
information. The phase-in of disclosure requirements being reported as basic information provides that SFFAS 29 will
be fully implemented for reporting periods beginning after September 30, 2008.

Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a future outflow or other
sacrifice of resources is probable, and the future outflow or sacrifice of resources is measurable.
Limitations of the Financial Statements
The financial statements report the financial position and results of operations of the entity, pursuant to the
requirements of 31 U.S.C. 3515(b).

While the statements have been prepared from the books and records of the entity in accordance with the formats
prescribed by the Office of Management and Budget (OMB), they also are used to monitor and control budgetary
resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S. Government, a sovereign
entity. Thus, liabilities cannot be liquidated without enabling legislation that provides resources to do so.




USDA
  156       FY 2006 PERFORMANCE    AND    ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 2. NON-ENTITY ASSETS
Non-entity assets include proceeds from the sale of timber payable to Treasury, employer contributions and payroll taxes
withheld for agencies serviced by the National Finance Center, property taxes and insurance for single family housing,
and interest, fines and penalties.
                                                                                 FY 2006                  FY 2005
               Intragovernmental:
                 Fund balance with Treasury                                  $             37         $          140
                 Accounts Receivable                                                       17                       1
               Subtotal Intragovernmental                                                  54                    141

               With the Public:
                 Cash and other monetary assets                                            98                       91
                 Accounts receivable                                                       32                       81
               Subtotal With the Public                                                  130                     172

               Total non-entity assets                                                   184                     313

               Total entity assets                                                 134,045                  132,671

               Total assets                                                  $     134,229            $     132,984




NOTE 3. FUND BALANCE WITH TREASURY
Other Fund Types include special, deposit, and clearing accounts. Clearing Account Balances including suspense
accounts are awaiting disposition or reclassification. Borrowing Authority not yet Converted to Fund Balance represents
un-obligated and obligated amounts recorded at year-end that will be funded by future borrowings.
                                                                                         FY 2006                 FY 2005
           Fund Balances:
              Trust Funds                                                            $             551       $          759
              Revolving Funds                                                                    5,227               11,011
              Appropriated Funds                                                                36,061               30,009
              Other Fund Types                                                                     352                  548
           Total                                                                                42,191               42,327


           Status of Fund Balance with Treasury:
           Unobligated Balance:
              Available                                                                         11,108               12,630
              Unavailable                                                                       13,147               11,870
           Obligated Balance not yet Disbursed                                                  26,011               26,357
           Clearing Account Balances                                                                16                  170
           Borrowing Authority not yet Converted to Fund Balance                                (8,091)              (8,700)
           Total                                                                     $          42,191       $       42,327




                                                                                                                               USDA
                                                                   FY 2006 PERFORMANCE     AND   ACCOUNTABILITY REPORT         157
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 4. CASH AND OTHER MONETARY ASSETS
In fiscal 2006 and 2005, cash includes Federal crop insurance escrow amounts of $90 million and $65 million, funds
held in escrow for single family housing borrowers of $98 million and $90 million, and other receipts of $36 million and
$87 million, respectively. The other receipts of $87 million in fiscal 2005 include $26 million of interest-bearing
deposits.
                                                                                    FY 2006                    FY 2005


                      Cash                                                      $              224         $         242




NOTE 5. INVESTMENTS
           FY 2006                                                        Unamortized                                         Market
                                         Amortization                         Premium/               Investments,              Value
                                           Method             Cost            (Discount)                 Net                 Disclosure
           Intragovernmental:
             Non-marketable
               Par value                                  $          76   $                -         $         76        $                -
               Market-based               Straight Line              5                     -                    5                         5
           Total                                          $          81   $                -         $         81        $                5
           With the Public:
             AARC                                         $          3    $                -         $          3        $                3
           Total                                          $          3    $                -         $          3        $                3




           FY 2005                                                        Unamortized                                         Market
                                         Amortization                         Premium/               Investments,              Value
                                           Method             Cost            (Discount)                 Net                 Disclosure
           Intragovernmental:
             Non-marketable
               Par value                                  $          64   $                -         $         64        $                -
               Market-based               Straight Line              5                     -                    5                         5
           Total                                          $          69   $                -         $         69        $                5


           With the Public:
             AARC                                         $          15                    -         $         15        $             15
           Total                                          $          15   $                -         $         15        $             15




USDA
  158       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 6. ACCOUNTS RECEIVABLE, NET
                       FY 2006
                                                     Accounts         Allowance for             Accounts
                                                   Receivable,         Uncollectible          Receivable,
                                                      Gross             Accounts                  Net
                      Intragovernmental            $       246        $             -         $       246
                      With the Public                    8,732                    97                8,635
                      Total                        $     8,978        $           97          $     8,881

                       FY 2005
                                                     Accounts         Allowance for             Accounts
                                                   Receivable,         Uncollectible          Receivable,
                                                      Gross             Accounts                  Net
                      Intragovernmental            $       712        $             -         $       712
                      With the Public                    9,607                   165                9,442
                      Total                        $    10,319        $          165          $    10,154



NOTE 7. DIRECT LOANS AND GUARANTEES, NON-FEDERAL BORROWERS
Direct Loans
Direct loan obligation or loan guarantee commitments made pre-1992 and the resulting direct loans or loan guarantees
are reported at net present value.

Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit Reform Act of 1990 as
amended governs the resulting direct loan or loan guarantees. The Act requires agencies to estimate the cost of direct
loans and loan guarantees at present value for the budget. Additionally, the present value of the subsidy costs (i.e.
interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other cash flows) associated with
direct loans and loan guarantees are recognized as a cost in the year the loan or loan guarantee is disbursed. The net
present value of loans or defaulted guaranteed loans receivable at any point in time is the amount of the gross loan or
defaulted guaranteed loans receivable less the present value of the subsidy at that time.

The net present value of Loans Receivable and Related Foreclosed Property, Net is not necessarily representative of the
proceeds that might be expected if these loans were sold on the open market.

Loans Receivable and Related Foreclosed Property, Net at the end of FY 2006 was $77,791 million compared to
$75,176 million at the end of FY 2005. Loans exempt from the Federal Credit Reform Act of 1990 represent $1,381
million of the total compared to $1,057 million in FY 2005. Table 1 illustrates the overall composition of the
Department’s credit program balance sheet portfolio by mission area and credit program for FY 2006 and 2005.

During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is adjusted by the value of
the subsidy cost allowance held against those loans. Current year subsidy expense, modifications and reestimates all
contribute to the change of the subsidy cost allowance through the year. The subsidy cost allowance moved from $4,674



                                                                                                                       USDA
                                                                 FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT     159
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



million to $5,090 million during FY 2006, an increase of $416 million. Table 2 shows the reconciliation of subsidy cost
allowance balances from FY 2005 to FY 2006.

Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the current year,
modifications to existing loans, and interest rate and technical reestimates to existing loans. Total direct loan subsidy
expense in FY 2006 was $717 million compared to negative $783 million in FY 2005. Table 3 illustrates the breakdown
of total subsidy expense for FY 2006 and 2005 by program.

Direct loan volume increased from $7,740 million in FY 2005 to $8,875 million in FY 2006. Volume distribution
between mission area and program is shown in Table 4.

Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up to 95 percent of the
principal loan amount. Under the guaranteed loan programs, the lender is responsible for servicing the borrower's
account for the life of the loan. The Department, however, is responsible for ensuring borrowers meet certain qualifying
criteria to be eligible and monitoring the lender's servicing activities. Borrowers interested in guaranteed loans must
apply to a conventional lender, which then arranges for the guarantee with a Department agency. Estimated losses on
loan and foreign credit guarantees are reported at net present value as Loan Guarantee Liability. Defaulted guaranteed
loans are reported at net present value as Loans Receivable and Related Foreclosed Property, Net.

Guaranteed loans outstanding at the end of FY 2006 were $33,419 million in outstanding principal and $29,643 million
in outstanding principal guaranteed, compared to $34,072 and $30,269 million, respectively at the end of FY 2005.
Table 5 shows the outstanding balances by credit program.

During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability held
against those loans. Current year subsidy expense, modification and reestimates all contribute to the change of the loan
guarantee liability through the year. The loan guarantee liability is a combination of the liability for losses on pre-1992
guarantees and post-1991 guarantees. Table 6 shows that total liability moved from $1,214 million to $1,296 million
during FY 2006, an increase of $82 million. The post-1991 liability moved from $1,210 million to $1,294 million, an
increase of $84 million. Table 7 shows the reconciliation of loan guarantee liability post-1991 balances and the total loan
guarantee liability.

Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed loans disbursed in the
current year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total
guaranteed loan subsidy expense in FY 2006 was negative $64 million compared to negative $222 million in FY 2005.
Table 8 illustrates the breakdown of total subsidy expense for FY 2006 and 2005 by program.

Guaranteed loan volume decreased from $8,987 million in FY 2005 to $7,394 million in FY 2006. Volume distribution
between mission area and program is shown in Table 9.

Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission area through the FSA
and the CCC, and in the RD mission area.




USDA
  160       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



The Farm and Foreign Agricultural Services (FFAS) Mission Area
The FFAS mission area helps keep America's farmers and ranchers in business as they face the uncertainties of weather
and markets. FFAS delivers commodity, credit, conservation, disaster and emergency assistance programs that help
strengthen and stabilize the agricultural economy. FFAS contributes to the vitality of the farm sector with programs that
encourage the expansion of export markets for U.S. agriculture.

FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private, commercial credit and
nonprofit entities that are engaged in the improvement of the nation's agricultural community. Often, FSA borrowers
are beginning farmers who cannot qualify for conventional loans due to insufficient financial resources. Additionally, the
agency helps established farmers who have suffered financial setbacks from natural disasters, or have limited resources to
maintain profitable farming operations. FSA officials also provide borrowers with supervision and credit counseling.

FSA's mission is to provide supervised credit. FSA works with each borrower to identify specific strengths and
weaknesses in farm production and management, and provides alternatives to address weaknesses. FSA is able to provide
certain loan servicing options to assist borrowers whose accounts are distressed or delinquent. These options include
reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements, and debt write-downs. The
eventual goal of FSA's farm credit programs is to graduate its borrowers to commercial credit.

CCC's foreign programs provide economic stimulus to both the U.S. and foreign markets, while also giving
humanitarian assistance to the most-needy people throughout the world. CCC offers both guarantee credit and direct
credit programs for buyers of U.S. exports, suppliers, and sovereign countries in need of food assistance.

CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The Club is an
internationally recognized organization under the leadership of the French Ministry of Economics and Finance. Its sole
purpose is to assess, on a case-by-case basis, liquidity problems faced by the world's most severely economically
disadvantaged countries. The general premise of the Club's activities is to provide disadvantaged nations short-term
liquidity relief to enable them to re-establish their credit worthiness. The Departments of State and Treasury lead the
U.S. Delegation and negotiations for all U.S. Agencies.

Farm and Foreign Agricultural Service List of Programs
                                    Farm Service Agency               Commodity Credit Corporation
                            Direct Farm Ownership                 Guaranteed Sales Manager Credit
                            Direct Farm Operating                 Program
                            Direct Emergency Loans                Supplier Credit Guarantee Program
                            Direct Indian Land Acquisition        Facility Program Guarantee
                            Direct Boll Weevil Eradication        P.L. 480 Title 1 Program
                            Direct Seed Loans to Producers        Direct Farm Storage Facility
                            Guaranteed Farm Operating             Direct Sugar Storage Facilities
                            Subsidized/Unsubsidized
                            Agricultural Resource Demonstration
                            Fund
                            Bureau of Reclamation Loan Fund
                            Guaranteed Farm Ownership
                            Unsubsidized




                                                                                                                        USDA
                                                                  FY 2006 PERFORMANCE     AND   ACCOUNTABILITY REPORT   161
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



The Rural Development (RD) Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or improve the quality of rural
housing. To leverage the impact of its programs, RD is working with State, local and Indian tribal Governments, as well
as private and not-for-profit organizations and user-owned cooperatives.

Through its rural housing loan and grant programs, RD provides affordable housing and essential community facilities
to rural communities. Rural housing programs help finance new or improved housing for moderate, low, and very low-
income families each year. The programs also help rural communities finance, construct, enlarge or improve fire stations,
libraries, hospitals and medical clinics, industrial parks, and other community facilities.

The Rural Business Program goal is to promote a dynamic business environment in rural America. RD partners with the
private sector and community-based organizations to provide financial assistance and business planning. It also provides
technical assistance to rural businesses and cooperatives, conducts research into rural economic issues, and provides
cooperative educational materials to the public.

The Rural Utilities Program helps to improve the quality of life in rural America through a variety of loan programs for
electric energy, telecommunications, and water and environmental projects. This program leverages scarce Federal funds
with private capital for investing in rural infrastructure, technology and development of human resources.

RD programs provide certain loan servicing options to borrowers whose accounts are distressed or delinquent. These
options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements and debt
write-downs. The choice of servicing options depends on the loan program and the individual borrower.

Rural Development List of Programs
                 Rural Housing Program                        Rural Business Program                   Rural Utilities Program
   Home Ownership Direct Loans                          Business and Industry Direct Loans   Water and Environmental Direct Loans
   Home Ownership Guaranteed Loans                      Business and Industry Guaranteed     Water and Environmental Guaranteed
   Home Improvement and Repair Direct Loans             Loans                                Loans
   Home Ownership and Home Improvement and              Intermediary Relending Program       Electric Direct Loans
   Repair Nonprogram Loans                              Direct Loans                         Electric Guaranteed Loans
   Rural Housing Site Direct Loans                      Rural Economic Development Direct    Telecommunications Direct Loans
   Farm Labor Housing Direct Loans                      Loans                                Rural Telephone Bank
   Rural Rental and Rural Cooperative Housing Loans                                          Federal Financing Bank-
   Rental Housing Guaranteed Loans                                                           Telecommunications Guaranteed
   Multi-family Housing–Nonprogram–Credit Sales                                              Distance Learning and Telemedicine Direct
   Community Facilities Direct Loans                                                         Broadband Telecommunications Services
   Community Facilities Guaranteed Loans


Discussion of Administrative Expenses, Subsidy Costs and Subsidy Rates
Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses for FY 2006 and 2005 are shown in Table 10.
Reestimates, Default Analysis, and Subsidy Rates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary accounting treatment of
direct and guaranteed loans. The long-term cost to the Government for direct loans or loan guarantees is referred to as
"subsidy cost." Under the act, subsidy costs for loans obligated beginning in FY 1992 are recognized at the net present



USDA
  162         FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



value of projected lifetime costs in the year the loan is disbursed. Subsidy costs are revalued annually. Components of
subsidy include interest subsidies, defaults, fee offsets, and other cash flows.

Rural Development’s cash flow models are tailored for specific programs based on unique program characteristics. The
models utilized are housing, guaranteed, and a direct model that covers the remaining portfolio with similar
characteristics. Actual budgetary reestimates lag a year behind while the approximator method is used for financial
statement purposes. For example, the FY 2005 and FY 2004 actual budgetary reestimates were recorded as of
September 30, 2006 and 2005, respectively. The two exceptions to the method are the single family and multi-family
housing programs whose reestimates are recorded in the current fiscal year.

The annual reestimate process updates the budget assumptions with actual portfolio performance, interest rates and
updated estimates for future loan performance. The FY 2006 reestimate process resulted in a $353 million increase in
the post 1991 estimated cost of the direct loan portfolio and a $269 million reduction in the post 1991 estimated cost of
the guaranteed loan portfolio.
Table 3 discloses the direct loan subsidy expense including the $353 million increase due to reestimates. The increase
was most affected by a $798 million increase in the housing program and $253 million reduction in the electric program.
The housing FY 2006 upward reestimates was largely due to model and data assumption changes that were
implemented during the current fiscal year. These changes reversed the large decrease reported during FY 2005. The
reduction in the electric program was due to differences between the Treasury discount rate and the borrower interest
rate varying from the original assumptions in the Federal Financing Bank electric loan cohort and Underwriters cohort.
In conjunction, the borrower rate and payment consistency contributed to the Government cost savings and reduced
subsidy expense.

Table 8 discloses the loan guarantee subsidy expenses including the $269 million reduction due to reestimate. The
reduction was most impacted by the $348 million reduction in the export programs. After analyzing foreign credits
government-wide, OMB determined that actual performance on foreign credits was better than had been previously
forecast and therefore mandated a change to the default calculation methodology. This is a major contributor to the
significant downward subsidy reestimates for the export program.

Based on sensitivity analysis conducted for each cohort or segment of a loan portfolio, the difference between the
budgeted and actual interest for both borrower and Treasury remain the key components for the subsidy formulation
and reestimate rates of many USDA direct programs. USDA uses the Government-wide interest rate projections
provided by the Office of Management and Budget (OMB) in order to do its calculations and analysis.

The Inter-agency Country Risk Assessment System is a Federal interagency effort chaired by OMB under the authority
of the Federal Credit Reform Act of 1990 as amended. The system provides standardized risk assessment and budget
assumptions for all direct credits and credit guarantees provided by the Government, to foreign borrowers. Sovereign
and non-sovereign lending risks are sorted into risk categories, each associated with a default estimate.

The CCC delinquent debt is estimated at 100-percent allowance. When the foreign borrower reschedules their debt and
renews their commitment to repay CCC, the allowance is estimated at less than 100 percent.

Subsidy rates are used to compute each year's subsidy expenses as disclosed above. The subsidy rates disclosed in Tables
11 and 12 pertain only to the FY 2006 and 2005 cohorts. These rates cannot be applied to the direct and guaranteed



                                                                                                                   USDA
                                                              FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      163
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



loans disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for new loans
reported in the current year could result from disbursements of loans from both current year cohorts and prior-year
cohorts. The subsidy expense reported in the current year also includes reestimates.
As a result of new guidance provided by the credit reform Treasury certificate training class, CCC chose to reflect
interest on downward reestimates in the Statement of Changes in Net Position as other financing sources for FY 2006
and 2005, respectively. The remainder of USDA credit programs chose to reflect downward reestimates in earned
revenue on the Statement of Net Cost. Both methodologies are accepted alternatives that have been promulgated by
Treasury.
Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties associated with loans are
reported at their market value at the time of acquisition. The projected future cash flows associated with acquired
properties are used in determining the related allowance (at present value).
As of September 30, 2006 and 2005, foreclosed property consisted of 530 and 587 rural single-family housing dwellings,
with an average holding period of 27 and 26 months, respectively. As of September 30, 2006 and 2005, FSA-Farm
Loan Program properties consist primarily of 78 and 100 farms, respectively. The average holding period for these
properties in inventory for FY 2006 and 2005 was 58 and 57 months, respectively. Certain properties can be leased to
eligible individuals.
Non-performing Loans
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on rescheduling
agreements until such time two consecutive payments have been made following the rescheduling.
When RD, FSA and CCC calculate loan interest income, however, the recognition of revenue is deferred. Late interest
is accrued on arrears.
Loan Modifications
A modification is any Government action different from the baseline assumptions that affects the subsidy cost, such as a
change in the terms of the loan contract. The cost of a modification is the difference between the present value of the
cash flows before and after the modification.
In FY 2006, Rural Development modified several loan programs. The multiple-family housing direct loan program was
modified due to the revitalization project. The revitalization project is used to rehabilitate ailing housing developments.
In this program, Rural Development determines whether the development owner should be offered a financial
restructuring plan and what type of incentives, if any, should be offered to the owner to rehabilitate an ailing housing
development and to provide affordable rents for tenants who live in such projects that are revitalized.
The electric program direct loans have been modified for two borrowers due to damage caused by the hurricanes which
occurred during the 2005 calendar year. One borrower’s loans were modified to defer principal payments for three years
and to extend the loan term for three years. The other modification was made to defer principal and interest for five
years and to extend the maturity by five years.
The guaranteed single-family housing loan programs were modified to enable eligible delinquent borrowers that were
impacted by the hurricanes which occurred during the 2005 calendar year to receive a one-time advance from their loan
servicer in an amount equal to not more than 12 months past due mortgage payments. Loan servicers are reimbursed by
Rural Development and the borrower is required to repay Rural Development.



USDA
  164         FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                  FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



To determine the cost of the above modifications, the most recently approved President's budget was used for the net
present value discount factor for the premodification cash flow, which was FY 2006. The post modification cash flows
are discounted at the net present value discount factor for the FY 2004 Reestimates for the respective cohort.
The Debt Reduction Fund is used to account for CCC's "modified debt." Debt is considered to be modified if the
original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is "rescheduled,"
only the date of payment is changed. Rescheduled debt is carried in the original fund until paid. All outstanding CCC
modified debt is carried in the Debt Reduction Fund and is governed by the Federal Credit Reform Act of 1990 as
amended.
There was one loan modification effected in FY 2005. A Forest Conservation Agreement between the Government of
Jamaica and the Government of the United States, signed September 21, 2004, which resulted in a reduction of debt in
the amount of $6.5 million. No gain or loss was recognized.
Interest Credit
Approximately $17.9 and $18.2 billion of RHS unpaid loan principal as of September 30, 2006, and 2005 were receiving
interest credit, respectively. If those loans receiving interest credit had accrued interest at the full-unreduced rate, interest
income would have been approximately $1.0 and $1.1 billion higher for FY 2006 and 2005, respectively.
Restructured Loans
At the end of FY 2006 and 2005, the RD portfolio contained approximately 81 and 80 thousand restructured loans with
an outstanding unpaid principal balance of $2.6 billion. At the end of FY 2006 and 2005, the farm loan portfolio
contained approximately 23 and 25 thousand restructured loans with an outstanding unpaid principal balance of $1.3
and $1.4 billion, respectively. Direct credit and credit guarantee principal receivables in the food aid and export
programs under rescheduling agreements as of September 30, 2006 and 2005, were $4.2 and $5.5 billion, respectively.




                                                                                                                        USDA
                                                                 FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT       165
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 1. Total Loans Receivable and Related Foreclosed Property, Net
FY 2006                                            Loans                                   Present       Value of Assets
Direct Loans                                     Receivable,    Interest     Foreclosed     Value          Related to
                                                   Gross       Receivable     Property    Allowance       Direct Loans
Obligated Pre-1992
  Farm                                           $    1,981        $   133   $      13    $      (174)   $        1,953
  Export                                                  -              -           -              -                 -
  Food Aid                                            5,600             68           -         (2,570)            3,098
  Housing                                            11,666            101          16         (5,212)            6,571
  Electric                                           11,969             25           -         (1,460)           10,534
  Telecommunications                                  1,239              2           -            (79)            1,162
  Water and Environmental                             1,568             16           -           (216)            1,368
  Business and Industry                                   1              1           -             (1)                1
  Economic Development                                   44              -           -            (22)               22
Pre-1992 Total                                       34,068            346          29         (9,734)           24,709
Obligated Post-1991
  Farm                                                4,692            152           4           (642)            4,206
  Export                                                  -              -           -              -                 -
  Food Aid                                            2,548             34           -         (1,249)            1,333
  Housing                                            15,145             87          16         (2,099)           13,149
  Electric                                           22,237              3           -           (240)           22,000
  Telecommunications                                  2,718              5           -             77             2,800
  Water and Environmental                             7,104             73           -           (663)            6,514
  Business and Industry                                  70              -           -            (67)                3
  Economic Development                                  488              2           -           (162)              328
Post-1991 Total                                      55,002            356          20         (5,045)           50,333
Total Direct Loan Program Receivables                89,070            702          49        (14,779)           75,042
Defaulted Guarantee Loans
 Pre-1992
    Farm                                                  8             -            -            (6)                 2
    Export                                              516             7            -          (137)               386
    Food Aid                                              -             -            -             -                  -
    Housing                                               -             -            -             -                  -
    Electric                                              -             -            -             -                  -
    Telecommunications                                    -             -            -             -                  -
    Water and Environmental                               -             -            -             -                  -
    Business and Industry                                 -             -            -             -                  -
    Economic Development                                  4             -            -             -                  4
 Pre-1992 Total                                         528             7            -          (143)               392
  Post-1991
    Farm                                                 36             1            -           (22)                15
    Export                                            1,189            20            -          (406)               803
    Food Aid                                              -             -            -             -                  -
    Housing                                              17             -            -           (14)                 3
    Electric                                              -             -            -             -                  -
    Telecommunications                                    -             -            -             -                  -
    Water and Environmental                               -             -            -             -                  -
    Business and Industry                               162             2            -            (9)               155
    Economic Development                                  -             -            -             -                  -
  Post-1991 Total                                     1,404            23            -          (451)               976
Total Defaulted Guarantee Loans                       1,932            30            -          (594)             1,368
Loans Exempt from Credit Reform Act:
  Commodity Loans                                     1,493              -           -          (132)             1,361
  Other Foreign Receivables                              62              -           -           (42)                20
Total Loans Exempt                                    1,555              -           -          (174)             1,381
Total Loans Receivable and Related Foreclosed Property, Net                                              $       77,791




USDA
  166          FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 1. Total Loans Receivable and Related Foreclosed Property, Net (cont’d)
    FY 2005                                        Loans                                        Present       Value of Assets
    Direct Loans                                 Receivable,       Interest    Foreclosed         Value         Related to
                                                   Gross          Receivable    Property       Allowance       Direct Loans
    Obligated Pre-1992
      Farm                                       $    2,336       $     151    $        21     $      (247)   $        2,261
      Export                                              -               -              -               -                 -
      Food Aid                                        5,909              69              -          (2,624)            3,354
      Housing                                        12,379             114             13          (5,112)            7,394
      Electric                                       12,308              25              -          (1,599)           10,734
      Telecommunications                              1,526               3              -            (109)            1,420
      Water and Environmental                         1,700              17              -            (248)            1,469
      Business and Industry                               1               -              -              (1)                -
      Economic Development                               52               -              -             (25)               27
    Pre-1992 Total                                   36,211             379             34          (9,965)           26,659
    Obligated Post-1991
      Farm                                            4,562             141              3            (645)            4,061
      Export                                              -               -              -               -                 -
      Food Aid                                        2,794              37              -          (1,391)            1,440
      Housing                                        14,423              73             19          (1,114)           13,401
      Electric                                       17,857               2              -            (600)           17,259
      Telecommunications                              2,533               3              -              24             2,560
      Water and Environmental                         6,639              65              -            (705)            5,999
      Business and Industry                              83               -              -             (76)                7
      Economic Development                              452               2              -            (157)              297
    Post-1991 Total                                  49,343             323             22          (4,664)           45,024
    Total Direct Loan Program Receivables            85,554             702             56         (14,629)           71,683
    Defaulted Guarantee Loans
     Pre-1992
        Farm                                              9               -              -             (7)                 2
        Export                                        1,401              15              -           (122)             1,294
        Food Aid                                          -               -              -              -                  -
        Housing                                           -               -              -              -                  -
        Electric                                          -               -              -              -                  -
        Telecommunications                                -               -              -              -                  -
        Water and Environmental                           -               -              -              -                  -
        Business and Industry                             -               -              -              -                  -
        Economic Development                              3               1              -              -                  4
     Pre-1992 Total                                   1,413              16              -           (129)             1,300
      Post-1991
        Farm                                             26               1              -            (18)                 9
        Export                                        1,605              24              -           (691)               938
        Food Aid                                          -               -              -              -                  -
        Housing                                          13               -              -              -                 13
        Electric                                          -               -              -              -                  -
        Telecommunications                                -               -              -              -                  -
        Water and Environmental                           -               -              -              -                  -
        Business and Industry                           167               1              -              8                176
        Economic Development                              -               -              -              -                  -
      Post-1991 Total                                 1,811              26              -           (701)             1,136
    Total Defaulted Guarantee Loans                   3,224              42              -           (830)             2,436
    Loans Exempt from Credit Reform Act:
      Commodity Loans                                 1,031               -              -               -             1,031
      Other Foreign Receivables                          26               -              -               -                26
    Total Loans Exempt                                1,057               -              -               -             1,057
    Total Loans Receivable and Related Foreclosed Property, Net                                               $       75,176




                                                                                                                          USDA
                                                                  FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT        167
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991) Direct Loans
                                                                                            FY 2006       FY 2005

         Beginning balance of the subsidy cost allowance                                $    4,674    $    6,256
         Add: Subsidy expense for direct loans disbursed during the year by component
           Interest rate differential costs                                                   (119)          (89)
           Default costs (net of recoveries)                                                   120           141
           Fees and other collections                                                           (3)           (7)
           Other subsidy costs                                                                 337           326
         Total subsidy expense prior to adjustments and reestimates                            335           371

         Adjustments
           Loan modifications                                                                   27             6
           Fees received                                                                        22            20
           Loans written off                                                                  (276)         (191)
           Subsidy allowance amortization                                                      (78)         (527)
           Other                                                                                32           (99)
         Total subsidy cost allowance before reestimates                                     4,736         5,836

         Add or subtract subsidy reestimates by component
           Interest rate reestimate                                                             97            108
           Technical/default reestimate                                                        257         (1,270)
         Total reestimates                                                                     354         (1,162)
         Ending balance of the subsidy cost allowance                                   $    5,090    $     4,674




USDA
  168       FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 3. Direct Loan Subsidy Expense by Program and Component

     FY 2006
                                              Interest                   Fees and Other                            Subtotal          Total                   Rate            Technical             Total            Total Subsidy
                                             Differential    Defaults      Collections                 Other       Subsidy        Modifications           Reestimates       Reestimates         Reestimates           Expense
     Direct Loan Programs
      Farm                                    $      12      $  73        $                 -          $ (4)       $  81          $              -        $        5        $        (18)       $        (13)       $         68
      Export                                          -          -                          -             -            -                         -                 -                   -                   -                   -
      Food Aid                                       18          4                          -             -           22                        26                 -                 (89)                (89)                (41)
      Housing                                      (178)        31                         (3)          360          210                         -               337                 461                 798               1,008
      Electric                                      (45)         9                          -           (14)         (50)                        1              (214)                (39)               (253)               (302)
      Telecommunications                             (1)         2                          -            (1)           -                         -                (6)                (43)                (49)                (49)
      Water and Environmental                        53          1                          -            (3)          51                         -               (29)                 (4)                (33)                 18
      Business and Industry                           -          -                          -             -            -                         -                 3                  (9)                 (6)                 (6)
      Economic Development                           23          -                          -             -           23                         -                 -                  (2)                 (2)                 21
     Total Direct Loan Subsidy Expense        $    (118)     $ 120          $              (3)         $338        $ 337          $             27        $       96        $        257        $        353        $        717
                                                                                                         .


       FY 2005
                                               Interest                 Fees and Other                         Subtotal          Total                  Rate             Technical             Total            Total Subsidy
                                              Differential   Defaults     Collections            Other         Subsidy        Modifications          Reestimates        Reestimates         Reestimates           Expense
       Direct Loan Programs
        Farm                                  $       (4)     $ 97      $        -               $ (18)        $    75        $         -            $         (8)      $           42      $           34      $         109
        Export                                         -         -                    -              -               -                      -                   -                    -                   -                  -
        Food Aid                                      21         5                    -              1              27                      6                   -                 (343)               (343)              (310)
        Housing                                     (176)       35                   (7)          358              210                      -                 (52)                (699)               (751)              (541)
        Electric                                     (23)        2                    -            (10)            (31)                     -                 126                 (147)                (21)               (52)
        Telecommunications                            (2)        1                    -             (2)             (3)                     -                  27                  (38)                (11)               (14)
        Water and Environmental                       77         1                    -             (3)             75                      -                  16                  (80)                (64)                11
        Business and Industry                          -         -                    -              -               -                      -                   1                   (1)                  -                  -
        Economic Development                          18         -                    -              -              18                      -                  (2)                  (2)                 (4)                14
       Total Direct Loan Subsidy Expense       $     (89)     $141       $           (7)         $326          $   371        $             6         $       108       $       (1,268)     $       (1,160)     $        (783)
                                                                                                   .




                                                                                                                                                                                                                                 USDA
                                                                                                                                                     FY 2006 PERFORMANCE            AND   ACCOUNTABILITY REPORT                     169
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 4. Total Amount of Direct Loans Disbursed (Post-1991)

                                                                   FY 2006    FY 2005
               Direct Loan Programs
                 Farm                                              $ 1,041    $   906
                 Export                                                  -          -
                 Food Aid                                               16         20
                 Housing                                             1,790      1,744
                 Electric                                            4,802      3,600
                 Telecommunications                                    485        567
                 Water and Environmental                               675        855
                 Business and Industry                                   -          2
                 Economic Development                                   66         46
               Total Direct Loans Disbursed                        $ 8,875    $ 7,740




USDA
  170       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                  FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 5. Loan Guarantees Outstanding
                                                     Pre - 1992    Post - 1991      Total      Pre - 1992      Post - 1991         Total
                                                     Outstanding   Outstanding   Outstanding   Outstanding     Outstanding      Outstanding
                     FY 2006
                                                      Principal,    Principal,    Principal,    Principal,      Principal,       Principal,
                                                     Face Value    Face Value    Face Value    Guaranteed      Guaranteed       Guaranteed
                  Loan Guarantee Programs
                    Farm                             $       86    $   10,069    $   10,155    $         76    $    9,046       $     9,122
                    Export                                     -        3,022         3,022                -        2,925             2,925
                    Food Aid                                   -            -              -               -             -                -
                    Housing                                  12        15,889        15,901              10        14,286            14,296
                    Electric                                167           222           389             167           222               389
                    Telecommunications                         -            -              -               -             -                 -
                    Water and Environmental                    -           34            34                -           28                28
                    Business and Industry                    23         3,892         3,915              17         2,863             2,880
                    Economic Development                      3             -             3               3              -                3
                  Total Guarantees Disbursed         $      291    $   33,128    $   33,419    $        273    $   29,370       $    29,643



                                                     Pre - 1992    Post - 1991      Total      Pre - 1992      Post - 1991         Total
                                                     Outstanding   Outstanding   Outstanding   Outstanding     Outstanding      Outstanding
                     FY 2005
                                                      Principal,    Principal,    Principal,    Principal,      Principal,       Principal,
                                                     Face Value    Face Value    Face Value    Guaranteed      Guaranteed       Guaranteed
                  Loan Guarantee Programs
                    Farm                             $      115    $   10,209    $   10,324    $        101    $    9,170       $     9,271
                    Export                                     -        4,240         4,240                -        4,098             4,098
                    Food Aid                                   -            -              -               -             -                -
                    Housing                                   6        14,788        14,794              11        13,287            13,298
                    Electric                                233           220           453             233           220               453
                    Telecommunications                         -            -              -               -             -                 -
                    Water and Environmental                    -           32            32                -           26                26
                    Business and Industry                    35         4,191         4,226              22         3,098             3,120
                    Economic Development                      3             -             3               3              -                3
                  Total Guarantees Disbursed         $      392    $   33,680    $   34,072    $        370    $   29,899       $    30,269
                                                    .




                                                                                                                                                       USDA
                                                                                                   FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   171
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992 Guarantees)

                                                    Liabilities for   Liabilities for Loan
                                                   Losses on Pre-       Guarantees on
                 FY 2006
                                                        1992              Post-1991
                                                    Guarantees           Guarantees          Total Liabilities for
                                                   Present Value        Present Value        Loan Guarantees
             Loan Guarantee Programs
               Farm                                $            1     $              121     $              122
               Export                                           -                    220                    220
               Food Aid                                         -                      -                      -
               Housing                                          -                    624                    624
               Electric                                         -                      -                      -
               Telecommunications                               -                      -                      -
               Water and Environmental                          -                      -                      -
               Business and Industry                            1                    329                    330
               Economic Development                             -                      -                      -
             Total Liability for Loan Guarantees   $            2     $            1,294     $            1,296




                                                    Liabilities for   Liabilities for Loan
                                                   Losses on Pre-       Guarantees on
                 FY 2005
                                                        1992              Post-1991
                                                    Guarantees           Guarantees          Total Liabilities for
                                                   Present Value        Present Value        Loan Guarantees
            Loan Guarantee Programs
              Farm                                 $            2     $               26      $               28
              Export                                            -                    260                     260
              Food Aid                                          -                      -                       -
              Housing                                           -                    556                     556
              Electric                                          -                      -                       -
              Telecommunications                                -                      -                       -
              Water and Environmental                           -                      -                       -
              Business and Industry                             2                    368                     370
              Economic Development                              -                      -                       -
            Total Liability for Loan Guarantees    $            4     $            1,210      $            1,214




USDA
  172       FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                               FY 2006        FY 2005
    Beginning balance of the loan guarantee liability                                         $   1,209      $   1,183
    Add:Subsidy expense for guaranteed loans disbursed during the year by component
      Interest rate differential costs                                                                35               35
      Default costs (net of recoveries)                                                              290              369
      Fees and other collections                                                                    (118)            (106)
      Other subsidy costs                                                                              -                -
    Total of the above subsidy expense components                                                    207              298

    Adjustments
      Loan modifications                                                                               -                -
      Fees received                                                                                   95              103
      Interest supplements paid                                                                       (6)             (10)
      Claim payments to lenders                                                                     (154)            (360)
      Interest accumulation on the liability balance                                                 127               16
      Other                                                                                           84              498
    Ending balance of the subsidy cost allowance before reestimates                                1,562            1,728

    Add or subtract subsidy reestimates by component:
      Interest rate reestimate                                                                        57             (284)
      Technical/default reestimate                                                                  (326)            (235)
    Total of the above reestimate components                                                        (269)            (519)
    Ending balance of the loan guarantee liability                                            $    1,293     $      1,209




                                                                                                                        USDA
                                                               FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT            173
                                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 8. Guarantee Loan Subsidy Expense by Program and Component
        FY 2006
                                                                                                                     Interest                              Total
                                                  Interest          Fees and Other                      Total          Rate     Technical     Total      Subsidy
        Loan Guarantee Programs                 Supplement Defaults   Collections   Other   Subtotal Modifications Reestimates Reestimates Reestimates   Expense
          Farm                                   $      25  $ 58     $         (17)  $ -     $ 66     $         -   $       1   $      18   $      19    $     85
          Export                                          -    78               (9)    -        69              -          23        (371)       (348)      (279)
          Food Aid                                        -      -               -     -         -              -             -         -           -            -
          Housing                                       10     97              (68)    -        39              -          20          31          51          90
          Electric                                        -      -               -     -         -              -             -         -           -            -
          Telecommunications                              -      -               -     -         -              -             -         -           -            -
          Water and Environmental                         -      -               -     -         -              -             -         -           -            -
          Business and Industry                           -    56              (25)    -        31              -          13          (4)          9          40
          Economic Development                            -      -               -     -         -              -             -         -           -            -
        Total Loan Guarantee Subsidy Expense     $      35  $ 289    $       (119)  $ -      $ 205    $         -   $      57   $    (326)  $    (269)   $    (64)



        FY 2005
                                                                                                                     Interest                            Total
                                                  Interest          Fees and Other                      Total          Rate     Technical     Total    Subsidy
        Loan Guarantee Programs                 Supplement Defaults   Collections   Other   Subtotal Modifications Reestimates Reestimates Reestimates Expense
          Farm                                   $      29  $ 58     $         (17)  $ -     $ 70     $         -   $     (19)  $    (142)  $    (161)  $ (91)
          Export                                          -   181              (16)    -       165              -        (287)       (188)       (475)    (310)
          Food Aid                                        -      -               -     -         -              -             -         -           -         -
          Housing                                        6     93              (66)    -        33              -          18          75          93      126
          Electric                                        -      -               -     -         -              -             -         -           -         -
          Telecommunications                              -      -               -     -         -              -             -         -           -         -
          Water and Environmental                         -      -               -     -         -              -             -         -           -         -
          Business and Industry                           -    36               (8)    -        28              -           4          21          25       53
          Economic Development                            -      -               -     -         -              -             -         -           -         -
        Total Loan Guarantee Subsidy Expense     $      35  $ 368    $       (107)  $ -      $ 296    $         -   $    (284)  $    (234)  $    (518)  $ (222)




USDA
  174       DRAFT FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
11/15/2006 6:58 AM



Table 9. Guaranteed Loans Disbursed
                                                              FY 2006                             FY 2005
                                                      Principal,    Principal,       Principal, Face      Principal,
                                                     Face Value    Guaranteed             Value         Guaranteed
                                                     Disbursed      Disbursed          Disbursed         Disbursed
       Loan Guarantee Programs
           Farm                                      $    2,146     $    1,928       $         2,191     $          1,968
           Export                                         1,568          1,451                 2,956                2,678
           Food Aid                                           -              -                     -                    -
           Housing                                        3,187          2,864                 3,130                2,813
           Electric                                           3              3                     2                    2
           Telecommunications                                 -              -                     -                    -
           Water and Environmental                            1              1                     5                    4
           Business and Industry                            489            382                   703                  550
           Economic Development                               -              -                     -                    -
       Total Guaranteed Loans Disbursed              $    7,394     $    6,629       $         8,987     $          8,015




Table 10. Administrative Expenses
                                                                          FY 2006                 FY 2005
                       Direct Loan Programs                             $       535             $       516
                       Guaranteed Loan Programs                                 253                     253
                     Total Administrative Expenses                      $       788             $       769




                                                                                                                        USDA
                                                         DRAFT FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT           175
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 11. Subsidy Rates for Direct Loans (percentage)
                                                                                       Fees and
                FY 2006                                      Interest                   Other
                                                            Differential   Defaults   Collections    Other    Total
               Direct Loan Programs
                 Farm Operating                                   1.62        8.05            -       0.28      9.95
                 Indian Land Acquisition                          5.87       (1.86)           -        -        4.01
                 Emergency Disaster                               5.02        6.25            -      (0.33)    10.94
                 Boll Weevil Eradication                          0.51      (18.74)           -       0.14    (18.09)
                 Farm Ownership                                   0.63        2.49            -       2.00      5.12
                 Farm Storage Facility Loan Program               0.04        6.76          (0.11)   (7.31)    (0.62)
                 Sugar Storage Facility Loan Program              0.36        0.90            -        -        1.26
                 Community Facility Loans                         3.59        0.24            -      (0.48)     3.35
                 Water and Waste Disposal Loans                   7.14        0.09            -      (0.32)     6.91
                 Distance Learning and Telemedicine Loans          -          1.63            -      (0.13)     1.50
                 Broadband 4% Loans (Mandatory)                   5.83        2.13            -      (0.01)     7.95
                 Broadband 4% Loans (Discretionary)               5.83        2.13            -      (0.01)     7.95
                 Broadband Treasury Loans (Mandatory)              -          2.22            -      (0.07)     2.15
                 Broadband Treasury Loans (Discretionary)          -          2.22            -      (0.07)     2.15
                 Electric Hardship Loans                          0.69        0.02            -       0.21      0.92
                 Municipal Electric Loans                         4.68        0.02            -       0.35      5.05
                 FFB Electric Loans                              (0.49)       0.02            -      (0.01)    (0.48)
                 Treasury Electric Loans                           -          0.02            -      (0.01)     0.01
                 Telecommunication Hardship Loans                (1.84)       0.02            -       0.02     (1.80)
                 FFB Telecommunications Loans                    (1.03)       0.02            -      (0.56)    (1.57)
                 Treasury Telecommunication Loans                  -          0.03            -       0.02      0.05
                 Rural Telephone Bank Loans                        -           -              -        -         -
                 Single-Family Housing Credit Sales             (19.35)       1.16            -       3.66    (14.53)
                 Multi-Family Housing Credit Sales              (19.82)       0.12            -      65.10     45.40
                 Section 502 Single-Family Housing              (16.77)       2.32            -      25.84     11.39
                 Section 504 Housing Repair                      27.00        2.45            -      (0.20)    29.25
                 Section 515 Multi-Family Housing               (17.86)       0.04          (0.05)   63.75     45.88
                 Section 523 Self-Help Site Development           1.03         -              -        -        1.03
                 Section 524 Site Development                    (4.30)       0.79            -        -       (3.51)
                 Section 514 Farm Labor Housing                  44.91        0.03            -      (0.35)    44.59
                 Intermediary Relending Program                  43.84         -              -      (0.82)    43.02
                 Rural Economic Development Loans                21.40        0.07            -       1.50     22.97
                 Electric Underwriting                           (2.09)       0.83            -        -       (1.26)
                 MFH Preservation                                46.76         -              -        -       46.76
                 P. L. 480 Direct Credits                        44.39       11.01            -        -       55.40




USDA
  176       FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT
FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                                                          Fees and
  FY 2005                                      Interest                    Other
                                              Differential   Defaults    Collections       Other    Total
 Direct Loan Programs
   Farm Operating                                   0.14         9.39            -          0.56     10.09
   Indian Land Acquisition                          5.30         0.43            -         (0.46)     5.27
   Emergency Disaster                               2.46        17.55            -         (7.07)    12.94
   Boll Weevil Eradication                         (4.08)       (0.88)           -         (0.72)    (5.68)
   Farm Ownership                                  (0.40)       14.77            -         (9.02)     5.35
   Farm Storage Facility Loan Program              (1.68)        0.51          (0.11)      (0.15)    (1.43)
   Sugar Storage Facility Loan Program               -            -              -           -         -
   Community Facility Loans                         4.48         0.24            -         (0.67)     4.05
   Water and Waste Disposal Loans                   9.36         0.10            -         (0.46)     9.00
   Distance Learning and Telemedicine Loans          -           1.61            -         (0.19)     1.42
   Broadband 4% Loans (Mandatory)                   5.83         2.18            -           -        8.01
   Broadband 4% Loans (Discretionary)               5.83         2.18            -           -        8.01
   Broadband Treasury Loans (Mandatory)              -           2.27            -         (0.14)     2.13
   Broadband Treasury Loans (Discretionary)          -           2.27            -         (0.14)     2.13
   Electric Hardship Loans                          3.19         0.03            -         (0.18)     3.04
   Municipal Electric Loans                         1.63         0.03            -         (0.31)     1.35
   FFB Electric Loans                              (1.35)        0.01            -         (0.89)    (2.23)
   Treasury Electric Loans                           -           0.03            -         (0.08)    (0.05)
   Telecommunication Hardship Loans                (1.25)        0.02            -          0.02     (1.21)
   FFB Telecommunications Loans                    (1.03)        0.12            -         (1.04)    (1.95)
   Treasury Telecommunication Loans                  -           0.05            -         (0.01)     0.04
   Rural Telephone Bank Loans                      (1.43)        0.02            -         (0.42)    (1.83)
   Single-Family Housing Credit Sales             (21.08)        1.72            -          3.13    (16.23)
   Multi-Family Housing Credit Sales              (18.85)        0.07            -         67.22     48.44
   Section 502 Single-Family Housing              (17.35)        2.68            -         26.25     11.58
   Section 504 Housing Repair                      26.95         2.38            -         (0.27)    29.06
   Section 515 Multi-Family Housing               (18.03)        0.02          (0.05)      65.15     47.09
   Section 523 Self-Help Site Development          (0.47)         -              -           -       (0.47)
   Section 524 Site Development                    (5.91)        0.96            -          0.01     (4.94)
   Section 514 Farm Labor Housing                  45.87         0.02            -          1.17     47.06
   Intermediary Relending Program                  46.64          -              -         (0.26)    46.38
   Rural Economic Development Loans                20.32         0.04            -         (1.57)    18.79
   Electric Underwriting                             -            -              -           -         -
   MFH Preservation                                  -            -              -           -         -
   P. L. 480 Direct Credits                        45.85        10.13            -           -       55.98




                                                                                                               USDA
                                                     FY 2006 PERFORMANCE      AND      ACCOUNTABILITY REPORT   177
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 12. Subsidy Rates for Loan Guarantees (percentage)
                                                                                               Fees and
             FY 2006                                      Interest                              Other
                                                         Differential      Defaults           Collections       Other       Total
        Guaranteed Loan Programs
          CCC Export Loan Guarantee Program                      -                  9.50            (0.57)           -         8.93
          Farm Operating—Unsubsidized                            -                  3.93            (0.90)           -         3.03
          Farm Operating—Subsidized                             9.24                3.26              -              -        12.50
          Farm Ownership—Unsubsidized                            -                  1.38            (0.90)           -         0.48
          Business and Industry Loans                            -                  8.20            (3.41)           -         4.79
          Guaranteed Business & Industry NadBank Loans           -                 13.76            (3.28)         (0.01)     10.47
          Community Facility Loans                               -                  1.21            (0.85)           -         0.36
          Water and Waste Disposal Loans                         -                   -              (0.90)           -        (0.90)
          Electric Guaranteed Loans                              -                  0.90              -              -         0.90
          Local Television Loans (Discretionary)                 -                   -                -              -          -
          Local Television Loans (Mandatory)                     -                   -                -              -          -
          Guaranteed Broadband Loans (Discretionary)             -                  3.82              -              -         3.82
          Guaranteed Broadband Loans (Mandatory)                 -                  3.82              -              -         3.82
          Section 502 Single-Family Housing Purchase             -                  3.16            (2.00)           -         1.16
          Section 502 Single-Family Housing Refinance            -                  0.79            (0.50)           -         0.29
          538 Multi-Family Housing-Subsidized                  12.28                0.57            (7.44)          0.01       5.42
          Renewable Energy                                       -                  8.20            (1.75)           -         6.45
          Rural Business Investment Program                      -                   -                -              -          -


                                                                                                  Fees and
           FY 2005                                                   Interest                       Other
                                                                    Differential      Defaults    Collections    Other      Total
        Guaranteed Loan Programs
         CCC Export Loan Guarantee Program                                -                7.48         0.65         -        8.13
         Farm Operating—Unsubsidized                                      -                4.12        (0.89)        -        3.23
         Farm Operating—Subsidized                                      10.31              3.07          -         (0.07)    13.31
         Farm Ownership—Unsubsidized                                      -                1.43        (0.90)        -        0.53
         Business and Industry Loans                                      -                6.51        (1.47)      (0.01)     5.03
         Guaranteed Business & Industry NadBank Loans                     -                9.91        (1.61)        -        8.30
         Community Facility Loans                                         -                0.93        (0.84)        -        0.09
         Water and Waste Disposal Loans                                   -                 -          (0.90)        -       (0.90)
         Electric Guaranteed Loans                                        -                0.06          -           -        0.06
         Local Television Loans (Discretionary)                           -                 -            -           -         -
         Local Television Loans (Mandatory)                               -                 -            -           -         -
         Guaranteed Broadband Loans (Discretionary)                       -                3.93          -           -        3.93
         Guaranteed Broadband Loans (Mandatory)                           -                3.93          -           -        3.93
         Section 502 Single-Family Housing Purchase                       -                3.07        (2.00)        -        1.07
         Section 502 Single-Family Housing Refinance                      -                0.77        (0.50)        -        0.27
         538 Multi-Family Housing-Subsidized                            10.32              0.55        (7.39)       0.01      3.49
         Renewable Energy                                                 -                6.51        (0.78)        -        5.73
         Rural Business Investment Program                                -                 -            -           -         -




NOTE 8. INVENTORY AND RELATED PROPERTY, NET
Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters, providing
emergency food assistance in developing countries and providing price support and stabilization. Commodity loan
forfeitures during the fiscal years ended September 30, 2006 and 2005 were $106 million and $79 million, respectively.
In fiscal year 2005, tobacco loan forfeitures amounted to $985 million including accrued interest. Estimated future
commodity donations are expected to be $37 million.



USDA
  178        FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT
FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                                        FY 2006                           FY 2005
  Inventories                                                     $       1                         $       -

                                                 Volume                           Volume
  Commodities:
                                              (in millions)       Amount       (in millions)        Amount
    Corn (In Bushels):
     On hand at the beginning of the year                1               2                12              22
     Acquired during the year                          289             561                99             204
     Disposed of during the year
        Sales                                         (288)           (558)               (97)          (198)
        Donations                                       (1)             (3)               (13)           (25)
        Other                                            -               -                  -             (1)
     On hand at the end of the year                      1               2                  1              2

    Wheat (In Bushels):
     On hand at the beginning of the year               47             171                81             291
     Acquired during the year                           56             240                68             287
     Disposed of during the year
        Sales                                          (28)           (134)               (71)          (295)
        Donations                                      (32)           (118)               (31)          (112)
        Other                                            -               -                  -              -
     On hand at the end of the year                     43             159                 47            171

    Nonfat Dry Milk (In Pounds):
     On hand at the beginning of the year              104              94               661             594
     Acquired during the year                           62              50                34              26
     Disposed of during the year
        Sales                                          (27)             (25)             (186)          (164)
        Donations                                      (82)             (76)             (276)          (259)
        Other                                           (8)              (3)             (129)          (103)
     On hand at the end of the year                     49               40               104             94

    Sugar (In Pounds):
      On hand at the beginning of the year                -               -               32               8
      Acquired during the year                            -               -               48              10
      Disposed of during the year
         Sales                                            -               -               (80)            (18)
         Donations                                        -               -                 -               -
         Other                                            -               -                 -               -
      On hand at the end of the year                      -               -                 -               -

    Tobacco (In Pounds):
      On hand at the beginning of the year                -               -                2               2
      Acquired during the year                            -               -              280             986
      Disposed of during the year
         Sales                                            -               -              (200)          (696)
         Donations                                        -               -               (82)          (292)
         Other                                            -               -                 -              -
      On hand at the end of the year                      -               -                 -              -

    Other:
      On hand at the beginning of the year                               37                                33
      Acquired during the year                                        5,140                             5,675
      Disposed of during the year
          Sales                                                     (5,085)                           (5,507)
          Donations                                                    (68)                             (164)
          Other                                                          -                                 -
      On hand at the end of the year                                    24                                37
  Allowance for losses                                                (171)                             (275)
  Total Commodities                                                     54                                29
  Total Inventory and Related Property, Net                       $     55                          $     29




                                                                                                                  USDA
                                                          FY 2006 PERFORMANCE      AND    ACCOUNTABILITY REPORT   179
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 9. GENERAL PROPERTY, PLANT, AND EQUIPMENT, NET
             FY 2006                                               Useful                                     Net
                                                                    Life                  Accumulated        Book
                Category                                          (Years)       Cost      Depreciation       Value

             Land and Land Rights                                           $        75   $          -   $         75
             Improvements to Land                                 10 - 50         4,986          2,711          2,275
             Construction-in-Progress                                               828              -            828
             Buildings, Improvements and Renovations              15 - 30         1,815          1,099            716
             Other Structures and Facilities                      15 - 50         1,604          1,194            410
             Equipment                                             5 - 20         1,711          1,375            336
             Assets Under Capital Lease                            3 - 20            44             16             28
             Leasehold Improvements                                  10              50             34             16
             Internal-Use Software                                 5-8              442            263            179
             Internal-Use Software in Development                                    38              -             38
             Other General Property, Plant and Equipment          5 - 15              4              -              4
                 Total                                                      $    11,597   $      6,692   $      4,905


             FY 2005                                               Useful                                     Net
                                                                    Life                  Accumulated        Book
                Category                                          (Years)       Cost      Depreciation       Value

             Land and Land Rights                                           $        76   $          -   $         76
             Improvements to Land                                 10 - 50         4,958          2,596          2,362
             Construction-in-Progress                                               562              -            562
             Buildings, Improvements and Renovations              15 - 30         1,820          1,055            765
             Other Structures and Facilities                      15 - 50         1,602          1,146            456
             Equipment                                             5 - 20         1,781          1,397            384
             Assets Under Capital Lease                            3 - 20            40             17             23
             Leasehold Improvements                                  10              50             30             20
             Internal-Use Software                                 5-8              417            211            206
             Internal-Use Software in Development                                    29              -             29
             Other General Property, Plant and Equipment          5 - 15              2              -              2
                 Total                                                      $    11,337   $      6,452   $      4,885




NOTE 10. STEWARDSHIP PP&E
Stewardship PP&E consist of assets whose physical properties resemble those of General PP&E that are traditionally
capitalized in the financial statements. Due to the nature of these assets however, valuation would be difficult and
matching costs with specific periods would not be meaningful. Stewardship PP&E include heritage assets and
stewardship land.

Heritage assets are unique and are generally expected to be preserved indefinitely. Heritage assets may be unique
because they have historical or natural significance, are of cultural, educational or artistic importance, or have significant
architectural characteristics. The assets are reported in terms of physical units rather than cost, fair value, or other
monetary values. No amounts are shown on the balance sheet for heritage assets, except for multi-use heritage assets in
which the predominant use of the asset is in general government operations. The costs of acquisition, betterment, or
reconstruction of multi-use heritage assets is capitalized as general PP&E and depreciated, with required supplementary
information providing the physical quantity information for the multi-use heritage assets. The costs of acquiring,
constructing, improving, reconstructing, or renovating heritage assets, other than multi-use is considered an expense in




USDA
  180        FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



the period incurred when determining the net cost of operations. Heritage assets are held by the FS, NRCS, and ARS,
consisting mainly of buildings and structures.

Stewardship land is land and land rights not acquired for or in connection with items of general PP&E. Land is defined
as the solid surface of the earth, excluding natural resources. Stewardship land is valued for its environmental resources,
recreational and scenic value, cultural and paleontological resources, vast open spaces, and resource commodities and
revenue provided to the Federal government, states, and counties. These assets are reported in terms of physical units
rather than cost, fair value, or other monetary values. No asset amount is shown on the balance sheet for stewardship
land. The acquisition cost of stewardship land is considered an expense in the period acquired when determining the
net cost of operations. The FS manages public land, the majority of which is classified as stewardship land. The
NRCS manages several conservation easement programs.



NOTE 11. OTHER ASSETS
In fiscal 2006 and 2005, other assets include investments in trust for loan asset sales of $37 million and $36 million,
respectively .
                                                                 FY 2006               FY 2005
                          Intragovernmental:
                            Advances to Others               $              -    $               1
                          Subtotal Intragovernmental                        -                    1

                          With the Public:
                            Advances to Others                             60                    48
                            Prepayments                                     1                     1
                            Other Assets                                   37                    37
                          Subtotal With the Public                         98                    86

                          Total Other Assets                 $             98    $               87




NOTE 12. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
In fiscal 2006 and 2005, other intragovernmental liabilities not covered by budgetary resources include accruals for
Federal Employee Compensation Act (FECA) of $159 million and $155 million, respectively, and contract disputes
claims payable to Treasury’s Judgment Fund of $13 million and $10 million, respectively.

In fiscal 2006 and 2005, other liabilities with the public not covered by budgetary resources include, accruals for rental
payments under the Conservation Reserve Program (CRP) of $1,779 million and $1,695 million, unfunded leave of
$589 million and $546 million, Payments to States $398 million and $378 million, future funded indemnity cost of $296
and $479 million, and, contingent liabilities of $15 million and $19 million, respectively. In fiscal 2006 and 2005, CCC
reported a liability in the amount of $6,137 and $7,100 million under the Tobacco Transition Payment Program
(TTPP), respectively.


                                                                                                                     USDA
                                                                 FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT    181
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




                                                                                      FY 2006              FY 2005
        Intragovernmental:
          Other                                                                   $           173      $             166
        Subtotal Intragovernmental                                                            173                    166
        With the Public:
         Federal employee and veterans' benefits                                              808                    834
          Environmental and disposal liabilities                                                63                       28
          Benefits due and payable                                                               -                        -
          Other                                                                             9,216               10,553
        Subtotal With the Public                                                           10,087               11,415

        Total liabilities not covered by budgetary resources                               10,260               11,581

        Total liabilities covered by budgetary resources                                  113,693              119,425

        Total liabilities                                                         $       123,953      $       131,006



NOTE 13. DEBT
                                                                  Beginning                                Ending
             FY 2006
                                                                   Balance            Net Borrowing        Balance
             Intragovernmental
               Debt to the Treasury                          $        60,708          $     (2,521)    $      58,187
               Debt to the Federal Financing Bank                     22,807                 2,453            25,260
             Total Intragovernmental                                  83,515                   (68)           83,447

             Agency Debt:
               Held by the Public                                             1                  (1)                 -

             Total Debt                                      $        83,516          $         (69)   $      83,447


                                                                  Beginning                                Ending
             FY 2005
                                                                   Balance            Net Borrowing        Balance
             Intragovernmental
               Debt to the Treasury                          $        41,439          $     13,545     $      54,984
               Debt to the Federal Financing Bank                     27,614                   917            28,531
             Total Intragovernmental                                  69,053                14,462            83,515

             Agency Debt:
               Held by the Public                                             1                   -                  1

             Total Debt                                      $        69,054          $     14,462     $      83,516




USDA
  182        FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 14. ENVIRONMENTAL AND DISPOSAL LIABILITIES
The Department is subject to the Comprehensive Environmental Response, Compensation, and Liability Act, the
Clean Water Act, and the Resource Conservation and Recovery Act for cleanup of hazardous waste. The FS and CCC
estimate the liability for total cleanup costs for sites known to contain hazardous waste to be $53 million and $10 million
in fiscal 2006, $18 million for FS and $10 million for CCC in fiscal 2005, based on actual cleanup costs at similar sites.
These estimates will change as new sites are discovered, remedy standards change and new technology is introduced.
This liability is not covered by budgetary resources.



NOTE 15. OTHER LIABILITIES
As of September 30, 2006 and 2005, other intragovernmental liabilities include credit reform reestimates of $202
million and $410 million, respectively. In fiscal 2005, the General Sales Manager (GSM) Program, was $23 million.

In fiscal 2006, other liabilities with the public include estimated losses on crop insurance claims of $2,328 million,
estimated underwriting gains on crop insurance of $652 million, crop insurance premium subsidy deficiency reserve of
$431 million, payments to states of $398 million, credit reform programs of $47 million, undistributed credits for
insured loans of $16 million, peanut/tobacco programs of $10 million, and estimated program delivery cost to reinsurer
of $3 million.

In fiscal 2005, other liabilities with the public include estimated losses on crop insurance claims of $1,924 million, stock
payable to RTB borrowers of $1,390 million, estimated underwriting gains on crop insurance of $740 million, crop
insurance premium subsidy deficiency reserve of $371 million, RTB dividend payable to treasury of $50 million, and
peanut/tobacco programs of $33 million.




                                                                                                                     USDA
                                                               FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT      183
       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



          FY 2006                                                      Non-Current        Current          Total
          Intragovernmental:
            Other Accrued Liabilities                             $            49    $       549    $       598
            Employer Contributions and Payroll Taxes                            1             44             45
            Unfunded FECA Liability                                             -            159            159
            Advances from Others                                                -              8              8
            Liability for Deposit Funds, Clearing Accounts                      -           (136)          (136)
            Liability for Subsidy Related to Undisbursed Loans                  -              9              9
            Resources Payable to Treasury                                       -         13,158         13,158
            Custodial Liability                                                 -             37             37
            Other Liabilities                                                   -            202            202
          Subtotal Intragovernmental                                           50         14,030         14,080

          With the Public:
            Contract Holdbacks                                                  -              -              -
            Other Accrued Liabilities                                          23         14,869         14,892
            Accrued Funded Payroll and Leave                                    2             43             45
            Unfunded Leave                                                      8            581            589
            Other Unfunded Employment Related Liability                         -              -              -
            Advances from Others                                                -             58             58
            Deferred Credits                                                    -            311            311
            Liability for Deposit Funds, Clearing Accounts                      -            231            231
            Contingent Liabilities                                              5             10             15
            Capital Lease Liability                                            26              2             28
            Custodial Liability                                                 -             27             27
            Other Liabilities                                                  19          3,867          3,886
          Subtotal With the Public                                             83         19,999         20,082

          Total Other Liabilities                                 $           133    $    34,029    $    34,162


         FY 2005                                                      Non-Current        Current          Total
         Intragovernmental:
           Other Accrued Liabilities                              $            6     $    1,018     $    1,024
           Employer Contributions and Payroll Taxes                            1             38             39
           Unfunded FECA Liability                                             1            156            157
           Advances from Others                                                -             21             21
           Liability for Deposit Funds, Clearing Accounts                      -             30             30
           Resources Payable to Treasury                                       -         16,819         16,819
           Custodial Liability                                                22             46             68
           Other Liabilities                                                   -            433            433
         Subtotal Intragovernmental                                           30         18,561         18,591

         With the Public:
           Contract Holdbacks                                                  -              2              2
           Other Accrued Liabilities                                           6         16,023         16,029
           Accrued Funded Payroll and Leave                                    -             49             49
           Unfunded Leave                                                     11            527            538
           Other Unfunded Employment Related Liability                         -              4              4
           Advances from Others                                                2             50             52
           Deferred Credits                                                    -            248            248
           Liability for Deposit Funds, Clearing Accounts                     12            160            172
           Contingent Liabilities                                              -             47             47
           Capital Lease Liability                                             -             23             23
           Custodial Liability                                                 -             12             12
           Other Liabilities                                               1,409          3,125          4,534
         Subtotal With the Public                                          1,440         20,270         21,710

         Total Other Liabilities                                  $        1,470     $   38,831     $   40,301




USDA
184    FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 16. LEASES
USDA activities based in the Washington D.C. area are located in General Services Administration (GSA) leased
facilities, and USDA owned buildings. The USDA Headquarter complex (Whitten Building, South Building and
Cotton Annex) is a government owned facility, which is part of the GSA Federal Buildings Inventory. As the result of a
1998 Agreement between GSA and USDA, a moratorium was placed on the rental billings for the Headquarters
complex beginning in FY 1999.

Pursuant to the agreement, USDA retains that portion of GSA rental payments and makes it available for the operation,
maintenance and repair of the building and expends such funds directly for the operation, maintenance or repair of the
building or facility. At current market rate, the estimated yearly rental payment for the above mentioned space would be
$53 million. This agreement is still in effect and as a result, USDA activities located in the Headquarter complex are
not billed for rental costs.


      FY 2006
      Capital Leases:
        Summary of Assets Under Capital Leases
          Land and Building                              $           41
          Machinery and Equipment                                     3
          Accumulated Amortization                                   16

        Future Payments Due:
                                                                                Machinery &
                                                         Land & Buildings                                   Other       Totals
                                                                                Equipment
          Fiscal Year
          2007                                                        7                       -                     -             7
          2008                                                        7                       -                     -             7
          2009                                                        7                       -                     -             7
          2010                                                        7                       -                     -             7
          2011                                                        7                       -                     -             7
          After 5 Years                                              52                       -                     -            52
      Total Future Lease Payments                                    87                       -                     -            87
      Less: Imputed Interest                                         54                       -                     -            54
      Less: Executory Costs                                           5                       -                     -             5
      Less: Lease Renewal Options                                     -                       -                     -             -
      Net Capital Lease Liability                                    28                       -         $           -            28

      Lease liabilities covered by budgetary resources               28

      Operating Leases:
       Future Payments Due:
                                                                                Machinery &
                                                         Land & Buildings                                   Other       Totals
          Fiscal Year                                                           Equipment
          2007                                                       80                       -                  5                85
          2008                                                       75                       -                  4                79
          2009                                                       68                       -                  4                72
          2010                                                       61                       -                  4                65
          2011                                                       54                       -                  3                57
          After 5 Years                                             368                       -                 42               410
        Total Future Lease Payments                      $          706     $                 -         $       62      $        768




                                                                                                                                       USDA
                                                                  FY 2006 PERFORMANCE             AND   ACCOUNTABILITY REPORT          185
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



    FY 2005
    Capital Leases:
      Summary of Assets Under Capital Leases
        Land and Building                                        $          38
        Machinery and Equipment                                              2
        Accumulated Amortization                                            17

      Future Payments Due:
                                                                                       Machinery &
                                                                Land & Buildings                             Other       Totals
                                                                                       Equipment
        Fiscal Year
        2006                                                                11                       -               -             11
        2007                                                                11                       -               -             11
        2008                                                                11                       -               -             11
        2009                                                                11                       -               -             11
        2010                                                                10                       -               -             10
        After 5 Years                                                       88                       -               -             88
    Total Future Lease Payments                                            142                       -               -            142
    Less: Imputed Interest                                                  38                       -               -             38
    Less: Executory Costs                                                   48                       -               -             48
    Less: Lease Renewal Options                                             33                       -               -             33
    Net Capital Lease Liability                                             23                       -   $           -             23

    Lease liabilities covered by budgetary resources                        23

    Operating Leases:
     Future Payments Due:
                                                                                       Machinery &
                                                                Land & Buildings                             Other       Totals
      Fiscal Year                                                                      Equipment
        2006                                                               106                       1               -            107
        2007                                                                98                       1               -             99
        2008                                                                89                       1               -             90
        2009                                                                78                       -               -             78
        2010                                                                69                       -               -             69
      After 5 Years                                                        408                       -               -            408
      Total Future Lease Payments                                $         848     $                 3   $           -   $        851




NOTE 17. COMMITMENTS AND CONTINGENCIES
The Department is subject to various claims and contingencies related to lawsuits as well as commitments under
contractual and other commercial obligations.

For cases in which payment has been deemed probable and for which the amount of potential liability has been
estimated, $15 million and $47 million has been accrued in the financial statements as of September 30, 2006 and 2005,
respectively.

No amounts have been accrued in the financial statements for claims where the amount is uncertain or where the
probability of judgment against USDA is remote. The Department’s potential liability for claims where a judgment
against the Department is reasonably possible ranges from $2,890 million to $2,900 million as of September 30, 2006,
compared to $114 million to $134 million as of September 30, 2005. This estimate increased in fiscal 2006 because of
pending class litigation.




USDA
  186          FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



In fiscal 2006 and 2005, CRP annual rental payments are estimated to be $2,000 million. Commitments to extend loan
guarantees are estimated to be $2,300 million and $2,000 million in fiscal 2006 and 2005, respectively.

NOTE 18. EARMARKED FUNDS
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources, which
remain available over time. These specifically identified revenues and other financing sources are required by statute to
be used for designated activities, benefits or purposes and must be accounted for separately from the Government’s
general revenues. The implementation of SFFAS 27 in FY 2006 supersedes the dedicated collections provisions in
SFFAS 7 for earmarked funds. These funds were reported as dedicated collections in FY 2005.

Financial information for all significant earmarked funds follows the descriptions of each fund’s purpose shown below.

Risk Management Agency
Federal Crop Insurance Corporation Fund (FCIC)
Resources for the FCIC Fund includes funds collected from the public for insurance premiums and other insurance
related fees that are used with appropriations from Congress and unobligated balances from previous years to fund the
Federal Crop Insurance Program. Funds are available under 7 U.S.C. 1501-1519.

Agricultural Marketing Service
Funds for Strengthening Markets, Income, and Supply
This fund is used to purchase commodities for schools and elderly feeding programs, to provide goods and other
necessities in emergencies and disasters, and to purchase agricultural commodities to stabilize markets. The fund is
permanently financed by statutory transfer of an amount equal to 30 percent of customs receipts collected during each
calendar year is automatically appropriated for expanding outlets for perishable, non-price supported commodities. An
amount equal to 30 percent of receipts collected on fishery products is transferred to the Food and Nutrition Service and
is used to purchase commodities under section 6 of the National School Lunch Act and other authorities specified in the
child nutrition appropriation. Funds are available under section 32 of the Act of August 24, 1935, as amended (7
U.S.C. 612c).
Expenses and Refunds, Inspection and Grading of Farm Products
The commodity grading programs provide grading, examination, and certification services for a wide variety of fresh and
processed food commodities using federally approved grade standards and purchase specifications. This fund is financed
by the collection of fees charged to producers of various food commodities who request, on a voluntary basis, inspection
and grading of agricultural food commodities. This program is authorized by the Agricultural Marketing Act of 1946 (7
U.S.C. 1621-1627).
Perishable Agricultural Commodities Act
The act is intended to ensure equitable treatment to farmers and others in the marketing of fresh and frozen fruits and
vegetables. Commission merchants, dealers, and brokers handling these products in interstate and foreign commerce are
licensed. The fund is financed by license fees charged for the issuance of Federal licenses to dealers in perishable
agricultural commodities who meet and maintain the financial stability necessary to ensure payment is made to
producers of perishable agricultural commodities. License fees are deposited in this special fund and are used to meet




                                                                                                                    USDA
                                                                FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   187
                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



the costs of administering the Perishable Agricultural Commodities and Produce Agency Act (7 U.S.C. 491-497, 499a-
499s).
Animal Plant Health Inspection Service
Agricultural Quarantine Inspection User Fee Account
This fund is used to record and report on expenditures and revenue associated with operating Agricultural Quarantine
Inspection (AQI) activities at ports of entry. The Farm Bill of 1990, as amended by the Federal Agriculture
Improvement and Reform Act of 1996, gave the Animal and Plant Health Inspection Service (APHIS) the authority to
charge user fees for AQI services, and to use the revenue to fund AQI activities. In March of 2003, a portion of the
AQI program was transferred to the Department of Homeland Security (DHS); however, APHIS retained the authority
to collect AQI revenue. APHIS transfers a portion of the revenue to DHS periodically throughout the year to fund
their expenditures. The revenue in the fund is collected from airlines, air passengers, vessels, trucks, and railroad cars
that are subject to AQI inspection at ports of entry. These user fees are an inflow of revenue from the public that is used
to fund AQI inspections that are required by APHIS and DHS. The authority is codified in 21 U.S.C. 136(a).
Miscellaneous Contributed Funds
The revenue in this fund is collected, in advance of the work, from cooperators who request services for activities such as
inspecting and pre-clearing certain fruits, vegetables, and nursery products before they are shipped to the United States,
or for inspecting commercial birds in a Veterinary Services (VS) approved commercial bird quarantine facility. All costs
incurred to provide these services are the responsibility of the cooperator, and are recorded in this fund. The authority is
codified in 21 U.S.C. 111 and 134(c).

Forest Service
Cooperative Work
Cooperative contributions are deposited for disbursement in compliance with the terms and provisions of the agreement
between the cooperator and the USDA Forest Service. Cooperators include timber purchasers, not-for-profit
organizations, and local hunting and fishing clubs. The governing authorities are the Act of June 30, 1914 (16 U.S.C.
498), and the Knutson-Vandenberg Act.
Land Acquisition
Each fiscal year this fund receives a transfer of recreation user fees from the Department of the Interior’s Land and
Water Conservation Fund, to be used for the acquisition of land or waters, or interest therein, including administrative
expenses, to carry out the provisions of the Land and Water Conservation Fund Act of 1965, as amended (16 U.S.C.
460l-4-11), pertaining to the preservation of watersheds. The Land Acquisition program is authorized by the Interior
and Related Agencies Appropriations Act of December 30, 1982 (96 Stat. 1983, Public Law 97-394).
Payments to States, National Forest Fund
The Payments to States, National Forest Fund receives receipts from the National Forest Fund. These monies are
generated from the sale of goods and services at the national forests. Annually, revenue-sharing payments are made to
the States in which the national forests are located, for public schools and public roads in the county or counties in
which the national forests are situated. The Act of May 23, 1908, as amended (16 U.S.C. 500), authorized the
Payments to States, National Forest Fund program.




USDA
   188         FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Timber Salvage Sales
The Salvage Sale Fund was established to facilitate the timely removal of timber damaged by fire, wind, insects, disease,
or other events. Amounts collected from the sale of salvaged timber are used on other qualifying salvage sales to cover
the cost of preparing and administering the sales. The Timber Salvage Sales program is authorized by 16 USC 472(a).
Fees, Operations and Maintenance of Recreation Facilities
This fund accumulates a portion of deposits derived from fees authorized by the Land and Water Conservation Fund
Act and is available for expenditure by the USDA Forest Service only upon appropriation by Congress. Funds deposited
are not appropriated under this heading and Congressional intent is to not use the deposits for activities over and above
those amounts already provided in the National Forest System appropriation. The Land and Water Conservation Fund
Act (16 U.S.C. 4601 et. seq.) authorized the establishment of this special fund and regulates admission and special
recreation user fees at certain recreational areas.
Timber Roads, Purchaser Election
The Timber Roads fund receives deposits from small business timber purchasers who elect to pay the USDA Forest
Service to construct or reconstruct any road or bridge required by their respective timber sale. These collections are used
to finance only those forest development roads constructed or reconstructed under the terms and conditions of the
timber sale contract(s) involved, and only to a standard necessary to harvest and remove the timber and other products
covered by the particular sale(s). The Timber Roads, Purchaser Election program is authorized by 16 USC 472(I) (2).
Expenses, Brush Disposal
Deposits from timber purchasers are used to cover the cost required to dispose of slash, brush, and other debris resulting
from timber cutting operations and for supplemental protection of the cutover areas in lieu of actual disposal. The
Expenses, Brush Disposal program is authorized by 16 U.S.C. 490-498.
State, Private, and International Forestry Land and Water Conservation Fund
The Fiscal Year 2004 Department of Interior and Related Agencies Appropriation Act (Public Law 108-108) authorizes
the Forest Service to receive a transfer of receipts from the Department of Interior’s Land and Water Conservation
Fund to finance the existing Forest Legacy Program, funded previously by State and Private Forestry general
appropriation. To accommodate the new financing arrangement and at OMB’s request, the U.S. Department of
Treasury established a new special fund, “State, Private and International Forestry Land and Water Conservation Fund”.
The program expenditures include grants and an occasional land purchase, but not real property will be procured or
constructed.
Federal Highway Trust Fund
The Federal Highway Act, as amended (23 U.S.C. 120, 125, and 205) establishes the Federal Highway Trust Fund,
managed by the Department of Transportation. Federal highway construction, maintenance, and other projects defined
in the Act are financed from the Federal Highway Trust Fund. The Department of Transportation transfers these
monies to the Forest Service for highway projects pertinent to National Forest System lands. The Secretary of
Transportation, through the Federal Highway Administration (FHWA), requests through the U.S. Department of
Treasury, to transfer trust funds to eligible Federal agencies that qualify under 23 U.S.C. 125.




                                                                                                                             USDA
                                                                         FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   189
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Recreation Fee Demonstration Program
The Recreation Fee Demonstration Program fund receives deposits of recreation fees collected from projects that are
part of the Recreation Fee Demonstration Program. These monies are retained and used for backlog repair and
maintenance of recreation areas, sites or projects. These funds are also used for interpretation, signage, habitat or facility
enhancement, resource preservation, annual operation, maintenance, and law enforcement related to public use of
recreation areas and sites. The Recreation Fee Demonstration Program is authorized by 16 U.S.C. 4601-6(a).
Roads and Trails for States, National Forest Fund
The Roads and Trails for States, National Forest Fund receives annual deposits equal to ten percent of all revenues from
the National Forest Fund. These amounts are then paid to the States, without regard to the State in which the amounts
were derived, to repair or reconstruct roads, bridges, and trails on National Forest System lands. Also, to carry out and
administer projects to improve forest health conditions, which may include the repair or reconstruction of roads, bridges,
and trails on National Forest System lands in the wild land-community interface where there is an abnormally high risk
of fire. The Roads and Trails for States, National Forest Fund is authorized by the Act of March 4, 1913, as amended
(16 U.S.C. 501).
National Forest Fund Receipts
The Federal Lands Recreation Enhancement Act (FLREA) (Public Law 108-447) sets forth provisions for collection of
recreation fees and retention of special recreation permit fees by the Forest Service. The Forest Service deposits 85
percent of special use permit revenues from these authorizations into the National Forest Fund.
Reforestation Trust Fund
The Reforestation Trust Fund receives periodic transfers of tariffs collected from exported timber from the U.S.
Department of Treasury. Such deposits may not exceed $30 million dollars in a fiscal year. Amounts are invested and
reinvested in United States Treasury interest-bearing Government securities. The interest income is added to the
balance in the Reforestation Trust Fund for use by the Secretary of Agriculture for reforestation and timber-stand
improvement activities. The Act of October 14, 1980, as amended (16 U.S.C. 1606(a)(d)) established the Reforestation
Trust Fund.
Restoration of Forest Lands and Improvements
The Restoration of Forest Lands and Improvements Acts (16 U.S.C. 579(c)) provides that any moneys received by the
United States with respect to lands under the administration of the Forest Service (a) as a result of the forfeiture of a
bond or deposit by a permittee or timber purchaser for failure to complete performance of improvement, protection, or
rehabilitation work required under the permit or timber sale contract or (b) as a result of a judgment, compromise, or
settlement of any claim, involving present or potential damage to lands or improvements, shall be deposited into the
United States Treasury and are appropriated and made available until expended to cover the cost to the United States of
any improvement, protection, or rehabilitation work on lands under the administration of the Forest Service rendered
necessary by the action which led to the forfeiture, judgment, compromise, or settlement: Provided, that any portion of
the moneys received in excess of the amount expended in performing the work necessitated by the action which led to
their receipt shall be transferred to miscellaneous receipts.
Payments to Counties, National Grasslands
Credit receipts from Title III of the Bankhead-Jones Farm Tenant Act lands designated as either national grasslands or
land utilization projects to a special account (sec. 60.1, para. 3). When the status of such lands is changed to that of a



USDA
   190         FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



national forest, credit such receipts to the National Forest Fund. At the end of each calendar year, 25 percent of the net
revenues from each national grassland or land utilization project are paid to the counties in which such lands are located.
These payments are not payments in lieu of taxes (PILT); instead, they are national grassland or land utilization project
receipts to be shared through grants with local governments for the purposes stated in the Act.
Timber Sales Pipeline Restoration Fund
The Timber Sale Pipeline Restoration Fund provides an additional source of funds for restoring the timber sale pipeline
and addressing backlog recreation project needs. These funds are revenue from timber sales released under section
2001(k) of the fiscal year 1995 Supplemental Appropriations for Disaster Assistance and Recessions Act, minus
payments to States and local governments and other necessary deposits (sec. 60.1, para. 27). Based on an Office of
General Counsel opinion dated December 13, 2002, payments to States must be made from these receipts before net
receipts are deposited into this fund (sec. 60.1, para. 28). The Forest Service and the Bureau of Land Management
share in these revenues, referred to as first generation funds. Seventy-five percent of the net funds are deposited in an
account for timber sale pipeline preparation and 25 percent are deposited separately for the recreation backlog program.
Revenues (less payments to States and other necessary deposits) generated by timber sales prepared using these funds are
to be deposited back into the Timber Sale Pipeline Restoration Fund for additional timber sale preparation and backlog
recreation work using the same 75 percent and 25 percent distributions, respectively. However, these second generation
funds are not shared with the Bureau of Land Management.
Acquisition of Lands to Complete Land Exchanges
As authorized by 7 statutes , this program is funded annually by congressional appropriation action, with forest revenues
generated by the occupancy of public land or from the sale of natural resources other than minerals. All funds
appropriated that remain unobligated at the end of the fiscal year are returned to the receipts of the affected national
forests.

Use these funds to purchase land and for related expenditures such as title search, escrow, recording, and personnel costs
when the purchase is considered necessary to minimize soil erosion and flood damage. This appropriation is available
for land acquisition within the exterior boundaries of the national forests.

Southern Nevada Public Lands Management

Department of Interior’s Treasury symbol 14X5232 “Southern Nevada Public Lands Management, Bureau of Land
Management” (BLM) was established by the Department of Interior as authorized by 112 Stat. 2345. The Act
authorizes BLM to sell parcels of public land and retain the sale proceeds for various work projects related to improving
and managing the public lands in Southern Nevada. Forest Service has participated in these work projects for several
years, using many reimbursable agreements each year to conduct business with the other Federal agencies involved. FY
2005 was the first year that DOI/BLM is providing this financing with a transfer fund.
Operation and Maintenance of Forest Service Quarters
As authorized by 5 U.S.C. 5911, this appropriation is funded from quarters rental income from Forest Service owned
and operated employee housing. The funds are available without further appropriation for maintenance of the
residences including any Government-owned property, appliances, and utility systems integral to the facility and
common to the residential community.. The fund does not cover betterments, additions, or replacement construction




                                                                                                                   USDA
                                                              FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT     191
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



and new construction. This appropriation should not be used for complete or partial replacement of structures when lost
by fire, flood, wind, earthquake, other disaster, or acts of God.
Cooperative State Research Education and Extension Service
Native American Institutions Endowment Fund
The Native American Institutions Endowment Fund is authorized by Public Law 103-382 (7 U.S.C. 301 note). This
program provides for an endowment for the 1994 land-grant institutions (31 Tribally controlled colleges) to strengthen
the infrastructure of these institutions and develop Indian expertise for the food and agricultural sciences and businesses
and their own communities. At the termination of each fiscal year, the Secretary shall withdraw the income from the
endowment fund for the fiscal year, and after making adjustments for the cost of administering the fund, distribute the
adjusted income on a formula basis to the 1994 land-grant institutions.

Agricultural Research Service
Miscellaneous Contributed Funds
This fund is used to promote research in food, agriculture and related areas; to enhance the accomplishment of
technology transfer; and share the licensing and royalty fees resulting from patents. The Agricultural Research Service
(ARS) may receive Miscellaneous Contributed Funds (MCF) from states, counties, municipal agencies, universities and
colleges, associations, companies, organizations, and individuals for the purpose of supporting cooperative/in-house
research or research related services of mutual interest to the agency and the contributing party. The duration of an
incoming MCF is as specified in the agreement, but it must not exceed 5 years. Authorization to use these revenues and
other financing sources are under statutory authority 7 U.S.C. 450(a), 3318(b), 450(b), 3319(c), 4501.

Rural Development
Alternative Agricultural Research and Commercialization Revolving Fund
This fund was set up to expedite the development and market penetration of biobased industrial (nonfood-nonfeed)
products from agricultural and forestry materials as well as assist in bridging the gap between the private sector for the
research and commercialization of these biobased industrial (nonfood-nonfeed) products from farm and forestry
materials and animal by-products. Funding is currently limited to the amounts collected from the recipients of the
program and these funds are used to pay the costs of managing the closure of the fund and the remaining is returned to
the United States Treasury. The authority to establish this fund occurred in the 1990 Farm Bill, P.L. 101-624, but was
discontinued in fiscal year 1999. The Farm Security and Rural Investment Act of 2002, Section 6201, transferred the
complete portfolio to Rural Development/Rural Business –Cooperative Service (RD/RBS) to manage the fund while
safeguarding its assets.




USDA
  192          FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                                                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




Earmarked Funds


                                                RMA                    AMS                   AMS                AMS                APHIS                APHIS                 FS                 FS                   FS                  FS


                                                                                        Expenses and
                                                                    Funds for              Refunds,                               Agricultural
                                            Federal Crop          Strengthening         Inspection and       Perishable           Quarantine         Miscellaneous                                              Payments to
                                              Insurance          Markets, Income,      Grading of Farm       Agricultural      Inspection User        Contributed                                              States, National     Timber Salvage
Balance Sheet As of September 30, 2006     Corporation Fund        and Supply              Products        Commodities Act       Fee Account            Funds           Cooperative Work   Land Acquisition     Forests Fund            Sales
ASSETS                                         12X4085              12X5209                12X8015            12X5070              12X5161             12X8226             12X8028            12X5004             12X5201              12X5204
Fund Balance with Treasury                $            1,431    $             202      $             58    $             19   $              122    $            14     $           412    $             40   $             324     $           95
Investments                                                -                      -                    -                  -                     -                  -                   -                  -                     -                 -
Other Assets                                           1,714                  483                    19                   -                    10                 1                  22                  50                   5                  4
Total Assets                                           3,145                  685                    77                  19                  132                 15                 434                  90                 329                 99

Other Liabilities                                     3,927                       3                  61                  -                     9                   -                 57                  1                  201                  7
Total Liabilities                                     3,927                       3                  61                  -                     9                   -                 57                  1                  201                  7

Unexpended Appropriations                                510                   302                    -                  -                  130                   -                   -                  -                    -                  -
Cumulative Results of Operations                      (1,292)                  380                   16                 19                   (7)                 15                 377                 89                  128                 92

Total Liabilities and Net Position                    3,145                    685                   77                 19                  132                  15                 434                 90                  329                 99




Statement of Net Cost For the Period
Ended September 30, 2006
Gross program costs                                   4,584                  1,087                  171                 10                  162                  16                 173                 83                  245                 76
Less Earned Revenues                                  1,100                      1                  132                  7                  424                   7                 116                  1                  271                 68
Net Cost of Operations                                3,484                  1,086                   39                  3                 (262)                  9                  57                 82                  (26)                 8




Statement of Changes in Net Position
For the period Ended September 30, 2006
Net Position Beginning of Period                       (529)                   591                   25                 22                  102                  23                 594                134                  102                100

Non-Exchange Revenue                                   3,230                  1,177                  (3)                 -                 (240)                   -               (159)                37                     -                  -
Other Financing Sources                                    -                      -                  31                  -                    -                    -                  -                  -                     -                  -
Net Cost of Operations                                (3,484)                (1,086)                (39)                (3)                 262                   (9)               (57)               (82)                   26                 (8)

Change in net Position                                 (254)                    91                  (11)                (3)                   22                  (9)              (216)               (45)                   26                 (8)

Net Position End of Period                $            (783)    $              682     $             14    $            19    $             124     $            14     $           378    $            89    $             128     $           92




                                                                                                                                                                                                                                                       USDA
                                                                                                                                                                             FY 2006 PERFORMANCE                  AND   ACCOUNTABILITY REPORT          193
                                                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Earmarked Funds


                                                 FS                  FS                 FS                 FS                  FS                 FS                  FS                 FS                 FS                  FS                   FS

                                                                                                     State, Private,
                                                                                                    and International
                                           Fee, Operation                                            Forestry, Land                                            Roads and Trails                                                                  Payments to
                                          and Maintenance       Timber Roads,                          and Water                            Recreation Fee        for States,                                             Restoration of          Counties,
                                             of Recreation        Purchaser       Expenses, Brush     Conservation       Federal Highway     Demonstration      National Forest    National Forest     Reforestation     Forest Lands and          National
Balance Sheet As of September 30, 2006          Facilities         Election          Disposal             Fund             Trust Fund          Program               Fund          Fund Receipts        Trust Fund        Improvements           Grasslands
ASSETS                                    125072&12X5072           12X5202           12X5206            12X5367            1269X8083           12X5268             12X5203             125008            12X8046             12X5215               125896
Fund Balance with Treasury                 $               13   $           64    $            55   $             85     $            11   $            132    $              30   $            3    $             25    $            21     $                 1
Investments                                                 -                -                  -                    -                 -                   -                   -                -                    -                   -                     -
Other Assets                                                -                2                  1                  2                  16                   7                  18                7                    -                  4                      2
Total Assets                                               13               66                 56                 87                  27                139                   48               10                  25                 25                       3

Other Liabilities                                         -                  -                 -                    3                 1                   4                   3                 -                   3                   -                      -
Total Liabilities                                         -                  -                 -                    3                 1                   4                   3                 -                   3                   -                      -

Unexpended Appropriations                                 -                 -                  -                   -                  -                   -                   -                 -                   -                  -                       -
Cumulative Results of Operations                         13                66                 56                  84                 26                 135                  45                10                  22                 25                       3

Total Liabilities and Net Position                       13                66                 56                  87                 27                 139                  48                10                  25                 25                       3




Statement of Net Cost For the Period
Ended September 30, 2006
Gross program costs                                       -                  1                13                  47                 12                  50                  12                 -                  31                 10                    -
Less Earned Revenues                                     12                  7                12                   -                  -                  54                  15                 6                   -                 15                  (40)
Net Cost of Operations                                  (12)                (6)                1                  47                 12                  (4)                 (3)               (6)                 31                 (5)                  40




Statement of Changes in Net Position
For the period Ended September 30, 2006
Net Position Beginning of Period                          1                70                 58                  74                 61                 131                  42                 2                  23                 20                   43

Non-Exchange Revenue                                      -                (10)                -                  57                (22)                  -                   -                 1                  30                   -                   -
Other Financing Sources                                   -                  -                 -                   -                  -                   -                   -                 -                   -                   -                   -
Net Cost of Operations                                   12                  6                (1)                (47)               (12)                  4                   3                 6                 (31)                  5                 (40)

Change in net Position                                   12                 (4)               (1)                 10                (34)                  4                   3                 7                  (1)                  5                 (40)

Net Position End of Period                 $             13     $          66     $           57    $             84     $           27    $            135    $             45    $            9    $             22    $            25     $                 3




USDA
    194               FY 2006 PERFORMANCE           AND       ACCOUNTABILITY REPORT
                                              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Earmarked Funds


                                                FS                  FS                  FS                FS              CSREES                ARS                AARC


                                                                                                                                                                 Alternative
                                                               Acquisition of                                                                                    Agricultural
                                            Timber Sales         Lands to         Southern Nevada    Operation and    Native American       Miscellaneous       Research and
                                              Pipeline       Complete Land           Public Land     Maintenance of      Institutions        Contributed      Commercialization
Balance Sheet As of September 30, 2006    Restoration Fund      Exchanges            Management        Quarters       Endowment Fund           Funds           Revolving Fund          Other              Total
ASSETS                                        12X5264            12X5216             1214X5232         12X5219            12X5205             12X8214             12X4144
Fund Balance with Treasury                $             10   $             35      $            34   $          10    $                8   $            19    $               1   $            64     $           3,338
Investments                                              -                    -                  -                -                   76                  -                   3                 5                    84
Other Assets                                             2                 11                    -                -                    -                 1                    -                14                 2,395
Total Assets                                            12                 46                   34              10                    84                20                    4                83                 5,817

Other Liabilities                                       1                    1                  2                2                    -                  1                   -                 36                 4,323
Total Liabilities                                       1                    1                  2                2                    -                  1                   -                 36                 4,323

Unexpended Appropriations                               -                    -                 -                 -                  24                   -                  (1)                12                   976
Cumulative Results of Operations                       11                   45                32                 8                  60                  19                   5                 35                   518
                                                                                                                                                                                                                      -
Total Liabilities and Net Position                     12                   46                34                10                  84                  20                   4                 83                 5,817




Statement of Net Cost For the Period
Ended September 30, 2006
Gross program costs                                     6                    3                13                 7                    2                 17                  12                 108                6,951
Less Earned Revenues                                    4                   25                 -                 8                    3                 17                   1                  91                2,357
Net Cost of Operations                                  2                  (22)               13                (1)                  (1)                 -                  11                  17                4,594




Statement of Changes in Net Position
For the period Ended September 30, 2006
Net Position Beginning of Period                       14                   13                  -                7                  70                  19                  15                 60                 1,887

Non-Exchange Revenue                                    -                   10                 45                -                  13                    -                  -                 (13)                4,153
Other Financing Sources                                 -                    -                  -                -                   -                    -                  -                  17                    48
Net Cost of Operations                                 (2)                  22                (13)               1                   1                    -                (11)                (17)               (4,594)

Change in net Position                                 (2)                  32                32                 1                  14                    -                (11)                (13)                (393)

Net Position End of Period                $            12    $              45    $           32     $           8    $             84     $            19    $              4    $            47     $           1,494




                                                                                                                                                                                                                            USDA
                                                                                                                                                      FY 2006 PERFORMANCE             AND   ACCOUNTABILITY REPORT           195
                                                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Dedicated Collections


                                                RMA                      AMS                   AMS                AMS                APHIS                APHIS                FS                 FS                   FS                  FS


                                                                                          Expenses and
                                                                      Funds for              Refunds,                               Agricultural
                                            Federal Crop            Strengthening         Inspection and       Perishable           Quarantine         Miscellaneous                                             Payments to
                                              Insurance            Markets, Income,      Grading of Farm       Agricultural      Inspection User        Contributed                                             States, National     Timber Salvage
Balance Sheet As of September 30, 2005     Corporation Fund          and Supply              Products        Commodities Act       Fee Account            Funds          Cooperative Work   Land Acquisition     Forests Fund            Sales
ASSETS                                         12X4085                12X5209                12X8015            12X5070              12X5161             12X8226            12X8028            12X5004             12X5201              12X5204
Fund Balance with Treasury                $            1,537      $             350      $             44    $             20   $                90   $            13    $           624    $             67   $             165     $          101
Investments                                                -                        -                    -                  -                     -                  -                  -                  -                     -                 -
Other Assets                                           1,433                    245                    40                   3                    13                10                 19                  68                   3                  3
Total Assets                                           2,970                    595                    84                  23                  103                 23                643               135                   168                104

Other Liabilities                                     3,499                         4                  59                  1                     1                   -                49                  1                    66                 4
Total Liabilities                                     3,499                         4                  59                  1                     1                   -                49                  1                    66                 4

Unexpended Appropriations                               465                      302                    6                  -                  130                   -                  -                 (1)                   -                  -
Cumulative Results of Operations                       (994)                     289                   19                 22                  (28)                 23                594                135                  102                100

Total Liabilities and Net Position                    2,970                      595                   84                 23                  103                  23                643                135                  168                104




Statement of Net Cost For the Period
Ended September 30, 2005
Gross program costs                                   3,637                    1,090                  164                 11                  129                  16                109                 92                   83                 67
Less Earned Revenues                                  1,019                        -                  126                  7                  344                  24                112                 20                  115                 72
Net Cost of Operations                                2,618                    1,090                   38                  4                 (215)                 (8)                (3)                72                  (32)                (5)




Statement of Changes in Net Position
For the period Ended September 30, 2005
Net Position Beginning of Period                       (205)                     933                   34                 27                    95                 16                442                145                    69                95

Non-Exchange Revenue                                   2,291                      749                   -                  -                 (208)                  -                149                 61                     -                 -
Other Financing Sources                                    2                        -                  28                  -                    -                   -                  -                  -                     -                 -
Net Cost of Operations                                (2,618)                  (1,090)                (38)                (4)                 215                   8                  3                (72)                   32                 4

Change in net Position                                 (325)                    (341)                 (10)                (4)                    7                  8                152                (11)                   32                 4

Net Position End of Period                $            (530)      $              592     $             24    $            23    $             102     $            24    $           594    $           134    $             101     $           99




USDA
    196                 FY 2006 PERFORMANCE           AND       ACCOUNTABILITY REPORT
                                                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Dedicated Collections


                                                 FS                  FS                 FS                 FS                  FS                 FS                  FS                 FS                  FS                  FS                 FS

                                                                                                     State, Private,
                                                                                                    and International
                                           Fee, Operation                                            Forestry, Land                                            Roads and Trails                                                                 Payments to
                                          and Maintenance       Timber Roads,                          and Water                            Recreation Fee        for States,                                              Restoration of        Counties,
                                             of Recreation        Purchaser       Expenses, Brush     Conservation         Federal-Aid       Demonstration      National Forest    National Forest      Reforestation     Forest Lands and        National
Balance Sheet As of September 30, 2005          Facilities         Election          Disposal             Fund              Highways           Program               Fund          Fund Receipts         Trust Fund        Improvements         Grasslands
ASSETS                                    125072&12X5072           12X5202           12X5206            12X5367            1269X8083           12X5268             12X5203             125008             12X8046             12X5215             125896
Fund Balance with Treasury                 $               13   $           68    $            57   $             80     $            24   $            129    $              29   $           21     $             26    $            19     $            65
Investments                                                 -                -                  -                    -                 -                   -                   -                 -                    -                   -                 -
Other Assets                                                -                2                  -                    -                38                   6                  16                7                     -                  1                  7
Total Assets                                               13               70                 57                 80                  62                135                   45               28                   26                 20                  72

Other Liabilities                                        12                  -                 -                    5                 1                   4                   3                25                    3                   -                18
Total Liabilities                                        12                  -                 -                    5                 1                   4                   3                25                    3                   -                18

Unexpended Appropriations                                 -                 -                  -                   -                  -                   -                  (1)                -                    -                  -                  -
Cumulative Results of Operations                          1                70                 57                  75                 61                 131                  43                 3                   23                 20                 54

Total Liabilities and Net Position                       13                70                 57                  80                 62                 135                  45                28                   26                 20                 72




Statement of Net Cost For the Period
Ended September 30, 2005
Gross program costs                                       -                  -                12                  35                  6                  44                  12                 -                   30                   3                 7
Less Earned Revenues                                      -                  7                13                   -                  -                  50                  16                 3                    -                   3                55
Net Cost of Operations                                    -                 (7)               (1)                 35                  6                  (6)                 (4)               (3)                  30                   -               (48)




Statement of Changes in Net Position
For the period Ended September 30, 2005
Net Position Beginning of Period                         81                63                 56                  52                 52                  44                  38                (1)                  23                 20                  5

Non-Exchange Revenue                                    (80)                -                  -                  57                 16                  81                   -                 -                   30                   -                 -
Other Financing Sources                                   -                 -                  -                   -                  -                   -                   -                 -                    -                   -                 -
Net Cost of Operations                                    -                 6                  1                 (35)                (6)                  6                   4                 3                  (30)                  -                48

Change in net Position                                  (80)                6                  1                  22                 10                  87                   4                 3                     -                  -                48

Net Position End of Period                 $              1     $          69     $           57    $             74     $           62    $            131    $             42    $            2     $             23    $            20     $           53




                                                                                                                                                                                                                                                    USDA
                                                                                                                                                               FY 2006 PERFORMANCE                   AND   ACCOUNTABILITY REPORT                      197
                                              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Dedicated Collections


                                                FS                  FS                  FS                FS              CSREES                ARS                  AARC


                                                                                                                                                                   Alternative
                                                               Acquisition of                                                                                     Agricultural
                                            Timber Sales         Lands to         Southern Nevada    Operation and    Native American       Miscellaneous        Research and
                                              Pipeline       Complete Land           Public Land     Maintenance of      Institutions        Contributed       Commercialization
Balance Sheet As of September 30, 2005    Restoration Fund      Exchanges            Management        Quarters       Endowment Fund           Funds             Revolving Fund         Other             Total
ASSETS                                        12X5264            12X5216             1214X5232         12X5219            12X5205             12X8214               12X4144
Fund Balance with Treasury                $             12   $               4     $             -   $           9    $                7   $            18     $                -   $           54    $           3,646
Investments                                              -                    -                  -                -                   63                  -                    15                6                   84
Other Assets                                             2                   9                   -                -                    -                 2                      -               15                1,942
Total Assets                                            14                 13                    -               9                    70                20                     15               75                5,672

Other Liabilities                                       -                     -                 -                3                    -                   -                     -               23                3,781
Total Liabilities                                       -                     -                 -                3                    -                   -                     -               23                3,781

Unexpended Appropriations                               -                    -                  -                -                  12                   -                    (1)               11                  923
Cumulative Results of Operations                       14                   13                  -                6                  58                  20                    16                41                  968
                                                                                                                                                                                                                      -
Total Liabilities and Net Position                     14                   13                  -                9                  70                  20                    15                75                5,672




Statement of Net Cost For the Period
Ended September 30, 2005
Gross program costs                                     5                    2                  -                8                    2                 19                      -               72                5,655
Less Earned Revenues                                    6                    8                  -                7                    3                 16                      -               62                2,088
Net Cost of Operations                                 (1)                  (6)                 -                1                   (1)                 3                      -               10                3,567




Statement of Changes in Net Position
For the period Ended September 30, 2005
Net Position Beginning of Period                       13                    6                  -                7                  58                  23                    15                39                2,245

Non-Exchange Revenue                                    -                    1                  -                 -                 12                    -                     -                4                 3,163
Other Financing Sources                                 -                    -                  -                 -                  -                    -                     -               20                    50
Net Cost of Operations                                  1                    6                  -                 -                  1                   (4)                    -               (8)               (3,567)

Change in net Position                                  1                    7                  -                 -                 13                   (4)                    -               16                 (354)

Net Position End of Period                $            14    $              13    $             -    $           7    $             71     $            19     $              15    $           55    $           1,891




USDA
   198              FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 19. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
             FY 2006                                                             FSA                                       CCC                                       FAS
                                                                 Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



             Enhance International Competitiveness and
             the Sustainability of Rural and Farm Economies:
             Gross Costs                                         $             901    $        1,266       $            1,801   $       21,876       $               64    $         252
             Less: Earned Revenue                                              314               378                      246            4,749                       75               14
             Net Cost                                                          587               888                    1,555           17,127                      (11)             238

             Support Increased Economic Opportunities and
             Improved Quality of Life in Rural America:
             Gross Costs                                                          -                    -                    -                    -                    -                    -
             Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
             Net Cost                                                             -                    -                    -                    -                    -                    -

             Enhance Protection and Safety of the Nation's
             Agriculture and Food Supply:
             Gross Costs                                                          -                    -                    -                    -                    -                    -
             Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
             Net Cost                                                             -                    -                    -                    -                    -                    -

             Improve the Nation's Nutrition and Health:
             Gross Costs                                                          -                    -                    -                    -                    -                    -
             Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
             Net Cost                                                             -                    -                    -                    -                    -                    -

             Protect and Enhance the Nation's Natural Resource
             Base and Environment:
             Gross Costs                                                          -                    -                 284             2,082                        -                    -
             Less: Earned Revenue                                                 -                    -                   -                35                        -                    -
             Net Cost                                                             -                    -                 284             2,047                        -                    -

             Total Gross Costs                                                 901             1,266                    2,085           23,958                       64              252
             Less: Total Earned Revenue                                        314               378                      246            4,784                       75               14
             Net Cost of Operations                              $             587    $          888       $            1,839   $       19,174       $              (11)   $         238




                                                                                                                                                                                               USDA
                                                                                                                         FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT              199
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




           FY 2006                                                               RMA                                       FNS                                       FSIS
                                                                 Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental    With the Public



           Enhance International Competitiveness and
           the Sustainability of Rural and Farm Economies:
           Gross Costs                                           $              45    $        4,626       $                -   $                -   $                -    $                -
           Less: Earned Revenue                                                  -             1,100                        -                    -                    -                     -
           Net Cost                                                             45             3,526                        -                    -                    -                     -

           Support Increased Economic Opportunities and
           Improved Quality of Life in Rural America:
           Gross Costs                                                            -                    -                    -                    -                    -                     -
           Less: Earned Revenue                                                   -                    -                    -                    -                    -                     -
           Net Cost                                                               -                    -                    -                    -                    -                     -

           Enhance Protection and Safety of the Nation's
           Agriculture and Food Supply:
           Gross Costs                                                            -                    -                    -                    -                  273               801
           Less: Earned Revenue                                                   -                    -                    -                    -                    3               125
           Net Cost                                                               -                    -                    -                    -                  270               676

           Improve the Nation's Nutrition and Health:
           Gross Costs                                                            -                    -                 785            52,666                        -                     -
           Less: Earned Revenue                                                   -                    -                   3                18                        -                     -
           Net Cost                                                               -                    -                 782            52,648                        -                     -

           Protect and Enhance the Nation's Natural Resource
           Base and Environment:
           Gross Costs                                                            -                    -                    -                    -                    -                     -
           Less: Earned Revenue                                                   -                    -                    -                    -                    -                     -
           Net Cost                                                               -                    -                    -                    -                    -                     -

           Total Gross Costs                                                    45             4,626                     785            52,666                      273               801
           Less: Total Earned Revenue                                            -             1,100                       3                18                        3               125
           Net Cost of Operations                                $              45    $        3,526       $             782    $       52,648       $              270    $          676




USDA
200    FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                                             AMS                                      APHIS                                     GIPSA
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $             467    $          929       $                -   $                -   $              29    $           56
Less: Earned Revenue                                                9               190                        -                    -                   1                39
Net Cost                                                          458               739                        -                    -                  28                17

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Costs                                                          -                    -                 271             1,483                        -                    -
Less: Earned Revenue                                                 -                    -                 400               471                        -                    -
Net Cost                                                             -                    -                (129)            1,012                        -                    -

Improve the Nation's Nutrition and Health:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                          -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Total Gross Costs                                                 467               929                     271             1,483                      29                56
Less: Total Earned Revenue                                          9               190                     400               471                       1                39
Net Cost of Operations                              $             458    $          739       $            (129)   $        1,012       $              28    $           17




                                                                                                                                                                                  USDA
                                                                                                            FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT              201
                                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



          FY 2006                                                                 FS                                        NRCS                                       ARS
                                                              Intragovernmental        With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



          Enhance International Competitiveness and
          the Sustainability of Rural and Farm Economies:
          Gross Costs                                         $                   -    $                 -   $                -   $                -   $              84    $          403
          Less: Earned Revenue                                                    -                      -                    -                    -                  24                10
          Net Cost                                                                -                      -                    -                    -                  60               393

          Support Increased Economic Opportunities and
          Improved Quality of Life in Rural America:
          Gross Costs                                                             -                      -                    -                    -                    -                    -
          Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
          Net Cost                                                                -                      -                    -                    -                    -                    -

          Enhance Protection and Safety of the Nation's
          Agriculture and Food Supply:
          Gross Costs                                                             -                      -                    -                    -                  84               403
          Less: Earned Revenue                                                    -                      -                    -                    -                  24                10
          Net Cost                                                                -                      -                    -                    -                  60               393

          Improve the Nation's Nutrition and Health:
          Gross Costs                                                             -                      -                    -                    -                  16                78
          Less: Earned Revenue                                                    -                      -                    -                    -                   5                 2
          Net Cost                                                                -                      -                    -                    -                  11                76

          Protect and Enhance the Nation's Natural Resource
          Base and Environment:
          Gross Costs                                                      1,106                 5,831                     540             2,472                      49               235
          Less: Earned Revenue                                               386                   649                     119               (15)                     14                 6
          Net Cost                                                           720                 5,182                     421             2,487                      35               229

          Total Gross Costs                                                1,106                 5,831                     540             2,472                     233             1,119
          Less: Total Earned Revenue                                         386                   649                     119               (15)                     67                28
          Net Cost of Operations                              $              720       $         5,182       $             421    $        2,487       $             166    $        1,091




USDA
202    FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                                           CSREES                                 ERS                                   NASS
                                                    Intragovernmental  With the Public   Intragovernmental   With the Public    Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $              11    $         371   $              18    $           32    $              35    $          100
Less: Earned Revenue                                                9                -                   1                (1)                  11                 3
Net Cost                                                            2              371                  17                33                   24                97

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                         5              160                   3                 5                   10                27
Less: Earned Revenue                                                4                -                   -                 -                    3                 1
Net Cost                                                            1              160                   3                 5                    7                26

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Costs                                                         8              268                   2                 3                    1                 3
Less: Earned Revenue                                                7                -                   -                 -                    -                 -
Net Cost                                                            1              268                   2                 3                    1                 3

Improve the Nation's Nutrition and Health:
Gross Costs                                                         4              123                   4                 7                     -                    -
Less: Earned Revenue                                                3                -                   -                 -                     -                    -
Net Cost                                                            1              123                   4                 7                     -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                         6              189                   4                 7                    1                 4
Less: Earned Revenue                                                5                -                   -                 -                    -                 -
Net Cost                                                            1              189                   4                 7                    1                 4

Total Gross Costs                                                  34            1,111                  31                54                   47               134
Less: Total Earned Revenue                                         28                -                   1                (1)                  14                 4
Net Cost of Operations                              $               6    $       1,111   $              30    $           55    $              33    $          130




                                                                                                                                                                          USDA
                                                                                                       FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT              203
                                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




          FY 2006                                                                 RD                                          DO                                  TOTAL
                                                              Intragovernmental        With the Public       Intragovernmental   With the Public   Intragovernmental   With the Public



          Enhance International Competitiveness and
          the Sustainability of Rural and Farm Economies:
          Gross Costs                                         $                   -    $                 -   $             181     $         302   $            3,636   $       30,213
          Less: Earned Revenue                                                    -                      -                 213                 6                  903            6,488
          Net Cost                                                                -                      -                 (32)              296                2,733           23,725

          Support Increased Economic Opportunities and
          Improved Quality of Life in Rural America:
          Gross Costs                                                      3,133                 3,709                       58               94                3,209            3,995
          Less: Earned Revenue                                               348                 3,632                       69                1                  424            3,634
          Net Cost                                                         2,785                    77                      (11)              93                2,785              361

          Enhance Protection and Safety of the Nation's
          Agriculture and Food Supply:
          Gross Costs                                                             -                      -                  86               140                 725             3,101
          Less: Earned Revenue                                                    -                      -                 103                 3                 537               609
          Net Cost                                                                -                      -                 (17)              137                 188             2,492

          Improve the Nation's Nutrition and Health:
          Gross Costs                                                             -                      -                  49                79                 858            52,953
          Less: Earned Revenue                                                    -                      -                  57                 1                  68                21
          Net Cost                                                                -                      -                  (8)               78                 790            52,932

          Protect and Enhance the Nation's Natural Resource
          Base and Environment:
          Gross Costs                                                             -                      -                 112               181                2,102           11,001
          Less: Earned Revenue                                                    -                      -                 135                 1                  659              676
          Net Cost                                                                -                      -                 (23)              180                1,443           10,325

          Total Gross Costs                                                3,133                 3,709                     486               796              10,530           101,263
          Less: Total Earned Revenue                                         348                 3,632                     577                12               2,591            11,428
          Net Cost of Operations                              $            2,785       $            77       $             (91)    $         784   $           7,939    $       89,835




USDA
204    FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




FY 2006                                             Intradepartmental
                                                       Eliminations      GRAND TOTAL



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $          (2,008)   $     31,841
Less: Earned Revenue                                             (412)          6,979
Net Cost                                                       (1,596)         24,862

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                      (156)          7,048
Less: Earned Revenue                                              (78)          3,980
Net Cost                                                          (78)          3,068

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Costs                                                      (197)          3,629
Less: Earned Revenue                                             (497)            649
Net Cost                                                          300           2,980

Improve the Nation's Nutrition and Health:
Gross Costs                                                      (747)         53,064
Less: Earned Revenue                                              (53)             36
Net Cost                                                         (694)         53,028

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                      (511)         12,592
Less: Earned Revenue                                             (231)          1,104
Net Cost                                                         (280)         11,488

Total Gross Costs                                              (3,619)        108,174
Less: Total Earned Revenue                                     (1,271)         12,748
Net Cost of Operations                              $          (2,348)   $     95,426




                                                                                                                                                 USDA
                                                                                             FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   205
                                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




          FY 2005                                                             FSA                                       CCC                                       FAS
                                                              Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



          Enhance International Competitiveness and
          the Sustainability of Rural and Farm Economies:
          Gross Costs                                         $             848    $        1,129       $            1,683   $       32,653       $              88    $          231
          Less: Earned Revenue                                              260               418                      129           13,102                      74                 -
          Net Cost                                                          588               711                    1,554           19,551                      14               231

          Support Increased Economic Opportunities and
          Improved Quality of Life in Rural America:
          Gross Costs                                                          -                    -                    -                    -                    -                    -
          Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
          Net Cost                                                             -                    -                    -                    -                    -                    -

          Enhance Protection and Safety of the Nation's
          Agriculture and Food Supply:
          Gross Costs                                                          -                    -                    -                    -                    -                    -
          Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
          Net Cost                                                             -                    -                    -                    -                    -                    -

          Improve the Nation's Nutrition and Health:
          Gross Costs                                                          -                    -                    -                    -                    -                    -
          Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
          Net Cost                                                             -                    -                    -                    -                    -                    -

          Protect and Enhance the Nation's Natural Resource
          Base and Environment:
          Gross Costs                                                          -                    -                 187             1,970                        -                    -
          Less: Earned Revenue                                                 -                    -                   1                 1                        -                    -
          Net Cost                                                             -                    -                 186             1,969                        -                    -

          Total Gross Costs                                                 848             1,129                    1,870           34,623                      88               231
          Less: Total Earned Revenue                                        260               418                      130           13,103                      74                 -
          Net Cost of Operations                              $             588    $          711       $            1,740   $       21,520       $              14    $          231




USDA
206    FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT
                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




FY 2005                                                             RMA                                       FNS                                       FSIS
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental    With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $              40    $        3,678       $                -   $                -   $                -    $                -
Less: Earned Revenue                                                -             1,019                        -                    -                    -                     -
Net Cost                                                           40             2,659                        -                    -                    -                     -

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                          -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Costs                                                          -                    -                    -                    -                  249               748
Less: Earned Revenue                                                 -                    -                    -                    -                    3               119
Net Cost                                                             -                    -                    -                    -                  246               629

Improve the Nation's Nutrition and Health:
Gross Costs                                                          -                    -                1,093           50,513                        -                     -
Less: Earned Revenue                                                 -                    -                    5               24                        -                     -
Net Cost                                                             -                    -                1,088           50,489                        -                     -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                          -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Total Gross Costs                                                  40             3,678                    1,093           50,513                      249               748
Less: Total Earned Revenue                                          -             1,019                        5               24                        3               119
Net Cost of Operations                              $              40    $        2,659       $            1,088   $       50,489       $              246    $          629




                                                                                                                                                                                   USDA
                                                                                                           FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT               207
                                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




           FY 2005                                                             AMS                                      APHIS                                     GIPSA
                                                               Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



           Enhance International Competitiveness and
           the Sustainability of Rural and Farm Economies:
           Gross Costs                                         $              82    $        1,325       $                -   $                -   $              26    $           66
           Less: Earned Revenue                                                3               189                        -                    -                   1                36
           Net Cost                                                           79             1,136                        -                    -                  25                30

           Support Increased Economic Opportunities and
           Improved Quality of Life in Rural America:
           Gross Costs                                                          -                    -                    -                    -                    -                    -
           Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
           Net Cost                                                             -                    -                    -                    -                    -                    -

           Enhance Protection and Safety of the Nation's
           Agriculture and Food Supply:
           Gross Costs                                                          -                    -                 252             1,063                        -                    -
           Less: Earned Revenue                                                 -                    -                  20               462                        -                    -
           Net Cost                                                             -                    -                 232               601                        -                    -

           Improve the Nation's Nutrition and Health:
           Gross Costs                                                          -                    -                    -                    -                    -                    -
           Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
           Net Cost                                                             -                    -                    -                    -                    -                    -

           Protect and Enhance the Nation's Natural Resource
           Base and Environment:
           Gross Costs                                                          -                    -                    -                    -                    -                    -
           Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
           Net Cost                                                             -                    -                    -                    -                    -                    -

           Total Gross Costs                                                  82             1,325                     252             1,063                      26                66
           Less: Total Earned Revenue                                          3               189                      20               462                       1                36
           Net Cost of Operations                              $              79    $        1,136       $             232    $          601       $              25    $           30




USDA
208    FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                        FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2005                                                                 FS                                        NRCS                                       ARS
                                                    Intragovernmental        With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                   -    $                 -   $                -    $           5       $                71   $           398
Less: Earned Revenue                                                    -                      -                   (1)               -                        19                 7
Net Cost                                                                -                      -                    1                5                        52               391

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                             -                      -                  23               108                         -                   -
Less: Earned Revenue                                                    -                      -                   1                 3                         -                   -
Net Cost                                                                -                      -                  22               105                         -                   -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Costs                                                             -                      -                    -                    -                    69               387
Less: Earned Revenue                                                    -                      -                    -                    -                    18                 7
Net Cost                                                                -                      -                    -                    -                    51               380

Improve the Nation's Nutrition and Health:
Gross Costs                                                             -                      -                    -                    -                    16               89
Less: Earned Revenue                                                    -                      -                    -                    -                     4                2
Net Cost                                                                -                      -                    -                    -                    12               87

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                       929                  4,902                     433             1,953                        42               232
Less: Earned Revenue                                              265                    524                      80                45                        11                 4
Net Cost                                                          664                  4,378                     353             1,908                        31               228

Total Gross Costs                                                 929                  4,902                     456             2,066                       198           1,106
Less: Total Earned Revenue                                        265                    524                      80                48                        52              20
Net Cost of Operations                              $             664        $         4,378       $             376     $       2,018       $               146   $       1,086




                                                                                                                                                                                       USDA
                                                                                                                 FY 2006 PERFORMANCE             AND   ACCOUNTABILITY REPORT           209
                                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



            FY 2005                                                           CSREES                                 ERS                                  NASS
                                                                Intragovernmental  With the Public   Intragovernmental   With the Public   Intragovernmental   With the Public



            Enhance International Competitiveness and
            the Sustainability of Rural and Farm Economies:
            Gross Costs                                          $             10    $         360   $              14    $           26   $              35    $          101
            Less: Earned Revenue                                                8                -                   1                 -                  19                 4
            Net Cost                                                            2              360                  13                26                  16                97

            Support Increased Economic Opportunities and
            Improved Quality of Life in Rural America:
            Gross Costs                                                         3              167                   3                 6                   4                16
            Less: Earned Revenue                                                5                -                   -                 -                   -                 -
            Net Cost                                                           (2)             167                   3                 6                   4                16

            Enhance Protection and Safety of the Nation's
            Agriculture and Food Supply:
            Gross Costs                                                         9              275                   1                 3                   1                 3
            Less: Earned Revenue                                                6                -                   -                 -                   1                 -
            Net Cost                                                            3              275                   1                 3                   -                 3

            Improve the Nation's Nutrition and Health:
            Gross Costs                                                         2              131                   6                11                    -                    -
            Less: Earned Revenue                                                4                -                   -                 -                    -                    -
            Net Cost                                                           (2)             131                   6                11                    -                    -

            Protect and Enhance the Nation's Natural Resource
            Base and Environment:
            Gross Costs                                                         5              201                   4                 8                   2                 5
            Less: Earned Revenue                                                4                -                   -                 -                   1                 -
            Net Cost                                                            1              201                   4                 8                   1                 5

            Total Gross Costs                                                  29            1,134                  28                54                  42               125
            Less: Total Earned Revenue                                         27                -                   1                 -                  21                 4
            Net Cost of Operations                               $              2    $       1,134   $              27    $           54   $              21    $          121




USDA
210    FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2005                                                              RD                                        DO                                  TOTAL
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Costs                                         $                -   $                -   $             125     $         271   $            3,022   $       40,243
Less: Earned Revenue                                                 -                    -                 191                 5                  704           14,780
Net Cost                                                             -                    -                 (66)              266                2,318           25,463

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                      3,314             1,730                      49              106                3,396             2,133
Less: Earned Revenue                                               416             3,920                      74                2                  496             3,925
Net Cost                                                         2,898            (2,190)                    (25)             104                2,900            (1,792)

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Costs                                                          -                    -                   60              132                  641            2,611
Less: Earned Revenue                                                 -                    -                   92                2                  140              590
Net Cost                                                             -                    -                  (32)             130                  501            2,021

Improve the Nation's Nutrition and Health:
Gross Costs                                                          -                    -                   35               77                1,152           50,821
Less: Earned Revenue                                                 -                    -                   54                1                   67               27
Net Cost                                                             -                    -                  (19)              76                1,085           50,794

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                          -                    -                  75               168                1,677            9,439
Less: Earned Revenue                                                 -                    -                 118                 3                  480              577
Net Cost                                                             -                    -                 (43)              165                1,197            8,862

Total Gross Costs                                                3,314             1,730                    344               754                9,888          105,247
Less: Total Earned Revenue                                         416             3,920                    529                13                1,887           19,899
Net Cost of Operations                              $            2,898   $        (2,190)     $            (185)    $         741   $            8,001   $       85,348




                                                                                                                                                                            USDA
                                                                                                             FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT         211
                                               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




       FY 2005                                                 Intradepartmental
                                                                  Eliminations      GRAND TOTAL



       Enhance International Competitiveness and
       the Sustainability of Rural and Farm Economies:
       Gross Costs                                             $          (1,356)   $     41,909
       Less: Earned Revenue                                                 (348)         15,136
       Net Cost                                                           (1,008)         26,773

       Support Increased Economic Opportunities and
       Improved Quality of Life in Rural America:
       Gross Costs                                                          (171)          5,358
       Less: Earned Revenue                                                  (77)          4,344
       Net Cost                                                              (94)          1,014

       Enhance Protection and Safety of the Nation's
       Agriculture and Food Supply:
       Gross Costs                                                          (181)          3,071
       Less: Earned Revenue                                                 (100)            630
       Net Cost                                                              (81)          2,441

       Improve the Nation's Nutrition and Health:
       Gross Costs                                                          (940)         51,033
       Less: Earned Revenue                                                  (48)             46
       Net Cost                                                             (892)         50,987

       Protect and Enhance the Nation's Natural Resource
       Base and Environment:
       Gross Costs                                                          (430)         10,686
       Less: Earned Revenue                                                 (169)            888
       Net Cost                                                             (261)          9,798

       Total Gross Costs                                                  (3,078)        112,057
       Less: Total Earned Revenue                                           (742)         21,044
       Net Cost of Operations                                  $          (2,336)   $     91,013




USDA
212           FY 2006 PERFORMANCE              AND     ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 20. COST OF STEWARDSHIP PP&E
The acquisition cost of stewardship land in FY 2006 and FY 2005 was $291 million and $246 million, respectively.



NOTE 21. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

             FY 2006
                                                                 Direct          Reimbursable           Total
             Apportionment by Fiscal Quarter                 $     70,503    $             1,336    $     71,839
             Apportionment for Special Activities                  30,857               41,166            72,023
             Exempt from Apportionment                              1,535                    61            1,596
             Total Obligations Incurred                      $    102,895    $          42,563      $   145,458



             FY 2005
                                                                 Direct          Reimbursable           Total
             Apportionment by Fiscal Quarter                 $     65,399    $              447     $     65,846
             Apportionment for Special Activities                  30,937               42,982            73,919
             Exempt from Apportionment                              1,039                    31            1,070
             Total Obligations Incurred                      $     97,375    $          43,460      $   140,835




NOTE 22. AVAILABLE BORROWING AUTHORITY, END OF PERIOD
Available borrowing authority at September 30, 2006 and 2005 was $29,700 million and $29,073 million, respectively.



NOTE 23. TERMS OF BORROWING AUTHORITY USED
The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for the purpose of
discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized losses and debt related to foreign
assistance programs. The permanent indefinite borrowing authority includes both interest bearing and non–interest
notes. These notes are drawn upon daily when disbursements exceed deposits. Notes payable under the permanent
indefinite borrowing authority have a term of one year. On January 1 of each year, USDA refinances its outstanding
borrowings, including accrued interest, at the January borrowing rate.

In addition, USDA has permanent indefinite borrowing authority for the foreign assistance and export credit programs
to finance disbursements on post-credit reform, direct credit obligations, and credit guarantees. In accordance with the
Federal Credit Reform Act of 1990 as amended, USDA borrows from Treasury on October 1, for the entire fiscal year,
based on annual estimates of the difference between the amount appropriated (subsidy) and the amount to be disbursed
to the borrower. Repayment under this agreement may be, in whole or in part, prior to maturity by paying the principal
amount of the borrowings plus accrued interest to the date of repayment. Interest is paid on these borrowings based on


                                                                                                                   USDA
                                                             FY 2006 PERFORMANCE     AND   ACCOUNTABILITY REPORT   213
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



weighted average interest rates for the cohort, to which the borrowings are associated. Interest is earned on the daily
balance of uninvested funds in the credit reform financing funds maintained at Treasury. The interest income is used to
reduce interest expense on the underlying borrowings.

USDA has authority to borrow from the Federal Financing Bank (FFB) and private investors in the form of Certificates
of Beneficial Ownership (CBO) or loans executed directly between the borrower and FFB with an unconditional USDA
repayment guarantee. CBO’s outstanding with the FFB and private investors are generally secured by unpaid loan
principal balances. CBO’s outstanding are related to pre-credit reform loans and no longer used for program financing.

FFB’s CBO’s are repaid as they mature and are not related to any particular group of loans. Borrowings made to finance
loans directly between the borrower and FFB mature and are repaid as the related group of loans become due. Interest
rates on the related group of loans are equal to interest rates on FFB borrowings, except in those situations where an
FFB funded loan is restructured and the terms of the loan are modified.

Prepayments can be made on Treasury borrowings without a penalty; however, they cannot be made on FFB CBO’s,
without a penalty.

Funds may also be borrowed from private lending agencies and others. USDA reserves a sufficient amount of its
borrowing authority to purchase, at any time, all notes and other obligations evidencing loans made by agencies and
others. All bonds, notes, debentures, and similar obligations issued by the Department are subject to approval by the
Secretary of the Treasury. Reservation of borrowing authority for these purposes has not been required for many years.



NOTE 24. ADJUSTMENTS TO BEGINNING BALANCE OF BUDGETARY RESOURCES


                                                                        FY 2006                                     FY 2005
                                                            Obligated             Unobligated           Obligated             Unobligated
           Beginning balances                           $        44,757       $        25,998       $        38,146       $        25,081
           Adjustments                                                  -                       -                   -                       -
           Beginning balances, as adjusted              $        44,757       $        25,998       $        38,146       $        25,081




NOTE 25. PERMANENT INDEFINITE APPROPRIATIONS
USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit reform programs,
2) certain costs of the crop insurance program, and 3) certain costs associated with FS programs.
The permanent indefinite appropriations for credit reform are mainly available to finance any disbursements incurred
under the liquidating accounts. These appropriations become available pursuant to standing provisions of law without
further action by Congress after transmittal of the Budget for the year involved. They are treated as permanent the first
year they become available, as well as in succeeding years. However, they are not stated as specific amounts but are
determined by specified variable factors, such as cash needs for liquidating accounts, and information about the actual
performance of a cohort or estimated changes in future cash flows of the cohort in the program accounts.


USDA
  214       FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



The permanent indefinite appropriation for the crop insurance program is used to cover premium subsidy, delivery
expenses, losses in excess of premiums and research and delivery costs.

The permanent indefinite appropriation for FS programs is used to fund Recreation Fee Collection Costs, Brush
Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and Improvements, Roads
and Trails for States, National Forest Fund, Timber Roads, Purchaser Elections, Timber Salvage Sales and Operations,
and Maintenance of Quarters. Each of these permanent indefinite appropriations is funded by receipts made available
by law, and is available until expended.



NOTE 26. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
Unobligated budget authority is the difference between the obligated balance and the total unexpended balance. It
represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are provided
on an annual, multi-year, and no-year basis. An appropriation expires on the last day of its period of availability and is no
longer available for new obligations. Unobligated balances retain their fiscal-year identity in an expired account for an
additional five fiscal years. The unobligated balance remains available to make legitimate obligation adjustments, i.e., to
record previously unrecorded obligations and to make upward adjustments in previously underestimated obligations for
five years. At the end of the fifth year, the authority is canceled. Thereafter, the authority is not available for any
purpose.

Any information about legal arrangements affecting the use of the unobligated balance of budget authority is specifically
stated by program and fiscal year in the appropriation language or in the alternative provisions section at the end of the
appropriations act.



NOTE 27. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY RESOURCES AND THE BUDGET OF THE UNITED STATES
GOVERNMENT
The differences between the fiscal 2005 Statement of Budgetary Resources and the fiscal 2005 actual numbers presented
in the fiscal 2007 Budget of the United States Government (Budget) are summarized below.

The Budget excludes expired accounts that are no longer available for new obligations.

Adjustments were made subsequent to the Budget submission as follows:

Forest Service – A Treasury symbol that was established and utilized for Fire Transfer Payback and included in the
President’s Budget should not have been treated as an offsetting receipt.

CCC – Beginning balance difference resulting primarily from the accounting for cohorts in the President’s Budget and
FACTS ll for Budgetary Resources and Obligations incurred. In addition the difference in the Outlays are as a result of
a timing difference of a Parent-child relationship with another governmental agency.

Unavailable collections for the Native American Institution Endowment Fund were included as budgetary resources in
the Statement of Budgetary Resources.



                                                                                                                     USDA
                                                               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      215
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



The Budget includes the Milk Market Orders Assessment Fund since employees of the Milk Market Administrators
participate in the Federal retirement system, though these funds are not available for use by the Department.

Other items mainly consist of balances in suspense accounts and differences due to rounding that are excluded from the
Budget.

A comparison between the fiscal 2006 Statement of Budgetary Resources and the fiscal 2006 actual numbers presented
in the fiscal 2008 Budget cannot be performed as the fiscal 2008 Budget is not yet available. The fiscal 2008 Budget is
expected to be published in February 2007 and will be available from the Government Printing Office.
            FY 2005
                                                                                                             Distributed
                                                                   Budgetary           Obligations            offsetting
                                                                   Resources            incurred               receipts        Net Outlays


            Combined Statement of Budgetary Resources          $      166,833      $       140,836       $          2,167      $    89,799
            Reconciling items:
             Expired accounts                                          (9,479)              (4,060)                        -             -
             Adjustment - Forest Service                                       -                     -               168              (168)
             Adjustment- CCC                                              184                  184                         -           (47)
             Native American Institutions                                 (15)                   (1)                       -             -
             Milk Market Orders Fund                                       49                   49                         -            (2)
             Other                                                         (4)                   9                         1           (16)
            Budget of the United States Government             $      157,568      $       137,017       $         2,336       $    89,566




NOTE 28. UNDELIVERED ORDERS AT THE END OF THE PERIOD
Budgetary resources obligated for undelivered orders as of September 30, 2006 and 2005 was $35,204 million and
$34,698 million, respectively.




USDA
  216       FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 29. RELATIONSHIP BETWEEN LIABILITIES NOT COVERED BY BUDGETARY RESOURCES ON THE BALANCE SHEET AND THE
CHANGE IN COMPONENTS REQUIRING OR GENERATING RESOURCES IN FUTURE PERIODS
The change in liabilities not covered by budgetary resources should be the same as the change in components requiring
or generating resources in future periods, except for other components requiring or generating resources in future periods
that are reported separately. The components requiring or generating resources in future periods as reported on the
Statement of Financing differ from the components requiring or generating resources in future periods reflected below
for the portion of liabilities not covered by budgetary resources.
                                                                                                      FY 2006          FY 2005
             Current year liabilities not covered by budgetary resources,                         $     10,260     $     11,581
             as disclosed in Note 12

             Prior year liabilities not covered by budgetary resources                                  (11,581)         (3,697)

             Increase (Decrease) in liabilities not covered by budgetary resources                       (1,321)          7,884

             Upward/Downward Reestimates of Credit Subsidy Expense                                         650           (1,853)

             Increase in Exchange Revenue Receivable from the Public                                      (377)          (7,791)

             Other                                                                                       1,494             (428)
             Components requiring or generating resources in future periods,
             as reported on the Statement of Financing                                            $        446     $     (2,188)




NOTE 30. DESCRIPTION OF TRANSFERS THAT APPEAR AS A RECONCILING ITEM ON THE STATEMENT OF FINANCING
Allocation transfers that appear as reconciling items on the Statement of Financing include funds received from the
Department of Labor for training underemployed youths; the Department of Transportation for maintenance and
upkeep of federal highways traversing National Forest System lands; the Department of Interior for watershed
improvement projects and oil and gas use authorizations; the Appalachian Regional Commission and Economic
Development Administration for accounting services; and funds transferred to the Agency for International
Development for transportation in connection with foreign commodity donations; the Department of Interior for state
and private forestry; the Department of Transportation for capital improvement and maintenance; and the Department
of Defense for state and private forestry.




                                                                                                                                   USDA
                                                                            FY 2006 PERFORMANCE   AND    ACCOUNTABILITY REPORT     217
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 31. INCIDENTAL CUSTODIAL COLLECTIONS
Custodial collections represent National Forest Fund receipts from the sale of timber and other forest products,
miscellaneous general fund receipts such as collections on accounts receivable related to canceled year appropriations,
civil monetary penalties and interest, and commercial fines and penalties. Custodial collection activities are considered
immaterial and incidental to the mission of the Department.




               Revenue Activity:                                                    FY 2006             FY 2005
                   Sources of Collections:
                   Miscellaneous                                                $             65    $             64
               Total Cash Collections                                                         65                  64
               Accrual Adjustments                                                        (11)                    (7)
               Total Custodial Revenue                                                        54                  57
               Disposition of Collections:
               Transferred to Others:
                   Treasury                                                               (46)                    (8)
                    States and Counties                                                        -               (7)
               ( Increase )/Decrease in Amounts Yet to be Transferred                         (8)             (42)
               Net Custodial Activity                                           $              -    $           -




USDA
  218       FY 2006 PERFORMANCE              AND   ACCOUNTABILITY REPORT
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




Required Supplementary Stewardship Information
STEWARDSHIP INVESTMENTS
Stewardship investments are substantial investments made by the Federal Government for the benefit of the nation but
are not physical assets owned by the Federal Government. When incurred, they are treated as expenses in determining
the net cost of operations. However, these items merit special treatment so that users of Federal financial reports know
the extent of investments that are made for long-term benefit. Such investments are measured in terms of expenses
incurred for non-federal physical property, human capital, and research and development.

Stewardship Investments (in millions)
                                                                           FY 2006   FY 2005   FY 2004       FY 2003   FY 2002
                                                                           Expense   Expense   Expense       Expense   Expense
            Non-Federal Physical Property:
            Food and Nutrition Service
                Food Stamp Program                                         $   21    $    22   $    36       $   39    $     -
                Special Supplemental Nutrition Program                         12         17         8           16          -
            Cooperative State Research, Education, and Extension Service
                Extension 1890 Facilities Program                              17         17        15           15         14
            Total Non-Federal Property                                     $   50    $    56   $    59       $   70    $    14

            Human Capital:
            Cooperative State Research, Education, and Extension Service
                 Higher Education and Extension Programs                   $   525   $   507   $   502       $   511   $   532
            Food and Nutrition Service
                 Food Stamp Program                                            66         49        75           99          -
            Forest Service
                 Job Corps Program                                             110       161       106           118       104
            Agricultural Research Service
                 National Agricultural Library                                 22         21        21           21         20
            Risk Management Agency
                 Risk Management Education                                      10        10         7             4         -
            Total Human Capital                                            $   733   $   748   $   711       $   753   $   656

            Research and Development:
            Agricultural Research Service
                 Plant Sciences                                            $     -   $     -   $     -       $   394   $   384
                 Commodity Conversion and Delivery                               -         -         -           185       182
                 Animal Sciences                                                 -         -         -           194       102
                 Soil, Water, and Air Sciences                                   -         -         -           110       100
                 Human Nutrition                                                85        84        83            78        80
                 Integration of Agricultural Systems                             -         -         -            43        40
                 Collaborative Research Program                                  7         6         5             6        11
                 Product Quality/Value Added                                   107       105       104             -
                 Livestock Production                                           85        84        82             -         -
                 Crop Production                                               201       197       194             -         -
                 Food Safety                                                   105       103        96             -         -
                 Livestock Protection                                           90        78        64             -         -
                 Crop Protection                                               199       193       183             -         -
                 Environmental Stewardship                                     223       219       216             -         -
                 Homeland Security                                               -         -        21             -         -
            Cooperative State Research, Education, and Extension Service
                 Land-grant University System                                  661       645       610           601       542
            Forest Service                                                     318       295       312           233       227
            Economic Research Service
                 Economic and Social Science                                   75         74        71           69         67
            National Agricultural Statistics Service
                 Statistical                                                     5         5         5             5         5
            Total Research and Development                                 $ 2,161   $ 2,088   $ 2,046       $ 1,918   $ 1,740




                                                                                                                                 USDA
                                                                            FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT   219
                 FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Non-Federal Physical Property
Food and Nutrition Service
FNS’ non-Federal physical property consists of computer systems and other equipment obtained by State and local
governments for the purpose of administering the Food Stamp Program. The total Food Stamp Program Expense for
ADP Equipment & Systems has been reported as of the date of FNS’ financial statements. FNS’ non-Federal physical
property also consists of computer systems and other equipment obtained by the State and local governments for the
purpose of administering the Special Supplemental Nutrition Program for Women, Infants and Children.
Cooperative State Research, Education and Extension Service
The Extension 1890 facilities program supports the renovation of existing buildings and the construction of new
facilities that permit faculty, students, and communities to benefit fully from the partnership between USDA and the
historically African-American land-grant universities.

Human Capital
Cooperative State Research, Education and Extension Service
The Higher Education programs include graduate fellowship grants, competitive challenge grants, Secondary/2-year
Post Secondary grants, Hispanic serving institutions education grants, a multicultural scholars program, a Native
American institutions program, a Native American institutions endowment fund, an Alaska Native Serving and Native
Hawaiian Serving institutions program, a resident instruction grant program for insular areas, and a capacity building
program at the 1890 institutions. These programs enable universities to broaden their curricula, increase faculty
development and student research projects, and increase the number of new scholars recruited in the food and
agriculture sciences. CSREES also supports extension-related work at 1862 and 1890 land-grant institutions throughout
the country through formula and competitive programs. CSREES supported the Outreach and Assistance for
Disadvantaged Farmers Program for the first time in fiscal 2003. The purpose is to enhance the ability of minority and
small farmers and ranchers to operate farming or ranching enterprises independently to assure adequate income and
maintain reasonable lifestyles.
Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the Food Stamp Program. The E&T program
requires recipients of food stamp benefits to participate in an employment and training program as a condition to food
stamp eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T program
has placed 781,543 work registrants subject to the 3 - month Food Stamp Program participant limit and 1,203,142 work
registrants not subject to the limit in either job-search, job-training, job-workfare, education, or work experience.
Forest Service
The FS’ Job Corps Civilian Conservation (Job Corps) Centers, in coordination with the Department of Interior (DOI)
National Parks Service, Fish and Wildlife Service, and Bureau of Reclamation, continued “Empowering Youth and
Enhancing Communities and Natural Resources.”

In partnership with the U.S. Department of Labor (DOL), the FS operates 19 Job Corps Centers. Job Corps is the only
Federal residential employment and education training program for economically challenged young people ages 16 to
24. The purpose of the program is to provide young adults with the skills necessary to become employable, independent,



USDA
   220           FY 2006 PERFORMANCE     AND   ACCOUNTABILITY REPORT
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



and productive citizens. The program is administered in a structured, coeducational, residential environment that
provides education, vocational and life skills training, counseling, medical care, work experience, placement assistance
and follow-up, recreational opportunities, and biweekly monetary stipends. Job Corps students choose from a wide
variety of careers, such as urban forestry, heavy equipment operations and maintenance, business, clerical, carpentry,
culinary arts, painting, cement and brick masonry, welding, auto mechanics, health services, building and apartment
maintenance, warehousing, and plastering.

Job Corps is funded from DOL annually on a program year; the fiscal year is July 1 to June 30. During Job Corps’ FY
2006, accomplishments included the following:
          8,732 participants received 4,116 placements with an average starting hourly wage of 55 cents more than the
          DOL national average.
          Approximately 1,806 female students received training in nontraditional vocations.
          634 students received high school diplomas, and 1,429 students obtained general equivalency diplomas.
          Approximately 1,223 Job Corps students and staff assisted the agency in its firefighting efforts.
          Students accomplished conservation work on NFS lands appraised at $26.4 million.

Since 1964, the FS’ Job Corps Centers have trained and educated more than 300,000 young men and women.

On January 10, 2005 the agency successfully transferred the Mingo Job Corps Center from DOI Fish and Wildlife
Service to the USDA Forest Service.
Agricultural Research Service
As the Nation's primary source for agricultural information, the National Agricultural Library (NAL) has a mission to
increase the availability and utilization of agricultural information for researchers, educators, policymakers, consumers of
agricultural products, and the public. The NAL is one of the world's largest and most accessible agricultural research
libraries and plays a vital role in supporting research, education, and applied agriculture.

The NAL was created as the departmental library for USDA in 1862 and became a national library in 1962. One of four
national libraries of the U.S. (with the Library of Congress, the National Library of Medicine, and the National Library
of Education), it is also the coordinator for a national network of State land-grant and USDA field libraries. In its
international role, the NAL serves as the U.S. center for the international agricultural information system, coordinating
and sharing resources and enhancing global access to agricultural data. The NAL collection of over 3.5 million items
and its leadership role in information services and technology applications combine to make it the foremost agricultural
library in the world.
Risk Management Agency
In response to the Secretary’s 1996 Risk Management Education (RME) initiative, and as mandated by the Federal
Agricultural Improvement and Reform Act of 1996, the FCIC has formed new partnerships with the CSREES, the
Commodity Futures Trading Commission, the USDA National Office of Outreach, Economic Research Service, and
private industry to leverage the federal government’s funding of its RME program by using both public and private
organizations to help educate their members in agricultural risk management. The RME effort was launched in 1997
with a Risk Management Education Summit that raised awareness of the tools and resources needed by farmers and
ranchers to manage their risks. RMA has built on this foundation since 2003 by expanding State and Regional



                                                                                                                    USDA
                                                                FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT     221
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



education partnerships; encouraging the development of information and technology decision aids; supporting the
National Future Farmers of America (FFA) foundation with an annual essay contest; facilitating local training
workshops; and supporting Cooperative Agreements with Educational and outreach organizations.

During fiscal years 2006 and 2005, the RME worked toward the goals by funding risk management sessions, most of
which targeted producers directly. The number of producers reached through these sessions is approximately 48,000 in
fiscal year 2006 and 47,000 in fiscal year 2005. Additionally, some training sessions helped those who work with
producers, such as lenders, agricultural educators, and crop insurance agents, better understand those areas of risk
management with which they may be unfamiliar. Total RME obligations incurred by the FCIC were approximately
$10 million for fiscal year 2006 and $10 million for fiscal year 2005. The following table summarizes the RME
initiatives since fiscal year 2002:

                                (dollars in millions)                   2006   2005     2004     2003     2002
                   RME Obligations                              $     10        9.4       10       9         6
                   Number of producers attending RME sessions       48,000     47,000   46,000   62,000   50,000


One of the directives of the Agricultural Risk Protection Act (ARPA) is to step up the FCIC’s educational and outreach
efforts in certain areas of the country that have been historically underserved by the Federal crop insurance program.
The Secretary determined that fifteen states met the underserved criteria. These states are Maine, Massachusetts,
Connecticut, Wyoming, New Jersey, New York, Delaware, Nevada, Pennsylvania, Vermont, Maryland, Utah, Rhode
Island, New Hampshire, and West Virginia.

Research and Development
Agricultural Research Service
The ARS mission is to conduct research to develop and transfer solutions to agricultural problems of high national
priority and provide information access and dissemination to: ensure high quality, safe food, and other agricultural
products; assess the nutritional needs of Americans; sustain a competitive agricultural economy; enhance the natural
resource base and the environment; and provide economic opportunities for rural citizens, communities, and society as a
whole.

ARS is in the process of revising its Strategic Plan to align it with the Department’s new Strategic Plan. ARS’ major
program areas are being aligned as follows:
GOAL: Enhance the Competitiveness and Sustainability of Rural and Farm Economies.
          Product Quality/Value Added—Many agricultural products are marketed as low value commodities; harvested
          commodities often suffer losses due to spoilage or damage during shipping, storage, and handling. Biobased
          products represent a small fraction of the market for industrial products and their performance is often
          uncertain. Biofuels and some biobased products are not yet economically competitive with petroleum-based
          products. Healthy foods are often not convenient and/or are not widely accepted by many consumers.
          Currently, the agency has active research programs designed to address these new product/product quality issues
          and concerns.
          Livestock Production—Producers need new scientific information and technologies to increase production
          efficiency; safeguard the environment; improve animal well-being; reduce production risks and product losses;
          and understand the relationships between nutrients, reproduction, growth, and conversion to and marketability


USDA
   222         FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT
            FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



       of animal products. In addition, new research is needed to identify genes that are responsible for economically
       important traits; to maintain and develop improved germplasm and use genetic resources to optimize and
       safeguard genetic diversity; to understand biological mechanisms; and to promote viable, vigorous production
       systems. Currently, ARS has active research programs designed to address these livestock production issues and
       concerns.
       Crop Production—Producers need new scientific information and technologies to increase production efficiency;
       safeguard the environment; reduce production risks and product losses; and understand the relationships
       between nutrients, reproduction, growth, and conversion to and marketability of plant products. In addition,
       new research is needed to identify genes that are responsible for economically important traits; to maintain and
       develop improved germplasm and use genetic resources to optimize and safeguard genetic diversity; to
       understand biological mechanisms; and to promote viable, vigorous production systems. Currently, ARS has
       active research programs designed to address these crop production issues and concerns.
GOAL: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply.
       Food Safety—For the Nation to have affordable and safe food, the food system must be protected at each step
       from production to consumption. The production and distribution system for food in the United States has
       been a diverse, extensive, and easily accessible system. This open system is vulnerable to the introduction of
       pathogens and toxins through natural processes, global commerce, and by intentional means. The food supply
       must be protected during production, processing, and preparation from pathogens, toxins, and chemical
       contamination that cause diseases in humans. Currently, the agency has active research programs designed to
       develop new on-farm preharvest systems, practices, and products to reduce pathogen and toxin contamination of
       animal and plant derived foods; and to develop and transfer to Federal and State agencies and the private sector
       technologies that rapidly and accurately detect, identify, and differentiate the most critical and economically
       important foodborne pathogenic bacteria and viruses.
       Livestock Protection—Economic sustainability of livestock production systems in domestic and global markets is
       limited by the disease status of the animals. Many factors affect the likelihood of diseases in livestock. These
       include globalization and international commerce, presence of pathogen vectors, industrialization of agriculture,
       availability of vaccines and protection systems, movements of animals during production, emergence of new
       diseases, genetic resistance, and the availability of trained animal health specialists. Livestock production
       systems are in transition from open and extensive systems to more closely monitored intensive management
       systems which remain vulnerable to accidental and intentional exposure to pathogens. Many of these pathogens
       are zoonotic and impact public health. Currently, the agency has active research programs designed to protect
       animals from pests and infectious diseases; identify, develop, and release to the U.S. agricultural community
       genetic markers, genetic lines, breeds, or germplasm that result in food animals with improved pest and disease
       resistance traits; and to provide producers of agriculturally important animals, scientific information and
       technologies to control, monitor, and manage invasive insects and pathogens.
       Crop Production—Economic sustainability of agricultural crop production in domestic and global markets is
       limited by the disease status of crops. Many factors affect the likelihood of diseases to crops including,
       globalization and international commerce, presence of pathogen vectors, availability of protection systems,
       emergence of new diseases, genetic resistance, and the availability of trained plant health specialists. Crop
       systems have limited diversity and remain more vulnerable to intentional exposure to pathogens. Currently, the



                                                                                                                 USDA
                                                            FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      223
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



        agency has active research programs designed to protect plants from pests (including weeds) and diseases;
        identify, develop, and release to the U.S. agricultural community genetic markers, genetic lines, or germplasm
        that result in plants with improved pest and disease resistance traits; to provide producers of agriculturally
        important plants, scientific information and technologies to control, monitor, and manage invasive insects,
        weeds, and pathogens; and to conduct biologically-based integrated and area-wide management of key invasive
        species.

GOAL: I mprove the Nation’s Nutrition and Health.
        Human Nutrition—Improving the Nation’s health requires enhancing the quality of the American diet. The
        United States is experiencing an obesity epidemic resulting from multifaceted causes including a “more is better”
        mindset, a sedentary lifestyle, and the selection of readily available high calorie foods. Four of the top ten causes
        of death in the United States – cardiovascular disease, cancer, stroke, and diabetes – are associated with the
        quality of our diets, diets too high in calories, total fat, saturated fat, cholesterol, or too low in fiber. Americans
        want fresh foods that taste good, are convenient to prepare and consume, and yet, offer nutrition and health
        benefits. Building a strong connection between agriculture and human health is an important step to providing
        a nutritionally enhanced food supply. Promoting healthier food choices and educating Americans to balance
        caloric intake with sufficient daily physical activity are vital steps to preventing obesity and decreasing risk for
        chronic disease.
        Currently, the agency has active research programs designed to address food consumption patterns; and dietary
        intervention strategies and programs to prevent obesity and promote healthy dietary behavior. Research is being
        conducted to implement the combined "What We Eat in America" dietary survey; and to update and revise
        Dietary Reference Intake and the National Nutrient Database of nutrient content of foods. Research is also
        being conducted to provide information, technology, services, and data from the National Nutrient Database,
        and from the “What We Eat in America” survey to USDA agencies and the private sector to support revision of
        the Dietary Guidelines.

GOAL: P rotect and Enhance the Nation’s Natural Resource Base and Environment.

        Environmental Stewardship— Agriculture relies on a natural resource base whose sustainability depends on sound,
        science-based production practices. The management of the Nation’s renewable natural resources often seems
        to be a continuous balancing of conflicting and competing goals and concerns. While this is often the case,
        particularly in the short-term, longer-term management strategies combined with adequate knowledge of the
        complex natural systems can yield maximum sustainable benefits from the country’s resources that can satisfy
        most competing concerns. ARS research in the broad area of environmental stewardship is designed to address
        specific issues relating to agriculture’s impact on the environment and the environment’s impact on agriculture.
        EPA estimates that only 70 percent of the rivers, 68 percent of the estuaries, and 60 percent of the lakes now
        meet legislatively mandated goals. Dust emissions from agricultural operations and ammonia emissions from
        animal feeding operations pose a threat to environmental quality and human health. Approximately half of the
        rangelands have been significantly degraded by fire, invasive weeds, environmental changes, and poor grazing
        management. Approximately 500 million acres of cropland and grazing land have been degraded by various
        causes, including erosion, loss of organic matter, compaction, salinity, and soil acidification. Increases in the
        atmospheric concentration of greenhouse gases and related increases in weather variability affect the physiology




USDA
  224       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                 FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



         and ecology of plants on croplands and rangelands in often unpredictable ways. Currently, ARS has active
         research programs designed to respond to these environmental issues and concerns.

Management Initiative: Provide Agricultural Library and Information Services to USDA and the Nation via the National
Agricultural Library.
The National Agricultural Library (NAL), the world’s primary agricultural library, has two legislative mandates, to serve
the Nation as one of four national libraries of the United States, and to be USDA’s library. NAL, whose vision
statement is “advancing access to global information for agriculture,” serves its customers by identifying, collecting,
providing access to, and preserving agricultural information. NAL’s collections, programs, and services support USDA
agencies as well as multiple client audiences which include scientists, researchers, practitioners, policymakers, teachers,
and students.
Management Initiative: Provide Adequate Federal Facilities Required to Support the Research Mission of ARS.
ARS has over 100 laboratories, primarily located throughout the United States. ARS’ facilities program is designed to
meet the needs of its scientists and support personnel to accomplish the agency’s mission
Cooperative State Research, Education, and Extension Service Program
CSREES participates in a nationwide land-grant university system of agriculture related research and program planning
and coordination between State institutions and USDA. It assists in maintaining cooperation among the State
institutions, and between the State institutions and their Federal research partners. CSREES administers grants and
formula payments to State institutions to supplement State and local funding for agriculture research.
Forest Service
FS Research and Development (R&D) provides reliable, science-based information that is incorporated into natural
resource decision making. Responsibilities include developing new technology and then adapting and transferring this
technology to facilitate more effective resource management. Some major research areas include the following:
         Fire, Invasive species
         Recreation
         Research Data and Analysis
         Research Management and Use

         Research staff is involved in all areas of the FS, supporting agency goals by providing more efficient and effective
         methods where applicable.

A representative summary of FY 2006 accomplishments include the following:
         54 new interagency agreements and contracts
         15 interagency agreements and contracts continued
         1,691 articles published in journals
         1,817 articles published in all other publications
         7 patents granted
         1 rights to inventions established



                                                                                                                           USDA
                                                                       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   225
                 FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Economic Research Service
ERS provides economic and other social science research and analysis for public and private decisions on agriculture,
food, natural resources, and rural America. Research results and economic indicators on these important issues are fully
disseminated through published and electronic reports and articles; special staff analyses, briefings, presentations, and
papers; databases; and individual contacts. ERS’ objective information and analysis helps public and private decision
makers attain the goals that promote agricultural competitiveness, food safety and security, a well-nourished population,
environmental quality, and a sustainable rural economy.
National Agricultural Statistics Service
Statistical research and service is conducted to improve the statistical methods and related technologies used in
developing U.S. agricultural statistics. The highest priority of the research agenda is to aid the NASS estimation
program through development of better estimators at lower cost and with less respondent burden. This means greater
efficiency in sampling and data collection coupled with higher quality data upon which to base the official estimates. In
addition, new products for data users are being developed with the use of technologies such as remote sensing and
geographic information systems. Continued service to users will be increasingly dependent upon methodological and
technological efficiencies.




USDA
   226          FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT
                 FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




Required Supplementary Information
STEWARDSHIP PROPERTY, PLANT AND EQUIPMENT
Heritage Assets
Forest Service
The FS estimates that more than 340,000 heritage assets are on land that it manages. Some of these assets are listed on
the National Register of Historic Places, and some are designated as National Historic Landmarks. Collection assets
held at museums and universities are managed by those entities, and not the FS.

Heritage assets designated as National Historic Landmarks are sites, buildings, or structures that possess exceptional
value in commemorating or illustrating the history of the United States, and exceptional value or quality in illustrating
and interpreting the heritage of the United States. The Secretary of the Interior is the official designator of National
Historic Landmarks.

Heritage assets listed in the National Register of Historic Places include properties, buildings, and structures that are
significant in U.S. history, architecture, and archaeology, and in the cultural foundation of the Nation. Sites formally
determined as eligible for the National Register by the Keeper of the National Register, or documented through
consultation with State Historic Preservation Offices, are considered potentially eligible for the National Register.

The FS heritage resource specialists on the 155 national forests maintain separate inventories of heritage assets. Most
assets not used for administrative or public purposes receive no annual maintenance. A long-term methodology to better
assess the extent and condition of these assets is being formulated to comply with Executive Order 13287, Preserve
America.

The FS generally does not construct heritage assets, although in some circumstances important site-structural
components may be rehabilitated or reconstructed into viable historic properties to provide forest visitors with use and
interpretation. Heritage assets can be acquired through the procurement process, but this rarely occurs. Normally,
heritage assets are part of the land acquisition and inventory process. Withdrawal occurs through land exchange or
natural disasters. Most additions occur through inventory activities, where previously undocumented sites are discovered
and added to the total. Although not technically additions—they already existed on NFS lands—they do represent an
increased management responsibility commensurate with the spirit of “additions.”

Major FS heritage assets by category and condition for FY 2005 are shown below:

                                                        2004 Final                          FY 2005
                               Category                            Additions Withdrawals                     Condition
                                                          Sites                          Ending Balance
                  Total heritage assets                 318,259     24,103            1       342,361       Poor – Fair
                  Eligible for the National Register
                  of Historic Places                     57,925          0        3,963        53,962       Poor – Fair
                  Listed on the National Register         3,397         82            1         3,478          Fair
                  Sites with structures listed on the
                  National Register                       1,874         82            0         1,956       Poor – Fair
                  National Historic Landmarks                19          1            0            20       Fair – Good




                                                                                                                              USDA
                                                                        FY 2006 PERFORMANCE     AND   ACCOUNTABILITY REPORT   227
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Natural Resources Conservation Service
NRCS currently owns one heritage asset, the Tucson Plant Materials Center (TPMC). It was listed in the National
Register of Historic Places (NRHP) on July 2, 1997. The TPMC develops and evaluates native plants and addresses an
array of resource issues in the areas of rangeland, mined land, urban lands, cropland riparian areas, and desert lands. It
provides technical assistance to NRCS field offices, RC& D groups, Conservation districts, federal, state, and tribal
agencies, and private landowners throughout the greater Southwest.
Agricultural Research Service
ARS has approximately 60 heritage assets at three locations under its custody and control. These locations include: (1)
the U.S. National Arboretum, Washington, D.C.; (2) the Grazinglands Research Laboratory (GRL), El Reno,
Oklahoma; and (3) the Fort Keogh Livestock and Range Research Laboratory, Miles City, Montana.

Established in 1927 by an Act of Congress, the mission of the U.S. National Arboretum is to serve the public need for
scientific research, education, and gardens that conserve and showcase plants to enhance the environment.
GLR was established by Public Law 80-494, 62 Stat. 197 on April 21, 1948, and includes 6,737-acres of withdrawn
public land. The mission of the GRL is to provide new technologies and management strategies which increase the
profitability of forage and livestock production, reduce risks associated with management decisions, promote
sustainability, and conserve the productivity of grazing land resources of the Great Plains.

The Fort Keogh Livestock and Range Research Laboratory was established by an Act of Congress in 1924 and includes
55,767 acres within the original area of the Fort Keogh Military Reservation just west of Miles City, Montana. The
mission of the Fort Keogh Livestock and Range Research Laboratory is to research and develop ecologically and
economically sustainable range animal management systems that ultimately meet consumers’ needs. The Fort Keogh
Military Reservation, which was established by an Act of Congress in 1876, was placed on the National Register of
Historic Places in March of 1978.




USDA
   228         FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Stewardship Land
Description                                              FY 2006 Balance    Additions (+)   Withdrawals (-)     FY 2005 Balance
National Forest System Land (In acres):
     National Forests                                        144,056,315             -          (403,999)           144,460,314
     National Forests Wilderness Areas                        34,816,228             -          (140,850)            34,957,078
     National Forests Primitive Areas                            173,762             -                 -                173,762
     National Wild and Scenic River Areas                        931,314           681                 -                930,633
     National Recreation Areas                                 2,912,576        94,308                 -              2,818,268
     National Scenic–Research Areas                              137,486           196                 -                137,290
     National Game Refuges and Wildlife Preserve Areas         1,198,099             -                 -              1,198,099
     National Monument Areas                                   3,834,041             -                 -              3,834,041
     National Grasslands                                       3,837,870             -              (296)             3,838,166
     Purchase Units                                              374,749         4,718                 -                370,031
     Land Utilization Projects                                     1,876             -                 -                  1,876
     Other Areas                                                 512,497         2,640                 -                509,857
Total National Forest System Land                            192,786,813       102,543          (545,145)           193,229,415
Conservation Easements (In acres):
    Natural Resources Conservation Service
         Wetlands Reserve Program                              1,531,185       135,486                  -             1,395,699
         Grassland Reserve Program                                42,902        29,190                  -                13,712
         Emergency Wetlands Reserve Program                       92,159             -                  -                92,159
         Emergency Watershed Protection Program                   94,399            50                  -                94,349
Total Conservation Easements                                   1,760,645       164,726                  -             1,595,919


Description                                              FY 2005 Balance    Additions (+)   Withdrawals (-)     FY 2004 Balance

National Forest System Land (In acres):
     National Forests                                        144,460,314       383,523                 -            144,076,791
     National Forests Wilderness Areas                        34,957,078         3,708                 -             34,953,370
     National Forests Primitive Areas                            173,762             -                 -                173,762
     National Wild and Scenic River Areas                        930,633             -           (20,273)               950,906
     National Recreation Areas                                 2,818,268             -           (92,971)             2,911,239
     National Scenic–Research Areas                              137,290           160                 -                137,130
     National Game Refuges and Wildlife Preserve Areas         1,198,099             -                 -              1,198,099
     National Monument Areas                                   3,834,041           100                 -              3,833,941
     National Grasslands                                       3,838,166             -            (1,377)             3,839,543
     Purchase Units                                              370,031             5                 -                370,026
     Land Utilization Projects                                     1,876             -                 -                  1,876
     Other Areas                                                 509,857        59,229                (9)               450,637
Total National Forest System Land                            193,229,415       446,725          (114,630)           192,897,320
Conservation Easements (In acres):                                                                                            -
    Natural Resources Conservation Service                                                                                    -
         Wetlands Reserve Program                              1,395,699       133,580                  -             1,262,119
         Grassland Reserve Program                                13,712        13,712                  -                     -
         Emergency Wetlands Reserve Program                       92,159             -                  -                92,159
         Emergency Watershed Protection Program                   94,349           250                  -                94,099
Total Conservation Easements                                   1,595,919       147,542                  -             1,448,377




                                                                                                                                    USDA
                                                                           FY 2006 PERFORMANCE       AND    ACCOUNTABILITY REPORT   229
                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



National Forest System
The FS manages an estimated 193 million acres of public land, most of which are classified as stewardship assets. These
stewardship assets are valued for the following reasons:
         Environmental resources;
         Recreational and scenic values;
         Cultural and paleontological resources;
         Vast open spaces; and
         Resource commodities and revenue they provide to the Federal Government, States, and counties.

Land needed to protect critical wildlife habitat and cultural and historic values, to support the purposes of congressional
designation, and for recreation and conservation purposes is acquired through purchase or exchange.
National Forests
The national forests are formally established and permanently set aside and reserved for national forest purposes. The
following categories of NFS lands have been set aside for specific purposes in designated areas:
         National Wilderness Areas. Areas designated by Congress as part of the National Wilderness Preservation
         System.
         National Primitive Areas. Areas designated by the Chief of the Forest Service as primitive areas. They are
         administered in the same manner as wilderness areas, pending studies to determine sustainability as a
         component of the National Wilderness Preservation System.
         National Wild and Scenic River Areas. Areas designated by Congress as part of the National Wild and Scenic
         River System.
         National Recreation Areas. Areas established by Congress for the purpose of assuring and implementing the
         protection and management of public outdoor recreation opportunities.
         National Scenic Research Areas. Areas established by Congress to provide use and enjoyment of certain ocean
         headlands and to ensure protection and encourage the study of the areas for research and scientific purposes.
         National Game Refuges and Wildlife Preserve Areas. Areas designated by Presidential proclamation or
         Congress for the protection of wildlife.
         National Monument Areas. Areas including historic landmarks, historic and prehistoric structures, and other
         objects for historic or scientific interest, declared by Presidential proclamation or Congress.
National Grasslands
National Grasslands are designated by the Secretary of Agriculture and permanently held by the USDA under Title III
of the Bankhead-Jones Farm Tenant Act.
Purchase Units
Purchase units are land designated by the Secretary of Agriculture or previously approved by the National Forest
Reservation Commission for purposes of Weeks Law acquisition. The law authorizes the Federal Government to
purchase lands for stream flow protection and maintain the acquired lands as national forests.




USDA
  230            FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                 FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Land Utilization Projects
Land utilization projects are reserved and dedicated by the Secretary of Agriculture for forest and range research and
experimentation.
Other Areas
There are areas administered by the FS that are not included in one of the above groups.
Condition of NFS Lands
The condition of NFS lands varies by purpose and location. The FS monitors the condition of NFS lands based on
information compiled by two national inventory and monitoring programs—Forest Inventory and Analysis (FIA) and
Forest Health Monitoring (FHM).

The FIA program conducts annual inventories of forest status and trends. FIA has historic inventory data in all 50
States and is currently collecting annual inventory data in 45 States, including 38 of the 41 States containing NFS land.
Active throughout all 50 States, FHM provides surveys and evaluations of forest health conditions and trends.

Although most of the estimated 193 million acres of NFS forest lands continue to produce valuable benefits (i.e., clean
air, clean water, habitat for wildlife, and products for human use), significant portions are at risk to pest outbreaks or
catastrophic fires. About 25.03 million acres of NFS forest land are at risk to future mortality from insects and diseases,
based on the current Insect and Disease Risk Map; and nearly 111 million acres are at risk of losing key ecosystem
components from wildland fire based on current condition and departure from historic fire regimes.

The LANDFIRE dataset is mapping vegetation for fire behavior and fire regime across all ownerships, including NFS
lands, at a 30-meter pixel resolution from Landsat Satellite Imagery. The 2005 release of the LANDFIRE Rapid
Assessment included subject matter experts’ maps of current fire regime condition class. The national LANDFIRE
dataset, available in 2009, will document fire regime condition class of all lands based on satellite imagery and plot data,
displaying departure from the historic fire regimes.

Invasive species of insects, diseases, and plants continue to affect our native ecosystems by causing mortality to, or
displacement of, native vegetation. Insect and disease prevention and suppression treatments were completed on 154,000
acres of NFS lands in FY 2006.

Conservation Easements
Wetlands Reserve Program
The Wetlands Reserve Program (WRP) is authorized under Section 1237 of the Food Security Act of 1985 (P.L. 99-
198), as amended, by the Food, Agriculture, Conservation and Trade Act of 1990 (P.O. 101-624), the Federal
Agriculture Improvement and Reform Act of 1996 (P.L. 104-127), and the Farm Security and Rural Investment Act of
2002 (P.L. 107-171) (“2002 Farm Bill”). The Secretary of Agriculture delegated the authority for WRP to the Chief of
the Natural Resources Conservation Service (NRCS), who is a vice president of the Commodity Credit Corporation
(CCC). WRP is a voluntary program offering landowners the opportunity to restore, protect, and enhance wetlands on
agricultural land. Participants in the program may sell a conservation easement with CCC/NRCS in order to restore and
protect wetlands. The landowner voluntarily limits the future use of the land, yet retains private ownership. The
program provides many benefits for the entire community, such as better water quality, enhanced habitat for wildlife,
reduced soil erosion, reduced flooding, and better water supply.



                                                                                                                     USDA
                                                               FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT      231
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



To be eligible for WRP, land must be restorable and suitable for wildlife benefits. Once land is enrolled in the program,
the landowner continues to control access to the land—and may lease the land—for hunting, fishing, and other
undeveloped recreational activities. Easements can be either permanent or 30-year duration. Once enrolled, the land is
monitored to ensure compliance with program requirements. At any time, a landowner may request the evaluation of
additional activities (such as cutting hay, grazing livestock, or harvesting wood products) to determine if there are other
compatible uses for the site. Compatible uses are allowed if it is fully consistent with the protection and enhancement of
the wetland. The condition of the land is immaterial as long as the easement on the land meets the eligibility
requirements of the program.
Withdrawals from the program are rare. The Secretary of Agriculture has the authority to terminate contracts, with
agreement from the landowner, after an assessment of the effect on public interest, and following a 90-day notification
period of the House and Senate agriculture committees.
Grassland Reserve Program
The Grassland Reserve Program (GRP) is authorized by Section 1238n of Title XII, of Food Security Act of 1985, as
amended by section 2401 of the 2002 Farm Bill. The Secretary of Agriculture delegated the authority for FRPP to the
Chief of the Natural Resources Conservation Service (NRCS), who is a vice president of the Commodity Credit
Corporation (CCC). GRP assists landowners in restoring and protecting grassland, including rangeland, pastureland,
and certain other lands, while maintaining the lands suitability for grazing. The emphasis of the program is to support
grazing operations, plant and animal biodiversity, and grassland and land containing shrubs or forbs under the greatest
threat of conversion.

Land is eligible if it is privately owned or tribal land and it is: 1) grassland that contains forbs or shrubs (including
rangeland and pastureland); or 2) located in an area that has been historically dominated by grassland, forbs, or shrubs;
and has potential to provide habitat for animal or plant populations of significant ecological value if the land is retained
in the current use; or restored to a natural condition. Incidental lands may be included to allow for the efficient
administration of an agreement or easement.

NRCS develops a conservation plan with the landowners eligible for the program. The plan specifies the management
options available on the grasslands with the goal of maintaining the viability for the grassland’s resources. Easements
can be permanent, 30-year, or the maximum duration permitted based on State or Tribal law. NRCS continues to
provide assistance to the landowner after the acres are enrolled. GRP easements prohibit the production of crops (other
than hay), fruit trees, and vineyards that require breaking the soil surface and any other activity that would permanently
disturb the surface of the land, except for appropriate land management activities included in a the grassland
conservation plan. Withdrawals from the program are not permitted.
Emergency Wetlands Reserve Program
The Emergency Wetlands Reserve Program (EWRP) administered by NRCS was established as part of the emergency
restoration package following the flooding of the Mississippi River and its tributaries in 1993. EWRP provides
landowners an alternative to restoring agricultural production lands that previously were wetlands. The program is
patterned after the WRP. Participants in the program sell a conservation easement to USDA in order to restore and
protect wetlands. The landowner voluntarily limits the future use of the land, yet retains private ownership.

To be eligible, the land must have been damaged by a natural disaster and be restorable as a wetland. Once the land is
enrolled in the program, the landowner continues to control access to the land. Easements purchased under EWRP are


USDA
  232        FY 2006 PERFORMANCE     AND   ACCOUNTABILITY REPORT
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



permanent in duration. The land is monitored to ensure that the wetland is in compliance with contract requirements,
including compatible uses, such as recreational activities or grazing livestock.

Easements purchased under this program meet the definition of stewardship land. NRCS records an expense for the
acquisition cost of purchasing easements plus any additional costs such as closing, survey, and restoration costs. In
exchange for establishing a permanent easement, the landowner receives payment based on agricultural value of the land,
a geographic land payment cap, or the landowner offer. Easement values are assessed on pre-disaster conditions. The
landowner may receive up to 100 percent of restoring the wetland. There are no provisions in the easement to terminate
the purchase.
Emergency Watershed Protection Program – Floodplain Easements
The Emergency Watershed Protection Program (EWP) Floodplain Easements is authorized by the Federal Agriculture
Improvement and Reform Act of 1996, Public Law 104-127, and administered by NRCS. Floodplain easements
restore, protect, manage, maintain, and enhance the functions of wetlands, riparian areas; conserve natural values
including fish and wildlife habitat, water quality, flood water retention, ground water recharge, and open space; and
safeguard lives and property from floods, drought, and the products of erosion. A floodplain easement is purchased on
flood prone lands to provide a more permanent solution to repetitive disaster assistance payments and achieve greater
environmental benefits where the situation warrants when the affected landowner is willing to participate in the
easement approach. The easement is to restore, protect, manage, maintain, and enhance the functions of wetlands,
riparian areas, conservation buffer strips, and other lands.

Easements purchased under EWP are permanent in duration. The landowner may receive up to 100 percent of the
installation and maintenance of land treatment measures deemed necessary and desirable to effectively achieve the
purposes of the easement. The easements provide permanent restoration of the natural floodplain hydrology as an
alternative to traditional attempts to restore damaged levees, lands, and structures. There are no provisions in the
easement to terminate the purchase.




                                                                                                                    USDA
                                                                FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT      233
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




DEFERRED MAINTENANCE

                                                        Cost to Return to    Cost of Critical   Cost of Non-critical
        FY 2006
                                                      Acceptable Condition    Maintenance         Maintenance
  Asset Class
    Forest Service
      Bridges                                         $               116    $           27     $               89
      Buildings                                                       483               106                    377
      Dam                                                              21                 8                     13
      Minor Constructed Features                                       88                 -                     88
      Fence                                                           403               403                      -
      Handling Facility                                                24                24                      -
      Heritage                                                         32                 9                     23
      Road                                                          4,054               748                  3,306
      Trail Bridge                                                     10                 4                      6
      Wastewater                                                       31                17                     14
      Water                                                            85                47                     38
      Wildlife, Fish, TES                                               6                 4                      2
      Trails                                                          243                19                    224
      General Forest Area                                               -                 -                      -
  Total Forest Service                                $             5,596    $        1,416     $            4,180


                                                        Cost to Return to    Cost of Critical   Cost of Non-critical
        FY 2005
                                                      Acceptable Condition    Maintenance         Maintenance
  Asset Class
    Forest Service
      Bridges                                         $               115    $           25     $               90
      Buildings                                                       439               118                    321
      Dam                                                              26                 9                     17
      Minor Constructed Features                                       89                 -                     89
      Fence                                                           437               437                      -
      Handling Facility                                                24                24                      -
      Heritage                                                         32                 8                     24
      Road                                                          4,571               712                  3,859
      Trail Bridge                                                      9                 4                      5
      Wastewater                                                       32                19                     13
      Water                                                            81                46                     35
      Wildlife, Fish, TES                                               6                 4                      2
      Trails                                                           98                33                     65
      General Forest Area                                               4                 1                      3
  Total Forest Service                                $             5,963    $        1,440     $            4,523




USDA
  234      FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Deferred maintenance is maintenance that was scheduled to be performed and delayed until a future period. Deferred
maintenance represents a cost that the government has elected not to fund and, therefore, the costs are not reflected in
the financial statements.

Maintenance is defined to include preventative maintenance, normal repairs, replacement of parts and structural
components, and other activities needed to preserve the asset so that it continues to provide acceptable service and
achieve its expected life. It excludes activities aimed at expanding the capacity of an asset or otherwise upgrading it to
service needs different from, or significantly greater than, those originally intended.

Deferred maintenance is reported for general PP&E, stewardship assets, and heritage assets. It is also reported separately
for critical and non-critical amounts of maintenance needed to return each class of asset to its acceptable operating
condition.

Critical maintenance is defined as a serious threat to public health or safety, a natural resource, or the ability to carry out
the mission of the organization. Noncritical maintenance is defined as a potential risk to the public or employee safety
or health (e.g., compliance with codes, standards, or regulations), and potential adverse consequences to natural resources
or mission accomplishment.

The FS uses condition surveys to estimate deferred maintenance on all major classes of PP&E. There is no deferred
maintenance for fleet vehicles and computers that are managed through the Agency’s working capital fund. Each fleet
vehicle is maintained according to schedule. The cost of maintaining the remaining classes of equipment is expensed.

Currently, no comprehensive national assessment of FS property exists. Deferred maintenance estimates for all assets are
based on condition surveys performed on a 5-year maximum revolving schedule, with the exception of bridges which are
a maximum of 2 years. Condition surveys were performed on a statistical sample of closed and very low traffic volume
roads.

Condition of Assets
In previous years, the FS reported deferred maintenance estimates for General Forest Areas (GFA) and Developed Sites
(Minor Constructed Features) in this table. The revised Heritage Assets and Stewardship Lands standard (SFFAS 29)
provides the FS the means to report these land units’ deferred maintenance by their respective individual asset, although
deferred maintenance for the Minor Constructed Features located on the Developed Sites will remain in this table.

The overall condition of major asset classes range from poor to good depending on the location, age, and type of
property. The standards for acceptable operating condition for various classes of general PP&E, stewardship, and
heritage assets are as follows.

Conditions of roads and bridges within the NFS road system are measured by various standards:

1. Federal Highway Administration regulations for the Federal Highway Safety Act;

2. Best management practices (BMP) for the nonpoint source provisions of the Clean Water Act from EPA and
States;

3. Road management objectives developed through the NFMA forest planning process;




                                                                                                                      USDA
                                                                FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT      235
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



4. Forest Service Directives—FSM 7730, Operation and Maintenance (January 2003 amendment was superseded with
August 25, 2005, revision); FSH 7709.56a, Road Preconstruction, and FSH 7709.56b, Transportation Structures
Handbook.

Dams are managed according to FSM 7500, Water Storage and Transmission, and FSH 7509.11, Dams Management
Handbook, as determined by condition surveys. The overall condition of dams is below acceptable. The condition of a
dam is acceptable when the dam meets current design standards and does not have any deficiencies that threaten the
safety of the structure or public. For dams to be rated as in acceptable condition, the agency needs to restore the dams to
the original functional purpose, correct unsightly conditions, or prevent more costly repairs.

Buildings comply with the National Life Safety Code, the Forest Service Health and Safety Handbook, and the
Occupational Safety Health Administration (OSHA) as determined by condition surveys. These requirements are found
in FSM 7310, Buildings and Related Facilities, revised November 19, 2004. The condition of administrative facilities
ranges from poor to good. Approximately half of these buildings are obsolete or in poor condition, needing major repairs
or renovation. Approximately a quarter of these buildings are in fair condition, and the remaining facilities are in good
condition.

Recreation facilities include developed recreation sites, general forest areas, campgrounds, trailheads, trails, water and
wastewater systems, interpretive facilities, and visitor centers. All developed sites are managed in accordance with
Federal laws and regulations (CFR 36). Detailed management guidelines are contained in FSM 2330, Publicly Managed
Recreation Opportunities, and forest- and regional-level user guides. Quality standards for developed recreation sites
were established as Meaningful Measures for health and cleanliness, settings, safety and security, responsiveness, and the
condition of the facility

The condition assessment for range structures (fences and stock handling facilities) is based on (1) a determination by
knowledgeable range specialists or other district personnel of whether the structure would perform the originally
intended function, and (2) a determination through the use of a protocol system to assess conditions based on age. A
longstanding range methodology is used to gather this data.

Heritage assets include archaeological sites that require determinations of National Register of Historic Places status,
National Historic Landmarks, and significant historic properties. Some heritage assets may have historical significance,
but their primary function in the agency is as visitation or recreation sites and, therefore, may not fall under the
management responsibility of the heritage program.

Trails (and trail bridges) are managed according to Federal law and regulations (CFR 36). More specific direction is
contained in FSM 2350, Trail, River, and Similar Recreation Opportunities, and the FSH 2309.18, Trails Management
Handbook.

Deferred maintenance of structures for wildlife, fish, and threatened and endangered species (TES) is determined by
field biologists using their professional judgment. The deferred maintenance is considered critical if resource damage or
species endangerment would likely occur if maintenance were deferred much longer.




USDA
  236       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




STATEMENT OF BUDGETARY RESOURCES
FY 2006                                                                  FSA                         CCC                   FAS            RMA           FNS            FSIS          AMS             APHIS
                                                                        Non-Budgetary               Non-Budgetary
                                                                          Financing                   Financing
                                                              Budgetary   Accounts        Budgetary   Accounts         Budgetary      Budgetary     Budgetary      Budgetary     Budgetary       Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1: (Note 24)    $     343     $   2,146     $    1,299     $   2,699     $     175      $    1,358    $    7,108     $       71    $      378      $      316
Recoveries of prior year unpaid obligations                          43            77          4,945             4           754               4           797            177            20             338
Budget Authority:
  Appropriation                                                   1,884             -         28,112             -           341           3,372        53,813            844         6,719            1,335
  Borrowing Authority (Notes 22 & 23)                                 -         1,746         44,465           824             -               -             -              -             -                -
  Earned -
    Collected                                                       979         1,483         15,068         1,174               81        1,208              85          132              60           477
    Change in receivables from Federal Sources                      (15)            -             54           (29)              10            -               -          (10)             (1)          (24)
  Change in unfilled customer orders -
    Advances received                                                 -              -            259             -             -              -             -             (2)            -               23
    Without advance from Federal Sources                             (1)             1              -             -             -              -             1              -             -                -
  Expenditure transfers from trust funds                              -              -            891             -             -              -             -              -             -                -
Nonexpenditure transfers, net, anticipated and actual               (38)             -         (1,872)            -            14             (5)        5,203              -        (5,265)            (180)
Permanently not available                                          (541)        (2,862)       (50,153)       (1,690)           (3)            (2)       (1,032)           (23)          (40)             (17)
 Total Budgetary Resources                                        2,654          2,591         43,068         2,982         1,372          5,935        65,975          1,189         1,871            2,268

Status of Budgetary Resources:
Obligations Incurred (Note 21):
   Direct                                                         1,801         1,810          2,970         1,355           965           4,666        53,530            999         1,565            1,229
  Reimbursable                                                      483             -         38,933             -           111               -            27            149            58              681
Unobligated Balance:
  Apportioned                                                       260           361            363           748            101          1,266         3,160              7            20              314
  Exempt from Apportionment                                           -             -            533             -              1              -             -              1           178               13
Unobligated balance not available                                   110           420            269           879            194              3         9,258             33            50               31
Total Status of Budgetary Resources                               2,654         2,591         43,068         2,982          1,372          5,935        65,975          1,189         1,871            2,268

Change in Obligated Balances:
Obligated balance, net, brought forward October 1 (Note 24)          168           483          8,428          (153)           77            268          3,940            82           119              479
Obligations incurred                                               2,284         1,810         41,903         1,355         1,076          4,666         53,557         1,148         1,623            1,910
Gross outlays                                                     (2,180)       (1,752)       (37,326)       (1,325)         (350)        (4,653)       (52,533)         (968)       (1,616)          (1,627)
Recoveries of prior year unpaid                                      (43)          (77)        (4,945)           (4)         (754)            (4)          (797)         (177)          (20)            (338)
Change in uncollected payments from Federal Sources                   16            (1)           (53)           29           (10)             -             (1)           10             1               24
Obligated balance, net, end of period -
 Unpaid obligations (Note 28)                                       259           476           9,281           75             77           276          4,166            113           112             468
 Uncollected customer payments from Federal Sources                 (14)          (14)         (1,275)        (174)           (39)            -             (1)           (17)           (5)            (19)
 Obligated balance, net, end of period                              245           462           8,006          (99)            38           276          4,165             96           107             449

Net Outlays:
 Gross outlays                                                    2,180          1,752       37,326           1,325          350           4,653        52,533            968         1,616            1,627
 Offsetting collections                                            (979)        (1,483)     (16,217)         (1,174)         (81)         (1,208)          (85)          (130)          (60)            (501)
 Distributed offsetting receipts                                   (396)             -            -            (987)           2              (3)           (1)           (12)         (148)             (11)
 Net Outlays                                                  $     805 $          269    $ 21,109 $           (836)   $     271      $    3,442    $   52,447     $      826    $    1,408      $     1,115




                                                                                                                                                                                                                USDA
                                                                                                                                                    FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT   237
                                                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




FY 2006                                                            GIPSA           FS            NRCS           ARS         CSREES            ERS             NASS                RD                     DO                 TOTAL
                                                                                                                                                                                  Non-Budgetary                              Non-Budgetary
                                                                                                                                                                                    Financing                                  Financing
                                                               Budgetary       Budgetary     Budgetary      Budgetary       Budgetary     Budgetary       Budgetary     Budgetary   Accounts         Budgetary     Budgetary   Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1: (Note 24)     $           8   $   2,429     $      468     $     412       $     128     $          1    $       5     $   4,498     $    1,983     $     173     $    19,170     $    6,828
Recoveries of prior year unpaid obligations                                7          78            721           295             444               13           29           304            860           102           9,071            941
Budget Authority:
  Appropriation                                                        38          5,362          1,358          1,330          1,221               76          141         3,298              -           612         109,856              -
  Borrowing Authority (Notes 22 & 23)                                   -              -              -              -              -                -            -             -         10,038             -          44,465         12,608
  Earned -
    Collected                                                          42            665            151               84           33                1           20         3,410          5,207           769          23,265          7,864
    Change in receivables from Federal Sources                         (2)           (21)           (48)              (9)          (8)              (2)          (2)          (26)             -           (25)           (129)           (29)
  Change in unfilled customer orders -
    Advance received                                                    -             19              -              -              -                -            -              -             -             -             299              -
    Without advance from Federal Sources                                -             37             30             13              7                -            2              2            10           (21)             70             11
   Expenditure transfers from trust funds                               -            159              -              -              -                -            -              -             -             -           1,050              -
Nonexpenditure transfers, net, anticipated and actual                   -              3          1,741              6              5                -            -             37             -             9            (342)             -
Permanently not available                                              (1)           (65)           (28)           (20)           (20)              (1)          (2)        (3,755)       (4,246)          (42)        (55,745)        (8,798)
 Total Budgetary Resources                                             92          8,666          4,393          2,111          1,810               88          193          7,768        13,852         1,577         151,030         19,425

Status of Budgetary Resources:
Obligations Incurred (Note 21):
   Direct                                                              45          6,382          3,363          1,690          1,630               86          169         5,427         12,545           668          87,185         15,710
 Reimbursable                                                          38            475            166            113             47                1           21           523              -           737          42,563              -
Unobligated Balance:
 Apportioned                                                            1          1,052            527            278            104                -            1           244            516           120           7,818          1,625
  Exempt from Apportionment                                             -              -              3             15             25                -            -             -              -             2             771              -
Unobligated balance not available                                       8            757            334             15              4                1            2         1,574            791            50          12,693          2,090
Total Status of Budgetary Resources                                    92          8,666          4,393          2,111          1,810               88          193         7,768         13,852         1,577         151,030         19,425

Change in Obligated Balances:
Obligated balance, net, brought forward October 1 (Note 24)             7           1,561          3,565           442           1,268           28               16         6,022         17,872            85          26,555         18,202
Obligations incurred net                                               83           6,857          3,529         1,803           1,677           87              190         5,950         12,545         1,405         129,748         15,710
Gross outlays                                                         (76)         (6,375)        (2,907)       (1,408)         (1,136)         (74)            (163)       (6,041)       (11,012)       (1,323)       (120,756)       (14,089)
Recoveries of prior year unpaid                                        (7)            (78)          (721)         (295)           (444)         (13)             (29)         (304)          (860)         (102)         (9,071)          (941)
Change in uncollected payments from Federal Sources                     2             (15)            17            (4)              1            2               (1)           24            (10)           46              59             18
Obligated balance, net, end of period
 Unpaid obligations (Note 28)                                          13          2,383          3,567           619           1,430               30            23        5,725         19,171           339          28,881         19,722
 Uncollected customer payments from Federal Sources                    (4)          (433)           (83)          (81)            (65)               -           (10)         (73)          (634)         (225)         (2,344)          (822)
 Obligated Balance, net, end of period                                  9          1,950          3,484           538           1,365               30            13        5,652         18,537           114          26,537         18,900

Net Outlays:
 Gross outlays                                                         76          6,375          2,907          1,408          1,136               74          163          6,041        11,012         1,323      120,756            14,089
 Offsetting collections                                               (42)          (844)          (151)           (84)           (33)              (1)         (20)        (3,410)       (5,207)         (766)      (24,612)          (7,864)
 Distributed offsetting receipts                                        -           (457)           (19)           (22)            (4)               1            -           (688)            -            50        (1,708)            (987)
 Net Outlays                                                   $       34      $   5,074     $    2,737     $    1,302      $   1,099     $         74    $     143     $    1,943 $       5,805     $     607     $ 94,436 $           5,238




USDA
   238              FY 2006 PERFORMANCE               AND     ACCOUNTABILITY REPORT
                                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




FY 2005                                                                  FSA                         CCC                   FAS           RMA           FNS            FSIS            AMS             APHIS
                                                                        Non-Budgetary               Non-Budgetary
                                                                          Financing                   Financing
                                                              Budgetary   Accounts        Budgetary   Accounts         Budgetary     Budgetary     Budgetary      Budgetary      Budgetary        Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1: (Note 24)    $     244     $   1,868     $    1,197     $   2,643     $      37     $    2,060    $    7,768     $       54      $     517       $      366
Recoveries of prior year unpaid obligations                          71            69          2,837             3           761              5           391            247             10              269
Budget Authority:
  Appropriation                                                   1,735             -         15,444             -           316          2,314        47,398            827           6,267            1,179
  Borrowing Authority (Notes 22 & 23)                                 -         1,724         45,357           688             -              -             -              -               -                -
  Earned -
   Collected                                                      1,016         1,535         17,267         1,768             97         1,236              80          110                59            81
   Change in receivables from Federal Sources                        15             -           (158)         (113)           (24)            -               -            6                (2)           17
  Change in unfilled customer orders -
   Advances received                                                  -              -         (1,387)           -              -             -             -              2               -                -
   Without advance from Federal Sources                               3             (3)             -            -              -             -             -              -               -                -
  Expenditure transfers from trust funds                              -              -            899            -              -             -             -              -               -                -
Nonexpenditure transfers, net, anticipated and actual                50              -         (2,838)           -             13            (1)        5,168              -          (5,139)             (39)
Permanently not available                                          (656)        (1,368)       (33,582)        (735)            (3)           (2)       (2,511)           (17)           (164)              (8)
 Total Budgetary Resources                                        2,478          3,825         45,036        4,254          1,197         5,612        58,294          1,229           1,548            1,865

Status of Budgetary Resources:
Obligations Incurred (Note 21):
  Direct                                                          1,716         1,678          2,954         1,556           925          4,255        51,158          1,053           1,114            1,305
 Reimbursable                                                       419             -         40,782             -            97              -            28            104              56              245
Unobligated Balance:
 Apportioned                                                        176         1,693            331         2,523             76         1,355           526             42              49              274
 Exempt from Apportionment                                            -             -            872             5              1             -             -              2             343               12
Unobligated balance not available                                   167           454             97           170             98             2         6,582             28             (14)              29
Total Status of Budgetary Resources                               2,478         3,825         45,036         4,254          1,197         5,612        58,294          1,229           1,548            1,865

Change in Obligated Balances:
Obligated balance, net, brought forward October 1 (Note 24)          198           436          5,596          (228)           74           204          3,048           101              93              435
Obligations incurred net                                           2,135         1,678         43,736         1,556         1,022         4,255         51,186         1,157           1,170            1,550
Gross outlays                                                     (2,076)       (1,565)       (38,011)       (1,591)         (281)       (4,186)       (49,902)         (923)         (1,137)          (1,218)
Unpaid obligations transferred                                         -             -           (216)            -             -             -              -             -               -                -
Recoveries of prior year unpaid                                      (71)          (69)        (2,837)           (3)         (761)           (5)          (391)         (247)            (10)            (269)
Change in uncollected payments from Federal Sources                  (18)            3            158           113            24             -              -            (6)              2              (17)
Obligated balance, net, end of period
 Unpaid obligations (Note 28)                                       198           496           9,649           50           106           268          3,940            109            125              523
 Uncollected customer payments from Federal Sources                 (30)          (13)         (1,221)        (203)          (29)            -              -            (27)            (6)             (43)
 Obligated balance, net, end of period                              168           483           8,428         (153)           77           268          3,940             82            119              480

Net Outlays:
 Gross outlays                                                     2,076         1,565       38,011           1,591          281          4,186        49,902            923           1,137            1,218
 Offsetting collections                                           (1,016)       (1,535)     (16,780)         (1,768)         (97)        (1,236)          (79)          (112)            (59)             (81)
 Distributed offsetting receipts                                    (320)            -            -            (722)           -              -             -             (3)           (122)             (15)
 Net Outlays                                                  $      740 $          30    $ 21,231 $           (899)   $     184     $    2,950    $   49,823     $      808      $      956      $     1,122




                                                                                                                                                                                                                 USDA
                                                                                                                                          FY 2006 PERFORMANCE            AND    ACCOUNTABILITY REPORT            239
                                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




FY 2005                                                            GIPSA         FS            NRCS           ARS         CSREES            ERS             NASS                RD                    DO                 TOTAL
                                                                                                                                                                                Non-Budgetary                             Non-Budgetary
                                                                                                                                                                                  Financing                                 Financing
                                                              Budgetary      Budgetary     Budgetary      Budgetary       Budgetary     Budgetary       Budgetary     Budgetary   Accounts        Budgetary     Budgetary   Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1: (Note 24)     $        7    $   1,738     $      313     $     342       $     148     $          2    $       5     $   3,751     $    1,814    $     207     $    18,756     $    6,325
Recoveries of prior year unpaid obligations                            11          169            464           265             350               28           22           273            487           70           6,243            559
Budget Authority:
  Appropriation                                                        37        5,812          1,354          1,314          1,195               75          130         2,997              -          546          88,940              -
  Borrowing Authority (Notes 22 & 23)                                   -            -              -              -              -                -            -             -          8,474            -          45,357         10,886
  Earned -
    Collected                                                          36          448          1,637               67           30                1           23         4,737          5,273          535          27,460          8,576
    Change in receivables from Federal Sources                          1           13             45               (1)          (7)               -            2            19              -           74               -           (113)
  Change in unfilled customer orders -
    Advances received                                                   -            3              -              -              -             -               -              -             -           (1)         (1,383)             -
    Without advance from Federal Sources                                -           72              -              4             (7)            -              (3)             -             5          (54)             15              2
  Expenditure transfers from trust funds                                -            -              -              -              -             -               -              -             -            -             899              -
Nonexpenditure transfers, net, anticipated and actual                   -           53          1,813              6              5             -               -              1             -            1            (907)             -
Permanently not available                                              (1)         (67)            (9)           (14)           (16)           (2)             (1)        (2,812)       (2,808)          (6)        (39,871)        (4,911)
 Total Budgetary Resources                                             91        8,241          5,617          1,983          1,698           104             178          8,966        13,245        1,372         145,509         21,324

Status of Budgetary Resources:
Obligations Incurred (Note 21):
  Direct                                                               47        5,546          5,011          1,478          1,511           101             150         3,948         11,262          607          82,879         14,496
 Reimbursable                                                          37          265            138             94             58             2              23           520              -          592          43,460              -
Unobligated Balance:
 Apportioned                                                            5        1,805            306            395            102             -               3           362          1,456          112           5,919          5,672
 Exempt from Apportionment                                              -            -              4             11             14             -               -             -              -            3           1,262              5
Unobligated balance not available                                       2          625            158              5             13             1               2         4,136            527           58          11,989          1,151
Total Status of Budgetary Resources                                    91        8,241          5,617          1,983          1,698           104             178         8,966         13,245        1,372         145,509         21,324

Change in Obligated Balances:
Obligated balance, net, brought forward October 1 (Note 24)             9         1,493          1,437           477           1,192           29               15         6,527        16,928            82          21,010         17,136
Obligations incurred net                                               84         5,811          5,149         1,572           1,569          103              173         4,468        11,262         1,199         126,339         14,496
Gross outlays                                                         (74)       (5,489)        (2,728)       (1,338)         (1,157)         (76)            (152)       (4,681)       (9,826)       (1,107)       (114,536)       (12,982)
Unpaid obligations transferred                                          -             -            216             -               -            -                -             -             -             -               -              -
Recoveries of prior year unpaid                                       (11)         (169)          (464)         (265)           (350)         (28)             (22)         (273)         (487)          (70)         (6,243)          (559)
Change in uncollected payments from Federal Sources                    (1)          (85)           (45)           (3)             14            -                1           (19)           (5)          (20)            (15)           111
Obligated balance, net, end of period
 Unpaid obligations (Note 28)                                          13        1,978          3,666           519           1,334               30           25         6,120         18,496          358          28,961         19,042
 Uncollected customer payments from Federal Sources                    (6)        (418)          (100)          (77)            (66)              (2)          (9)          (97)          (624)        (275)         (2,406)          (840)
 Obligated balance, net, end of period                                  7        1,560          3,566           442           1,268               28           16         6,023         17,872           83          26,555         18,202

Net Outlays:
 Gross outlays                                                         74        5,489           2,728         1,338          1,157               76          152          4,681         9,826        1,107      114,536            12,982
 Offsetting collections                                               (36)        (451)         (1,637)          (67)           (30)              (1)         (23)        (4,737)       (5,273)        (534)      (26,976)          (8,576)
 Distributed offsetting receipts                                        -         (429)              -           (15)            (3)               -            -           (538)            -            -        (1,445)            (722)
 Net Outlays                                                   $       38    $   4,609     $     1,091    $    1,256      $   1,124     $         75    $     129     $     (594) $      4,553    $     573     $ 86,115 $           3,684




USDA
240              FY 2006 PERFORMANCE                AND      ACCOUNTABILITY REPORT
      IV.




                        Other Accompanying Information


Appendix A—Management Challenges




                                                                                           USDA
                                       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   241
                                    OTHER ACCOMPANYING INFORMATION




USDA
242    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   243
                                    OTHER ACCOMPANYING INFORMATION




USDA
244    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   245
                                    OTHER ACCOMPANYING INFORMATION




USDA
246    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   247
                                    OTHER ACCOMPANYING INFORMATION




USDA
248    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   249
                                    OTHER ACCOMPANYING INFORMATION




USDA
250    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   251
                                    OTHER ACCOMPANYING INFORMATION




USDA
252    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   253
                                    OTHER ACCOMPANYING INFORMATION




USDA
254    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   255
                                    OTHER ACCOMPANYING INFORMATION




USDA
256    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   257
                                    OTHER ACCOMPANYING INFORMATION




USDA
258    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   259
                                    OTHER ACCOMPANYING INFORMATION




USDA
260    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   261
                                    OTHER ACCOMPANYING INFORMATION




USDA
262    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   263
                                    OTHER ACCOMPANYING INFORMATION




USDA
264    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   265
                                    OTHER ACCOMPANYING INFORMATION




USDA
266    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   267
                                    OTHER ACCOMPANYING INFORMATION




USDA
268    FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
OTHER ACCOMPANYING INFORMATION




                                                                   USDA
               FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT   269
                                          OTHER ACCOMPANYING INFORMATION




Appendix B—Improper Payment and Recovery Auditing Details
Since 2000, agencies have reported efforts to reduce erroneous payments through the Office of Management and
Budget’s (OMB) Circular A-11. Under the Improper Payments Information Act (IPIA), executive agencies must
identify any of its programs that may be susceptible to significant improper payments, estimate the annual amount of
improper payments and submit those estimates to Congress. Section 831 of the Defense Authorization Act for FY 2002
requires recovery auditing. In this process, agencies entering into contracts worth more than $500 million in a fiscal year
must execute a cost effective program for identifying errors made in paying contractors and for recovering amounts
erroneously paid to the contractors. In FY 2005, Eliminating Improper Payments became a President’s Management
Agenda (PMA) initiative. On August 10, 2006, government-wide guidance was consolidated into OMB Circular A-
123, Management’s Responsibility for Internal Control, Appendix C. Under this guidance, USDA has 4 programs
required to report under Section 57 of A-11 and has identified an additional 11 at risk of significant improper payments
through the risk assessment process.

USDA is taking steps to implement IPIA fully and achieve a “green” rating for the Eliminating Improper Payments
PMA initiative. During FY 2006, USDA maintained “yellow” status by:
    Completing risk assessments for all programs;
    Developing plans to measure improper payments for all high risk programs and receiving OMB approval;
    Developing corrective action plans to reduce improper payments and establishing both reduction and recovery
    targets for all high risk programs;
    Fully complying with reporting standards;
    Reporting component error rates for two Food Nutrition Service programs for the first time; and
    Reporting statistical error rates for four newly declared high risk programs.

The Farm Service Agency (FSA) made improvements to the quality of its risk assessments and statistical sampling.
Unfortunately, these improvements resulted in significant increases in improper payment rates for programs already
designated as high risk, and four additional programs being declared susceptible to improper payments. The improved
statistical sampling focused on verifying program eligibility and uncovered administrative weaknesses that prevent FSA
from determining if payments are proper. Thus, the Commodity Credit Corporation (CCC) is reporting an increase of
$3.5 billion in estimated potential improper payments in this report. Aggressive corrective action plans are being
developed to improve the quality of documentation for program eligibility.

USDA will be able to move to “green” status when error rates are available for all programs and it demonstrates that
reduction and recovery goals are being met. Due to budget and program constraints, this process can be complicated.
For the programs without an estimated error rate, USDA is working with OMB to develop interim methods to establish
and track erroneous payment percentages.

Additionally, USDA is taking steps to implement recovery auditing fully. Using an independent recovery audit
contractor working on contingency, USDA identified $379,000-worth of potentially recoverable improper payments.
The Department has recovered $538,000 in FY 2006 from amounts identified during FY 2005 and FY 2006.

On August 23, 2005, OMB provided a reporting template for IPIA in OMB Circular A-136. The template requires
responses to specific issues. USDA’s response to these issues follows.



USDA
  270       FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT
                                             OTHER ACCOMPANYING INFORMATION




        I. Describe your agency’s risk assessments, performed subsequent to compiling your full program inventory.
                        List the risk-susceptible programs identified through your risk assessments.
OCFO issued detailed guidance for the risk assessment process including templates and extensive reviews of drafts.
Programs with larger outlays were required to perform more detailed assessments than smaller programs. For USDA’s
largest programs, the risk assessment process required the following:
    The amount of improper payments needed to meet the reporting standards;
    A description of the program including purpose and basic eligibility requirements;
    Definition of improper payments specific to the program;
    Program vulnerabilities linked to improper payments;
    Internal controls designed to offset the program vulnerabilities;
    Internal controls testing;
    Listing of significant reviews and audits;
    Final determination of risk level;
    Planned future enhancements (optional); and
    Description of how improper payments are recovered (optional).

USDA has identified the following 15 programs as susceptible to improper payments.

       Selection Methodology                       Agency                                            Program
 Section 57 of OMB Circular A-11     Farm Service Agency (FSA),           Marketing Assistance Loan Program (MAL)
                                     Commodity Credit Corporation (CCC)
                                     Food Nutrition Service (FNS)         Food Stamp Program
                                                                          National School Lunch & School Breakfast Programs (NSLP-
                                                                          SBP)
                                                                          Special Supplemental Nutrition Program for Woman, Infants and
                                                                          Children
 USDA Identified as Susceptible to   Farm Service Agency (FSA)            Milk Income Loss Contract Program
 Significant Improper Payments       Commodity Credit Corporation (CCC)   Loan Deficiency Payments
                                                                          Direct and Counter-Cyclical Payments
                                                                          Conservation Reserve Program
                                                                          Disaster Programs
                                                                          Noninsured Assistance Program
                                     Food Nutrition Service (FNS)         Child and Adult Care Food Program
                                     Forest Service (FS)                  Wildland Fire Suppression Management
                                     Rural Development (RD)               Rental Assistance Program
                                     Risk Management Agency (RMA)         Federal Crop Insurance Corporation Program Fund
                                     Natural Resources Conservation       Farm Security and Rural Investment Programs
                                     Service (NRCS)




                                                                                                                                 USDA
                                                                      FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT           271
                                           OTHER ACCOMPANYING INFORMATION




                     II. Describe the statistical sampling process conducted to estimate the improper
                                        payment rate for each program identified.
Agency            Program                                                        Sampling Process
FSA/CCC   Marketing Assistance       Reviews of program payment activities with respect to the Improper Payment Information Act are
          Loan Program (MAL)         conducted by FSA’s County Office Review Program (CORP) under the direction of the Operations
                                     Review and Analysis Staff (ORAS).
                                     Testing is conducted using statistically sound samples drawn from the total population of program
                                     payments for each program tested. A professional statistician under contract to FSA is used to design
                                     the sampling approach, define the sample size and identify the sample items. Sample size is chosen to
                                     achieve a 95-percent confidence level.
                                     Once the universe of the program is determined for the target fiscal year, a stratified two-stage
                                     sampling approach is used. Agency program delivery organizations (county offices) are selected in the
                                     first stage and individual payments made or contracts reviewed by those organizations are selected in
                                     the second stage.
                                     That sample list of individual contracts or payments is provided to the members of the CORP staff
                                     covering the respective States. CORP staff visits each of the county offices shown on the list and
                                     reviews the individual contracts or payments identified in the statistically sound sample. CORP
                                     reviewers use a list of program division provided criteria drawn from legal and program administrative
                                     guidance. Findings of non-adherence to the criteria related to the individual contracts or payments in
                                     the sample will identify potentially improper payments made. The results of that review are summarized
                                     and submitted to CORP national office staff to be analyzed by the statistician contractor. That
                                     contractor determines the rate of improper payments based on the data provided by the CORP staff
                                     that visited the county offices and completed the actual reviews of documents.
FNS       Food Stamp Program         Statistical sampling
          (FSP)
                                     Each month, States select a statistically random sample of cases from a universe of all households
                                     receiving FSP benefits for that given month. Most States draw the samples using a constant sampling
                                     interval. There are some which employ simple random and/or stratified sampling techniques. Required
                                     annual sample sizes range from 300 for State agencies with small FSP populations to more than 1,000
                                     for larger States. The average is approximately 950 per State. States are required to complete at least
                                     98 percent of selected cases deemed to be part of the desired FSP universe. Federal sub-samples are
                                     selected systematically by FNS from each State’s completed reviews. These sample sizes range from
                                     150 to 400 per State.

                                     Error Rate Calculation

                                     The National payment error rate is calculated using a multi-step process:
                                     Each State agency conducts quality control (QC) reviews of the monthly sample of cases. The QC
                                     review measures the accuracy of eligibility and benefit determinations for each sampled case against
                                     FSP standards. State agencies are required to report to FNS the findings for each case selected for
                                     review.
                                     FNS then sub-samples completed State QC reviews and re-reviews selected individual case findings
                                     for accuracy. Based on this sub-sample, FNS determines each State agency’s official error rate using a
                                     regression formula.
                                     The national payment error rate then is computed by averaging the error rate of the active cases for
                                     each State weighted by the amount of issuance in the State.
FNS       National School Lunch &    The results of a large national study of improper payments in NSLP and SBP, for School Year 2005-
          School Breakfast           2006, are anticipated to be reported next year. Because of the scope and cost of this kind of study, it is
          Programs (NSLP-SBP)        more prudent to repeat it on a multi-year cycle. With appropriate funding approval, FNS will repeat this
                                     type of study and produce an improper payment measurement estimate every five years. Additionally,
                                     as part of the current project, FNS intends to develop a methodology that uses data available from
                                     extant sources to estimate improper payments annually on a NSLP component.
                                     The sampling plan for the large national study involves the selection of a national probability sample of
                                     school food authorities (SFA), schools, certified students and their households, and households that
                                     applied for and were denied benefits. In the first stage of sampling, a stratified random sample of 80
                                     SFAs was selected. Stratification variables included geographic region, prevalence of schools with SBP
                                     and those using Provision 2/3 and a poverty indicator. In the second stage of sampling, three schools,
                                     on average, were selected from SFAs that do not have Provision 2/3 schools. Schools were stratified




USDA
 272      FY 2006 PERFORMANCE       AND   ACCOUNTABILITY REPORT
                                        OTHER ACCOMPANYING INFORMATION




 Agency            Program                                                      Sampling Process
FNS                                into two groups: (1) elementary schools and (2) middle and high schools. A total of 264 schools were
(Cont’d)                           selected for the study (216 non-Provision 2/3 schools, 24 Provision 2/3 schools in their base year, and
                                   24 Provision 2/3 schools not in their base year). For the third stage of sampling, households were
                                   selected in 240 of these schools. This process was designed to yield completed interviews for 3,600
                                   students certified for free and reduced-price meals, and 400 denied applicant households. The sample
                                   of approved and denied applicant households was augmented by sampling applications from Provision
                                   2/3 schools in which household surveys were not conducted. The study design includes approximately
                                   4,500 application reviews to estimate a case-error rate due to administrative error. All schools selected
                                   for application reviews also would include data collection for counting and claiming errors.
                                   In the interim (before the nationally representative improper payments rate is available), FNS is
                                   reporting a component measure drawn from annual on-site reviews focused on the certification and
                                   verification process. One important source of certification error is (SFA errors in certifying and verifying
                                   applications. In 2002, on-site reviews were conducted of the application verification process at 14
                                   SFAs. This activity determined that 6 percent of the SFAs’ verification determinations were incorrect
                                   due to administrative errors. USDA worked with Congress to develop and adopt legislative changes to
                                   address certification accuracy. These changes included mandating direct certification, year-long
                                   certifications and household applications. FNS has worked with States and local education agencies to
                                   implement these improvements rapidly. Beginning in FY 2005, FNS has conducted an annual review of
                                   a statistical sample of SFA application eligibility determinations. This sample will be used to measure
                                   changes in administrative error rates, assess the impact of its corrective action, and target and focus
                                   future activities. The national benefit status error rate on applications for school year 2004-05 is 4.3
                                   percent (±0.95, 90 percent confidence interval based on 2,766 applications). Beginning in 2007, it is
                                   anticipated that this component also will become part of the formula used to develop the annual
                                   payment error estimate.
FNS        Special Supplemental    FNS plans to continue periodic examinations of WIC certification and vendor error.
           Nutrition Program for   x    Certification Error—The next decennial national study to measure certification error in WIC is
           Women, Infants and           scheduled for 2008. This study will, for the first time, include a measurement of the amount of
           Children (WIC)               improper payments associated with certification error. Previous studies preceded IPIA and did not
                                        include any value determination of improper payments.
                                   x    Vendor Error—A study of WIC vendor management recently has been completed. A national
                                        improper payments estimate of vendor charges, for FY 2005 activity, is reported in Section IV. For
                                        the next few years, FNS will generate an annual update of this improper payment measurement
                                        using statistical techniques. Options to accomplish this using existing administrative and other data
                                        are being examined.
                                   The “bookend” study data will be aged by data reported annually by all WIC State agencies to produce
                                   estimates for FY 2006 and annually until the next bookend study. State WIC agencies are required to
                                   investigate at least 5 percent of their authorized vendor population each year. Some States investigate
                                   more than the minimum. In FY 2004, approximately 10 percent of all vendors were investigated,
                                   although there is substantial variation across States. These data are collected into The Integrity Profile
                                   Report and database on a fiscal-year basis. The investigations check for vendor violations including
                                   overcharging and charging for foods not received by the recipient. While States primarily select vendors
                                   for investigation through purposive sampling from their presumed high risk vendors, some include a
                                   random component in their sampling. Moreover, the state-of-the-art in identifying “high risk” vendors is
                                   imperfect and there is a semi-random aspect to the samples. Thus, FNS can generate an improper
                                   payment amount by using post-stratified sampling techniques to adjust for the purposive aspects of the
                                   samples. The Food Stamp Program pioneered the use of post-stratified sampling methods to estimate
                                   food-stamp trafficking. FNS believes it can adapt the food stamp methodology for the WIC vendor
                                   estimates. The agency will develop and test the methodology. If an acceptable method for aging cannot
                                   be developed using existing data, FNS could develop a regulatory proposal requiring limited new data
                                   collection and reporting by the States on not more than 1 percent of WIC vendors.




                                                                                                                                        USDA
                                                                   FY 2006 PERFORMANCE          AND   ACCOUNTABILITY REPORT               273
                                             OTHER ACCOMPANYING INFORMATION




Agency            Program                                                         Sampling Process
FNS       Child and Adult Care Food    Two measures of the Family Day Care Home component of the program are planned. The methods for
          Program (CACFP)              determining these measures are:
                                       x    Sponsor Tiering Error—National study of a representative sample of sponsor files for 3,150 family
                                            day care homes (FDCHs) in 95 distinct sponsors in 14 States. Data collectors went to each
                                            sampled sponsor with randomly drawn lists of 30 to 90 FDCHs. They extracted the necessary
                                            documents to establish eligibility for reimbursements from the sponsors’ files. The FY 2005 results
                                            are reported in Section IV below.
                                       x    Meal Claiming Error—Two methods of estimating the risk of claiming error will be tested for
                                            feasibility. Both approaches compare the number of participants observed during the monitoring
                                            visit to the average number of meals claimed for reimbursement for the meal or snack closest to
                                            the time of the visit. Each approach a) provides an estimate of the risk of claiming error among
                                            FDCH providers; b) involves a different set of problems (which may or may not be surmountable);
                                            and c) requires very different resource implications.
                                       FNS will pilot both approaches in conjunction with the 11 Child Care Assessment Project (CCAP)
                                       reviews scheduled for FY 2007. A sample size (for the pilot) of 200 FDCHs is anticipated. Data
                                       collection forms already have been developed for each approach to facilitate standardized collection
                                       and data entry.
FSA/CCC   Milk Income Loss Contract    MILC only disbursed approximately $9 million in FY 2005. USDA suspended improper payment
          Program (MILC)               sampling because of the low level of outlays since the program expired as of September 30, 2005. The
                                       program was reauthorized for two years in February 2006 and signup for the new MILC ended in May
                                       2006. Outlays for FY 2006 were $351 million, exclusive of accruals. There will be a statistical sampling
                                       of the FY 2006 activity using the same approach as defined for Marketing Assistance Loan and Loan
                                       Deficiency Payment program activity.
FSA/CCC   Loan Deficiency Payments     Reviews of program payment activities with respect to the Improper Payment Information Act are
                                       conducted by FSA’s County Office Review Program (CORP) under the direction of the Operations
                                       Review and Analysis Staff (ORAS).
                                       Testing is conducted using statistically sound samples drawn from the total population of program
                                       payments for each program tested. A professional statistician under contract to FSA is used to design
                                       the sampling approach, define the sample size and identify the sample items. Sample size is chosen to
                                       achieve a 95-percent confidence level.
                                       Once the universe of the program is determined for the target fiscal year, a stratified two-stage
                                       sampling approach is used. Agency program delivery organizations (county offices) are selected in the
                                       first stage and individual payments made or contracts reviewed by those organizations are selected in
                                       the second stage.
                                       That sample list of individual contracts or payments is provided to the members of the CORP staff
                                       covering the respective States. CORP staff visits each of the county offices shown on the list and
                                       reviews the individual contracts or payments identified in the statistically sound sample. CORP
                                       reviewers use a list of program division provided criteria drawn from legal and program administrative
                                       guidance. Findings of non-adherence to the criteria related to the individual contracts or payments in
                                       the sample will identify potentially improper payments made. The results of that review are summarized
                                       and submitted to CORP national office staff to be analyzed by the statistician contractor. That
                                       contractor determines the rate of improper payments based on the data provided by the CORP staff
                                       that visited the county offices and completed the actual reviews of documents.
FSA/CCC   Direct and Counter-          Reviews of program payment activities with respect to the Improper Payment Information Act are
          Cyclical Payments (DCP)      conducted by FSA’s County Office Review Program (CORP) under the direction of the Operations
                                       Review and Analysis Staff (ORAS).
                                       Testing is conducted using statistically sound samples drawn from the total population of program
                                       payments for each program tested. A professional statistician under contract to FSA is used to design
                                       the sampling approach, define the sample size and identify the sample items. Sample size is chosen to
                                       achieve a 95-percent confidence level.
                                       Once the universe of the program is determined for the target fiscal year, a stratified two-stage
                                       sampling approach is used. Agency program delivery organizations (county offices) are selected in the
                                       first stage and individual payments made or contracts reviewed by those organizations are selected in
                                       the second stage.
                                       That sample list of individual contracts or payments is provided to the members of the CORP staff
                                       covering the respective States. CORP staff visits each of the county offices shown on the list and
                                       reviews the individual contracts or payments identified in the statistically sound sample. CORP
                                       reviewers use a list of program division provided criteria drawn from legal and program administrative




USDA
 274      FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                                          OTHER ACCOMPANYING INFORMATION




 Agency            Program                                                       Sampling Process
FSA/CCC                              guidance. Findings of non-adherence to the criteria related to the individual contracts or payments in
(Cont’d)                             the sample will identify potentially improper payments made. The results of that review are summarized
                                     and submitted to CORP national office staff to be analyzed by the statistician contractor. That
                                     contractor determines the rate of improper payments based on the data provided by the CORP staff
                                     that visited the county offices and completed the actual reviews of documents.
FSA/CCC    Conservation Reserve      Reviews of program payment activities with respect to the Improper Payment Information Act are
           Program (CRP)             conducted by FSA’s County Office Review Program (CORP) under the direction of the Operations
                                     Review and Analysis Staff (ORAS).
                                     Testing is conducted using statistically sound samples drawn from the total population of program
                                     payments for each program being tested. A professional statistician under contract to FSA is used to
                                     design the sampling approach, define the sample size and identify the sample items. Sample size is
                                     chosen to achieve a 95-percent confidence level.
                                     Once the universe of the program is determined for the target fiscal year, a stratified two-stage
                                     sampling approach is used. Agency program delivery organizations (county offices) are selected in the
                                     first stage and individual payments made or contracts reviewed by those organizations are selected in
                                     the second stage.
                                     That sample list of individual contracts or payments is provided to the members of the CORP staff
                                     covering the respective States. CORP staff visits each of the county offices shown on the list and
                                     reviews the individual contracts or payments identified in the statistically sound sample. CORP
                                     reviewers use a list of program division provided criteria that is drawn from legal and program
                                     administrative guidance. Findings of non-adherence to the criteria related to the individual contracts or
                                     payments in the sample will identify potentially improper payments made. The results of that review are
                                     summarized and submitted to the CORP national office staff to be analyzed by the statistician
                                     contractor. That contractor determines the rate of improper payments based on the data provided by
                                     CORP staff that visited the county offices and completed the actual reviews of documents.
FSA/CCC    Disaster Programs (CDP)   Reviews of program payment activities with respect to the Improper Payment Information Act are
                                     conducted by FSA’s (FSA) County Office Review Program (CORP) under the direction of the
                                     Operations Review and Analysis Staff (ORAS).
                                     Testing is conducted using statistically sound samples drawn from the total population of program
                                     payments for each program tested. A professional statistician under contract to FSA is used to design
                                     the sampling approach, define the sample size and identify the sample items. Sample size is chosen to
                                     achieve a 95-percent confidence level.
                                     Once the universe of the program is determined for the target fiscal year, a stratified two-stage
                                     sampling approach is used. Agency program delivery organizations (county offices) are selected in the
                                     first stage and individual payments made or contracts reviewed by those organizations are selected in
                                     the second stage.
                                     That sample list of individual contracts or payments is provided to the members of the CORP staff
                                     covering the respective States. CORP staff visits each of the county offices shown on the list and
                                     reviews the individual contracts or payments identified in the statistically sound sample. CORP
                                     reviewers use a list of program division provided criteria drawn from legal and program administrative
                                     guidance. Findings of non-adherence to the criteria related to the individual contracts or payments in
                                     the sample will identify potential improper payments made. The results of that review are summarized
                                     and submitted to CORP national office staff to be analyzed by the statistician contractor. That
                                     contractor determines the rate of improper payments based on the data provided by the CORP staff
                                     that visited the county offices and completed the actual reviews of documents.
FSA/CCC    Noninsured Assistance     Reviews of program payment activities with respect to the Improper Payment Information Act are
           Program (NAP)             conducted by FSA’s County Office Review Program (CORP) under the direction of the Operations
                                     Review and Analysis Staff (ORAS).
                                     Testing is conducted using statistically sound samples drawn from the total population of program
                                     payments for each program tested. A professional statistician under contract to FSA is used to design
                                     the sampling approach, define the sample size and identify the sample items. Sample size is chosen to
                                     achieve a 95-percent confidence level.
                                     Once the universe of the program is determined for the target fiscal year, a stratified two-stage
                                     sampling approach is used. Agency program delivery organizations (county offices) are selected in the
                                     first stage and individual payments made or contracts reviewed by those organizations are selected in
                                     the second stage.




                                                                                                                                       USDA
                                                                     FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT              275
                                              OTHER ACCOMPANYING INFORMATION




 Agency            Program                                                          Sampling Process
FSA/CCC                                 That sample list of individual contracts or payments is provided to the members of the CORP staff
(Cont’d)                                covering the respective States. CORP staff visits each of the county offices shown on the list and
                                        reviews the individual contracts or payments identified in the statistically sound sample. CORP
                                        reviewers use a list of program division provided criteria drawn from legal and program administrative
                                        guidance. Findings of non-adherence to the criteria related to the individual contracts or payments in
                                        the sample will identify potential improper payments made. The results of that review are summarized
                                        and submitted to CORP national office staff to be analyzed by the statistician contractor. That
                                        contractor determines the rate of improper payments based on the data provided by the CORP staff
                                        that visited the county offices and completed the actual reviews of documents.
FS         Wildland Fire Suppression    Wildland Fire Management – Suppression has been deemed a high risk account and as such, the
           Management                   sample had to be a statistically based sample. For FY 2006, the fund had 13,553 payments made.
                                        Accordingly, a sample size of 166 was selected using a random number generator. The sample was
                                        selected using a 90-percent confidence level, anticipated rate of occurrence of 2.9 percent and a
                                        desired precision range of 5 percent.
RD         Rental Assistance            The agency reviewed the sampling plan developed by the U.S. Department of Housing and Urban
           Program                      Development for its studies. It engaged an Rural Development (RD) statistician to prepare a similar
                                        plan for this report. This report is based on a review of tenants receiving RA during their occupancy
                                        beginning September 1, 2005, to May 31, 2006. This period was selected since the actual rental
                                        assistance payment is made one month following the occupancy date. Thus, the universe covers the
                                        fiscal year to date. RD plans another review in November/December 2006 that will cover the full FY
                                        2006 period. The sampling plan consisted of 665 rental assistance (RA) payments from a universe of
                                        2,330,334 or .029 percent. The methodology produced a sample with a 99-percent confidence level.
                                        The study required field staff to evaluate tenant files and income calculations. The agency did not test if
                                        RD’s deputy chief finance office paid appropriately on the borrower’s request for subsidy due to the
                                        minuscule error rate from the FY 2004 report and the implementation of an automation enhancement to
                                        improve data entry.
                                        The universe of rental assistance payments during the period of September 1, 2005, to May 31, 2006,
                                        was 2,330,334. The only parameter used to determine the eligible universe was the RA payment. No
                                        other data element, such as location, size of property, number of units and availability of other rental
                                        assistance (such as Section 8) was a consideration. The statisticians were provided a data extract from
                                        the Multi-Family Housing Information System (MFIS). The extract contained a list of all tenants
                                        receiving RA who occupied the unit as of September 1, 2006, for payment as of October 1, 2006. The
                                        data included month of payment, project name, project identifier (case number/project number) and
                                        tenant name and unit number. From the data extract, the statisticians selected the sample by a
                                        systematic sample technique. Once the sample was identified, an unnumbered letter dated July 11,
                                        2006, was issued to RD field staff that explained the process (including detailed instructions), provided
                                        the list of tenant payments to be reviewed and provided the data currently maintained in MFIS. These
                                        data were used as the baseline review of the tenant data comparison between the Agency records and
                                        the management agent’s tenant files. The survey instrument was revised this year and reduced from a
                                        two-page to a one-page questionnaire. The study asked State office staff to complete the survey for the
                                        selected tenant payments. There was to be no substitution of the selected payment and, if the
                                        management agent was unable to submit the file, the payment would be considered unauthorized
                                        assistance.

RMA        Federal Crop Insurance       RMA drew 300 random 2004 crop year indemnities to review during 2005. It will repeat this process for
           Corporation Program Fund     three years to compile 900 random indemnity reviews that will be used to identify the RMA program-
                                        error rate. Limited resources make it impractical to conduct a statistically valid program review each
                                        year. Despite these limits, in combination with the National Operations Reviews conducted by RMA
                                        compliance personnel, these random reviews of paid indemnities should provide the program with
                                        sufficient data to establish an acceptable error rate for the purposes of the IPIA.
NRCS       Farm Security and Rural      The Farm Security and Rural Investment Program was treated as six individual programs following the
           Investment Programs          apportionment schedule:
                                        x     Environmental Quality Incentive Program;
                                        x     Wildlife Habitat Incentive Program;
                                        x     Wetland Reserve Program;
                                        x     Grassland Reserve Program;
                                        x     Farm and Ranch Land Protection Program; and
                                        x     Conservation Security Program (CSP).




USDA
 276       FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT
                                           OTHER ACCOMPANYING INFORMATION




 Agency            Program                                                        Sampling Process
NRCS                                   As shown in section IV, the Farm Security and Rural Investment Program has reported an improper
(Cont’d)                               payment rate of less than 2.5 percent for the last 2 years. The Farm Security and Rural Investment
                                       Program also met its FY 2006 reduction and recovery targets. As a result of this demonstrated ability to
                                       reduce improper payments, we anticipate that OMB will authorize the removal of all but CSP from the
                                       high risk list. Starting in FY 2007, USDA anticipates that only CSP will be sampled statistically and
                                       reported in the PAR.
                                       Risk assessments were developed for each program with the Financial Management Division and the
                                       National Program Managers. Using last year’s risk assessments and corrective action plans, NRCS
                                       identified any new risks and internal controls to test. It reviewed internal and external reviews and
                                       audits to eliminate duplication of effort and incorporated testing of any new internal controls
                                       implemented as a result of the reviews and audits. Statutory and program changes as they related to
                                       IPIA were considered.
                                       Individual program samples were statistically selected from the universe of payments made to
                                       participants during FY 2005. Anticipated error rates were based on the actual ones determined from the
                                       results of last year’s sampling and anticipated impact of ProTracts. NRCS used a rigorous confidence
                                       level of 95 percent and precision range of 5 percent to select the number of samples. A total of 765
                                       samples were selected.
                                       Questionnaires unique for each program were developed with the program managers. Sample payment
                                       data were merged into the questionnaires. These questionnaires were sent to State and field offices to
                                       complete and return with supporting documentation. The questionnaires are a tool for re-enforcing
                                       program rules and a means to obtain verification of items which would not be readily available in a
                                       contract file.
                                       NRCS started the implementation of individual program review checklists. They were created by the
                                       Financial Management Division based on the risk assessments and internal controls selected for
                                       testing. As samples were returned, the agency used the review checklist to test the effectiveness of the
                                       selected internal controls. This ensured testing consistency by the review team. We also tested
                                       payment calculations, contracting policy adherence, and issues from last year’s sampling.



III. Describe the Corrective Action Plans for reducing the estimated rate of improper payments. Include in this discussion
        what is seen as the cause of errors and the corresponding steps necessary to prevent future occurrences.
  If efforts are already underway, and/or have been ongoing for some length of time, it is appropriate to include that
                                             information in this section.

 Agency          Program                                                   Corrective Actions Planned
FSA/CCC    Marketing Assistance   A large percentage of the improper payments was caused by noncompliance with administrative procedures.
           Loan program (MAL)     While failure to follow administrative procedures may not have caused the payment to be disbursed in error,
                                  it is not possible to determine whether the payment was appropriate without the documentation. For
                                  example, it was determined that a producer who did not certify whether it had a delinquent Federal non-tax
                                  debt but still received a payment was considered an improper one. In such cases, while the producer may
                                  have been a legitimate recipient, because he or she failed to indicate his or her status this was considered
                                  an improper payment. After further program review and additional corrective action, the program payment
                                  amount issued was determined to be accurate. The State and county offices involved in the statistical
                                  sample have been notified of the findings and the necessary corrective actions.
                                  FSA corrective action plans for reducing improper payments include:
                                  x   Reiterating current program policies regarding program compliance through the issuances of national
                                      notices to State and county office personnel;
                                  x   Developing a PowerPoint training presentation addressing the statistical sample’s findings and overall
                                      MAL program compliance concerns. This PowerPoint presentation will be made available to all State
                                      executive directors and office employees to assist when training county office employees. This training
                                      presentation will be the first of a series of training modules to address MAL policies and procedures;
                                  x   Informing State executive directors of compliance issues that resulted in an improper payment and
                                      provide additional internal control procedures to avoid these types of errors;




                                                                                                                                       USDA
                                                                      FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT             277
                                           OTHER ACCOMPANYING INFORMATION




 Agency         Program                                                      Corrective Actions Planned
FSA/CCC                         x   Enhancing existing software and/or developing automated programs that verify program eligibility and
(Cont’d)                            compliance, subject to funding;
                                x   Reviewing existing policy and procedures handbooks to determine program compliance inefficiencies.
                                    FSA will strengthen or eliminate inadequate program compliance controls to simplify the MAL approval
                                    process without compromising program integrity;
                                x   Enhance individual accountability of controls by performing quarterly control testing on each employee’s
                                    program related payment transactions. A sample of five producer payments will be selected for each
                                    employee for testing each quarter. The results from these quarterly tests will be included as part of the
                                    employee’s annual performance plans for the county, district and State executive director. The
                                    employee’s individual results will be integrated into his/her annual performance rating.
                                x   Leveraging the Treasury Offset Program System (TOP) to verify Debt Collection Improvement Act
                                    (DCIA) compliance. This, in turn, may eliminate the need for a producer self-certification of the DCIA
                                    requirement. Current financial systems and security issues must be enhanced and addressed before
                                    FSA can use TOP for the purpose of verifying DCIA compliance for producers requested LDP benefits;
                                    and
                                x   Amending existing regulations to eliminate inadequate program compliance controls. A final rule
                                    amending regulatory language requiring lien searches and filing of financing statements on loan amount
                                    $25,000 or less is going through Departmental clearance and will be published in the Federal Register
                                    upon final signature.
FNS        Food Stamp Program   Causes of improper payments
                                An improper payment occurs when a participating household is certified for too many or too few benefits
                                compared to the level for which they are eligible. This can result from incomplete or inaccurate reporting of
                                income and/or assets by participants at the time of certification. It also can occur from changes subsequent
                                to certification or errors in determining eligibility or benefits by caseworkers. Eligibility worker delays in action
                                or inaction taken on client reported changes also can cause of improper payments.
                                An analysis of the FY 2004 completed statistical sample revealed that approximately 69 percent of all
                                variances occurred before or at the most recent certification/recertification. Additionally, 56.7 percent of the
                                errors were agency caused. A little more than 50 percent of the errors (50.4 percent) were income related
                                and caused by client misreporting or the agency misapplying the reported income. Misreporting or
                                misapplying deductions was the second largest source of errors at 31.6 percent.
                                The analysis of the FY 2005 data is scheduled for release in early 2007.
                                Steps that are (or will be) taken to address specific findings in the last statistical sample:
                                Program regulations require State agencies to analyze data to develop corrective action plans to reduce or
                                eliminate program deficiencies. A State with a high error rate must develop a QC corrective action plan to
                                address deficiencies revealed through an analysis of its own QC data. A State with an excessive error rate
                                will be required to invest a specified amount (depending on its error rate and size) designated specifically to
                                correct and lower its error rate. The State also will face further fiscal penalties if it fails to lower its error rate
                                in a future fiscal year.
                                Steps that are (or will be) taken to improve the overall control environment and improper payments:
                                FNS, through its regional offices, works directly with States to impart the importance of payment accuracy
                                and correct payments to State leadership. The agency also helps those leaders develop effective corrective
                                action strategies to reduce payment errors. Regional offices provide many forms of technical assistance to
                                States, such as:
                                x     Analyzing data;
                                x     Reviewing and monitoring corrective action plans;
                                x     Developing strategies for error reduction and corrective action;
                                x     Participating on boards and in work groups; and
                                x     Hosting, attending and supporting payment accuracy conferences.




USDA
 278       FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT
                                              OTHER ACCOMPANYING INFORMATION




 Agency          Program                                                       Corrective Actions Planned
FNS                                FNS administers a State Exchange Program. The program provides funds to States to facilitate travel to
(Cont’d)                           obtain, observe and share information on best practices and effective techniques for error reduction.
                                   Coalitions have been formed among States to promote partnerships, information exchange and collaborative
                                   efforts. These efforts address mutual concerns and support development of effective corrective action.
FNS        National School         FNS has collected data on eligibility determination and verification efforts at the school food authority (SFA)
           Lunch & School          level. States are expected to identify and resolve problems with the certification and verification processes
           Breakfast Programs      based on these data. A number of key data elements are reported to FNS annually. These elements include
           (NSLP-SBP)              certification type (direct certification or application), verifications conducted and results of verification activity.
                                   These efforts will be used to explore regulatory, policy and training efforts to improve the accuracy and
                                   reliability of the eligibility-determination process. In June 2006, FNS published the results of the certification
                                   and verification reporting for school year 2004-05. The report indicates that approximately three quarters of
                                   certified students were subject to verification, with the remainder directly certified. Among all verified
                                   applications, the majority were found to be consistent with their certification status. Thirty-three percent of
                                   verifications resulted in a change in certification status, with 21 percent of those resulting from non-response
                                   to the verification request. For school year FY 2004-05, SFAs were permitted to choose among three
                                   methods for selecting applications for verification. Results varied substantially by method. Verification results
                                   for school year 2005-06 currently are being reported and analyzed. As a result of a legislative change
                                   designed to better target error-prone applications, these data will reflect changes in verification sampling
                                   procedures by SFAs. They will not be directly comparable to the school year 2004-05 data.
                                   FNS also has secured resources and entered into a contract to conduct a nationally representative study of
                                   the NSLP/SBP eligibility determination process. It also has established the first improper payments rate. An
                                   improper payments rate for school year 2005-06 is anticipated to be available by August 2007. Because of
                                   the scope and cost of this study, it is more prudent to repeat it on a multi-year cycle. With appropriate
                                   funding approval, FNS will repeat this type of study and produce an improper payment measurement every
                                   five years. Additionally, as part of the current project, FNS intends to develop a methodology that uses data
                                   available from other sources to measure improper payments on a component of the NSLP annually.
FNS        Special Supplemental    The data from the study of vendors in 2005 indicating a very low level of WIC vendor improper payments are
           Nutrition Program for   reported in Section IV below. Corrective action plans and reduction targets will be developed in FY 2007 and
           Women, Infants and      submitted to OMB for approval.
           Children (WIC)
FNS        Child and Adult Care    The data from the new FDCH teiring accuracy determination and the Child Care Assessment Project (CCAP)
           Food Program            are being analyzed. Corrective action plans and reduction targets will be developed in FY 2007 and
           (CACFP)                 submitted to OMB for approval.
FSA/CCC    Milk Income Loss        While statistical sampling of MILC was not required due to limited activity in FY 2005, FSA has concluded
           Contract Program        that that this program will benefit from many of the corrective actions targeted for CCC programs delivered
           (MILC)                  through the field office structure. As with the other programs, it should be noted that compliance with the
                                   administrative procedures may have prevented the improper payment from being disbursed. For example, it
                                   was determined that a producer who did not certify whether he or she had a delinquent Federal non-tax debt
                                   but still received a payment was considered an improper payment. In such cases, while the producer may
                                   not have been a delinquent debtor and was entitled to receive the applicable payment, he or she failed to
                                   indicate his or her status, making it an improper payment. After further program review and additional
                                   corrective action, the program payment amount issued was determined to be accurate.
                                   FSA corrective action plans for reducing improper payments include:
                                   x    Reiterating current program policies regarding program compliance through the issuances of national
                                        notices to State and county office personnel;
                                   x    Developing a PowerPoint training presentation addressing the statistical sample findings and overall
                                        program compliance concerns in the various programs. This PowerPoint presentation will be made
                                        available to all State executive directors and office employees to assist when training county office
                                        employees. This training presentation will be the first of a series of training modules to address MILC
                                        policies and procedures;
                                   x    Informing State executive directors of compliance issues that resulted in an improper payment and
                                        provide additional internal-control procedures to avoid these types of errors;
                                   x    Enhancing existing software and/or develop automated programs that verify program eligibility and
                                        compliance, subject to funding;




                                                                                                                                                  USDA
                                                                           FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT                279
                                            OTHER ACCOMPANYING INFORMATION




 Agency          Program                                                  Corrective Actions Planned
FSA/CCC                          x    Enhance individual accountability of controls by performing quarterly control testing on each employee’s
(Cont’d)                              program related payment transactions. A sample of five producer payments will be selected for each
                                      employee for testing each quarter. The results from these quarterly tests will be included as part of the
                                      employee’s annual performance plans for the county, district and State executive director. The
                                      employee’s individual results will be integrated into his/her annual performance rating.
                                 x    Reviewing existing policy and procedures handbooks to determine program compliance inefficiencies.
                                      FSA will strengthen or eliminate inadequate program compliance controls to simplify the MILC approval
                                      process without compromising program integrity; and
                                 x     Leveraging the Treasury Offset Program System (TOP) to verify Debt Collection Improvement Act
                                       (DCIA) compliance. This, in turn, may eliminate the need for a producer self-certification of the DCIA
                                       requirement. Current financial systems and security issues must be enhanced and addressed before
                                       FSA can use TOP to verify DCIA compliance for producers requesting MILC benefits.
FSA/CCC    Loan Deficiency       A large percentage of the improper payments were caused by noncompliance with administrative
           Payments (LDP)        procedures. It should be noted that compliance with these procedures may have prevented the improper
                                 payment from being disbursed. For example, it was determined that a producer who did not certify whether
                                 they had a delinquent Federal non-tax debt but still received a payment was considered an improper
                                 payment. In such cases, while the producer may not have been a delinquent debtor and was entitled to
                                 receive the applicable payment, he or she failed to indicate his or her status, making it an improper payment.
                                 After further program review and additional corrective action, the program payment amount issued was
                                 determined to be accurate. The State and county offices involved in the statistical sample have been notified
                                 of the findings and the necessary corrective actions.
                                 FSA corrective action plans for reducing improper payments include:
                                 x   Reiterating current program policies regarding program compliance through the issuances of national
                                     notices to State and county office personnel;
                                 x    Developing a PowerPoint training presentation addressing the statistical sample findings and overall
                                      LDP program compliance concerns. This PowerPoint presentation will be made available to all State
                                      executive directors and office employees to assist when training county office employees. This training
                                      presentation will be the first of a series of training modules to address LDP policies and procedures;
                                 x    Informing State executive directors of compliance issues that resulted in an improper payment and
                                      provide additional internal control procedures to avoid these types of errors;
                                 x    Enhancing existing software and/or developing automated programs that verify program eligibility and
                                      compliance, subject to funding;
                                 x    Enhance individual accountability of controls by performing quarterly control testing on each employee’s
                                      program related payment transactions. A sample of five producer payments will be selected for each
                                      employee for testing each quarter. The results from these quarterly tests will be included as part of the
                                      employee’s annual performance plans for the county, district and State executive director. The
                                      employee’s individual results will be integrated into his/her annual performance rating.
                                 x    Reviewing existing policy and procedures handbooks to determine program compliance inefficiencies.
                                      FSA will strengthen or eliminate inadequate program compliance controls in an effort to simplify the
                                      LDP approval process without compromising program integrity; and
                                 x    Leveraging the Treasury Offset Program System (TOP) ability to verify Debt Collection Improvement
                                      Act (DCIA) compliance. This may in turn eliminate the need for a producer self-certification of the DCIA
                                      requirement. Current financial systems and security issues must be enhanced and addressed before
                                      FSA can use TOP for the purpose of verifying DCIA compliance for producers requested LDP benefits.
FSA/CCC    Direct and Counter-   A large percentage of the improper payments were due to noncompliance with administrative manual
           Cyclical Payments     controls. It is important to note that compliance with administrative procedures may have prevented the
           (DCP)                 improper payments. For example, while a producer did not have an AD-1026, Highly Erodible Land
                                 Conservation and Wetland Conservation Certification, on file, he or she is paid DCP benefits. It has been
                                 determined that the producer’s DCP payment is considered an improper payment. After the producer is paid,
                                 the county office requests an AD-1026. The producer then files the form. In this instance, while the producer
                                 was entitled to receive the applicable payment, the county office did not follow administrative procedure.
                                 The Office of Management and Budget Circular A-123, Appendix A identifies administrative compliance as a
                                 key internal control issue. The A-123 Review Team found that a lack of compliance with administrative
                                 procedures accounts for a large percentage of potential improper payments. Administrative procedures
                                 include obtaining appropriate authorizing signatures and obtaining and retaining required data, forms and
                                 supporting documentation.




USDA
 280        FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT
                                       OTHER ACCOMPANYING INFORMATION




 Agency         Program                                               Corrective Actions Planned
FSA/CCC                      x    FSA’s corrective action plan for reducing improper payments includes the following actions developed
(Cont’d)                          under.
                             A-123’s plan:
                             x    Provide training on key controls to field personnel and educate them on the importance of control
                                  procedures and the potential noncompliance risks. Training will be delivered through various means
                                  including in person and via AgLearn, a USDA enterprise-wide learning management system. Then, and
                                  the training will be followed by communications and job aids to help facilitate compliance to controls;
                             x    Enhance individual accountability of controls by performing quarterly control testing on each employee’s
                                  program related payment transactions. A sample of five producer payments will be selected for each
                                  employee for testing each quarter. The results from these quarterly tests will be included as part of the
                                  employee’s annual performance plans for the county, district and State executive director; and
                             x    Integrate the employee’s individual results into his/her annual performance rating.

                             In addition to the A-123 corrective action plans, FSA’s plans for reducing improper payments include:
                             x    Developing a Power Point training presentation addressing the statistical sample findings and overall
                                  DCP program compliance concerns. This PowerPoint presentation will be made available to all State
                                  executive directors and office employees to assist when training county office personnel; and
                             x    Reiterating current program policies regarding program compliance through the issuances of National
                                  notices to State and County office personnel.
FSA/CCC    Conservation      A large percentage of the improper payments was caused by noncompliance with administrative procedures.
           Reserve Program   The internal controls in place to support compliance with these procedures likely would have prevented the
           (CRP)             improper payment from being disbursed. For example, a producer who certified performance of the practice
                             on the AD-245, page 2, after the practice expiration date but still received a cost-share payment was
                             considered an improper payment. However, the producer may not have certified after the practice expiration
                             date, the expiration date may have been extended but not indicated on the form or entered into the system.
                             Because the extension was not updated on the form or in the system, this was considered an improper
                             payment. The State and county offices involved in the statistical sample will be notified of the findings and
                             the necessary corrective actions. FSA is requiring that all necessary corrective actions be completed no later
                             than October 27, 2006, unless noted otherwise.
                             FSA’s corrective action plans for reducing improper payments include:
                             x   Reiterating current program policies regarding program compliance through the issuances of national
                                 notices to State and county office personnel;
                             x   Developing an AgLearn training presentation addressing the statistical sample findings, overall CRP
                                 program compliance concerns and the program in general. This AgLearn presentation will be made
                                 available to all State executive directors and office employees to assist when training county office
                                 employees. FSA will investigate required training using AgLearn as a pre-condition of using CRP
                                 software. Training presentations will be prioritized based on the findings of this plan;
                             x   Requiring State executive directors to resolve compliance issues that resulted in an improper payment;
                             x   Enhancing existing Web-based software and retiring legacy systems to tie all program payments more
                                 closely to a single contract file. This migration will reduce the potential that contract payment
                                 documents and records will contain inconsistent or out-of-date information;
                             x   Reviewing existing policy and procedure to determine program compliance inefficiencies. FSA will
                                 strengthen or eliminate inadequate program compliance controls to simplify the CRP payment process
                                 without compromising program integrity; and
                             x   Requiring county offices with potential improper payments identified to review the payment and
                                 determine if it was proper had the procedures been followed. If not, the county office must establish a
                                 receivable, and take action to recover the overpayment and afford appropriate appeal rights.




                                                                                                                                   USDA
                                                                  FY 2006 PERFORMANCE        AND   ACCOUNTABILITY REPORT              281
                                          OTHER ACCOMPANYING INFORMATION




Agency          Program                                                 Corrective Actions Planned
FSA/CCC   Disaster Programs    A large percentage of the improper payments were due to noncompliance with administrative manual
          (CDP)                controls. It is important to note that compliance with administrative procedures may have prevented the
                               improper payments. For example, a producer did not have an AD-1026, Highly Erodible Land Conservation
                               and Wetland Conservation Certification, on file. However, the producer is paid CDP benefits. It has been
                               determined that the producer’s CDP payment is considered an improper payment. After the producer is paid,
                               the county office requests an AD-1026. The producer files the AD-1026. In such a case, while the producer
                               was entitled to receive the applicable payment, the county office did not follow administrative procedure.
                               OMB’s Circular A-123, Appendix A, identifies administrative compliance as a key internal control issue. The
                               A-123 Review Team found that a lack of compliance with administrative procedures accounts for a large
                               percentage of potential improper payments. Administrative procedure includes obtaining appropriate
                               authorizing signatures and obtaining and retaining required data, forms and supporting documentation.
                               FSA’s corrective action plan for reducing improper payments includes the following actions developed under
                               A-123’s plans:
                               x    Training field personnel on key controls and teaching the importance of control procedures and the
                                    potential risks of noncompliance. Training will be delivered through various means including in person
                                    and via AgLearn, a USDA enterprise-wide learning-management system. Communications and job aids
                                    then will follow to help facilitate compliance to controls;
                               x    Enhance individual accountability of controls by performing quarterly control testing on each employee’s
                                    program-related payment transactions. A sample of five producer payments will be selected for each
                                    employee for testing each quarter. The results from these quarterly tests will be included as part of the
                                    employee’s annual performance plans for the county, district and State executive directors; and
                               x    Integrate the employee’s individual results into his/her annual performance rating.
                               Additionally, FSA’s corrective action plan for reducing improper payments includes:
                               x    Developing a Power Point training presentation addressing the statistical sample findings and overall
                                    CDP program compliance concerns. This PowerPoint presentation will be made available to all State
                                    executive directors and office employees to assist when training county office (CO) employees; and
                               x    Reiterating current program policies regarding program compliance through the issuances of national
                                    notices to State and county office personnel.
FSA/CCC   Noninsured           A large percentage of the improper payments were due to noncompliance with administrative manual
          Assistance Program   controls. It is important to note that compliance with administrative procedures may have prevented the
          (NAP)                improper payments. For example, a producer did not have an AD-1026, Highly Erodible Land Conservation
                               and Wetland Conservation Certification, on file. However, the producer was paid NAP benefits. It has been
                               determined that the producer’s NAP payment is considered an improper payment. After the producer is paid,
                               the county office requests an AD-1026. The producer files the form. In such a case, while the producer was
                               entitled to receive the applicable payment, the county office did not follow administrative procedure.
                               OMB Circular A-123, Appendix A, identifies administrative compliance as a key internal-control issue. The A-
                               123 Review Team found that a lack of compliance with administrative procedures accounts for a large
                               percentage of improper payments. Administrative procedure includes obtaining appropriate authorizing
                               signatures and obtaining and retaining required data, forms and supporting documentation.
                               FSA’s corrective action plan for reducing improper payments includes the following actions developed under
                               the A-123 Review Team’s plan:
                               x    Training field personnel on key controls and teach the importance of control procedures and the
                                    potential risks of noncompliance. Training will be delivered through various means including in person
                                    and via AgLearn, a USDA enterprise-wide learning management system. Communications and job aids
                                    then will follow to help facilitate compliance to controls;
                               x    Enhance individual accountability of controls by performing quarterly control testing on each employee’s
                                    program-related payment transactions. A sample of five producer payments will be selected for each
                                    employee for quarterly testing. The results from these tests will be included as part of the employee’s
                                    annual performance plans for the county, district and State executive directors; and
                               x    Integrate the employee’s individual results into his or her annual performance rating.
                               x    Additionally, FSA’s corrective action plan for reducing improper payments includes: Reiterating current
                                    program policies regarding program compliance through the issuances of national notices to State and
                                    county office personnel.




USDA
 282      FY 2006 PERFORMANCE      AND   ACCOUNTABILITY REPORT
                                         OTHER ACCOMPANYING INFORMATION




Agency         Program                                                   Corrective Actions Planned
FS       Wildland Fire         The first part of the corrective action plan has been implemented. The centralization of finance and budget to
         Suppression           a central location has allowed standardization of the payment process. Additionally, the Internal Quality
         Management            Assurance organization is enacting the requirements of OMB’s A-123 Appendix A. Thus, the internal controls
                               relating to payments have been evaluated. Efforts also are underway to remediate any processes where
                               controls have failed. Finally, improper payment patterns found from reviewing the results of IPIA and
                               Recovery Auditing will result in recommendations to agency leaders for improvement in specific areas.
RD       Rental Assistance     The agency now is implementing a corrective action plan because of the report’s findings. Thus, the results
         Program               of the corrective actions are not reflected in this report and may have impacted the error rate positively.
                               The error rate increase is attributed to a change in the sampling plan and the revision to the survey form
                               which captured more responsive information. Quality assurance issues appeared to be less of a problem
                               with this re-designed instrument. Consequently, the data reported in this report may be more reliable. RD
                               notes that, although the error rate increased, the dollar impact of the errors fell from $27 million in FY 2005 to
                               $22.4 million in FY 2006. Recommendations for the FY 2006 report are the following:
                               x     Errors found in this report must be followed up by Loan Servicers within the next three months and
                                     achieve resolution;
                               x     State offices must train field staff, borrowers and property managers in appropriate required
                                     documentation and follow-up with tenants and income-verifiers;
                               x     The national office will continue to pursue access to the U.S. Department of Health and Human
                                     Services new hires data to be shared with State offices. This legislation currently is being prepared for
                                     review by OMB;
                               x     Recognizing that the new hires data access process may take some time, State offices must participate
                                     with available wage matching programs and make such data available to borrowers if permitted. State
                                     office staff must ensure that such shared data are used by borrowers and property managers. The new
                                     regulation, 7 CFR part 3560, requires State offices to report quarterly on their efforts to participate in
                                     wage matching, where available;
                               x     The national office must complete its evaluation and restructuring of the supervisory visit procedure to
                                     strengthen and provide more focus when reviewing tenant files;
                               x     The national office should employ an independent contractor to undertake this study in the future.An
                                     independent contractor will provide objective and impartial analysis;
                               x     The national office will add to the Multi-Family Housing Program’s Servicing Goals a requirement for
                                     State offices to be more aggressive in educating and training borrowers/management agents on
                                     calculating and documenting tenant’s incomes;
                               x     Add to HB-2-3560, Multi-Family Housing Asset Management Handbook, Chapter 6 – Project
                                     Occupancy, a check sheet for property management agents to review when verifying assets, income
                                     and adjustments to income;
                               x     Add to HB-2-3560, Multi-Family Housing Asset Management Handbook, Chapter 6 – Project
                                     Occupancy, a check list of required tenant file documentation; and
                               x     Develop a “Fact Sheet” for MFH tenants explaining their responsibilities and rights regarding income
                                     disclosure and verification.
RMA      Federal Crop          RMA is in the second year of the three-year review cycle established to determine the improper payment
         Insurance             rate for the Federal Crop Insurance Program. The agency identified a lower-than-expected rate in the first
         Corporation Program   round of random sampling, 1.90 percent absolute error. Despite this finding, the agency will not have a
         Fund                  completed benchmark established until the review of 2006 crop year indemnities has been completed and
                               reported in 2008. RMA negotiated and executed a new Standard Reinsurance Agreement starting in 2005.
                               That agreement emphasizes improved quality controls and enhanced penalties that together should
                               encourage participating companies who sell and service Federal crop insurance policies to improve the
                               improper payments rate.
NRCS     Farm Security and     Causes of improper payments identified in NRCS’ risk assessments for Farm Bill programs can be
         Rural Investment      categorized into four areas; statutory compliance, program compliance, eligibility and payment calculation.
         Programs              Each of the six programs the agency sampled had their own unique program rules which were incorporated
                               into its testing. Three external audits on programs and one on its contracting tool, ProTracts, were in various
                               stages of finalization during the planning and conducting of NRCS’ IPIA work. As initial findings of these
                               audits as they applied to IPIA were incorporated into its review, NRCS tried to not duplicate work and testing
                               already performed. At of the time of the review, no audit finding indicated an improper payment was
                               determined by an audit. Specific internal controls resulting from these audits would not have been in effect
                               for its sample period but will be tested once implemented.
                               After reviewing the 765 samples NRCS found 24 improper payments. Starting with FY 2005, EQIP payments
                               were made through the agency’s new contracting tool, ProTracts. Business rules and internal controls built
                               into ProTracts helped eliminate many of the types of improper payments we found last year. This year, the




                                                                                                                                         USDA
                                                                     FY 2006 PERFORMANCE         AND   ACCOUNTABILITY REPORT               283
                                        OTHER ACCOMPANYING INFORMATION




 Agency        Program                                                Corrective Actions Planned
                            agency tested the internal controls that relate to program documentation, eligibility and payment calculation.
NRCS                        NRCS found no instances of errors made by the software for program documentation and eligibility. It did
(Cont’d)                    find minor payment calculation errors due to a rounding routine under certain conditions and included these
                            in the error rate. This error previously was known to exist and was corrected when discovered during the
                            fiscal year. Our sampling of ProTracts originated payments (more than half of all samples) produced 5 of
                            these errors. None were found after the rounding routine was corrected.
                            Two manually calculated payment errors were found on program payments made outside of ProTracts. One
                            was a transposition while the other was a typing error.
                            Documentation issues for program compliance continue to be a source of improper payments. In all cases,
                            the errors were on manually generated contracts and not related to ProTracts. NRCS found 11 improper
                            payments where documents were not completed according to program rules or were missing entirely. These
                            will be included in its report to leadership. NRCS is planning to convert all open manual contracts in the
                            WHIP program to ProTracts in the next year. This would have eliminated 20 percent of the errors found in
                            this program. The agency plans on strengthening its quality assurance testing and updating its contracting
                            manual to address these issues.
                            The potential for a participant to receive payment from more than one program for the same practice was
                            found in two samples as the field offices completed the questionnaires. The Farm Bill prohibits payments for
                            the same practice from different programs on the same tract of land in the same fiscal year. An April 26,
                            2006, external audit issued by the General Accounting Office on CSP highlighted this issue. A management
                            decision will be made when that audit is final and NRCS is developing plans to implement the appropriate
                            corrective action. Meantime, field offices have corrected the contracts to prevent the duplication of payments.
                            NRCS is working on a way to uncover these cross over payments.
                            Participant eligibility was a target area for this year’s testing. Specifically, NRCS tested for Highly Erodible
                            Land compliance, Wetland compliance and Adjusted Gross Income determinations. ProTracts has
                            automated eligibility determinations for contracts and payments made through that tool. Field personnel
                            would need to manually verify eligibility before making payments for programs outside of ProTracts. NRCS
                            found four instances where eligibility determinations were not made prior to the payment. Two were manual
                            transactions made outside of ProTracts. During the review, NRCS determined that the participant was in
                            compliance when these two payments were made. Another error involved the adjusted gross income
                            determination on a payment to an entity. This was a contract converted into ProTracts and not reconciled
                            properly by the field at conversion. There is no record of receiving the AGI certification. The fourth error was
                            a payment for a structural practice where the file did not support claims the participant had control of the
                            land.
                            Three errors were found in the calculation of easement purchase prices. One of our programs, the Wetland
                            Reserve Program, underwent an OIG audit last year. The audit recommended improvements. NRCS has
                            modified its conservation easement appraisal process to adopt procedures and processes for real estate
                            acquisition consistent with Uniform Standards of Professional Appraisals and the Uniform Appraisals
                            Standards for Federal Land Acquisition (aka “Yellow Book). NRCS has hired a chief appraiser who will
                            review all administrative reviews of appraisals and conduct a technical review on all appraisals exceeding $1
                            million. In February 2006, NRCS issued a national bulletin to address the remaining recommendation. These
                            modifications to NRCS’ easement acquisition process shall prevent improper payments. Recovery of the
                            improper amounts found in its sample will be attempted.
                            NRCS found one occurrence of a payment charged to Farm and Ranch Land Protection (FRPP) in error.
                            FRPP only permits payments to co-operating entities to supplement the purchase of easements. All other
                            costs are to be borne by the partnering co-operating entity. In this instance the payment was attributed to
                            human error in entering the fund code. The transaction was corrected to the appropriate fund.
                            The results of this years sampling will be reported to leadership. This information will be passed down to all
                            State offices so that all may benefit from weaknesses found or where improvements can be made. Where
                            specific action is needed to correct an error or where recovery is warranted, the State conservationist will be
                            contacted.




USDA
 284       FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                              OTHER ACCOMPANYING INFORMATION




                 IV. Based on the Rate(s) Obtained in Step III, Set Annual Improvement Targets
                                              through FY 2007.
                               Improper Payment Reduction Outlook FY 2005 – FY 2008
Below is a summary level table for all high risk programs outlining improper payment rates for the last two
years and future reduction targets. When a number cannot be provided, an explanation is provided in the notes
below. Amounts represent when the sampling results are reported. USDA programs report results the year
following sampling activity. For example, results reported during FY 2005 represent measures of FY 2004
outlays and program activity. This change from FY 2004 reporting was implemented to comply with OMB
Circular A-136 revised August 23, 2005.
                                             Improper Payment Sampling Results ($ in millions)
                                                                                      Results                          Results
                                                                               Reported in FY 2005               Reported in FY 2006
                                  Program                                    Outlays      IP%   IP$      Outlays     IP%           IP$
 Marketing Assistance Loan Program, FSA/CCC                                  6,400    0.70%     45       7,950    20.26%         1,611
 Food Stamp Program, FNS                                                     24,358   5.88%    1,432     28,160    5.84%         1,645
 National School Lunch & School Breakfast Programs, FNS [Note #1]            6,407     N/A      N/A      6,506      N/A           N/A
 Women, Infants and Children, FNS [Note #2]
 Total Program                                                               3,422     N/A     N/A        3,525     N/A           N/A
 Certification Error Component                                               3,422     N/A     N/A        3,525     N/A           N/A
 Vendor Error Component                                                      3,422     N/A     N/A        3,525    0.60%          21
 Child and Adult Care Food Program, FNS [Note #2]
 Total Program                                                               2,061     N/A     N/A       2,065      N/A           N/A
 FDC Homes – Tiering Decisions                                                888      N/A     N/A        864      1.80%           16
 FDC Homes – Meal Claims                                                      888      N/A     N/A        864       N/A           N/A
 Milk Income Loss Contract Program, FSA/CCC [Note #3]                         245     0.09%    0.2         9        N/A           N/A
 Loan Deficiency Payments, FSA                                                453     1.00%     5        4,790    9.25%           443
 Direct and Counter-Cyclical Payments, FSA/CCC [Note #4]                      N/A      N/A     N/A       8,546     4.96%          424
 Conservation Reserve Program, FSA/CCC [Note #4]                              N/A      N/A     N/A       1,815     3.53%           64
 FSA Disaster Programs, FSA/CCC [Note #4]                                     N/A      N/A     N/A       2,365    12.30%          291
 Noninsured Assistance Program, FSA/CCC [Note #4]                             N/A      N/A     N/A        109     22.94%           25
 Wildland Fire Suppression Management, FS [Notes #2 & #5]
 Total Program                                                               1,980     N/A      NA         725      N/A           N/A
 Component Sampled                                                            497     3.70%     18         285     2.49%           7
 Rental Assistance Program, RD [Note #6]                                      846     3.19%     27         569     3.94%          22
 Federal Crop Insurance Corporation Program Fund, RMA [Note #7]              3,170    0.89%     28        3,206    1.92%          62
 Farm Security and Rural Investment Programs                                 1,027    1.55%     16        1,375    0.22%           3




                                                                                                                                    USDA
                                                                     FY 2006 PERFORMANCE      AND     ACCOUNTABILITY REPORT              285
                                                OTHER ACCOMPANYING INFORMATION




                                Detailed Breakout of Improper Payment Rates reported in FY 2006 ($ in millions)
                                                                                                                            Farm Security and
                             Food Stamp            Wildland Fire Suppression        Federal Crop Insurance Corporation      Rural Investment
        Program               Program                    Management                           Program Fund                      Programs
 Total Payments               $28,160                        $285                                 $3,206                         $1,375
 Total Improper
 Payments                      5.84%                        2.49%                                   1.90%                        0.22%
 Overpayments                  4.53%                        0.00%                                   1.88%                        0.22%
 Underpayments                 1.31%                        0.10%                                   0.02%                        0.00%
 Other                         0.00%                        2.39%                                   0.00%                        0.00%


                                                Improper Payment Sampling Results ($ in millions)
                                                      FY 2007 Reporting              FY 2008 Reporting                FY 2009 Reporting
                  Program                        Outlays    IP%        IP$      Outlays          IP%   IP$        Outlays     IP%       IP$
 Marketing Assistance Loan Program,
 FSA/CCC                                          4,565   18.00%      685       3,205         14%        256      10,050    10.00%     251
 Food Stamp Program, FNS [Note #8]               30,588    6.20%     1,896      32,168        5.8%      1,866      TBD       5.7%      TBD
 National School Lunch & School Breakfast
 Programs, FNS [Note #8]                         7,623     TBD        TBD        7,777        TBD           TBD    TBD        TBD      TBD
 Women, Infants and Children, FNS [Note #8]      5,170     TBD        TBD        5,185        TBD           TBD    TBD        TBD      TBD
 Child and Adult Care Food Program, FNS
 [Note #8]                                       2,074      N/A        N/A       2,074        N/A           N/A    TBD        TBD      TBD
 Milk Income Loss Contract Program,
 FSA/CCC                                          351     16.00%        56        330         9.00%          30    N/A        N/A         N/A
 Loan Deficiency Payments, FSA/CCC               4,839     9.00%       436       4,258       6.00%          255   5,257      4.00%        131
 Direct and Counter-Cyclical Payments, FSA       8,962     6.00%       538       7,317        5.00%         439   6,483      4.00%        259
 Conservation Reserve Program, FSA/CCC           1,973     8.20%       158       2,100       6.00%          168   2,236      4.00%        56
 Disaster Programs, FSA [Note #9]                 159     17.00%        27        192        18.00%          33    N/A        N/A         N/A
 Noninsured Assistance Program, FSA/CCC           102     26.00%                  312                              309       17.00
 Wildland Fire Suppression Management, FS         407      1.00%        4         410        0.80%           3     406       0.60%        2
 Rental Assistance Program, RD                    769      3.44%       26         781        2.94%          23     793       2.44%        19
 Federal Crop Insurance Corporation Program
 Fund, RMA [Note #10]                            3,321     4.70%       156       3,300       4.60%          152   3,300      4.50%        149
 Farm Security and Rural Investment Programs      291      0.80%        2         482        0.60%           2     556       0.50%         2


Note #1: The NSLP-SBP programs plan to report error rates for the 2005-2006 school year in the FY 2007 report. The
national benefit status error rate reported in FY 2006 on applications for school year 2004-2005 is 4.3 percent.

Note #2: WIC, CACFP and the Wildland Fire Suppression Management all tested components of their total program.
WIC tested a component of the payment process on a sample of all outlays. CACFP tested a component of the payment
process of a component of the total outlays. Wildland Fire Suppression Management tested all of the payment process
on a component of the total outlays. While Wildland Fire Suppression Management tested the higher risk vendor
payments, it did not test the lower risk outlays related to salaries.

Note #3: MILC was not tested in FY 2006 due to very low outlays during FY 2005. Testing will resume in FY 2007
reviewing outlays during FY 2006. MILC expires, September 30, 2007. Thus, no outlays are expected beyond FY 2007.




USDA
  286         FY 2006 PERFORMANCE       AND    ACCOUNTABILITY REPORT
                                         OTHER ACCOMPANYING INFORMATION




Note #4: The DCP, CRP, CDP and NAP programs were declared high risk in FY 2006. No testing was performed or
required in FY 2005.

Note #5: USDA is revising the FY 2005 results for the Wildland Fire Suppression Management program. Only the
portion of the program related vendor payments was sampled and the 3.7-percent error rate should be applied only to
that component of the program. The remaining component of the program, salaries, was not considered susceptible to
improper payments and not sampled. The entire program will be sampled for FY 2007 reporting.

Note #6: FY 2005 and FY 2006 results were based on partial samples of the current fiscal year. Starting with FY 2007
reporting, the statistical sample will be based on the entire prior fiscal year. This will result in both the FY 2006 and FY
2007 reporting results being based on FY 2006 outlays.
Note #7: Both the FY 2005 and FY 2006 reports show results of the 2004 crop year. The FY 2005 report was from a
industry compliance review performed by the insurance companies. The FY 2006 report is based on an internal review
performed by government staff.

Note #8: FNS programs will develop FY 2008 estimated outlay projections and reduction targets as part of the FY 2008
budget process. Currently, only the Food Stamp reduction target is available.

Note #9: The program currently is not authorized in FY 2008 and does not have any estimated outlays.
Note #10: RMA has completed the first third of a three year testing cycle. Until all three years are complete, RMA
cannot statistically project an error rate.

V. Discussion of your Agency’s Recovery Auditing effort, if applicable, including any contract types excluded from review
  and the justification for doing so; actions taken to recoup improper payments, and the business changes and internal
                          controls instituted and/or strengthened to prevent further occurrences.
                                           In addition, complete the table below.
USDA expanded its recovery audit program to seven additional agencies in FY 2006. The remaining smaller programs
were excluded from the review. All agencies used an independent recovery audit firm working on contingency.

Specific types of payment errors found during the course of the recovery audit process include:
    Open credits identified on vendor statements - $373,860.53; and
    Duplicate payments $5,556.10

Steps taken to reduce future errors include strengthening internal controls by providing information related to all
recovered monies and the underlying transactions to management. Additionally, training that indicates the causes of
improper payments made is provided to various Forest Service employees.

The most successful method of identifying funds to be recovered has been the review of vendor statements. Vendor
statement reviews for FY 2006 were delayed until August 2006. USDA anticipates that these reviews will result in
significant recoveries during FY 2007. Most amounts identified during FY 2006 were due to the vendor statements
reviews started in FY 2005.




                                                                                                                     USDA
                                                               FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT      287
                                                      OTHER ACCOMPANYING INFORMATION




                                                 FY 2006 Recovery Auditing Results ($ in Million)
                               Amount Subject to     Actual Amount        Amounts       Amount Identified   FY 2006 Amounts    FY 2005
                              Review for FY 2006     Reviewed and        Identified      /Actual Amount         Recovered      Amounts
   Agency Component                Reporting           Reported        for Recovery         Reviewed           [Note #12]     Recovered
 Forest Service                     2,385.313                 2,385.313              0.005   0.00%               0.164          0.189
 Natural Resources
 Conservation Service               1,745.703                 1,745.703              0.000   0.00%               0.000          N/A
 Agricultural Research
 Service                             484.787                   484.787               0.000   0.00%               0.000          N/A
 Animal Plant Health
 Inspection Service                  815.532                   815.532               0.374   0.05%               0.374          N/A
 Farm Service Agency                 178.361                   178.361               0.000   0.00%               0.000          N/A
 Food Safety and
 Inspection Service                   89.636                    89.636               0.000   0.00%               0.000          N/A
 Rural Development                   152.272                   152.272               0.000   0.00%               0.000          N/A
 Agricultural Marketing
 Service                              93.061                   93.061                0.000   0.00%               0.000          N/A
 All Others                         1,604.000                   0.000                 N/A     N/A                 N/A               N/A
 USDA Total                         7,548.665                 5,944.665              0.379   0.01%               0.538            0.189
Note #12   Amounts recovered in FY 2006 include some recoveries identified in FY 2005.



      VI. Describe the steps the agency has taken and plans to take (including time line) to ensure that agency managers
                                 (including the agency head) are held accountable for reducing
                                              and recovering improper payments.
FSA
The following steps have or will be taken to ensure agency managers are held accountable for reducing and recovering
improper payments:
      The A-123 Project Team’s corrective action plan requires compliance testing as part of performance review criteria.
      To enhance the importance of compliance at the individual employee level, a sample of five producer payments will
      be selected for each employee for testing each quarter. The results from these quarterly tests will be included as part
      of the employee’s annual performance review and rating. Moreover, these results will be rolled up into the
      performance plans for the county, district and State executive directors;
      National and State office Federal managers must ensure that program policies and procedures are provided to State
      and county office employees accurately and on time. Federal managers also responsible, as reflected in the
      performance based rating measures, for overall program administration at the national level;
      All county office employees are charged with paying producers and following all administrative steps in doing so.
      When program payments are made improperly, the tool of disciplinary action is available; and
      The Deputy Administrator for Field Operations (DAFO) will facilitate necessary meetings among the respective
      program areas. These meetings organized by DAFO would discuss additional action necessary for senior
      management to address accountability.




USDA
   288           FY 2006 PERFORMANCE           AND   ACCOUNTABILITY REPORT
                                         OTHER ACCOMPANYING INFORMATION




FNS
FNS has a corporate priority to improve stewardship of Federal funds. Within this priority are specific goals applicable
to programs at high risk for erroneous payments. The goal for the Food Stamp Program is to continue to reduce the
error rate. The agency goals and priorities are incorporated into each manager’s performance plan.

FS
The entire Albuquerque Service Center management team is held accountable by performance metrics that include
compliance with the Improper Payments Information Act. Additionally, the agency chief financial officer will provide
disbursement performance information to the agency head as part of the performance appraisals for senior leadership.

RD
RD has incorporated all the goals and objectives of the President’s Management Agenda (PMA) including IPIA in the
performance standards for all senior executive service positions. Additionally, the field offices will incorporate a new
servicing goal to implement reduction actions as part of their servicing goal compliance requirements.

RMA
RMA has revised its strategic plan to provide results to enhance accountability. It also has established procedures to
ensure RMA management takes future corrective actions to address program vulnerabilities. Additionally, a strategic
objective element was been placed into every employee’s performance plan agreement beginning in FY 2005.

NRCS
NRCS has incorporated all of PMA’s goals and objectives, including IPIA, in the performance standards for all senior
executive service positions. These also are planned to be included in the regional assistant chiefs and state conservationist
performance plans this year.

           VII A. Describe whether the agency has the information systems and other infrastructure it needs to
                            reduce improper payments to the levels the agency has targeted.
 VII B. If the agency does not have such systems and infrastructure, describe the resources the agency requested in its FY
            2007 budget submission to Congress to obtain the necessary information systems and infrastructure.
While USDA is creating information systems and infrastructure to reduce improper payments, especially for programs
susceptible to significant risk, efforts in some programs are constrained by limited resources. USDA has worked closely
with OMB to develop action plans that focus available resources on the most critical needs with regard to improper
payment measurement and risk reduction.

 VIII. Describe any statutory or regulatory barriers which may limit the agencies’ corrective actions in reducing improper
                       payments and actions taken by the agency to mitigate the barriers’ effects.
FSA/CCC
The Department of Agriculture Reorganization Act of 1994, Section 281 provides that “[E]ach decision of a State,
county, or area committee or an employee of such a committee, made in good faith in the absence of misrepresentation,
false statement, fraud, or willful misconduct shall be final not later than 90 calendar days after the date of filing of the
application for benefits, [and] ...no action may be taken...to recover amounts found to have been disbursed as a result of



                                                                                                                     USDA
                                                               FY 2006 PERFORMANCE    AND   ACCOUNTABILITY REPORT      289
                                           OTHER ACCOMPANYING INFORMATION




the decision in error unless the participant had reason to believe that the decision was erroneous.” This statue
commonly is referred to the “Finality Rule.”
FNS
The 2002 Farm Bill restricts the liability levels States can be sanctioned due to high error rates. It also restricts the
amount of bonus funding available to States that do a good job reducing and maintaining a low error rate. Additionally,
in many instances the goal of providing easy access to benefits must be balanced with the goal of reducing improper and
erroneous payments. While the risks involved vary by program, some general characterizations can be made:
      Program administration is decentralized and can involve a myriad of governmental and non-governmental
      organizations;
      States and localities tend to focus on managing local funds, rather than Federal funds; and
      Proper implementation of nutrition-assistance programs requires a high accuracy rate.



               IX. Additional comments, if any, on overall agency efforts, specific programs, best practices, or
                                  common challenges as a result of IPIA implementation.
USDA has no additional comments.




USDA
  290         FY 2006 PERFORMANCE   AND   ACCOUNTABILITY REPORT
                                              OTHER ACCOMPANYING INFORMATION




Appendix C—Table of Exhibits
      Exhibit 1:    Headquarters Organization ............................................................................................................3
      Exhibit 2:    FY 2006 and 2005 USDA Program Obligations Dedicated to Strategic Goals ............................5
      Exhibit 3:    FY 2006 and 2005 USDA Staff Years Dedicated to Strategic Goals.............................................5
      Exhibit 4:    USDA Scorecard for FY 2006 ........................................................................................................6
      Exhibit 5:    Material Weaknesses Increased Slightly .......................................................................................34
      Exhibit 6:    Summary of Outstanding Material Weaknesses and Estimated Completion Dates....................34
      Exhibit 7:    Initiatives Completed....................................................................................................................38
      Exhibit 8:    Initiatives To Be Completed.........................................................................................................38
      Exhibit 9:    Decrease in Total Open Audit Inventory .....................................................................................39
      Exhibit 10:   Audit Follow-Up Definitions .......................................................................................................40
      Exhibit 11:   Inventory of Audits with Disallowed Costs..................................................................................41
      Exhibit 12:   Distribution of Adjustments to Disallowed Costs........................................................................41
      Exhibit 13:   Inventory of Audits with Funds to be Put to Better Use ..............................................................41
      Exhibit 14:   Increase In Audits Open One or More Years Past Management Decision Date.........................41
      Exhibit 15:   Distribution of Audits Open One or More Years Past the Management Decision Date,
                    Disallowed Costs and FTBU........................................................................................................42
      Exhibit 16:   Audits Open One Year or More Past the Management Decision Date and Behind Schedule....42
      Exhibit 17:   Increase U.S. Export Opportunities..............................................................................................52
      Exhibit 18:   Trends in Expanding and Retaining Market Access ....................................................................52
      Exhibit 19:   Support Foreign Food Assistance .................................................................................................55
      Exhibit 20:   Trends in Supporting Foreign Food Assistance ...........................................................................55
      Exhibit 21:   Support Improvement in Foreign Countries’ Trade Policies........................................................55
      Exhibit 22:   Increase U.S. Export Opportunities..............................................................................................58
      Exhibit 23:   Trends in Expanding and Retaining Market Access ....................................................................58
      Exhibit 24:   Increase the Use of Biobased Products .........................................................................................62
      Exhibit 25:   Agricultural Statistics Reports Released On-Time.......................................................................65
      Exhibit 26:   Trends in Agricultural Statistics Reports Released On-Time ......................................................65
      Exhibit 27:   Providing Tools to Help Farmers and Ranchers Stay Economically Viable ................................71
      Exhibit 28:   Trends in Providing Tools to Keep Farmers and Ranchers Economically Viable........................71
      Exhibit 29:   Strengthen Rural Businesses .........................................................................................................75
      Exhibit 30:   Trends in Creating or Saving Jobs ................................................................................................75
      Exhibit 31:   Improving Rural Quality of Life through Homeownership Opportunities..................................80
      Exhibit 32:   Trends in Rural Home Ownership...............................................................................................80
      Exhibit 33:   Improving Rural Quality of Life through Water and Waste Disposal Facilities..........................81
      Exhibit 34:   Trends in Water and Waste Disposal Service ..............................................................................81
      Exhibit 35:   Improving Rural Quality of Life through Community Facilities .................................................81
      Exhibit 36:   Trends in Community Facilities ...................................................................................................81
      Exhibit 37:   Improving Rural Quality of Life through Electric Facilities ........................................................81
      Exhibit 38:   Trends in Electric Facilities ..........................................................................................................81
      Exhibit 39:   Improving Rural Quality of Life through Telecommunications Facilities ...................................82
      Exhibit 40:   Trends in Telecommunications Facilities .....................................................................................82



                                                                                                                                                                  USDA
                                                                               FY 2006 PERFORMANCE                AND   ACCOUNTABILITY REPORT                     291
                                                 OTHER ACCOMPANYING INFORMATION




       Exhibit 41:   Pathogen Reduction (Food Inspection)........................................................................................ 86
       Exhibit 42:   Trends in Pathogen Reduction (Food Inspection) ....................................................................... 86
       Exhibit 43:   Public Health Awareness.............................................................................................................. 88
       Exhibit 44:   Trends in Public Health Awareness ............................................................................................. 88
       Exhibit 45:   Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved............................... 90
       Exhibit 46:   Trends Improving the Capabilities of Diagnostic Laboratories ................................................... 90
       Exhibit 47:   Strengthen the Effectiveness of Pest and Disease Surveillance and Detection Systems............... 95
       Exhibit 48:   Trends in Strengthening the Effectiveness of Pest and Disease Surveillance and Detection
                     Systems ......................................................................................................................................... 95
       Exhibit 49:   Improve Access to Nutritious Food............................................................................................ 101
       Exhibit 50:   Trends in Improving Access to Nutritious Food......................................................................... 101
       Exhibit 51:   Promoting Healthier Eating Habits and Lifestyles .................................................................... 104
       Exhibit 52:   Trends to Promote Healthier Eating Habits and Lifestyles....................................................... 104
       Exhibit 53:   Increase Efficiency in Food Management .................................................................................. 107
       Exhibit 54:   Trends in Increased Efficiency in Food Management................................................................ 108
       Exhibit 55:   Healthy Watersheds, High Quality Soils and Sustainable Ecosystems...................................... 112
       Exhibit 56:   Trends in Application of Comprehensive Nutrient Management Plans.................................... 112
       Exhibit 57:   Enhanced Soil Quality................................................................................................................ 116
       Exhibit 58:   Trends in Soil Quality Protection............................................................................................... 117
       Exhibit 59:   Hazardous Fuel Reduction ......................................................................................................... 124
       Exhibit 60:   Trends in Treatment of Hazardous Fuel .................................................................................... 125
       Exhibit 61:   Sustainable Forests and Grasslands ............................................................................................ 125
       Exhibit 62:   Trends in Protection of Non-federal Forests and Grasslands .................................................... 125
       Exhibit 63:   Improved Wildlife Habitat ......................................................................................................... 128
       Exhibit 64:   Trends in Wildlife Habitat Enhancement.................................................................................. 128




USDA
292         FY 2006 PERFORMANCE         AND    ACCOUNTABILITY REPORT
                                                 OTHER ACCOMPANYING INFORMATION




Appendix D—Acronyms

AALO – Agency Audit Liaison Officials                                  EA – Enterprise Architecture
ABAWD – Adults Without Dependents                                      EAB – Emerald Ash Borer
AHMS – Animal Health Monitoring and Surveillance                       ECMM – Enterprise Correspondence Management Module
AI – Avian Influenza                                                   EDI – Electronic Data Interchange
AIT – Assessment Implementation Team                                   EPP – Emerging Plant Pest
ALLRTE – All Ready to Eat                                              EQIP – Environmental Quality Incentives Program
AMP – Asset Management Plan                                            ERS – Economic Research Service
ARMS – Agricultural Resources Management Survey                        EU-25 – European Union
ARS – Agricultural Research Service                                    FAPSIM – Food and Agricultural Policy Simulator
ART – Account Relationship Tool                                        FB4P – Federal Biobased Products Preferred Procurement Program
ASB – Agricultural Statistics Board                                    FCIC – Federal Crop Insurance Corporation
ASEAN – Association of South East Asian Nations                        FDCH – Family Day Care Homes
ASSERT – Automated Security Self-Elevation and Remediation Tracking    FDMS – Federal Docket Management System
ATM – Audit Tracking Module                                            FFE – The McGovern-Dole International Food for Education and Child
AWCC – Agricultural Wildlife Conservation Center                       Nutrition Program
B&I – Business and Industry                                            FLP – Farm Loan Program
BBP – Building Block Plan                                              FLPIDS – Farm Loan Program Information Delivery System
BEA – Bureau of Economic Analysis                                      FMFIA – Federal Managers Financial Integrity Act
BSE – Bovine Spongiform Encephalopathy                                 FMLOB – Financial Management Line of Business
CACFP – Child and Adult Care Food Program                              FMMI – Financial Management Modernization Initiative
CAFTA – Central American Free Trade Agreement                          FNS – Food Nutrition Service
CAP – Combined Application Projects                                    FRPC – Federal Real Property Council
CCAP – Child Care Assessment Project                                   FRPP – Farm and Ranch Land Protection
CCC – Commodity Credit Corporation                                     FS – Forest Service
CCPI – Cooperative Conservation Partnership Initiative                 FSA – Farm Service Agency
CDC – U.S. Centers for Disease Control and Prevention                  FSP – Food Stamp Program
CEAP – Conservation Effects Assessment Project                         FSRIA – Farm Security and Rural Investment Act of 2002
CFP – Conference of Food Protection                                    FTA – Free Trade Agreement
CHRP – Citrus Health Response Plan                                     FTBU – Funds to Be Put to Better Use
CNMP – Comprehensive Nutrient Management Plan                          FY – Fiscal Year
CNPP – Center for Nutrition Policy and Promotion                       GAO – Government Accountability Office
CORP – County Office Review Program                                    GLCI – Grazing Lands Conservation Initiative
CRP – Conservation Reserve Program                                     GMP – Good Manufacturing Practices
CSP – Conservation Security Program                                    GMSS – Global Marketing Support Services
CSREES – Cooperative State Research, Education and Extension           GWSS – Glassy-Winged Sharpshooter
Service                                                                HACCP – Hazard Analysis and Critical Control Point
CTA – Conservation Technical Assistance                                HEI – Health Eating Index
CWPP – Community Wildlife Protection Plan                              HFI – Healthy Forest Initiative
DAFO – Deputy Administrator for Field Operations                       HFRA – Healthy Forests Restoration Act of 2003
DC – Disallowed Costs                                                  HSPD-9 – Homeland Security Presidential Directive 9
DCP – Direct and Counter-Cyclical Payments                             IAS – Integrated Acquisition System
DCIA – Debt Collection Improvement Act                                 IICA – Inter-American Institute for Cooperation on Agriculture
DOI – United States Department of the Interior                         IOU – Investor Owned Utility
e-LDP – Electronic Loan Deficiency Payment                             IPIA – Improper Payments Information Act




                                                                                                                                        USDA
                                                                      FY 2006 PERFORMANCE        AND     ACCOUNTABILITY REPORT          293
                                                  OTHER ACCOMPANYING INFORMATION




ISO – International Organization for Standardization                     PRS – Performance Results System
IT – Information Technology                                              QC – Quality Control
MAL – Marketing Assistance Loan                                          QSVP – Quality System Verification Program
MFIS – Multi-Family Housing Information System                           R&D – Research and Development
MILC – Milk Income Loss Contract                                         RD – Rural Development
MWM – Master Woodland Manager                                            RFE – Request for Information
NACMCF – National Advisory Committee on Microbiological Criteria for     RMA – Risk Management Agency
Foods                                                                    RND – Results Not Demonstrated
NAFTA – North American Free Trade Agreement                              RTE – Ready-to-Eat
NAHSS – National Animal Health Surveillance System                       SAFE – Safety Awareness in the Food Environment
NAHLN – National Animal Health Laboratory Network                        SAT – Senior Assessment Team
NAIS – National Animal Identification System                             SBP – School Breakfast Program
NAP – Noninsured Assistance Program                                      SCN – Soybean Cyst Nematode
NCES – National Center for Educational Statistics                        SCOAP – Sate and County Office Automation Project
NDB – National Data Bank                                                 SEBAS – Socio-Economic Benefits Assessment System
NDVI – Normalized Difference Vegetation Index                            SFA – School Food Authority
NECX – North East Correctional Center                                    SMCC – Senior Management Control Council
NHANES – National Health and Nutrition Examination Survey                SOD – Sudden Oak Death
NITC – National Information Technology Center                            SPOTS – Specific Placement of Treatments
NRCS – Natural Resources Conservation Service                            SPS – Sanitary and Phytosanitary
NSLP – National School Lunch Program                                     SRA – Standard Reinsurance Agreement
NSS – The 2002 National Security Strategy of the United States           TCB – Trade Capacity Building
OCFO – Office of the Chief Financial Officer                             TFP – Thrifty Food Plan
OCIO – Office of the Chief Information Officer                           TOP – Treasury Offset Program System
OEPNU – The Office of Energy Policy and New Uses                         TPA – Trade Promotion Authority
OIG – The Office of the Inspector General                                TSC – Technical Service Center
OMB – The U.S. Office of Management and Budget                           TTPP – Tobacco Transition Payment Program
OPM – The U.S. Office of Personnel Management                            USAID – United States Agency for International Development
ORAS – Operations Review and Analysis Staff                              USDA – United States Department of Agriculture
PAM – Polyacrylamide                                                     USTR – United States Trade Representative
PART – Program Assessment Rating Tool                                    WAOB – World Agricultural Outlook Board
PC – Plum Curculio                                                       WEPS – Wind Erosion Protection System
PMA – Performance Management Agenda                                      WFP – World Food Program
POAM – Plan of Action and Milestones                                     WIC – The Special Supplemental Nutrition Program for Women, Infants
PRCH – Purchase Order System                                             and Children
PREP – Pathogen Reduction Enforcement System                             WRP – Wetlands Reserve Program
PP&E – Property, Plant and Equipment                                     WTO – World Trade Organization




USDA
 294          FY 2006 PERFORMANCE        AND     ACCOUNTABILITY REPORT
